No. 19In the

Supreme Court of the United States
MICHAEL HUNTER;
MARTIN CASSIDY; CARL CARSON,
Petitioners,
v.
RANDY COLE; KAREN COLE; RYAN COLE,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

William S. Helfand
Norman Ray Giles
Lewis Brisbois Bisgaard
& Smith, Llp
24 Greenway Plaza,
Suite 1400
Houston, Texas 77046
(713) 659-6767

James T. Jeffrey, Jr.
Counsel of Record
Law Offices of Jim Jeffrey
3200 West Arkansas Lane
Arlington, Texas 76016
(817) 261-3200
jim.jeffrey@sbcglobal.net

Counsel for Petitioners

292077

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
On November 28, 2016, this Court granted the officers’
first petition for writ of certiorari, vacated the opinion of the
Fifth Circuit denying qualified immunity, and remanded
the case for reconsideration in light of Mullenix v. Luna, 136
S. Ct. 305 (2015) (per curiam). After remand, a majority of
the Fifth Circuit, over dissents by seven judges, continued
to deny immunity to Officer Hunter and Lieutenant Cassidy
based on the opinion Cole’s action of turning, gun in hand
and finger on the trigger, toward Officer Hunter posed no
threat, and the rationale that no existing factually similar
precedent squarely governing the situation the officers
encountered was necessary to fairly warn the officers their
actions of firing in response to Cole’s actions obviously
violated clearly established law. The Fifth Circuit also
denied qualified immunity to Officer Carson for allegedly
causing Cole’s pretrial detention in part by inaccurately
reporting his perception of the shooting events in violation
of the Fourteenth Amendment, even though in Manuel v.
City of Joliet, 137 S. Ct. 911 (2017), this Court held such a
claim is properly analyzed under the Fourth Amendment.
Therefore, the questions presented are:
I. If the barrel of a gun is not yet pointed directly at
an officer, does clearly established federal law prohibit
police officers from firing to stop a person armed with a
firearm from moving a deadly weapon toward an officer
if the officer has not both shouted a warning and also
waited to determine whether the imminent threat to
life has subsided after the warning?
II. Does a police officer who inaccurately reports
his perceptions of events during a dynamic shooting
encounter violate clearly established rights under the
Fourteenth Amendment?

ii
PARTIES
Petitioners are Michael Hunter, Martin Cassidy, and
Carl Carson.
Respondents are Randy Cole and Karen Cole,
individually and as next friends of Ryan Cole.

iii
RELATED CASES
Cole, et al v. Hunter, et al, No. 3:13-cv-02719-O, U.S.
District Court for the Northern District of Texas, Dallas
Division entered January 24, 2014.
Cole, et al v. Hunter, et al, No. 3:13-cv-02719-O, U.S.
District Court for the Northern District of Texas, Dallas
Division entered December 22, 2014.
Cole, et al v. Carson, et al, No. 14-10228 and No. 15-10045,
U.S. Court of Appeals for the Fifth Circuit, Judgment
entered September 25, 2015.
Hunter, et al v. Cole, et al, No. 16-351, Supreme Court of
the United States, Judgment entered November 28, 2016.
Cole, et al v. Carson, et al, No. 14-10228 and No. 15-10045,
U.S. Court of Appeals for the Fifth Circuit, Judgment
entered September 25, 2018.
Cole, et al v. Carson, et al, No. 14-10228 and No. 1510045, U.S. Court of Appeals for the Fifth Circuit, Order
granting En Banc Review February 8, 2019.
Cole, et al v. Carson, et al, No. 14-10228 and No. 15-10045,
U.S. Court of Appeals for the Fifth Circuit, Judgment
entered August 20, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 2
CONST I T U T IONA L A N D STAT U T ORY
	PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. Procedural History  . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Relevant Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
The Coles’ Pleading Allegations Against
Officer Carson  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . 10

v
Table of Contents
Page
REASONS FOR GRANTING THE PETITION  . . . . 13
I.

Federal law does not require police officers
to delay necessary defensive action until it
is too late to stop a lethal threat posed by
an armed person moving a firearm in the
direction of an officer.  . . . . . . . . . . . . . . . . . . . . . 13
A. Instead of reconsidering this case in light
of Mullenix, the Fifth Circuit doubled
down on its rejection of controlling
immunity precedent  . . . . . . . . . . . . . . . . . . 13
B. Even when the barrel of a gun is
not yet pointed directly at an officer,
clearly established law does not prohibit
officers from firing to stop an armed
person from moving a firearm in the
direction of an officer . . . . . . . . . . . . . . . . . . 22
C. Clearly established law does not require
officers to shout a warning and wait to
determine whether an imminent threat
to life has subsided after the warning
before an officer may lawfully fire to stop
an armed person from moving a firearm
in the direction of an officer  . . . . . . . . . . . . 25

vi
Table of Contents
Page
D. No body of legal authority informed
officers in October 2010 that settled
law prohibited officers from firing to
stop an armed, mentally unstable,
person from moving a firearm in the
direction of a nearby officer  . . . . . . . . . . . . 29
II. Officer Carson could not have known in
2010 the Fifth Circuit would later create a
cause of action whereby an officer accused
of inaccurately reporting his perceptions
of events during a dynamic shooting
encounter would violate the Fourteenth
Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

vii
TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals FOR THE
FIFTH CIRCUIT , FILED AUGUST 20, 2019  . . . 1a
A p p endi x b — o p inion of the
united states court of appeals
for the fifth circuit, filed
	september 25, 2018 . . . . . . . . . . . . . . . . . . . . . . . 92a
APPENDIX C— ORDER OF THE Supreme
C ourt of the U nited S tates ,
DATED November 28, 2016  . . . . . . . . . . . . . . 118a
A PP E N DI X D — O P I N ION OF T H E
UNITED STATES COURT OF APPEALS
FOR T H E FI F T H CIRCU I T, FILED
SEPTEMBER 25, 2015 . . . . . . . . . . . . . . . . . . . . . . 120a
A PPENDIX E — OPINION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF TEXAS, DALLAS DIVISION, FILED
DECEMBER 22, 2014 . . . . . . . . . . . . . . . . . . . . . . .  174a
APPENDIX F — MEMORANDUM OPINION
AND ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF TEXAS, DALLAS DIVISION,
FILED JANUARY 24, 2014 . . . . . . . . . . . . . . . . . . 208a

viii
Table of Appendices
Page
A p p endi x g — O R D E R of the
united states court of appeals
for the fifth circuit, filed
	february 8, 2019  . . . . . . . . . . . . . . . . . . . . . . . . 256a
Appendix H — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED JUNE 17, 2016 . . . . . 258a

ix
TABLE OF CITED AUTHORITIES
Page
Cases:
Albright v. Oliver,
510 U.S. 266 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . 33, 34
Anderson v. Creighton,
483 U.S. 635, 107 S. Ct. 3034 (1987) . . . . . . . 20, 30, 31
Ashcroft v. Iqbal,
556 U.S. 662, 129 S. Ct. 1937 (2009) . . . . . . . . . . . . . . 2
Baker v. Putnal,
75 F.3d 190 (5th Cir. 1996) . . . . . . . . . . . . . . . . . . 31, 32
Brosseau v. Haugen,
543 U.S. 194, 125 S. Ct. 596 (2004) . . . . . . . . 20, 28, 30
City and County of San Francisco v. Sheehan,
135 S. Ct. 1765 (2015)  . . . . . . . . . . . . . . . . . . . 15, 19, 24
City of Escondido v. Emmons,
139 S. Ct. 500 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Cole v. Carson,
802 F.3d 752 (5th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 1
Cole v. Carson,
905 F.3d 334 (5th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . 1
Cole v. Carson,
915 F.3d 378 (5th Cir. 2018)  . . . . . . . . . . . . . . . . . . . . . 1

x
Cited Authorities
Page
Cole v. Carson,
935 F.3d 444 (5th Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 1
Cole v. Hunter,
2014 WL 266501 (N.D. Tex. 2014) . . . . . . . . . . . . . . . . 2
Cole v. Hunter,
68 F. Supp. 3d 628 (N.D. Tex. 2014)  . . . . . . . . . . . . . . 1
Colston v. Barnhart,
130 F.3d 96 (5th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 28
Colston v. Barnhart,
146 F.3d 282 (5th Cir. 1998), denying reh’g in
130 F.3d 96 (5th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 19
Davis v. Scherer,
468 U.S. 183, 104 S. Ct. 3012 (1984)  . . . . . . . . . . . . . 20
Devenpeck v. Alford,
543 U.S. 146, 125 S. Ct. 588 (2004) . . . . . . . . . . . . . . 33
District of Columbia v. Wesby,
138 S. Ct. 577 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Elliott v. Leavitt,
99 F.3d 640 (4th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 24
Estate of Krause v. Jones,
765 F.3d 675 (6th Cir. 2014)  . . . . . . . . . . . . . . . . . . . . 24

xi
Cited Authorities
Page
Fraire v. City of Arlington,
957 F.2d 1268 (5th Cir. 1992) . . . . . . . . . . . . . . . . 26, 28
Garcia v. Santa Clara County,
268 Fed. Appx. 588 (9th Cir. 2008) . . . . . . . . . . . . . . 24
Garczynski v. Bradshaw,
573 F.3d 1158 (11th Cir. 2010)  . . . . . . . . . . . . . . . . . . 24
Graham v. Connor,
490 U.S. 386, 109 S. Ct. 1865 (1989)  . . . . . . . 18, 19, 27
Harlow v. Fitzgerald,
457 U.S. 800, 102 S. Ct. 2727 (1982)  . . . . . . . . . . . . . 16
Heien v. North Carolina,
574 U.S. 54, 135 S. Ct. 530 (2014)  . . . . . . . . . . . . . . . 24
Hunter v. Bryant,
502 U.S. 224 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Hunter v. Cole,
137 S. Ct. 497 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . 1, 5
Johnson v. Jones,
515 U.S. 304, 115 S. Ct. 2151 (1995) . . . . . . . . . . . . . . 19
Kisela v. Hughes,
138 S. Ct. 1148 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . . 31

xii
Cited Authorities
Page
Larsen Ex. Rel. Sturdivan v. Murr,
511 F.3d 1255 (10th Cir. 2008) . . . . . . . . . . . . . . . . . . 23
Long v. Slaton,
508 F.3d 576 (11th Cir. 2007) . . . . . . . . . . . . . . . . . . . 22
Luna v. Mullenix,
773 F.3d 712 (5th Cir. 2014) . . . . . . . . . . . 13, 14, 15, 29
McDonough v. Smith,
139 S. Ct. 2149 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 34
Oakes v. Anderson,
494 Fed. Appx. 35 (11th Cir. 2012) . . . . . . . . . . . . . . . 24
Ontiveros v. City of Rosenberg,
564 F.3d 379 (5th Cir. 2009) . . . . . . . . . . . . . . 22, 23, 31
Pierson v. Callahan,
555 U.S. 223, 129 S. Ct. 808 (2009) . . . . . . . . . . . . . . 16
Plumhoff v. Rickard,
572 U.S. 765, 134 S. Ct. 2012 (2014)  . . . . . . 2, 15, 16-17
Reichle v. Howards,
566 U.S. 658, 132 S. Ct. 2088 (2012) . . . . . . . . . . . . . 20
Ryburn v. Huff,
565 U.S. 469, 132 S. Ct. 987 (2012)  . . . . . . . .  17, 18, 20

xiii
Cited Authorities
Page
Saucier v. Katz,
533 U.S. 194, 121 S. Ct. 2151 (2001)  . . . . 21, 25, 30, 31
Scott v. Harris,
550 U.S. 372, 127 S. Ct. 1769 (2007) . . . . . . . 24, 26, 28
Stanton v. Sims,
134 S. Ct. 3 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
Tennessee v. Garner,
471 U.S. 1, 105 S. Ct. 1694 (1985)  . . . . . . 25, 27, 29, 30
Warden, Md. Penitentiary v. Hayden,
387 U.S. 294, 87 S. Ct. 1642 (1967) . . . . . . . . . . . . . . 24
White v. Pauly,
137 S. Ct. 548 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Wilson v. Layne,
526 U.S. 603, 119 S. Ct. 1692 (1999)  . . . . . . . . . . . . . 20
Wilson v. Meeks,
52 F.3d 1547 (10th Cir. 1995) . . . . . . . . . . . . . . . .  17, 24
Statutes and Other Authorities:
U.S. Const. Amend. Iv  . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. Amend. XIv § 1 . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

xiv
Cited Authorities
Page
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Sup Ct. R. 13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
OPINIONS BELOW
The third opinion of the United States Court of
Appeals for the Fifth Circuit, which was en banc (with
dissents) is reported as Cole v. Carson, 935 F.3d 444 (5th
Cir. 2019) (Cole III) and reproduced at Appendix A (1a-9a).
The Order of the United States Court of Appeals for
the Fifth Circuit granting En Banc review is reported as
Cole v. Carson, 915 F.3d 378 (5th Cir. 2018) and reproduced
at Appendix G (256a-257a).
The second opinion of the United States Court of
Appeals for the Fifth Circuit, after remand from this
Court, is reported as Cole v. Carson, 905 F.3d 334 (5th Cir.
2018) (Cole II) and reproduced at Appendix B (92a-117a).
The Order of the Supreme Court of the United States
granting the Petition for Writ of Certiorari, is reported
as Hunter v. Cole, 137 S. Ct. 497 (2016), and reproduced
at Appendix C (118a-119a).
The first opinion of the United States Court of Appeals
for the Fifth Circuit is reported as Cole v. Carson, 802 F.3d
752 (5th Cir. 2015) (Cole I) and reproduced at Appendix
D (120a-173a).
The second opinion and order of the United States
District Court for the Northern District of Texas, Dallas
Division, is reported as Cole v. Hunter, 68 F.Supp.3d
628 (N.D. Tex. 2014) and reproduced at Appendix E
(174a-207a).
The first unpublished opinion and order of the United
States District Court for the Northern District of Texas,

2
Dallas Division, can be located as Cole v. Hunter, 2014
WL 266501 (N.D. Tex. 2014) and reproduced at Appendix
F (208a-255a).
JURISDICTIONAL STATEMENT
The collateral order doctrine provided jurisdiction
to the Court of Appeals for the Fifth Circuit over the
District Court orders denying qualified immunity to
Officer Carson on January 24, 2014, asserted through a
motion to dismiss, and Lieutenant Cassidy and Officer
Hunter on December 22, 2014, asserted through a motion
for summary judgment. 28 U.S.C. § 1291; Plumhoff v.
Rickard, 572 U.S. 765, 771, 134 S. Ct. 2012, 2018-2019
(2014); Ashcroft v. Iqbal, 556 U.S. 662, 671-672, 129 S. Ct.
1937 (2009).
On September 25, 2015, a panel of the Fifth Circuit
filed an opinion denying qualified immunity to Petitioners.
On June 17, 2016, the Fifth Circuit denied Petitioners’
petition for rehearing en banc.
On September 15, 2016, Petitioners filed a petition for
writ of certiorari, and on November 28, 2016, this Court
granted the petition, vacated the Fifth Circuit judgment,
and remanded the case to the Fifth Circuit for further
consideration under Mullenix, supra.
After remand from this Court, on September 25, 2018,
a panel of the Fifth Circuit filed an opinion that reinstated
the judgment this Court had vacated. On October 9, 2018,
Petitioners filed a petition for rehearing en banc and on
February 8, 2019, the Fifth Circuit granted the petition.

3
On August 20, 2019, the Fifth Circuit, sitting en banc,
issued an opinion denying immunity to Petitioners.
On November 5, 2019, Petitioners filed an application
to extend the time for Petitioners to file a petition for writ
of certiorari from November 18, 2019, to December 9, 2019.
On November 7, 2019, this Court granted Petitioner’s
application extending the time to file their petition for
writ of certiorari to December 9, 2019.
This Court has jurisdiction over the case now because
Petitioners filed this petition for writ of certiorari by
December 9, 2019, in accordance with 28 U.S.C. § 1254(1)
and Rule 13 of the Rules of the Supreme Court.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourth Amendment to the Constitution
of the United States
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
Fourteenth Amendment § 1 to the Constitution
of the United States
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No

4
State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.
42 United States Code Service § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively
to the District of Columbia shall be considered to be a
statute of the District of Columbia.

5
STATEMENT OF THE CASE
A. Procedural History
Ryan Cole was injured in an armed encounter
Cole initiated with police. Cole’s parents sued Officer
Hunter and Lieutenant Cassidy, alleging they violated
Cole’s Fourth Amendment right not to be subjected to
excessive force. (App. 4a). The Coles also sued Officer
Carson, claiming he violated Cole’s rights under the
Fourth and Fourteenth Amendments by allegedly lying
and concealing evidence to protect Officer Hunter and
Lieutenant Cassidy, which led to Cole being charged
with assault. (App. 4a). The District Court denied Officer
Carson’s motion to dismiss (App. 247a) and denied Officer
Hunter’s and Lieutenant Cassidy’s motion for summary
judgment, rejecting all immunity defenses. (App. 207a).
In its first panel opinion, the Fifth Circuit dismissed
appeals of the orders denying summary judgment to
Officer Hunter and Lieutenant Cassidy and denying
Officer Carson’s immunity from a Fourteenth Amendment
claim. (App.173a). The first panel reversed only the
District Court order denying Officer Carson’s immunity
from claims under the Fourth Amendment and under
Brady. (App. 145a, 173a). All three officers filed a petition
for rehearing en banc before the Fifth Circuit, but that
petition was denied. (App. 258a).
The Officers petitioned for a writ of certiorari,
this Court granted the petition, vacated the first panel
opinion, and remanded the case to the Fifth Circuit for
reconsideration under this Court’s decision in Mullenix
supra. Hunter v. Cole, 137 S. Ct. 497 (2016) (App.118a).

6
On remand, the same Fifth Circuit panel issued a
second opinion denying immunity, in which the panel
also reinstated its first opinion this Court had vacated
(App.105a, 115a-117a). Thereafter, the Fifth Circuit
granted the officers’ Petition for Fifth Circuit Rehearing
En Banc. (App. 256a). The Fifth Circuit, sitting en banc
with all fifteen Judges in active service, with the two
Senior Judges who participated in the panel opinion,
rejected Officer Carson’s request for reconsideration of
his immunity to the Fourteenth Amendment claim (App.
13a) and, instead of analyzing the case under Mullenix, a
majority of the En Banc Court, including the two Senior
Judges who had participated in the panel opinion, opined
the Court lacked jurisdiction to rule on Officer Hunter’s
and Lieutenant Cassidy’s immunity. (App. 26a, 28a, 54a,
58a, 64a and 78a).
B. Relevant Facts
Cole was a high school junior diagnosed with obsessivecompulsive disorder. On October 24, 2010, after a quarrel
with his parents, Cole took several guns and ammunition
from the family garage. Cole had those weapons with him
when he visited his friend, Eric Reed Jr., late that night
(App.210a). The next morning, Cole again visited Reed,
who gained control of a revolver Cole had brought, but
Cole warned Reed not to try to take the semi-automatic
9 mm pistol Cole carried because Cole didn’t “wanna use
it” on Reed. (App. 82a). Reed’s father reported this threat
to police before the shooting occurred. (App. 82a).
Afterwards, police from two agencies were informed
Cole was armed and acting aggressively, officers searched
for Cole (App. 30a, 211a). Officer Hunter and Lieutenant

7
Cassidy were aware Cole had threatened to harm anyone
who tried to disarm him (App. 30a, 96a). Records generated
by other officers confirm police radio broadcasts of Cole’s
general location, that Cole was armed, irate, distraught,
and had threatened he would shoot anyone who came
near him (App. 82a) (ROA.15-10045.1562, 1829) (ROA.1510045.2063; 15-10045.2069-2070). After Cole left Reed’s
house, officers saw Cole and ordered him to stop, but Cole
refused to comply with commands, including commands
to drop the weapon and to stop. (App. 30a, 83a, 96a).
Reports of other officers confirm these warnings to Cole.
Lieutenant Cassidy and Officer Hunter were aware of
these warnings and Cole’s refusal to comply with them.
(ROA.15-10045.1410, 1563) (ROA.15-10045.2064, 2070).
Instead of heeding police warnings, Cole walked away
from officers, intermittently placing his gun against his
head as Cole walked toward train tracks separated by a
wooded area adjacent to Highway 78, a major roadway
(App. 84a).
After officers reported seeing Cole enter the wooded
area, Officer Hunter and Officer Carson and Lieutenant
Cassidy searched the highway side of the woods. Cole
emerged from the wooded area by backing through the
groundcover within 20 feet of Officer Hunter (App. 84a),
who was approximately 100 feet from Cassidy and Carson
(App. 213a). Since Cole was not facing the officers when
Cole first stepped out of the woods, the officers’ initial
perception was that Cole was not immediately aware of
the officers’ presence as Cole exited the wood line. (App.
108a). Still Cole had the gun in his hand and his finger on
the trigger. (App. 40a).
No officer fired before Cole had rotated his body, gun
in hand, to a 90-degree angle toward Officer Hunter, and

8
officers fired as Cole was still turning further toward
Officer Hunter (App. 203a), (ROA.15-10045.563, 1951-55,
3045), all while Cole had a finger on the trigger of his gun
and was holding the barrel of his gun pointed upward in
the direction of his head (App. 203a; ROA.15-10045.1947,
1950-52, 2508). Cole’s body was facing directly toward
Officer Hunter when the final shot was fired striking Cole
while he still held his gun. (App. 31a) (ROA.15-10045.687,
1946, 1952, 1954, 1972-73, 2132). Although standing in
different places, Officer Hunter, Lieutenant Cassidy,
and Cole all fired their guns virtually simultaneously,
over just 2.37 seconds (ROA.15-10045.1951, 2772, 2939).
During the simultaneous gunfire, Cole also fired, allegedly
involuntarily, and Cole’s shot struck the right side of his
head in an upward direction. (App. 97a; ROA.15-10045.889,
1942-43). All shots were fired during fewer than three
seconds, while Cole, his finger on the trigger, turned
toward Officer Hunter. (App. 30a, 31a).
The Coles’ law enforcement procedures expert,
Timothy Braaten, testified that if an individual is “in
the process of pointing [a gun], then it’s time to shoot.”
(ROA.15-10045.1974). Braaten testified further “that a
reasonable officer is entitled to fire in self-defense when
the suspect is in the process of pointing a firearm at him,”
(ROA.15-10045.1975), regardless of whether the process
of pointing the firearm involved raising the handgun from
a lower position to a higher position or higher position to
lower position. (ROA.15-10045.1975). According to the
Coles’ expert, movement in the process of pointing a gun
reasonably places an officer in fear for his life and justifies
firing in self-defense. (ROA.15-10045.1975-1976).
The detective who investigated the shooting testified
that Officer Hunter was in immense danger even when

9
Cole’s gun was not pointed directly at Officer Hunter
because Cole could suddenly point his gun at the officers
before they could respond. (ROA.15-10045.2049-2050).
Law enforcement trainer, Albert Rodriguez, testified
that Officer Hunter and Lieutenant Cassidy had no other
reasonable alternative but to fire when they did, and that
waiting longer to fire would not have been a reasonably
safe option. (ROA.15-10045.2128-2132, 2772).
The Coles’ Pleading Allegations
Against Officer Carson
Cole alleges Officer Carson lied and stated he saw
Cole turn and point his gun at Officer Hunter. (App. 4a).
Belying this pleading allegation, the Coles incorporated
reports of their expert witnesses in their complaint.1 In
these sworn reports incorporated into the complaint, the
Coles’ experts identified Officer Carson’s actual report,
which stated Officer Carson heard gunshots and saw
Officer Hunter and Lieutenant Cassidy firing, but Officer
Carson could not see what Cole was doing before the shots
were fired because Officer Hunter blocked Officer Carson’s
view. (App. 9a n. 17; ROA.15-10045.665, 687-688).
If the incorporated reports are not considered, Cole’s
claim under the Fourteenth Amendment is based on
allegations Officer Carson reported Cole pointed his gun
at Officer Hunter prior to the officers firing in defense of
Officer Hunter, this alleged inaccurate report was a lie
1. The District Court expressly addressed objections to the
expert reports and found the reports attached to the pleadings
should properly be considered in evaluating the Coles’ pleading
allegations. (App. 215a).

10
that resulted in Cole being charged with the felony crime
of aggravated assault on a public servant in addition to the
crime of unlawfully carrying a weapon. As a result of the
assault charge, Cole was placed under house arrest. The
assault charge was subsequently dismissed by the District
Attorney through a plea bargain on May 8, 2012, whereby
Cole judicially confessed his guilt (ROA.15-10045.756-758)
and Cole received deferred adjudication for the weapons
charge. (App. 14a).
SUMMARY OF THE ARGUMENT
According to the Coles’ shooting reconstruction
expert, after Ryan Cole backed out of the wooded area
with his finger on the trigger of a loaded pistol within 20
feet of Officer Hunter, Cole rotated his body to a position
at a 90-degree angle to Officer Hunter and continued
turning his body to a position in which Cole, gun still in
hand, was facing directly at Officer Hunter. The Coles’
expert estimated Officer Hunter and Lieutenant Cassidy
had three to five seconds to observe Cole’s action, assess
whether the circumstances presented an imminent threat
of serious harm to Officer Hunter, and determine if and
when firing was reasonably necessary to stop the threat
Cole’s actions presented. Two officers, standing 100 feet
apart, simultaneously perceived what even the Coles’
expert agrees was a real threat, and fired to stop the
threat to Officer Hunter’s life.
No officer fired until after Cole’s conduct placed
Officer Hunter’s life in peril. The fact the officers’ shots
did not prevent Cole from completing his armed turn to
face Officer Hunter demonstrates the officers did not fire
too soon or without reason. All experts in this case agree

11
an officer cannot effectively stop a deadly threat to life
if the officer waits to take action until after an armed
assailant is pointing a firearm directly at an innocent
victim, because by then it is simply too late for the officer
to prevent a victim from being shot. Accordingly, officers
are trained they must act to stop an armed aggressor
who is moving a firearm toward another before the gun is
pointed directly at a victim. That Lieutenant Cassidy and
Officer Hunter realized simultaneously, from two different
locations, the same perceived threat further shows both
reacted reasonably under these circumstances; they did
not violate clearly established law and are immune from
suit.
The Fourth Amendment objective reasonableness
standard and qualified immunity must be consistently
interpreted with a practical understanding of facts in
a meaningful way that provides officers a legitimate
opportunity to save innocent lives. It is crucial that
courts, in interpreting reasonableness under the Fourth
Amendment and immunity, render reliable decisions that
can be harmonized with the practical capabilities and
needs of officers and the public officers serve.
The webs of mutating arguments the Coles have
made, as pointed out by dissenting Judges, and the
inconsistent reasoning evidenced by the various judicial
opinions in this litigation, reveal a compelling basis for
immunity. Realizing immunity protects all but the officer
who knowingly acts illegally or plainly incompetently,
the bedrock of immunity is fair notice to an officer when
he acts that warns the officer his specific conduct in the
circumstances the officer encountered is clearly unlawful.
The Coles’ arguments, like the various conflicting judicial

12
opinions filed in this case, demonstrate that during the
few seconds Officer Hunter and Lieutenant Cassidy
had to recognize and react to Cole’s actions, no clear
consensus of authority existed which prohibited the
officers’ objectively reasonable responses to the threat,
so immunity is appropriate.
Mullenix and this court’s other controlling precedents
support immunity. Failing to comply with this Court’s
mandate to reconsider the opinion denying immunity,
in light of Mullenix, and with no controlling authority
prohibiting the officers’ actions, the Fifth Circuit deprived
the officers of immunity, and adopted a dangerous
standard that would require officers facing a suspect who
is armed and ready to shoot a pistol, who was turning in
the direction of a nearby officer, to delay taking defensive
action until officers first shout a warning and wait to
determine whether the warning convinced the armed
person not to shoot an officer or another. This opinion is
incompatible with necessary police procedures and this
Court’s precedent.
The rule of law in the United States is based on the
core principle that society relies on officers to protect
citizens from threats to their safety. While most people
are permitted, and generally encouraged, to flee from
peril, officers are expected to confront deadly threats to
protect members of the public from harm and from the
need to protect themselves. Crucial to the proper function
of this system of law is that an officer, who is not allowed
to protect his own life and the lives of others, cannot fulfill
his role in the justice system or his responsibility to the
people who depend on police. Under the Fifth Circuit’s
opinion, those who are threatened with serious injury

13
or death by an armed adversary cannot depend on an
officer to intervene to protect the innocent until after it is
physically too late for the officer to stop a deadly attack.
Similarly, the Fifth Circuit simply refuses to follow
this Court’s mandate that the Fourth Amendment, not
the Fourteenth Amendment, provides the appropriate
standard for the claims asserted against Officer Carson.
While the Fifth Circuit acknowledged the Fourth
Amendment cannot support a claim against Officer
Carson, contrary to this Court’s controlling precedent,
the Fifth Circuit invented a claim under the Fourteenth
Amendment. Because the Fifth Circuit refused to
comply with this Court’s direct mandate and controlling
precedent, three public servants come to this Court asking
that it grant the petition and apply the law of immunity
in accordance with this Court’s well-defined precedent.
REASONS FOR GRANTING THE PETITION
I.

Federal law does not require police officers to delay
necessary defensive action until it is too late to stop
a lethal threat posed by an armed person moving a
firearm in the direction of an officer.
A.

Instead of reconsidering this case in light of
Mullenix, the Fifth Circuit doubled down on its
rejection of controlling immunity precedent.

Three years ago, Officer Hunter and Lieutenant
Cassidy petitioned this Court after the Fifth Circuit
denied qualified immunity to the officers based on the same
rationale the Fifth Circuit applied in Luna v. Mullenix,
773 F.3d 712 (5th Cir. 2014), wherein it identified a claimed

14
disputed “fact issue” which is “simply a restatement of
the objective reasonableness test that applies to Fourth
Amendment excessive force claims.” Mullenix, 136 S. Ct.
at 307. This Court reversed Luna and confirmed that
whether the “immediacy of the risk posed” authorized
a reasonable officer to fire under settled law is a legal
issue the court must decide, not a factual question for a
jury. Id. at 308. In 2016, Officer Hunter and Lieutenant
Cassidy pointed out the Fifth Circuit erred as it had in
Luna in denying immunity in this case on the general
conclusion deadly force violates the Fourth Amendment
absent a sufficiently substantial and immediate threat.
(App. 134a-139a). This Court rejected that standard as too
general for assessing immunity. Mullenix, 136 S. Ct. at
308-309. (App. 127a, 128a, 130a, 132a, 137a). In Mullenix,
this Court also found the Fifth Circuit erred further when
it “ignored” cases which showed that Trooper Mullenix’s
assessment of the threat was reasonable. Mullinex, 136 S.
Ct. at 311. The Fifth Circuit, citing Luna, committed the
same error in this case. (App. 134a). This Court granted
Officer Hunter’s and Lieutenant Cassidy’s initial petition,
vacated the Fifth Circuit judgment, and remanded this
case to the Fifth Circuit for further consideration under
Mullenix.
After remand, the Fifth Circuit en banc still denied
immunity. Instead of applying the standard Mullenix
reaffirmed, the Fifth Circuit “doubled down” on its
rejection of this Court’s immunity jurisprudence. (App.
35a, 64a). The Fifth Circuit opinion suggests that court
seeks to avoid actually reconsidering the case under
Mullenix, because the Fifth Circuit denied immunity on
the flawed rationale appellate courts lack jurisdiction to
correct errors in the district court judgment that led to

15
the Fifth Circuit opinion this Court vacated, (App. 5a,
14a-26a), even though the district court judgment the Fifth
Circuit continues to rely on is rife with the same legal
errors this Court corrected in Luna in deciding Mullenix.
(App. 17a, 18a, 127a-139a, 198a-207a). “[D]eciding legal
issues of [the sort raised here] is a core responsibility of
appellate courts, and requiring [courts] to decide such
issues is not an undue burden.” Plumhoff, 572 U.S. at 773,
134 S. Ct. at 2019.
If factual disputes exist, analysis of immunity is
appropriate when, as here, disputes are not material to
determining immunity. Plumhoff, 572 U.S. 765, 771-773
(2012). Like in City and County of San Francisco v.
Sheehan, 135 S. Ct. 1765, 1770 n. 1 (2015), Officer Hunter
and Lieutenant Cassidy presented and addressed the facts
on appeal in the light most favorable to the Coles. Since
the district court based its factual findings on testimony
provided by the Coles’ experts (App. 206a), Officer Hunter
and Lieutenant Cassidy, likewise, accepted that testimony
on appeal.
The district court opinion (App. 204a) and every brief
Officer Hunter and Lieutenant Cassidy have filed establish
that the factual statements the Coles’ experts provided
and the officers’ contentions regarding the legal issue they
bring to this Court have remained steadfast. Accepting
the testimony of Coles’ experts, the decision to fire did
not violate settled law because an officer could have an
objectively reasonable belief “Cole posed an immediate
danger to the Officers.” (App. 196a-197a, 203a-205a).
In their initial petition, the officers demonstrated
this Court’s jurisdiction to decide immunity and this

16
Court previously exercised jurisdiction over the case.
No jurisdictional issue has changed. “Because of the
importance of qualified immunity ‘to society as a whole,’
Harlow v. Fitzgerald, 457 U.S. 800, 814, 102 S. Ct. 2727,
2736 (1982), [this] Court often corrects lower courts when
they wrongly subject individual officers to liability.”
Sheehan, 135 S. Ct. at 1774 n. 3. This Court has jurisdiction
and authority to apply its supervisory power to correct
the Fifth Circuit opinion that conflicts, on important legal
issues, with the decisions of this Court and other courts
of appeal. This Court should decide the officers’ immunity
because the Fifth Circuit failed to do so. See Hunter v.
Bryant, 502 U.S. 224, 227-29, 534 536-37 (1991).
Identifying the Fifth Circuit’s obligation to decide
immunity, Fifth Circuit Judge Edith H. Jones, joined by
Judges Jerry E. Smith, Priscilla R. Owen, James C. Ho,
Stuart Kyle Duncan, and Andrew S. Oldham dissenting
from the majority Fifth Circuit en banc opinion and found
“the majority here double[d] down on the mistakes that
got [the Fifth Circuit] reversed in Mullenix.” (App. 35a,
64a). Because “[q]ualified immunity is lost if a case is
erroneously permitted to go to trial,” Pierson v. Callahan,
555 U.S. 223, 231, 129 S. Ct. 808, 815 (2009), the dissent
painstakingly identified the errors in the majority opinion
and comprehensively discussed development of immunity
from its inception. In contrast to remanding immunity to
a jury that is ill-equipped to decide that legal issue, the
dissent discussed the rationale underlying immunity that
has guided its proper application over the last fifty years.
“[Q]ualified immunity claims raise legal issues quite
different from any purely factual issues that might be
confronted at trial,” which a jury need decide. Plumhoff,

17
572 U.S. at 771, 134 S. Ct. at 2019. A jury’s proper function
is to judge facts, not assess the legal landscape on which
immunity depends. The majority remitted immunity to a
jury without identifying for the jury or district court an
appropriate legal measure for assessing relevant clearly
established law. Special interrogatories cannot cure that
impediment. Special jury interrogatories provide no
substitute for the judicial standard under which Officer
Hunter’s and Lieutenant Cassidy’s immunity must be
judged. “[I]t does not suffice for a court simply to state that
an officer may not use unreasonable and excessive force,
deny qualified immunity, and then remit the case for a trial
on the question of reasonableness.” City of Escondido v.
Emmons, 139 S. Ct. 500, 503 (2019).
The dissent further explained that in evaluating facts
from the perspective of a reasonable officer on the scene,
judges must “be cautious about second-guessing a police
officer’s assessment made on the scene, of the danger
presented by a particular situation.” Ryburn v. Huff, 565
U.S. 469, 477, 132 S. Ct. 987, 991-992 (2012) (per curiam).
The majority’s inexplicable conclusion Cole’s actions posed
“no threat” to Officer Hunter is not supported by any
evidence, guiding principle or authority. (App. 17a-18a). “It
is hard to imagine that pointing a [pistol] in any direction
would not cause a reasonable officer to fear for someone’s
life.” Wilson v. Meeks, 52 F.3d 1547, 1553-54 (10th Cir.
1995). In their dissenting opinion, Judges Ho, Oldham,
and Smith addressed this crucial point:
[n]o member of [the Fifth Circuit] court has …
confronted a mentally disturbed teenager who
is brandishing a loaded gun near a school. And
the Mullenix Court held that the qualified-

18
immunity standard gives [Fifth Circuit judges]
no basis for sneering at cops on the beat from
the safety of [judicial] chambers.
(App. 70a) (citing Mullenix, 136 S. Ct. at 310-11 (citing
Brief for National Association of Police Organizations et
al. as Amici Curiae)).
These “red flags” in the evidence refute the conclusion
Cole’s actions posed “no threat.” (App. 54a-56a). As in
Ryburn, 565 U.S. at 476-77, 132 S. Ct. at 991-92, the
majority’s “method of analyzing the string of events that
unfolded … was entirely unrealistic.” (App. 17a-18a). The
dissent discussed that reasonableness of force must be based
on “the totality of the circumstances,” and “must be judged
from the perspective of a reasonable officer on the scene,
rather than with the 20/20 vision of hindsight.” Graham v.
Connor, 490 U.S. 386, 396, 109 S. Ct. 1865, 1872 (1989).
The majority opinion overlooks or omits
undisputed material facts showing that any
reasonable officer would have viewed Ryan
Cole as a severe threat. Before the shooting, the
defendant officers: (1) were tracking a distraught
suspect wandering through the woods armed
with a loaded 9mm semi-automatic handgun; (2)
who had earlier that morning off-loaded a cache
of weapons and ammunition at a friend’s house;
(3) who had already refused to give up his pistol
when confronted by the police; and (4) who had
threatened to “shoot anyone who came near him.”
Cole did not dispute those facts and, indeed,
convinced the district court they were irrelevant.
(App. 78a).

19
Judge Duncan further discussed the district court’s
error in excluding from analysis necessary contextual
facts that skewed the immunity analysis. (App. 79a) (citing
Johnson v. Jones, 515 U.S. 304, 319, 115 S. Ct. 2151 (1995)).
“[T]he prelude to the shooting gives unavoidable context
for evaluating the officers’ actions.” (App. 79a). “That extra
work is sometimes imperative, as here, ‘to ensure that the
defendant’s right to an immediate appeal on the issue of
materiality is not defeated solely on account of the district
court’s failure to [appropriately] articulate its reasons for
denying summary judgment.” (App. 79a) (quoting Colston
v. Barnhart, 146 F.3d 282, 285 (5th Cir. 1998), denying
reh’g in 130 F.3d 96 (5th Cir. 1997).
Mullenix and Sheehan, 135 S. Ct. at 1778 illustrate the
error in failing to consider the totality of the circumstances
which provide relevant context to a reasonable officer on
the scene. This Court analyzed the factual background
leading to Trooper Mullenix’s decision to fire shots. See
Mullenix, 136 S. Ct. at 306-307. Just as the contextual
facts were significant in evaluating the Trooper’s action,
a similar analysis of the facts was implicit in this court’s
mandate returning the instant case to the Fifth Circuit.
The dissent also pointed out that “[t]he calculus of
‘reasonableness must embody allowance for the fact
that police officers are often forced to make split-second
judgments – in circumstances that are tense, uncertain,
and rapidly evolving – about the amount of force that
is necessary in a particular situation.’” (App. 37a-38a)
(quoting Graham v. Connor, 490 U.S. 386, 396-97, 109
S. Ct. 1865, 1872 (1989)). Officer Hunter and Lieutenant
Cassidy had “less time than it took to read the preceding
sentence” to observe Cole’s action, assess whether the

20
circumstances presented an imminent threat of serious
harm to Officer Hunter, and determine if and when firing
was reasonably necessary to stop the threat Cole’s conduct
presented. (App. 30a). Despite the evidence and this
Court’s precedent in Ryburn, 565 U.S. at 477, 132 S. Ct. at
992, “[w]ith the benefit of hindsight and calm deliberation,
the panel majority concluded that it was unreasonable for
petitioners to fear that violence was imminent.”
The panel majority erred more fundamentally in
reaching that purely subjective conclusion without
identifying any comparable judicial opinion that fairly
warned officers the response to Cole’s actions was
clearly illegal. (App. 17a-21a). “If judges thus disagree
on a constitutional question, it is unfair to subject police
to money damages for picking the losing side of the
controversy.” Wilson v. Layne, 526 U.S. 603, 618, 119 S. Ct.
1692, 1701 (1999). The bedrock of immunity is fair notice to
an officer when he acts warning him his conduct is clearly
unlawful in the specific circumstance the officer is facing.
See Brosseau v. Haugen, 543 U.S. 194, 205, 125 S. Ct.
596 (2004) (per curiam). Officer Hunter and Lieutenant
Cassidy had no means “‘reasonably [to] anticipate […]
their conduct may give rise to liability for damages.’” See
Anderson v. Creighton, 483 U.S. 635, 646, 107 S. Ct. 3034
(1987) (quoting Davis v. Scherer, 468 U.S. 183, 195, 104
S. Ct. 3012 (1984)). “To be clearly established [under this
Court’s precedents], a right must be sufficiently clear that
every reasonable offic[er] would [have understood] that
what he is doing violates that right.” Reichle v. Howards,
566 U.S. 658, 664, 132 S. Ct. 2088 (2012). When two officers
standing in different locations simultaneously perceive a
need to use force to stop a threat, it cannot be said that
every officer would have understood that that response to
Cole’s actions was clearly unlawful.

21
Un d e r t he Fou r t h A m e nd m e nt ’s obj e c t i ve
reasonableness standard, when an officer “reasonably
but mistakenly believed that a suspect was likely to fight
back … the officer would be justified in using more force
than in fact was needed.” Saucier v. Katz, 533 U.S. 194,
205, 121 S. Ct. 2151, 2158 (2001). “[T]he test for qualified
immunity for excessive force ‘has a further dimension’
in addition to the deferential, on-the-scene evaluation of
objective reasonableness.” (App. 38a) (quoting Saucier
supra). “Qualified immunity operates in this case, then,
just as it does in others, to protect officers from the
sometime hazy border between excessive and acceptable
force and to ensure that before they are subjected to suit,
officers are on notice their conduct is unlawful.” Saucier,
533 U.S. at 206, 121 S. Ct. at 2158 (internal citation and
quotation marks omitted). Therefore, “[t]he only legal
question that needs to be addressed by this [C]ourt is
whether, under the circumstances of this five-second
confrontation, every reasonable police officer would have
reasonably perceived no life-threatening danger such that
deadly force could be used to incapacitate Cole without a
preliminary warning.” (App. 34a). “[A]s a matter of law,
was it clearly established that officers may not fire on a
suspect, armed and ready to shoot a pistol, who is turning
in their direction with one of their brethren ten to twenty
feet away, unless the gun barrel points at them or they first
shout a warning and await his response?” (App. 34a-35a).
This Court’s precedents provide the correct answer to
that legal issue. Clearly established law does not require
officers to hesitate to act until it is too late to stop the
lethal threat Cole posed when he moved his pistol in the
direction of Officer Hunter.

22
B. Even when the barrel of a gun is not yet pointed
directly at an officer, clearly established law
does not prohibit officers from firing to stop
an armed person from moving a firearm in the
direction of an officer.
Officers cannot reasonably be required to wait and
hope for the best until they are staring down the barrel of
a gun before an officer may lawfully fire in self-defense or
defense of another. (App. 44a, 56a). In Mullenix, 136 S. Ct.
at 311, this Court explained that “the law does not require
officers in a tense and dangerous situation to wait until
the moment a suspect uses a deadly weapon to act to stop
the suspect.” (quoting Long v. Slaton, 508 F.3d 576, 58182 (11th Cir. 2007)). The Coles’ expert, Braaten, testified
that an officer should not wait until after a gun is pointed
at him to act to defend himself. (ROA.15-10045.974-976).
Braaten testified that “it’s time to shoot” when a person
is “in the process of pointing” his gun at an officer. (App.
197a, 204a) (ROA.15-10045.974). Even when the barrel of
Cole’s gun was not yet pointed directly at Officer Hunter,
clearly established law did not prohibit Officer Hunter and
Lieutenant Cassidy from firing to stop Cole from moving
his pistol in the direction of Officer Hunter.
The scientific principle that action precedes reaction
necessarily creates a delay in any person’s physical ability
to stop a deadly threat after the barrel of a gun is pointed
at an officer because, by that time, it is simply too late for
an officer to stop the threat. (App. 23a, 28a). “Contrary
to the majority’s dangerously unrealistic opinion, the fact
is ‘action beats reaction’ every time.” (App. 28a) (quoting
Ontiveros v. City of Rosenberg, 564 F.3d 379, 384 (5th
Cir. 2009)). The majority’s opinion, that officers may

23
not lawfully fire to stop an imminent threat to life until
after an assailant points a gun directly at an innocent
victim, is inconsistent with any decision of this Court,
and defies the physiological limits of human performance.
Hesitating to act until the barrel of a gun is pointed at an
innocent person denies officers a reasonable opportunity
to effectively act to protect lives. By the time an aggressor
points a gun at another, it is literally too late to prevent the
bullet from leaving the gun’s barrel. Science establishes,
and police experience shows, that an officer’s reaction will
be slower than a threatening person’s action of firing a
gun, so to accommodate for that scientific reality an officer
must initiate defensive measures in a gunfight before a
gun is pointed at an officer. Explaining this principle,
Texas Ranger Jeff Cook testified in Ontiveros, 564 F.3d
at 384 n. 2, “a tie” to the draw in a gunfight is simply “not
good enough.” “[A] tie, you die, you know.” Id. An officer
who ties has failed to stop the threat to life. See id. “A
reasonable officer need not await the glint of steel before
taking self-protective action; by then, it is often too late
to take safety precautions.” Larsen Ex. Rel. Sturdivan
v. Murr, 511 F.3d 1255, 1260 (10th Cir. 2008) (emphasis
added). Officers and others will die needlessly if officers
must wait to fire until after a gun is pointed at an innocent
person. (App. 17a-18a, 204a-206a). This Court has never
“held that police officers confronted in close quarters with
a suspect armed and ready to shoot must hope they are
faster on the draw and more accurate”. (App. 28a).
The increasingly risky profession of law
enforcement cannot put those sworn to “serve
and protect” to a Hobson’s choice: place their
lives on the line by heroic forbearance or risk
their financial security in defense of lawsuits.

24
The Supreme Court has repeatedly stated
in plain terms that the purpose of qualified
immunity is to prevent precisely this quandary.
(App. 28a).
When an assailant is moving a firearm in the direction
of an officer, it is not reasonable on any level, to expect
the officer to wager life with inaction and simply “hope for
the best.” Compare Mullenix, 136 S. Ct. at 311-12; Scott
v. Harris, 550 U.S. 372, 385, 127 S. Ct. 1769, 1778 (2007);
Estate of Krause v. Jones, 765 F.3d 675, 681 (6th Cir. 2014);
Oakes v. Anderson, 494 Fed. Appx. 35, 40 (11th Cir. 2012);
Garczynski v. Bradshaw, 573 F.3d 1158, 1167 (11th Cir.
2010) (per curiam); Garcia v. Santa Clara County, 268
Fed. Appx. 588, 589 (9th Cir. 2008); Elliott v. Leavitt, 99
F.3d 640, 641-644 (4th Cir. 1996); Wilson, 52 F.3d at 1553.
Rationally defining objective reasonableness demands
officers have a realistic opportunity, informed by the
scientific aspects of human perception and reaction time,
to take defensive action that could stop an imminent threat
of death from a firearm being moved in the direction of
an officer or another. (App. 28a). In light of the physical
need to act timely, “it is reasonable for police officers
to move quickly if delay ‘would gravely endanger their
lives or the lives of others.’” Sheehan, 135 S. Ct. at 1775
(quoting Warden, Md. Penitentiary v. Hayden, 387 U.S.
294, 298-299, 87 S. Ct. 1642 (1967)). “This is true even
when, judged with the benefit of hindsight, the officers
may have made ‘some mistakes.’” Sheehan, 135 S. Ct. at
1775 (quoting Heien v. North Carolina, 574 U.S. 54, 61,
135 S. Ct. 530, 536 (2014). Id. “If an officer reasonably,
but mistakenly, believed that a suspect was likely to fight
back, for instance, the officer would be justified in using

25
more force than in fact was needed.” Saucier, 533 U.S. at
205, 121 S. Ct. at 2158.
At best the Fifth Circuit has unfairly exposed
Lieutenant Cassidy, Officer Hunter, and all other officers
that follow them under comparable circumstances to
undue risk of liability for reasonably acting to protect
themselves or others. At worst, the Fifth Circuit’s
opinion could cause an officer to hesitate to act in time
to save a life. In between, the Fifth Circuit leaves police
instructors without any effective way to train officers to
defend themselves or others, and police administrators
cannot establish procedures under which officers may
comply with the law and preserve the lives of innocents
threatened by gun violence.
C.

Clearly established law does not require
officers to shout a warning and wait to
determine whether an imminent threat to
life has subsided after the warning before
an officer may lawfully fire to stop an armed
person from moving a firearm in the direction
of an officer.

The Coles’ expert estimated Officer Hunter and
Lieutenant Cassidy had three to five seconds while
Cole emerged, gun in hand, from the wooded area; for
officers to observe Cole’s actions, assess whether the
circumstances presented an imminent threat of serious
harm to Officer Hunter, and determine if and when firing
was reasonably necessary to stop Cole’s armed threat.
These few seconds may have provided time for an officer
to shout another warning, but the feasibility of doing so
under these circumstances certainly was not, and is not

26
established beyond debate. No preexisting constitutional
authority precluded Officer Hunter or Lieutenant Cassidy
from firing to stop Cole from moving his pistol in Officer
Hunter’s direction, regardless of whether these officers
shouted another warning during the moments after Cole
backed out of the wooded area with his finger on the
trigger of a loaded pistol within 20 feet of Officer Hunter,
while Cole rotated his body to a position at a 90-degree
angle with Officer Hunter and continued turning his body
to a position in which Cole, gun still in hand, was facing
directly toward Officer Hunter. (App. 43a, 69a).
The Fifth Circuit opinion is premised on an incorrect
interpretation of Tennessee v. Garner, 471 U.S. 1, 105
S. Ct. 1694 (1985). Garner addressed the very different
question of whether an officer violates the Fourth
Amendment by shooting, “to prevent escape,” an unarmed
suspect fleeing away from an officer when the suspect
poses no risk of harm to anyone (App. 199a). Garner, 471
U.S. at 11, 105 S. Ct. at 1701. The factual circumstances
in Garner are vastly different from those Officer Hunter
and Lieutenant Cassidy met when they fired to protect
Officer Hunter, not to prevent Cole’s escape. (App. 42a,
69a, 89a). “Nothing in Garner prohibits an officer from
using deadly force in self-defense when the officer
has probable cause to believe that the suspect poses a
threat of serious physical injury or death to the officer.”
Fraire v. City of Arlington, 957 F.2d 1268, 1280 (5th
Cir. 1992) (emphasis added). This Court has rejected the
suggestion Garner “establish[ed] a magical on/off switch
that triggers rigid preconditions [such as verbal warnings
before firing] whenever an officer’s actions constitute
‘deadly force.’” Scott, 550 U.S. at 382-83, 127 S. Ct. at 1777.

27
Garner was simply an application of the Fourth
Amendment’s “reasonableness’ test,” Graham,
[490 U.S. at 388], to the use of a particular type
of force in a particular situation. Garner held
that it was unreasonable to kill a “young, slight,
and unarmed” burglary suspect, 471 U.S. at
21, by shooting him “in the back of the head”
while he was running away on foot, id. at 4, and
when the officer “could not reasonably have
believed that [the suspect] … posed any threat,”
and “never attempted to justify his actions on
any basis other than the need to prevent an
escape,” id. at 21. Whatever Garner said about
the factors that might have justified shooting
the suspect in that case, such “preconditions”
have scant applicability to this case, which has
vastly different facts.”
Id. (emphasis added).
White v. Pauly, 137 S. Ct. 548, 551(2017) confirms it is
not clearly established that Lieutenant Cassidy and Officer
Hunter were prohibited from firing to protect Officer
Hunter “without first warning [Cole] to drop the weapon.”
This Court did not find that Officer White forfeited his
immunity on this basis when the Tenth Circuit made the
same error the Fifth Circuit has.
Even if the lack of another verbal warning could
appropriately be considered a factor to be evaluated among
others in analyzing immunity in this context, Lieutenant
Cassidy and Officer Hunter could not have been guided by
such a requirement when they fired because contrary preexisting Supreme Court and Fifth Circuit precedent from

28
Scott and Fraire, supra demonstrate such an additional
warning was not required. See Brosseau, 543 U.S. at 200
n.4, 125 S. Ct. at 600.
Furthermore, an officer on the scene could have
reasonably believed issuing additional verbal warnings
would likely be futile or may pose an unreasonable risk
of harm to an officer and, thus, was not feasible under the
circumstances. Officer Hunter and Lieutenant Cassidy
knew Cole’s friend had been unsuccessful in disarming
Cole, Cole had threatened to harm anyone who tried to
take his weapon, and before Cole entered the wooded area,
officers ordered Cole to drop his gun but Cole had refused
to do so. (App. 40a). Besides, had Lieutenant Cassidy and
Officer Hunter further delayed taking defensive action
until after they verbalized additional warnings and
waited to determine whether or how Cole would respond
to more verbal requests like those he previously rejected,
an objective officer could have reasonably believed this
additional delay in taking defensive action while Cole
moved his gun in Officer Hunter’s direction could have
prevented any officer from having sufficient time to
protect Officer Hunter as he stood a few feet from the
deadly threat (App. 43a). See Colston v. Barnhart, 130
F.3d 96, 100 (5th Cir. 1997). The impracticality of the
requirements the Fifth Circuit has set out are apparent. If
the barrel of a gun is moving in the direction of a person,
an imminent risk of serious harm exists that calls for
immediate defensive action. The unreasonable condition
posited by the majority prohibit an officer from reacting to
defend himself or others from an imminent deadly threat
without first shouting a warning and, thereafter, waiting
for an unspecified amount of time to determine whether
the imminent threat has subsided.

29
D.

No body of legal authority informed officers
in October 2010 that settled law prohibited
officers from firing to stop an armed, mentally
unstable, person from moving a firearm in the
direction of a nearby officer.

The Fifth Circuit also erred because no established
judicial authority has before held that an officer may not
lawfully shoot to stop an armed person unless the person
has pointed the barrel of a firearm directly at a potential
victim, or until after the officer has shouted a warning and
awaited evidence, such as the assailant actually shooting,
to confirm the warning was ineffective. Mullenix and
this Court’s other immunity decisions do not support the
Fifth Circuit’s pronouncement of clearly established law.
In Mullenix, 136 S. Ct. at 308-309, this Court reversed
and corrected the Fifth Circuit’s “rule that a police officer
may not ‘use deadly force against a fleeing felon who
does not pose a sufficient threat of harm to the officer or
others.’” (quoting Luna, 773 F.3d at 725). “[T]his Court
has previously considered – and rejected – almost that
exact formulation of the qualified immunity question in the
Fourth Amendment context.” Id. at 309. The Fifth Circuit
seeks to circumvent Mullenix, and the remand order, by
re-characterizing the Fifth Circuit’s former “sufficient
threat” test as a “no threat” test, (App. 16a), and that
court purports to support its “no threat” immunity test
as a byproduct of “obvious” application of Garner supra.
(App. 17a, 34a). This Court “to date has never identified an
‘obvious’ case in the excessive force context,” (App. 66a),
and “Garner in no way renders ‘clearly established law’
a requirement to give a warning, and await the armed
suspect’s response, before shooting. Nor does it mandate
that the suspect’s weapon be trained on the officer or

30
others.” (App. 43a). The Fifth Circuit “majority’s ‘no
threat’ and ‘obvious case’ conclusions are contrary to this
court’s holdings. (App. 41a).
This Court rejected such notions in Mullenix. (App.
42a). Mullenix, 136 S. Ct. at 309, explained that in
Brosseau, 543 U.S. at 199, 125 S. Ct. at 589-90, this Court
held “that use of Garner’s ‘general’ test for excessive
force was ‘mistaken.’” “The correct inquiry, th[is] Court
explained, was whether it was clearly established that the
Fourth Amendment prohibited the officer’s conduct in the
‘situation [she] confronted’: whether to shoot a disturbed
felon, set on avoiding capture through […] flight, when
persons in the immediate area are at risk from that flight.”
Mullenix, 136 S. Ct. at 309 (quoting Brosseau, 543 U.S.
at 199-200, 125 S. Ct. at 600)). Whether an officer violates
settled law during a shooting incident is an area of the law
“in which the result depends very much on the facts of each
case,” and when no case decision “squarely governs the
case,” an officer’s actions fall within that “hazy border”
that provides immunity to the officer. Brosseau, 543 U.S.
at 201, 125 S. Ct. at 600; Mullenix, 136 S. Ct. at 312.
Assuming arguendo Garner supports the general
proposition Officer Hunter or Lieutenant Cassidy may
have violated the Fourth Amendment if Cole posed
no threat, “ruling on qualified immunity requires an
[additional] analysis not susceptible of fusion with the
question whether unreasonable force was used in making
the arrest.” See Saucier, 533 U.S. at 197, 121 S. Ct. at 2154.
This Court emphasized in Saucier and “Anderson ‘that
the right the office[er] is alleged to have violated must
have been ‘clearly established’ in a more particularized,
and hence more relevant, sense: The contours of the right

31
must be sufficiently clear that a reasonable office[er] would
understand that what he is doing violates that right.”
Saucier, 533 U.S. at 202, 121 S. Ct. at 2156 (quoting
Anderson, 483 U.S. at 640)). Controlling precedents do
not place the conclusion that Officer Hunter or Lieutenant
Cassidy used unreasonable force beyond debate, so Officer
Hunter and Lieutenant Cassidy are immune.
Other than its bare opinion that Garner renders this
case an obvious violation of the Fourth Amendment, the
only judicial opinion the Fifth Circuit opined supports
denial of immunity to Officer Hunter and Lieutenant
Cassidy is Baker v. Putnal, 75 F.3d 190 (5th Cir. 1996).
This Court has never held circuit court precedent could
clearly establish constitutional law, District of Columbia
v. Wesby, 138 S. Ct. 577, 591 n. 8 (2018), and this Court
does not require officers to foretell changes in federal law.
Kisela v. Hughes, 138 S. Ct. 1148, 1154 (2018).
Furthermore, the Fifth Circuit’s conclusion its “circuit
precedent could constitute clearly established law in these
circumstances,” was error like in Kisela. As the dissent
points out, Fifth Circuit law on this issue is anything but
clear and generally favors immunity in the situation here.
See Ontiveros. Assuming a lone circuit court opinion could
provide a body of clearly established law that governs
Officer Hunter’s and Lieutenant Cassidy’s actions, Baker
does not. Sergeant Putnal shot Baker while Baker was
seated inside a vehicle. “The only uncontroverted evidence
is that there was a good deal of confusion on the beach
and that Baker, Jr., at least began to face Putnal from
his position in the truck.” Baker, 75 F.3d at 198. On that
evidentiary record “Baker cannot support any rule of
clearly established law, much less explain what law was

32
‘obvious’” on the facts now before the Court. (App. 51a).
Sworn testimony from three witnesses to the shooting
testified that Baker was not even holding a gun when
he was shot. Id. After the shooting, officers recovered a
handgun under the passenger’s seat of Baker’s vehicle.
Id. at 193 (emphasis added). Therefore, “a jury could have
found Baker was not holding a gun when Putnal killed
him.” (App. 90a). A jury could not so find as to Cole. Not
only was Cole holding a gun in his hand throughout the
shooting, he turned much further than did Baker to a
position where Cole was facing directly toward Officer
Hunter (App. 30a-31a), and no part of a vehicle provided
any cover to Officer Hunter (App. 84a). In Baker, the Fifth
Circuit found that under the facts of that case, a jury could
have found Baker was not holding a gun when he was shot.
That is not the case for Cole.
Judge Duncan’s dissent, joined by Judges Smith, Owen,
Ho, and Oldham provides a hypothetical dialog between an
officer and his lawyer regarding what a reasonable officer
could have learned from Baker regarding dealing with a
suspect who is holding a gun in his hand. (App. 90a-91a).
This example demonstrates that “Baker could not have
‘established clearly that Cassidy’s and Hunter’s conduct
… was unlawful” when they shot Cole as he emerged from
the woods with his finger on the trigger of a loaded gun.”
(App. 91a quoting App. 18a). “Baker does not come close”
for the purpose of “guid[ing] officers in the field” how to
respond to Cole’s acts. (App. 91a).
The Fifth Circuit failed to identify precedent that
demonstrates, beyond debate, that Officer Hunter’s or
Lieutenant Cassidy’s response to Cole’s threat was clearly
unlawful. No body of legal authority informed officers that

33
settled law prohibited officers from firing to stop Cole from
moving his pistol in Officer Hunter’s direction.
II. Officer Carson could not have known in 2010
the Fifth Circuit would later create a cause of
action whereby an officer accused of inaccurately
reporting his perceptions of events during a
dynamic shooting encounter would violate the
Fourteenth Amendment.
The claim against Officer Carson is based on
allegations in the body of his complaint that Officer
Carson falsely stated Cole turned and pointed his gun
at police, and that allegation conflicts with Cole’s expert
witness reports attached to the complaint which establish
Officer Carson actually reported he heard gunshots and
saw two officers firing, but Officer Carson could not see
what Cole was doing when the shots were fired because
Carson’s view was obstructed by Officer Hunter (ROA.1510045.665, 687-688). (App. 9a n. 17).
Manuel, 137 S. Ct. at 920-21, establishes the claim
against Officer Carson must be assessed under the Fourth
Amendment. As far back as 1994, five Justices in two
opinions remitted to the Fourth Amendment such claims
that a person had been held on unfounded charges by
a policeman. Manuel, 137 S. Ct. at 918 (citing Albright
v. Oliver, 510 U.S. 266, 271-273 (1994). Probable cause
existed to arrest Cole for unlawfully carrying a weapon,
a crime Cole confessed to committing. (App. 141a). The
Fifth Circuit, therefore, appropriately dismissed the
Fourth Amendment claim against Officer Carson in light
of Devenpeck v. Alford, 543 U.S. 146, 153-154, 125 S. Ct.
588 (2004).

34
Officer Carson could not have known in 2010, the
Fifth Circuit would years later enact a new, Fourteenth
Amendment cause of action exposing him to liability on
mere allegations he misstated the facts of a dynamic event.
(App. 146a, 173a). Manuel and Albright demonstrate the
claim against Officer Carson is not cognizable under the
Fourteenth Amendment, but, even if uncertainty exists,
as Fifth Circuit Judge Jones suggested comparing
Manuel with McDonough v. Smith, 139 S. Ct. 2149 (2019)
(App.29a), with such uncertainty even today, the right
involved is not beyond debate and is not “sufficiently clear
that every reasonable official would have understood what
he was doing violates that right.” See Stanton v. Sims, 134
S. Ct. 3, 7 (2013) (discussing that reviewing Judges could
not even agree on the issue).

35
CONCLUSION
Controlling precedent and the evidence establish that
Officer Carson, Officer Hunter and Lieutenant Cassidy
are immune. This Court’s supervisory power is necessary
because the Fifth Circuit opinion denying that immunity
conflicts on important issues with the decisions of this
Court and other courts of appeal. Accordingly, Officer
Carson, Officer Hunter, and Lieutenant Cassidy ask the
Court to grant their petition for writ of certiorari, apply
controlling precedent, and enter judgment in favor of all
three officers.
Respectfully Submitted,
William S. Helfand
Norman Ray Giles
Lewis Brisbois Bisgaard
& Smith, Llp
24 Greenway Plaza,
Suite 1400
Houston, Texas 77046
(713) 659-6767

James T. Jeffrey, Jr.
Counsel of Record
Law Offices of Jim Jeffrey
3200 West Arkansas Lane
Arlington, Texas 76016
(817) 261-3200
jim.jeffrey@sbcglobal.net

Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE FIFTH
CIRCUIT, FILED AUGUST 20, 2019
IN THE United States Court of Appeals
for the Fifth Circuit
No. 14-10228
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees
v.
CARL CARSON,
Defendant-Appellant.
No. 15-10045
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees
v.
MICHAEL HUNTER; MARTIN CASSIDY,
Defendants-Appellants.
Appeals from the United States District Court
for the Northern District of Texas.

2a
Appendix A
August 20, 2019, Filed
Before STEWART, Chief Judge, and HIGGINBOTHAM,
JONES, SMITH, DENNIS, CLEMENT, OWEN, ELROD,
SOUTHWICK, HAYNES, GRAVES, HIGGINSON,
COSTA, WILLETT, HO, DUNCAN, ENGELHARDT,
and OLDHAM, Circuit Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge, joined
by CARL E. STEWART, Chief Judge, and JAMES L.
DENNIS, EDITH BROWN CLEMENT, JENNIFER
WALK ER ELROD, LESLIE H. SOU TH W ICK ,
CAT H ARINA H AY NES , JA M ES E. GRAV ES ,
STEPHEN A. HIGGINSON, GREGG COSTA, and
KURT D. ENGELHARDT, Circuit Judges:1
ON PETITION FOR REHEARING EN BANC
FOLLOWING REMAND FROM THE UNITED
STATES SUPREME COURT
The Supreme Court over several years has developed
protection from civil liability for persons going about their
tasks as government workers in the form of immunity; not
the absolute immunity enjoyed by prosecutors and judges,
but a qualified immunity. Today we again repair to issues
inherent in the qualification. The doctrine protects at the
earliest stage of litigation at which the defense’s application
is determinable. To that end, courts have developed
procedures and pretrial practices, including appellate
1. Judges Higginbotham and Clement, now Senior Judges of
this court, are participating as members of the original panel.

3a
Appendix A
review of pretrial denials, otherwise interlocutory and
unappealable, and a reply to an answer under Rule 7(a)
on order of the district court, particularized to address
the defense of immunity in a motion to dismiss or for
summary judgment. When those processes do not yield
pretrial resolution, as with competing factual narratives,
the full reach of qualified immunity gives way to a trial,
the first point at which its application is determinable.
And in obeisance to constitutional mandate, the worker’s
defense enjoys a right to the protection of a jury—long
a bastion interposed between the state and person, and
assured by the Founders. And it signifies that today the
district judge has multiple ways to present fully the claims
and defenses to a jury to ensure the government worker a
full draw upon his immunity defense, 2 including resolution
of the competing factual narratives, one of which—or a
meld of both—may foreclose liability. 3
In this case, police officers from Sachse, Texas argue
that the district court should have sustained their defense
of qualified immunity on their pretrial motions to dismiss
and for summary judgment. Ryan Cole and his parents
Karen and Randy (collectively “the Coles”) sue Officer
Carl Carson, Lieutenant Martin Cassidy, and Officer
2. See Fed. R. Civ. P. 49; Fifth Circuit Civil Pattern Jury
Instructions 10.3. See also McCoy v. Hernandez, 203 F.3d 371, 376
(5th Cir. 2000).
3. In any treatment of the jury’s role in stepping between stateafforded process and an individual defendant, it bears emphasis
that the district judge can impanel a jury of at least six and as many
as twelve members whose verdict, absent the parties’ agreement
otherwise, must be unanimous.

4a
Appendix A
Michael Hunter of the Sachse Police Department under 42
U.S.C. § 1983. The Coles allege that the officers violated
Ryan Cole’s Fourth and Fourteenth Amendment rights
during an incident in which Cassidy and Hunter shot Ryan
without warning, and then lied about what happened. The
officers filed dispositive pretrial motions in the district
court, asserting the defense of qualified immunity. The
district court denied these motions, concluding that
immunity could not be determined at this stage of the
proceeding. In Cole I, a panel of our court affirmed the
denial of summary judgment as to the Coles’ Fourth
Amendment excessive-force claim and the denial of the
motion to dismiss the Coles’ Fourteenth Amendment falsecharge claim, but reversed denials of the motion to dismiss
the Coles’ Fourth Amendment and Brady claims attacking
the alleged fabrication of evidence.4 The Supreme Court
vacated Cole I, and remanded for consideration in light of
its intervening decision in Mullenix v. Luna.5 On remand,
the panel affirmed the denial of summary judgment as to
the excessive-force claim. Because the Coles’ other claims
were unaffected by the reasoning of Mullenix, the panel
reinstated Cole I’s holdings on the fabrication-of-evidence
claims. We reheard this case en banc to reconsider
disposition of the Coles’ excessive-force claim in light of
Mullenix.
4. Cole v. Carson (“Cole I”), 802 F.3d 752 (5th Cir. 2015), vacated
sub nom. Hunter v. Cole, 137 S. Ct. 497, 196 L. Ed. 2d 397 (2016).
5. Hunter v. Cole, 137 S. Ct. 497, 196 L. Ed. 2d 397 (2016)
(granting certiorari, vacating, and remanding for consideration in
light of Mullenix v. Luna, 136 S. Ct. 305, 193 L. Ed. 2d 255 (2015)
(per curiam)).

5a
Appendix A
We conclude that it will be for a jury, and not judges,
to resolve the competing factual narratives as detailed
in the district court opinion and the record as to the
Coles’ excessive-force claim. Limited by our jurisdiction
to the materiality of factual disputes, we AFFIRM the
denial of summary judgment on this claim and DISMISS
Cassidy and Hunter’s appeal. The Coles’ remaining claims
are unaffected by the reasoning of Mullenix, and so, as
in Cole I, we AFFIRM denial of the motion to dismiss
the Coles’ Fourteenth Amendment false-charge claim;
REVERSE denial of the motion to dismiss the Coles’
Fourth Amendment and Brady fabrication-of-evidence
claims based on qualified immunity; and return the case
to the district court for trial and resolution of issues
consistent with this opinion.
I
A.
On October 25, 2010, at around 10:30 a.m., the Sachse
Police Department called available units to the neighboring
town of Garland, Texas. There police were searching for
Ryan Cole, a seventeen-year-old white male, reported to
be walking in the neighborhood with a handgun. Officer
Michael Hunter responded by proceeding immediately
to the Garland neighborhood. In a statement given on
the day of the incident, Hunter related that on arriving
in the neighborhood, he overheard a civilian stating
that Ryan had given up one of his guns, and that he
had unsuccessfully tried to persuade Ryan to not keep
his handgun. Hunter searched the area, and saw two

6a
Appendix A
officers following Ryan, who was walking away from them
holding his gun to his head, approaching a wooded area
along Highway 78. Although told by officers that things
were under control, Hunter volunteered to go behind the
wooded area and possibly intercept Ryan, and suggested
that Officer Carl Carson, who was also present, join him.
Four years later, after this litigation had commenced,
Hunter for the first time recalled that the civilian he had
overheard had described an altercation with Ryan in which
Ryan had threatened him. He also then for the first time
recalled hearing police-radio transmissions indicating
that officers were protecting nearby schools because of
“[Ryan]’s dangerous conduct which posed a risk of serious
harm to a great many innocent in the vicinity.” Hunter
otherwise learned nothing “that would cause [him] to
believe [Ryan] was violent or wanted to hurt anyone.”6
Hunter understood that Ryan was suicidal, and, four years
after the incident, he also raised the possibility that Ryan
was using suicide as a pretext to evade the police.
Meanwhile, Lieutenant Martin Cassidy had also heard
the original dispatcher’s summons. Cassidy called the
Sachse Police Department for more information. On the
day of the incident, Cassidy swore that he learned “this
subject had shown up at [a] residence with a handgun
and had just recently been seen walking away.” But, four
years later, after this litigation had commenced, like
Hunter, Cassidy remembered learning more, including
6. In a 2014 declaration, Hunter stated that Cole refused a police
officer’s order to surrender his weapon. Hunter did not testify that
he knew this fact at the time.

7a
Appendix A
that Ryan “had threatened to shoot anyone who tried to
take his gun”; had refused an order to drop his weapon;
and might be headed for Sachse High School “to possibly
engage in violence.” Cassidy also decided to intercept
Ryan on Highway 78.
The three officers separately arrived at the side of
Highway 78 at around the same time. Hunter parked his
motorbike and drew his duty weapon; Cassidy also drew
his firearm and advised Carson to be ready to use his taser.
The officers started walking along the tree line. A steep
embankment rose from railroad tracks to the area along
Highway 78. Ryan would have to climb this embankment
to approach the tree line. Cassidy and Hunter used both
the edge of the embankment and the vegetation to conceal
themselves as they walked. Hunter also removed his
white motorcycle helmet in order to be less conspicuous.
Cassidy soon heard a message over the police radio: Ryan
was ascending to the tree line. Hunter heard movement
in the brush, and signaled to his colleagues.
What occurred next is disputed. Viewing the summary
judgment evidence and drawing reasonable inferences in
the light most favorable to the non-movant Coles, the
district court determined that a reasonable jury could
find the following: Ryan backed out from the tree line in
front of Hunter and Cassidy, “unaware of the Officers’
presence.” 7 Ryan was holding his handgun pointed to his
7. Cole v. Hunter, 68 F. Supp. 3d 628, 645 (N.D. Tex. 2014).
Viewing the evidence in a light most favorable to the Coles, the
district court relied on the physical and audio evidence as interpreted
by the Coles’ expert crime-scene reconstructionist Thomas Bevel

8a
Appendix A
own head, where it remained. 8 “[Ryan] never pointed a
weapon at the Officers,” 9 and “never made a threatening
or provocative gesture towards [the] Officers.”10 “Officers
[Cassidy and Hunter] had the time and opportunity to
give a warning” for Ryan to disarm himself.11 However,
the officers provided “no warning . . . that granted [Ryan]
a sufficient time to respond,”12 such that Ryan “was not
given an opportunity to disarm himself before he was
shot.”13 Hunter and Cassidy then shot Ryan multiple times.
Officer Hunter’s first shot struck Ryan as he was oriented
away from the officers at a 90-degree angle—that is, he
was not facing Officer Hunter.14 Following impact of the
first shot, as Ryan’s body turned or fell towards Hunter,

who opined that “no evidence . . . would indicate Mr. Cole was or
could have been aware of the presence of the police officers prior to
the time he was shot.”

8. Cole, 68 F. Supp. 3d at 644.
9. Cole, 68 F. Supp. 3d at 644; id. at 645 (“[T]he evidence
supports Plaintiffs’ argument that Cole did not know of the Officers’
presence.”).
10. Cole, 68 F. Supp. 3d at 645-46.
11. Id. at 645. A reasonable jury could find the officers had up to
five seconds during which they could have called out to Cole, sufficient
time to make a warning according to Cole’s expert.
12. Cole, 68 F. Supp. 3d at 645.
13. Id. 644-45 (“Cole was shot before he had an opportunity to
disarm himself.”).
14. Id. at 644.

9a
Appendix A
he shot him a second time.15 As an involuntary reflex to
being shot, Ryan pulled the trigger, shooting himself in
his temple.16 But the officers did not know that.
Following the shooting, the three officers remained
together at the scene. The Coles allege that during this
time the officers conspired to insulate Cassidy and Hunter
from liability with a fabricated narrative in which Ryan
was facing Hunter and pointed his weapon at the officer, at
which point Cassidy and Hunter fired on Ryan in defense.
Eventually, members of the Garland Police Department
arrived and took control of the scene, but did not follow
the standard procedure of separating witnesses to ensure
independent recollections. Instead, Cassidy and Hunter
were allowed to return to their police station together.
Later that day, the officers provided statements to
investigators. Hunter stated that he had no chance to issue
a command to Ryan. Cassidy and Carson, however, swore
that, when Ryan backed out from the brush, they heard
Hunter shout a warning to him. Hunter and Cassidy stated
that Ryan then turned towards Hunter and pointed his
handgun at Hunter, at which point both officers—fearing
for Hunter’s life—opened fire defensively.17
The Dallas County District Attorney presented the
officers’ narrative to a grand jury, which no-billed the
officers and charged Ryan with felony aggravated assault
15. Cole, 68 F. Supp. 3d at 644.
16. Id.
17. Carson stated he could not see Cole’s movement because
Hunter obstructed his line of sight.

10a
Appendix A
of a public servant. As a result of the charge, Ryan,
incapacitated in intensive care, was placed under house
arrest. About a month after the indictment, investigators
received a ballistics report from the crime lab. The
ballistics analysis, taken together with stippling observed
around Ryan’s head wound, made clear that Ryan had shot
himself in the temple, confounding the officers’ account.18
Dallas County prosecutors then dropped the aggravated
assault charge, accepting Ryan’s plea to misdemeanor
unlawful carry of a weapon, a $500 fine, and forfeiture of
his handgun.
Ryan suffered permanent injuries, including cognitive
impairment, partial paralysis, and other serious mental
and physical disabilities.
B.
The Coles brought, inter alia, four Section 1983
claims against the officers. First, they allege a violation
of Ryan’s Fourth Amendment right against the use of
excessive force arising from the shooting. Second, the
Coles allege a violation of Ryan’s Fourteenth Amendment
right against the imposition of false charges arising from
the fabrication of evidence. Third, they allege a violation
of Ryan’s Fourth Amendment right against unreasonable
seizures arising from the fabrication of evidence. Fourth,
they allege a Brady violation arising from the fabrication
of evidence. The officers filed a motion to dismiss these
18. Stippling refers to a discoloration of the skin caused by
hot gases and residue released immediately around a discharging
firearm.

11a
Appendix A
claims under Rule 12(b)(6), asserting qualified immunity
defenses. The district court denied the motion in a January
2014 Memorandum Opinion and Order.19 Carson alone
appealed the denial of the motion to dismiss the Coles’
three fabrication-of-evidence claims based on qualified
immunity. The district court stayed these fabrication-ofevidence claims pending Carson’s appeal, allowing the
Coles limited discovery against Cassidy and Hunter’s
qualified immunity defenses to the excessive-force claim.
With that discovery complete, the two officers moved for
summary judgment, rearguing qualified immunity. The
district court denied their motion and Cassidy and Hunter
appealed.
The officers’ appeals were consolidated. In 2015, in
Cole I, a panel of this court affirmed the district court’s
denial of summary judgment on the Coles’ excessiveforce claim, affirmed denial of the motion to dismiss the
Coles’ Fourteenth Amendment false-charge claim, and
reversed the denial as to the Coles’ Fourth Amendment
and Brady fabrication-of-evidence claims, finding the
qualified immunity defense applicable for these claims.
The officers petitioned the Supreme Court for a writ of
certiorari. In November 2016, the Supreme Court granted
certiorari, vacated the panel’s judgment, and remanded
19. The Coles filed an initial complaint in September 2012. The
officers moved to dismiss or in the alternative requested that the
district court order a Rule 7(a) reply to the immunity defense. The
district court then afforded the Coles opportunity to file a Rule 7
reply or amended complaint. The Coles filed an amended complaint.
The officers then filed a second motion to dismiss.

12a
Appendix A
the case for further consideration in light of Mullenix v.
Luna, 20 decided in the intervening time. 21
On remand from the Supreme Court, recognizing that
its jurisdiction was limited to determining the materiality
of factual disputes that the district court determined were
genuine, the panel once again held that the applicability
of qualified immunity for Cassidy and Hunter could not
be determined at the summary judgment stage. 22 Finding
the Supreme Court’s remand order reached no further,
the panel reinstated the Cole I opinion on the Coles’ three
fabrication-of-evidence claims. 23 The officers moved for
rehearing en banc, which we granted. 24

20. 136 S. Ct. 305, 193 L. Ed. 2d 255 (2015).
21. As this court and others have acknowledged, when the
Supreme Court grants, vacates, and remands (“GVRs”) a case,
it does not make a decision on the merits of the case nor dictate a
particular outcome. See Diaz v. Stephens, 731 F.3d 370, 378 (5th Cir.
2013); Kenemore v. Roy, 690 F.3d 639, 641-42 (5th Cir. 2012); see also
Texas v. United States, 798 F.3d 1108, 1116, 418 U.S. App. D.C. 387
(D.C. Cir. 2015); In re Whirlpool Corp. Front-Loading Washer Prods.
Liab. Litig., 722 F.3d 838, 845 (6th Cir. 2013); Gonzalez v. Justices
of Mun. Court of Bos., 420 F.3d 5, 7 (1st Cir. 2005).
22. Cole v. Carson, 905 F.3d 334, 347 (5th Cir. 2018), reh’g
granted, 915 F.3d 378, 379 (5th Cir. 2019).
23. Id. at 341-42.
24. Cole, 915 F.3d at 379.

13a
Appendix A
II
A.
We hear this case on remand from the Court for
further consideration in light of Mullenix. We do not
reach issues unaddressed by the mandate on remand, 25
and so we hold as in Cole I with respect to the Coles’
three fabrication-of-evidence claims. First, we affirm the
district court’s denial of the motion to dismiss the Coles’
Fourteenth Amendment claim regarding the imposition
of false charges. 26 Second, finding qualified immunity
applicable, we reverse the denial of the motion to dismiss
25. Appellants argue that the Supreme Court’s 2017 decision
in Manuel v. City of Joliet, 137 S. Ct. 911, 197 L. Ed. 2d 312 (2017),
changes the legal landscape and justifies revisiting the Coles’
Fourteenth Amendment false-charge claim. Manuel holds that
“pretrial detention can violate the Fourth Amendment not only when
it precedes, but also when it follows, the start of legal process in a
criminal case,” and, therefore, that the plaintiff in that case “stated
a Fourth Amendment claim when he sought relief not merely for
his (pre-legal-process) arrest, but also for his (post-legal-process)
pretrial detention.” Manuel, 137 S. Ct. at 918-19. It does not hold
that the Fourth Amendment provides the exclusive basis for a claim
asserting pre-trial deprivations based on fabricated evidence. We
have already so determined in Jauch v. Choctaw County: “Manuel
does not address the availability of due process challenges after a
legal seizure, and it cannot be read to mean, as Defendants contend,
that only the Fourth Amendment is available to pre-trial detainees.”
Jauch v. Choctaw Cty., 874 F.3d 425, 429 (5th Cir. 2017), cert. denied
sub nom. Choctaw Cty. v. Jauch, 139 S. Ct. 638, 202 L. Ed. 2d 491
(2018).
26. See Cole I, 802 F.3d at 766-74.

14a
Appendix A
the Coles’ claim that the alleged fabrication of evidence
violated the Fourth Amendment.27 Lastly, finding qualified
immunity applicable, we reverse the denial of the motion
to dismiss the Coles’ claim that the alleged fabrication of
evidence entailed a Brady violation. 28
B.
The qualified immunity inquiry includes two parts. In
the first we ask whether the officer’s alleged conduct has
violated a federal right; in the second we ask whether the
right in question was “clearly established” at the time of
the alleged violation, such that the officer was on notice
of the unlawfulness of his or her conduct. 29 The officer is
entitled to qualified immunity if there is no violation, or
if the conduct did not violate law clearly established at
the time. 30
On an appeal of a denial of summary judgment
on the basis of qualified immunity, our jurisdiction is
limited to examining the materiality of factual disputes
the district court determined were genuine. 31 “[I]n an
interlocutory appeal we cannot challenge the district
27. See id. at 764-65.
28. See id. at 765.
29. Tolan v. Cotton, 572 U.S. 650, 655-56, 134 S. Ct. 1861, 188
L. Ed. 2d 895 (2014) (per curiam).
30. Id.
31. Lytle v. Bexar Cty., Tex., 560 F.3d 404, 408 (5th Cir. 2009);
see also id. (“If the determination of qualified immunity would
require the resolution of a genuinely disputed fact, then that fact is
material and we lack jurisdiction over the appeal.”).

15a
Appendix A
court’s assessments regarding the sufficiency of the
evidence—that is, the question whether there is enough
evidence in the record for a jury to conclude that certain
facts are true.” 32 “[W]e lack jurisdiction to resolve the
genuineness of any factual disputes” and “consider
only whether the district court erred in assessing the
legal significance of the conduct that the district court
deemed sufficiently supported for purposes of summary
judgment.” 33 Like the district court, we must view the
facts and draw reasonable inferences in the light most
favorable to the plaintiff and ask whether the defendant
would be entitled to qualified immunity on those facts. 34
The Supreme Court has summarily reversed this court for
failing to take the evidence and draw factual inferences in
the non-movants’ favor at the summary judgment stage. 35
In doing so, the Court emphasized that the requirement
is no less binding “even when . . . a court decides only the
clearly-established prong of the standard.” 36 Within the
limited scope of our inquiry, review is de novo. 37
As instructed, we turn to the guidance provided by
the Supreme Court in Mullenix. In that case, the Court
32. Trent v. Wade, 776 F.3d 368, 376 (5th Cir. 2015) (quoting
Kinney v. Weaver, 367 F.3d 337, 347 (5th Cir. 2004) (en banc)).
33. Id. (internal quotations omitted).
34. Lytle, 560 F.3d at 409.
35. Tolan, 572 U.S. at 660.
36. Id. at 657.
37. Trent, 776 F.3d at 376.

16a
Appendix A
reviewed a denial of qualified immunity to an officer who
had shot and killed a fugitive in a car chase. This court
had decided that the officer violated the clearly established
rule that deadly force was prohibited “against a fleeing
felon who does not pose a sufficient threat of harm to the
officer or others.” 38 The officer in Mullenix reasonably
perceived some threat of harm, but we had held the threat
was not “sufficient.” The Supreme Court reversed our
decision. It found that the rule we articulated lacked a
referent to define the “sufficiency” of threats.39 Precedents
provided a “hazy legal backdrop,” at best.40 Given these
deficient sources, an officer could not reasonably derive
an applicable rule to govern his or her conduct in the
situation.41 Finding that we had defined the applicable
rule with too much “generality,”42 the Court reversed our
holding that the officer had violated clearly established
law.43
Under Mullenix, application of clearly established law
is undertaken with close attention to the relevant legal rule
and the particular facts of the case. Here, based on the
facts taken in the light most favorable to the non-movant
38. Mullenix, 136 S. Ct. at 308-09 (internal quotation marks
omitted).
39. Id. at 309.
40. Id. at 309-10.
41. Id.
42. Id. at 311.
43. Id. at 312.

17a
Appendix A
Coles, and with reasonable inferences drawn in their favor,
the district court determined there were genuine factual
disputes as to Ryan’s and the officers’ conduct, upon which
a reasonable jury could find “[Ryan] . . . did not pose an
immediate threat to the officers” when they opened fire.44
It held that “on October 25, 2010, the date of the shooting,
the law was clearly established” that “shooting a mentally
disturbed teenager, who was pointing a gun the entire
time at his own head and facing away from the officer,
in an open outdoor area, and who was unaware of the
officer’s presence because no warning was given prior to
the officer opening fire, was unlawful.”45 As we will detail,
the officers ask us to consider a different set of facts, but
we cannot do so. We lack jurisdiction to reconsider the
district court’s factual determinations on an appeal from
denial of summary judgment on qualified immunity.
Tennessee v. Garner announced the principle that the
use of deadly force is permitted only to protect the life of
the shooting officer or others: “Where the suspect poses
no immediate threat to the officer and no threat to others,
the harm resulting from failing to apprehend him does
not justify the use of deadly force to do so.”46 Garner also
requires a warning before deadly force is used “where
feasible,”47 a critical component of risk assessment and
44. Cole, 68 F. Supp. 3d at 645.
45. Id. at 643.
46. Tennessee v. Garner, 471 U.S. 1, 11, 105 S. Ct. 1694, 85 L.
Ed. 2d 1 (1985).
47. Id. at 11-12; see also Colston v. Barnhart, 130 F.3d 96, 100
(5th Cir. 1997).

18a
Appendix A
de-escalation. The Supreme Court has repeatedly stated
that this rule can be sufficient in obvious cases, and this
court has applied it in such cases, without dependence on
the fact patterns of other cases.48
The summary judgment facts, as determined by the
district court, are that Ryan posed no threat to the officers
or others to support firing without warning. The “Officers
had the time and opportunity to give a warning and yet
chose to shoot first instead.”49 This is an obvious case.
Indeed, Officer Hunter conceded that he would have had
no basis to fire upon Ryan unless Ryan had been facing
him and pointing a gun at him.
This case is obvious when we accept the facts as we
must. It is also informed by our precedent. Before 2010,
Baker v. Putnal established clearly that Cassidy’s and
Hunter’s conduct—on the facts as we must take them
at this stage—was unlawful. For in Baker, members of
the public told Officer Michael Putnal, a police officer
patrolling a crowded Galveston beach area during spring
break, that “someone had entered the crowd with a pistolgripped shotgun.”50 Minutes later, Officer Putnal heard

48. See White v. Pauly, 137 S. Ct. 548, 552, 196 L. Ed. 2d 463
(2017) (per curiam); Mason v. Lafayette City-Parish Consol. Gov’t,
806 F.3d 268, 277-78 (5th Cir. 2015); cf. Hope v. Pelzer, 536 U.S. 730,
741, 122 S. Ct. 2508, 153 L. Ed. 2d 666 (2002); Newman v. Guedry,
703 F.3d 757, 764 (5th Cir. 2012).
49. Cole, 68 F. Supp. 3d at 645.
50. Baker v. Putnal, 75 F.3d 190, 193 (5th Cir. 1996).

19a
Appendix A
gunfire and saw the crowd scurrying.51 There was “a good
deal of confusion on the beach.”52 Two people directed
the officer to a car in which the gunman was supposedly
sitting. 53 Putnal then saw Wendell Baker Jr. and another
man sitting in a truck parked on the beach. 54 The parties
disputed what happened next. Putnal stated he saw Baker
loading a magazine into a handgun, that he warned Baker
to freeze or drop the gun, that Baker instead turned
the gun upon Putnal, at which point Putnal fired, killing
Baker. 55 However, witnesses “state[d] that [Baker] took
no threatening action . . . as the officer approached the
truck,” that Putnal issued no warning to Baker, and that
“Baker . . . may have barely had an opportunity to see
Putnal before [the officer] fired his gun.”56 The parties
did not dispute that Putnal had been searching for a
gunman, and that a gun had been recovered from Baker’s
seat, although they disputed whether and how Baker had
been holding it, that is, whether he pointed it at Putnal. 57
It was also undisputed that Baker was turning to face
Putnal from his seat, although medical reports indicated
from “the nature of the wounds . . . that Baker . . . was
51. Id.
52. Id. at 198.
53. Id. at 193.
54. Id.
55. Id. at 198.
56. Id.
57. Id.

20a
Appendix A
not facing Putnal when he was shot.”58 Baker’s survivors
sued the officer, bringing, inter alia, a Fourth Amendment
excessive-force claim. 59 The district court granted Putnal
qualified immunity, crediting his account that he had fired
in response to Baker turning and aiming the gun at him.60
On appeal, we reversed and remanded the excessiveforce claim for trial.61 Recognizing the dispute as to the
officer’s warning, Baker’s turn, and the position of Baker’s
gun, we found “simply too many factual issues to permit
the Bakers’ § 1983 claims to be disposed of on summary
judgment.”62 “Chaos on the beach and Baker[‘s] mere
motion to turn and face Putnal are not compelling reasons
to find that [the officer’s] use of force was not excessive as a
matter of law.”63 Viewing the facts and drawing inferences
“in the light most favorable to the nonmoving party,” we
held that “[t]he number of shots and the nature of the
wounds raise . . . more of a question of fact than a court
may dispose of on summary judgment.”64
The Supreme Court’s more recent qualified immunity
decisions do not shift this analysis. In Kisela v. Hughes,
police officers in Tucson, Arizona responded to a call that
58. Id.
59. Id. at 193.
60. Id. at 197.
61. Id. at 198.
62. Id.
63. Id.
64. Id. at 198-99.

21a
Appendix A
a woman was behaving erratically with a knife and that
she had been hacking at a tree.65 When officers arrived on
scene, the suspect, Amy Hughes, emerged from a house
holding a large kitchen knife, and approached to within
“striking distance” of a bystander in the driveway.66 One
of the officers, Andrew Kisela, whose further approach
was impeded by a chain-link fence, repeatedly ordered
Hughes to drop the knife, but Hughes did not follow his
commands.67 Kisela then fired on Hughes through the
fence.68 Hughes brought a Section 1983 excessive force
claim against Kisela.69 Reviewing a denial of qualified
immunity to Kisela, the Supreme Court held that, in light
of the officer’s limited knowledge of the situation and
Hughes’s refusal to follow his repeated commands to drop
the knife while within striking distance of the bystander—
obstinance that heightened the risk of immediate harm to
another—the law did not clearly establish that the officer’s
resort to deadly force was unlawful.70
In this case, Officers Cassidy and Hunter found
themselves in a search for a suicidal teenager who they
knew had already encountered fellow officers and walked
65. Kisela v. Hughes, 138 S. Ct. 1148, 1151, 200 L. Ed. 2d 449
(2018) (per curiam).
66. Id.; id. at 1154.
67. Id. at 1151.
68. Id.
69. Id.
70. Id. at 1153.

22a
Appendix A
away from them with his gun to his head, non-responsive,
but without aggressive action. The circumstances of
the officers’ encounter with Ryan, as in Baker, remain
heavily disputed: as to whether Ryan was aware of the
officers, whether and how he turned and aimed his gun,
and whether Hunter warned Ryan to disarm himself.
The district court here defined the facts in a 21-page
opinion, finding genuine disputes regarding these facts,
and, viewing these disputes in a light most favorable to
the Coles, concluded that a reasonable jury could find that
Ryan made no threatening or provocative gesture to the
officers and posed no immediate threat to them. Unlike
in Kisela, where the officer repeatedly warned an armed
suspect to disarm, yet that suspect, facing the officer and
hearing his warnings, refused to disarm, here the district
court concluded that a reasonable jury could find Cassidy
and Hunter opened fire upon Ryan without warning, even
though it was feasible. On these facts, the officers’ conduct
violates clearly established law.
Rather than engage on the facts as we must take them
at the summary judgment stage, the officers repeatedly
argue from a different set of facts. While the district court
found that Ryan was initially facing away from the officers
when they fired the first shot, the officers now describe his
“armed turn towards Officer Hunter.” While the district
court found that Ryan kept his gun aimed at his own
head and never pointed it at the officers, the officers now
suggest that Ryan’s gun was “below his head,” moving
towards Hunter, and then only momentarily turned back
towards Ryan’s head at the moment he fired (ignoring
Hunter’s sworn statement that he fired only when the gun

23a
Appendix A
was pointed toward him—a story prosecutors accepted
until a ballistics report exposed its impossibility). And
although the district court found that Ryan was not given
an opportunity to disarm himself, the officers contend
that he was warned to disarm before being shot. “Had
the Officers delayed longer, reaction time lag would have
precluded their ability to stop [Ryan] from shooting Officer
Hunter,” they argue. Based on this alternative set of facts,
echoed again in oral argument to us as a full court, and in
the teeth of those found by the district court, the officers
now contend Ryan posed a “deadly threat,” and no clearly
established law in 2010 put the officers’ response of firing
in self-defense beyond the law.
The Coles and amicus Cato Institute are correct that
it is beyond our jurisdiction to consider the officers’ set
of facts, a narrative evolving over time. “[I]f an excessive
force claim turns on which of two conflicting stories best
captures what happened on the street,” the caselaw “will
not permit summary judgment in favor of the defendant
official. . . . [A] trial must be had.” 71 Whereas the officers
will have a chance to present their factual narrative—and
to question the Coles’—at trial, they cannot contest the
facts in the current appeal.72
71. Saucier v. Katz, 533 U.S. 194, 216, 121 S. Ct. 2151, 150 L.
Ed. 2d 272 (2001) (Ginsburg, J. concurring). see also Tolan, 572 U.S.
at 660; id. at 662 (Alito, J., joined by Scalia, J., concurring in the
judgment) (agreeing that “summary judgment should not have been
granted” in that case because of the genuine issues of material fact);
Lytle, 560 F.3d at 408-09.
72. Cf. Tolan, 572 U.S. at 660 (“The witnesses on both sides
come to this case with their own perceptions, recollections, and even

24a
Appendix A
The dissents also take issue with the disputed facts.
Judge Duncan focuses on what he terms “undisputed
pre-encounter events.” But, particularly in light of the
officers’ evolving stories, it is disputed whether any of
the events recounted were known to Hunter or Cassidy
when they fired on Ryan. The dissent cites to the reports
and affidavits of other officers and individuals to describe
the events occurring before Hunter and Cassidy were
called to the scene.73 But looking at the evidence in the
light most favorable to the Coles, Hunter and Cassidy
were not aware of the disturbance at the Coles’ house the
previous night, the alleged cache of weapons left at the
Reeds’ house, Ryan’s alleged suicidal threat, or his threat
to shoot anyone who came near him.
And of course, what matters is what the defendant
officers knew when they shot Ryan. See, e.g., White
v. Pauly, 137 S. Ct. 548, 550, 196 L. Ed. 2d 463 (2017)
(per curiam) (“Because this case concerns the defense
of qualified immunity . . . the Court considers only the
facts that were knowable to the defendant officers.”);
Kingsley v. Hendrickson, 135 S. Ct. 2466, 2474, 192 L.
potential biases. It is in part for that reason that genuine disputes are
generally resolved by juries in our adversarial system. By weighing
the evidence and reaching factual inferences contrary to [the
plaintiff’s] competent evidence, the court below neglected to adhere
to the fundamental principle that at the summary judgment stage,
reasonable inferences should be drawn in favor of the nonmoving
party.”).

73. Recall that Hunter was a late-arriving officer who was not
instructed by the Sachse or Garland police departments to pursue
Ryan. See supra at 4.

25a
Appendix A
Ed. 2d 416 (2015) (stressing that “a court must judge the
reasonableness of the force used from the perspective
and with the knowledge of the defendant officer”). The
dissents overlook the fundamental reason most of these
facts should not be part of the analysis: we consider only
what the officers knew at the time of their challenged
conduct. “Facts an officer learns after the incident ends—
whether those facts would support granting immunity or
denying it—are not relevant.” Hernandez v. Mesa, 137 S.
Ct. 2003, 2007, 198 L. Ed. 2d 625 (2017) (per curiam); see
also Brown v. Callahan, 623 F.3d 249, 253 (“An official’s
actions must be judged in light of the circumstances that
confronted him, without the benefit of hindsight.” (citing
Graham v. Connor, 490 U.S. 386, 396-97, 109 S. Ct. 1865,
104 L. Ed. 2d 443 (1989))). Despite the many “red flags”
listed by the dissents as known to others, only those
known to Hunter and Cassidy are relevant to the qualified
immunity analysis.
Judge Jones’s dissent fares no better in addressing
some of the key facts of the shooting itself. Contrary
to its assertion, the district court found that Ryan was
facing at a 90-degree angle away from the officers when
he was first shot. Cole, 68 F. Supp. 3d at 644. As for the
“warning,” the district court found that a reasonable jury
could conclude that Ryan “was not given an opportunity
to disarm himself before he was shot.” Id. Relitigating
the district court’s assessment of factual disputes is not
our role on interlocutory review.
What Hunter and Cassidy knew before shooting at
Ryan, whether they warned him before doing so, and what

26a
Appendix A
actions Ryan took before being shot are all disputed. The
district court must afford Cassidy and Hunter qualified
immunity at the earliest point the defense’s applicability is
determinable. Here, we have not yet reached that point. It
will be for a jury to resolve what happened on October 25,
2010. The district court did not err in denying the officers
qualified immunity at the summary judgment stage.
III
The district court determined that genuine disputes
of fact regarding Cassidy’s and Hunter’s entitlement to
qualified immunity remain. We AFFIRM the district
court’s denial of summary judgment on the Coles’
excessive-force claim and DISMISS Cassidy and Hunter’s
appeal; AFFIRM denial of the motion to dismiss the
Coles’ Fourteenth Amendment false-charges claim;
REVERSE denial of the motion to dismiss the Coles’
Fourth Amendment and Brady fabrication-of-evidence
claims; and return the case to the district court for trial
and resolution of issues consistent with this opinion.

27a
Appendix A
JENNIFER WALKER ELROD, Circuit Judge, joined by
CARL E. STEWART, Chief Judge, and EDITH BROWN
CLEMENT, CATHARINA HAYNES, STEPHEN
A. HIGGINSON, GREGG COSTA, and KURT D.
ENGELHARDT, Circuit Judges, concurring:
I concur fully in the majority opinion. Despite the
outcry of the dissenting opinions, there is no new law
being made or old law being ignored. The majority opinion
takes no position on the public policy issues of the day
regarding policing and the mentally ill. Rather, it follows
the longstanding en banc rule that “we lack jurisdiction to
review the genuineness of a fact issue” on an interlocutory
appeal of a denial of summary judgment based on qualified
immunity. Melton v. Phillips, 875 F.3d 256, 261 (5th Cir.
2017) (en banc) (quoting Allen v. Cisneros, 815 F.3d 239,
244 (5th Cir. 2016)); Kinney v. Weaver, 367 F.3d 337, 341,
346-47 (5th Cir. 2004) (en banc). As the able district court
determined, the facts are very much in dispute.

28a
Appendix A
EDITH H. JONES, Circuit Judge, joined by SMITH,
OWEN, HO, DUNCAN and OLDHAM, Circuit Judges,
dissenting:
What “clearly established law” says that only a rogue
cop would have shot at this mentally disturbed teenager
within 3 to 5 seconds as the teen emerged from dense
bushes ten to twenty feet away from Officer Hunter and,
with his finger on the trigger of a loaded pistol pointed in
the direction of his own head, began turning in the officer’s
direction? The majority state this is an “obvious case”
for the denial of qualified immunity: the officers could
not shoot without first announcing themselves to Cole or
looking down the barrel of his gun. What is so obvious?
Contrary to the majority’s dangerously unrealistic
proposition, “action beats reaction” every time. Ontiveros
v. City of Rosenberg, 564 F.3d 379, 384 (5th Cir. 2009).
Neither we nor the Supreme Court has ever held that
police officers confronted in close quarters with a suspect
armed and ready to shoot must hope they are faster on
the draw and more accurate. The increasingly risky
profession of law enforcement cannot put those sworn to
“serve and protect” to a Hobson’s choice: place their lives
on the line by heroic forbearance or risk their financial
security in defense of lawsuits. The Supreme Court has
repeatedly stated in plain terms that the purpose of
qualified immunity is to prevent precisely this quandary.
Respectfully dissenting, we are convinced that the
Supreme Court’s remand from the original panel opinion
denying immunity meant something; the governing
Supreme Court law is foursquare in the corner of Officers

29a
Appendix A
Hunter and Cassidy; and they were entitled to receive
summary judgment confirming their immunity from suit,
not simply from liability.1
I. Background
A. 	Undisputed facts
The majority opinion paints a picture of the relevant
facts that has evolved considerably from the first and
second panel opinions to this final majority version.
Compare Cole v. Carson, 802 F.3d 752, 755-56, 758 (5th
Cir. 2015), vacated sub nom. Hunter v. Cole, 137 S. Ct.
497, 196 L. Ed. 2d 397 (Cole I), with Cole v. Carson, 905
F.3d 334, 337-340 (5th Cir. 2018) (Cole II), and supra.
Qualified immunity for the use of deadly force is assessed
at the moment a law enforcement officer confronts a
suspect, Graham v. Connor, 490 U.S. 386, 397, 109 S.
Ct. 1865, 1872, 104 L. Ed. 2d 443 (1989), but the officer’s
understanding of facts leading up to the event color
the question whether “a reasonable officer” could have
believed his life or the lives of others were endangered.
White v. Pauly, 137 S. Ct. 548, 550, 552, 196 L. Ed. 2d
1. We do not challenge the majority’s decision to leave in place
fabricated evidence charges against these two officers and Officer
Carson. Only Carson, who was present at the encounter but did not
shoot, appealed the district court’s refusal to dismiss that claim.
The Supreme Court has not been clear on the constitutional basis for
such a claim, so we have no ground to criticize the majority. Compare
Manuel v. City of Joliet, 137 S. Ct. 911, 197 L. Ed. 2d 312 (2017),
with McDonough v. Smith, 139 S. Ct. 2149, 204 L. Ed. 2d 506 (2019),
(refusing to rule on the constitutional grounding of such claims).

30a
Appendix A
463 (2017). To the majority’s picture, it is necessary to
add undisputed facts recited in the prior opinions and
undisputed evidence from plaintiffs’ experts. Hornbook
summary judgment law holds that although disputed facts
are viewed in the light most favorable to non-movants, the
entire record must be considered. Scott v. Harris, 550 U.S.
372, 380, 127 S. Ct. 1769, 1776, 167 L. Ed. 2d 686 (2007).
Further, this court reviews de novo the materiality of the
relevant facts. Foley v. Univ. of Houston, Sys., 355 F.3d
333, 337 (5th Cir. 2003).
First, both officers who shot at Cole were aware that
he had mental issues. Officer Cassidy had learned that
Cole “had threatened to shoot anyone who tried to take
his gun and had refused an order to drop his weapon.”
Cole II, 905 F.3d at 338. Officer Hunter watched Cole walk
steadily down the train tracks ignoring other police who
were yelling at him to stop and put down his 9 mm semiautomatic pistol. Both officers were aware that a bulletin
had been disseminated about Cole to all law enforcement
in Garland and Sachse, and three nearby schools in the
vicinity of Highway 78, where Cole was heading, were
being protected. Cole II, 905 F.3d at 337-38.
Second, Cole emerged from the vegetation, unaware
of the officers’ presence, within ten to twenty feet of
Officer Hunter, and as he turned toward the officers,
three to five seconds elapsed. That’s less time than it
takes to read the preceding sentence. Cole initially stood
at a 90 degree angle to the police and then began turning
counterclockwise toward them. His movement is conceded
by plaintiffs’ expert, supported by the ballistic evidence,

31a
Appendix A
and recounted in the district court opinion. Cole II, 905
F.3d at 338 (“Cole began to turn counterclockwise.”).
Plaintiff’s expert opines this interval was sufficient for
the officers to command Cole to disarm and observe his
reaction.
Third, his loaded pistol was pointed within thirty
inches toward his head, Cole I, 802 F.3d at 756, and Cole’s
finger was on the trigger.
Next, the officers fired seven shots, two of which hit
Cole. Officer Hunter’s first shot hit Cole in the left arm,
penetrating his body from the left. Another of Hunter’s
shots merely grazed Cole’s left arm as he continued to
turn and was facing Hunter. Cole II, 905 F.3d at 339. Cole’s
gun, according to the plaintiffs, involuntarily discharged
and hit him in the head, “leaving stippling—gunpowder
residue around the wound due to the gun being fired from
less than thirty inches away.” Cole I, 802 F.3d at 756.
Finally, the bodycam evidence shows that some officer
began to issue a warning at about the time the shooting
started. Cole II, 905 F.3d at 338.
B. 	Prior panel reasoning
The district court denied qualified immunity to Hunter
and Cassidy for the shooting 2 and refused to dismiss the
2. Query why Officer Cassidy, whose shots didn’t hit the victim,
can be sued? This court has held that qualified immunity must be
applied individually to each defendant. Meadours v. Ermel, 483 F.3d
417, 421-22 (5th Cir. 2007). But no one raised the point here.

32a
Appendix A
allegations of falsified evidence against Hunter, Cassidy,
and Carson.
The original panel opinion affirmed, 3 concluding as to
the excessive force allegation that “if the Coles’ version of
the evidence is believed, it was not objectively reasonable
to use deadly force against Ryan Cole when the teenager
emerged on foot from the wooded area with a gun to his
own head and turned left.” With regard to immunity,
the panel held that by October 2010, “reasonable officers
were on notice that they could not lawfully use deadly
force to stop a fleeing person who did not pose a severe
and immediate risk to the officers or others, and they had
many examples of the sorts of threatening actions which
could justify deadly force. Turning left while unaware of
an officer’s presence is not among them.” Cole I, 802 F.3d
at 762 (emphasis added) (footnote omitted). The panel’s
principal support for its legal reasoning was Luna v.
Mullenix, 773 F.3d 712 (5th Cir. 2014), rev’d sub nom.
Mullenix v. Luna, 136 S. Ct. 305, 193 L. Ed. 2d 255 (2015).
According to the panel, “the central [disputed] issue” is
“whether Ryan pointed his gun at Officer Hunter.” Cole I,
802 F.3d at 762. Absent such a threatening gesture, Cole
was said to present no sufficient threat. Id.
The next panel opinion was formulated after the
Supreme Court reversed us in Mullenix on the grounds
3. The correct disposition if this court agrees there are
material fact issues in dispute regarding qualified immunity would
be to dismiss the appeal, because our appellate jurisdiction exists
only over questions of law. Mitchell v. Forsyth, 472 U.S. 511, 529-30,
105 S. Ct. 2806, 2816-17, 86 L. Ed. 2d 411 (1985).

33a
Appendix A
that “none of our [the Supreme Court’s own] precedents
‘squarely governs’ the facts here. Given [the suspect’s]
conduct, we cannot say that only someone ‘plainly
incompetent’ or who ‘knowingly violate[s] the law’ would
have perceived a sufficient threat and acted as [the officer]
did.” 136 S. Ct. at 310. On this second go-round, the panel
conceded the deficiency of the “no sufficient threat” rule,
but then concluded that, taken in the light most favorable
to the plaintiffs, Cole’s conduct posed “no threat” when
he was shot, Cole II, 905 F.3d at 343, and the officers
therefore violated a clearly established “no threat” rule.
Tennessee v. Garner is cited as the basis for this “bright
line” rule.4 471 U.S. 1, 105 S. Ct. 1694, 85 L. Ed. 2d 1
(1985). This opinion was vacated by a vote to reconsider
the case en banc.
C. 	The Current Majority Opinion
Pivoting yet again, the en banc majority opinion
commences with a paean to “the worker’s . . . right to the
protection of a jury,” not even bothering to cite Supreme
Court authorities that explain why qualified immunity is
immunity from suit, not just liability. The majority opinion
4. The panel curiously described so-called clearly established
law in both of its opinions with references to unpublished, nonprecedential Fifth Circuit cases. The Supreme Court has expressed
uncertainty over whether any circuit court cases, as opposed to its
own decisions, may set out “clearly established law.” See Dist. of
Columbia v. Wesby, 138 S. Ct. 577, 591 n. 8, 199 L. Ed. 2d 453 (2018);
Carroll v. Carman, 574 U.S. 13, 135 S. Ct. 348, 350, 190 L. Ed. 2d 311
(2014); Reichle v. Howards, 566 U.S. 658, 665-66, 132 S. Ct. 2088,
2094, 182 L. Ed. 2d 985 (2012). It is incredible that this court would
cite our avowedly non-precedential decisions for that purpose.

34a
Appendix A
omits or ignores material undisputed facts recited above—
the knowledge of the officers, Cole’s turning toward
them, the significance of his finger in a loaded pistol, and
the three to five second interval—and hides behind the
assertion that, relevant to qualified immunity, there are
“genuine factual disputes as to Ryan’s and the officers’
conduct” such that a reasonable jury could find that Cole
posed no “immediate threat” to the officers or others. Two
paragraphs later, asserting that Cole posed “no threat
. . . to support firing without warning,” the majority deem
this an “obvious case” for denial of immunity, because
the “officers had time and opportunity to give a warning
and yet chose to shoot first instead.” The “obvious case”
rationale again derives, in the majority’s view, from
Garner, fortified only by one Fifth Circuit case and the
Supreme Court’s decision in Kisela v Hughes. 5
DISCUSSION
The only legal question that needs to be addressed
by this court is whether, under the circumstances of this
five-second confrontation, every reasonable police officer
would have reasonably perceived no life-threatening
danger such that deadly force could be used to incapacitate
Cole without a preliminary warning. Put otherwise, as a
matter of law, was it clearly established that officers may
not fire on a suspect, armed and ready to shoot a pistol,
who is turning in their direction with one of their brethren
5. This dissent focuses on the majority opinion because
Appellees’ briefing offered nothing in addition to the meager
authorities cited by the majority to support their “clearly established
law” theory.

35a
Appendix A
ten to twenty feet away, unless the gun barrel points at
them or they first shout a warning and await his response?
The majority deny qualified immunity, seeming to
answer on the basis of “disputed fact issues” that Cole
posed “no threat.” The majority’s reasoning is at too high
a level of generality. And the majority ignore the critical
criterion for qualified immunity in Fourth Amendment
cases: the reasonableness of the officers’ reasonable
perceptions. In sum, the majority here double down on
the mistakes that got our court reversed in Mullenix.6
Before discussing these problems in detail, it is
necessary to recapitulate the reasoning behind the
Supreme Court’s qualified immunity cases. The majority’s
bare mention of the standards for qualified immunity
ignores the Court’s rationale for the defense. Beginning
with Monroe v. Pape in 1961, the Supreme Court unleashed
federal courts to enforce constitutional commands against
state actors pursuant to 42 U.S.C. § 1983. See Monroe
v. Pape, 365 U.S. 167, 187, 81 S. Ct. 473, 484, 5 L. Ed.
2d 492 (1961). A foreseeable consequence of facilitating
such lawsuits was that a deluge of litigation would follow,
at least some of it ill-founded or frivolous. What was to
be done to limit claims to those that might have merit?
The Court decided in Pierson v. Ray that police officers
6. In Mullenix, the Supreme Court reversed this court and
held an officer entitled as a matter of law to qualified immunity when
he shot, and killed, a suspect fleeing from the police in his car at high
speed. Following Mullenix, the Supreme Court vacated the judgment
and remanded Cole I, no doubt in part because Cole I heavily relied
on the reversed panel decision in Mullenix.

36a
Appendix A
sued under Section 1983 should enjoy qualified immunity
accorded at common law. 386 U.S. 547, 556-57, 87 S. Ct.
1213, 1219, 18 L. Ed. 2d 288 (1967).
For over fifty years, the Court has developed the
standards of qualified immunity, well aware from the
beginning that “the local police officer” is “that segment
of the executive branch . . . that is most frequently and
intimately involved in day-to-day contacts with the
citizenry, and hence, most frequently exposed to situations
which can give rise to claims under Sec. 1983 . . . .” Scheuer
v. Rhodes, 416 U.S. 232, 244-45, 94 S. Ct. 1683, 1691-92, 40
L. Ed. 2d 90 (1974). The breadth of this shield represents
a deliberate balance between affording a damages remedy
for constitutional abuses and the social and personal costs
inflicted by meritless claims. Anderson v. Creighton, 483
U.S. 635, 638, 107 S. Ct. 3034, 3038, 97 L. Ed. 2d 523
(1987). The costs to society include the costs of litigation,
the diversion of limited public resources, the deterrence
of able people from going into public service, and the
danger that fear of being sued will discourage officials
from vigorously performing their jobs. Id.; Harlow v.
Fitzgerald, 457 U.S. 800, 814, 102 S. Ct. 2727, 2736, 73
L. Ed. 2d 396 (1982). The devastating costs imposed
by unfounded lawsuits on officers otherwise entitled
to immunity are reputational, potentially employmentrelated, financial and emotional. For these reasons, the
Court has repeatedly explained that qualified immunity
shields public officials not just from liability but from
suit. See Mitchell v. Forsyth, 472 U.S. 511, 526, 105 S. Ct.
2806, 2815, 86 L. Ed. 2d 411 (1985); Pearson v. Callahan,
555 U.S. 223, 231, 129 S. Ct. 808, 815, 172 L. Ed. 2d 565

37a
Appendix A
(2009) (“Qualified immunity is lost if a case is erroneously
permitted to go to trial.”). Some in the lower federal courts
may disapprove of the Court’s half century of authorities,
but we may not functionally disregard them.
Nearly as venerable as the general defense of
qualified immunity are the decisions applying it to
Fourth Amendment claims against law enforcement
officers. Anderson v. Creighton affirmed in 1987 that a
law enforcement officer who participates in a warrantless
search may be entitled to qualified immunity “if he could
establish as a matter of law that a reasonable officer
could have believed the search to be lawful.” 483 U.S. at
638, 107 S. Ct. at 3038. Justice Scalia’s opinion reminded
that “qualified immunity protects all but the plainly
incompetent or those who knowingly violate the law.” Id.
(internal quotation marks omitted). In determining the
objective legal reasonableness of the allegedly unlawful
action, “[i]t should not be surprising . . . that our cases
establish that the right the official is alleged to have
violated must have been ‘clearly established’ in a more
particularized, and hence more relevant, sense: The
contours of the right must be sufficiently clear that a
reasonable official would understand that what he is doing
violates that right.” Id. at 640, 107 S. Ct. at 3039.
T wo years later, the Court clar if ied that for
alleged Fourth Amendment excessive force violations,
reasonableness “must be judged from the perspective
of a reasonable officer on the scene, rather than with
the 20/20 vision of hindsight.” Graham, 490 U.S. at
396, 109 S. Ct. at 1872. The calculus of “reasonableness
must embody allowance for the fact that police officers

38a
Appendix A
are often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary in
a particular situation.” Id. at 396-97, 109 S. Ct. at 1872.
Ultimately, “the question is whether the officers’ actions
are ‘objectively reasonable’ in light of the facts and
circumstances confronting them . . . .” Id. at 397, 109 S.
Ct. at 1872. Quoting these statements from Graham, the
Court later explained that the test for qualified immunity
for excessive force “has a further dimension” in addition
to the deferential, on-the-scene evaluation of objective
reasonableness. Saucier v. Katz, 533 U.S. 194, 205, 121 S.
Ct. 2151, 2158, 150 L. Ed. 2d 272 (2001). Justice Kennedy
explained: “The concern of the immunity inquiry is to
acknowledge that reasonable mistakes can be made as
to the legal constraints on particular police conduct.” Id.
“Qualified immunity operates in this case, then, just as
it does in others, to protect officers from the sometimes
hazy border between excessive and acceptable force and
to ensure that before they are subjected to suit, officers
are on notice their conduct is unlawful.” Id. at 206, 121 S.
Ct. at 2158 (internal citation and quotation marks omitted).
Evaluating the qualified immunity defense is thus a
two-step process. The first is to determine whether the
Fourth Amendment has been violated by conduct that,
viewed from the officer’s perspective and information at
the time, is objectively unreasonable.7 The second step
7. For present purposes, we “address only the qualified
immunity question, not whether there was a Fourth Amendment
violation in the first place.” Mullenix, 136 S. Ct. at 308; Pearson,
555 U.S. at 236, 129 S. Ct. at 818 (constitutional violation or qualified
immunity may be decided first).

39a
Appendix A
assesses the objective legal reasonableness of the action,
that is, whether every reasonable officer would have known
that the conduct in question was illegal. See Pearson, 555
U.S. at 232, 129 S. Ct. at 815-16. The illegality must have
been apparent, as held in cases that are factually similar
to the situation confronting the officer. White, 137 S. Ct.
at 552. Immunity must be granted to all but the plainly
incompetent or those who knowingly violate the law. The
Supreme Court has enforced immunity where officers
acted negligently, Anderson, 483 U.S. at 641, 107 S. Ct. at
3039-40; or when they could have used another method to
subdue a suspect, Mullenix, 136 S. Ct at 310; or when the
law governing their behavior in particular circumstances
is unclear. White, 137 S. Ct. at 552. The Court emphasizes
that the specificity of the applicable “clearly established”
rule is especially important in Fourth Amendment cases.
Mullenix, 136 S. Ct. at 308.
By denying plaintiffs their “day in court” at a
preliminary stage, qualified immunity operates as a
counterintuitive, albeit vital, defense. Thus, the Supreme
Court has regularly reversed denials of qualified immunity
where lower courts misapplied the standards. See Wesby
v. District of Columbia, 816 F.3d 96, 102, 421 U.S. App.
D.C. 391 (D.C. Cir. 2016) (Kavanaugh, J., dissenting)
(citing eleven Supreme Court cases in five years reversing
lower courts in the qualified immunity context including
Mullenix v. Luna, 136 S. Ct. 305, 193 L. Ed. 2d 255 (2015),
Taylor v. Barkes, 135 S. Ct. 2042, 192 L. Ed. 2d 78 (2015);
City and County of San Francisco, Calif. v. Sheehan, 135
S. Ct. 1765, 191 L. Ed. 2d 856 (2015); Carroll v. Carman,
574 U.S. 13, 135 S. Ct. 348, 190 L. Ed. 2d 311 (2014);

40a
Appendix A
Plumhoff v. Rickard, 572 U.S. 765, 134 S. Ct. 2012, 188
L. Ed. 2d 1056 (2014); Wood v. Moss, 572 U.S. 744, 134 S.
Ct. 2056, 188 L. Ed. 2d 1039 (2014); Stanton v. Sims, 571
U.S. 3, 134 S. Ct. 3, 187 L. Ed. 2d 341 (2013); Reichle v.
Howards, 566 U.S. 658, 132 S. Ct. 2088, 182 L. Ed. 2d 985
(2012); Ryburn v. Huff, 565 U.S. 469, 132 S. Ct. 987, 181 L.
Ed. 2d 966 (2012); Messerschmidt v. Millender, 565 U.S.
535, 132 S. Ct. 1235, 182 L. Ed. 2d 47 (2012); Ashcroft v.
al-Kidd, 563 U.S. 731, 131 S. Ct. 2074, 179 L. Ed. 2d 1149
(2011)). Unfortunately, the majority here has fallen into
the trap of “letting the jury sort out the truth” despite the
gravity of the situation these officers faced.
As explained above, it is undisputed that the two
officers confronted and then shot at Cole as he emerged
from dense bushes ten to twenty feet from Officer Hunter,
unaware of their presence, and began to turn in their
direction. This all happened within three to five seconds.
While he turned, Cole held a loaded 9mm semiautomatic
pistol, finger on the trigger, pointed in the direction of his
own head. The officers knew he was mentally distraught,
had ignored other police commands to disarm, had issued
threats, and proceeded walking in the direction of nearby
schools.
For immunity purposes, the question phrased one way
is whether any reasonable officers could have believed
that Cole’s split-second turning toward them posed a lifethreatening danger such that lethal force was necessary.
Alternatively, what “clearly established law” held as of
October 2010 that under all of the relevant circumstances,
deadly force was not justified unless either a warning was
given and the suspect allowed a chance to react, or the

41a
Appendix A
suspect actually turned his loaded pistol on the officer?
The answer here directly parallels the Supreme Court’s
reasoning in Mullenix, which the majority seriously
shortchanged.
In Mullenix, this court had denied qualified immunity
to a trooper whose shot fatally wounded a suspect fleeing
police in a high-speed chase. The Supreme Court’s basic
criticism of the panel decision was this: “In this case,
the Fifth Circuit held that Mullenix violated the clearly
established rule that a police officer may not use deadly
force against a fleeing felon who does not pose a sufficient
threat of harm to the officer or others. Yet this Court
has previously considered—and rejected—almost that
exact formulation of the qualified immunity question in
the Fourth Amendment context.” Mullenix, 136 S. Ct. at
308-09 (internal quotation marks and citation omitted).
The majority here posit as clearly established law,
indeed an “obvious case,” that a police officer may not use
deadly force—without prior warning—against an armed,
distraught suspect who, with finger in the pistol’s trigger,
posed “no threat” while turning toward an officer ten to
twenty feet away. But in Mullenix, the Supreme Court
reversed this court because “[t]he general principle that
deadly force requires a sufficient threat hardly settles
this matter.” Id. at 309. Likewise, here, the majority’s “no
threat” and “obvious case” conclusions do not settle the
matter of clearly established law. 8
8. Worse, it treats as a disputed fact issue for immunity
purposes what is clearly an issue of law. See Wyatt v. Fletcher, 718
F.3d 496, 502-03 (5th Cir. 2013).

42a
Appendix A
That the majority here purport to extract clearly
established law from Tennessee v. Garner was rebuked
in Mullenix. The Supreme Court corrected this court by
summary reversal because the Court itself had summarily
rejected applying the general standard of Tennessee v.
Garner to deny qualified immunity. Mullenix, 136 S. Ct.
at 309 (citing Brosseau v. Haugen, 543 U.S. 194, 199, 125
S. Ct. 596, 599, 160 L. Ed. 2d 583 (2004)). Instead, the
“correct inquiry” was whether it was clearly established
that the Fourth Amendment prohibited the officer’s
conduct in the precise situation she confronted. Id.
Including Mullenix and Brosseau, a series of Supreme
Court cases has held that Tennessee v. Garner does not
state “clearly established law” governing the use of deadly
force other than in Garner’s precise factual context, the
shooting of an unarmed burglary suspect fleeing away
from an officer.9 The confrontation in this case with an
armed, ready-to-fire suspect is “obviously” different.
We fail to understand how the denial of qualified
immunity to Officers Hunter and Cassidy can be rescued
simply by intoning that this is an “obvious case” under
Garner. Garner affirmed the constitutionality of deadly
force against suspects when necessary to protect the life
of officers or others “if, where feasible, some warning
has been given.” 471 U.S. at 11-12, 105 S. Ct. at 1701.10
9. Kisela v. Hughes, 138 S. Ct. 1148, 1153, 200 L. Ed. 2d 449
(2018); White, 137 S. Ct. at 552.
10. Turning on distinctly different facts, Garner alone does not
establish pertinent clearly established law here, and the majority
does not contend as much.

43a
Appendix A
But Garner in no way renders “clearly established” a
requirement to give a warning, and await the suspect’s
response, before shooting. Nor does it mandate that the
suspect’s weapon be trained on the officer or others. Like
the rest of the calculus surrounding Fourth Amendment
reasonableness, the “feasibility” of any such potentially
deadly delay or factual nuance must be subjected to casespecific balancing with deference paid to the officer’s
reasonable perceptions in the midst of a tense situation.
Graham, 490 U.S. at 396, 109 S. Ct. at 1872. Indeed, in
describing its holding at the outset, Garner states only
that “[deadly] force may not be used unless it is necessary
to prevent the escape [of an apparently unarmed suspected
felon] and the officer has probable cause to believe that
the suspect poses a significant threat of death or serious
physical injury to the officer or others.” 471 U.S. at 3, 105
S. Ct. at 1697.11 No mention of a warning appears in this
introduction, and “probable cause,” not a fact-specific test,
is the measure of the threat of harm.
Characterizing this case as a “no threat” or “obvious”
Fourth Amendment violation is wrong for additional
reasons. Whether, under the material undisputed facts,
11. The majority cites Colston v. Barnhart, 130 F.3d 96, 100
(5th Cir. 1997), for the necessity of giving a warning “where feasible”
before the use of deadly force. Oddly, Colston then immediately
holds that the officer there “lying on his back with Colston nearby,
had to immediately decide whether to shoot. In light of the totality
of the circumstances facing Barnhart, Barnhart’s failure to give a
warning was not objectively unreasonable.” Id. The feasibility of a
warning is part of the overall Fourth Amendment analysis, not an
independent sine qua non of official conduct.

44a
Appendix A
Cole presented “no threat” to a reasonable police officer
is the relevant issue to assess a Fourth Amendment
violation. But the immunity question, which the majority
elides, is whether every reasonable officer in this factual
context would have known he could not use deadly force.
See Pearson, 555 U.S. at 232, 129 S. Ct. at 815-816. The
majority’s analysis conflates these inquiries. Second, the
importance of grounding the inquiry in a specific factual
context cannot be overstated. In this case, if Officer
Hunter had stood a hundred feet away from Cole, or Cole
had not been turning toward the officers, or Cole had
put the handgun in his pocket and wasn’t touching it, the
analysis of qualified immunity could be quite different.
Third, describing a situation as posing “no threat” is a
conclusion, not an explanation or, as the majority seems
to think, an exception to defining clearly established law
in a specific context. No doubt there are rare “obvious”
cases of Fourth Amendment violations committed by
officers who are plainly incompetent or who knowingly
violate the law. In the wide gap between acceptable and
excessive uses of force, however, immunity serves its
important purpose of encouraging officers to enforce
the law, in “tense, uncertain and rapidly evolving” splitsecond situations, rather than stand down and jeopardize
community safety.12

12. Compare Wesby, 138 S. Ct. at 590 (“Of course, there can
be the rare obvious case, where the unlawfulness of the officer’s
conduct is sufficiently clear even though existing precedent does
not address similar circumstances. But a body of relevant case law
is usually necessary to clearly establish the answer with respect to
probable cause.”) (internal citation and quotation marks omitted).

45a
Appendix A
In their sole, erroneous dependence on Garner, the
majority, “can cite no case from [the Supreme] Court
denying qualified immunity because officers [entitled
to apprehend Cole] selected one dangerous alternative
over another.” Mullenix, 136 S. Ct. at 310. The Mullenix
Court showed that if anything, “clearly established law”
was contrary to the plaintiff’s position. The Court cited
two prior Supreme Court car chase cases that resulted in
immunity even though the fugitives—unlike the suspect
in Mullenix—had not verbally threatened to kill any
officers in their path. Id. at 310 (citing Scott, 550 U.S. at
384, 127 S. Ct. at 1778; Plumhoff, 572 U.S. at 777, 134 S. Ct
at 2022). And in Mullenix itself, as here, the trooper had
not warned the fugitive before shooting at his speeding
car. These cases “reveal[ed] the hazy legal backdrop
against which Mullenix acted,” Id. at 309. Accordingly,
the Court admonished, “[w]hatever can be said of the
wisdom of Mullenix’s choice, this Court’s precedents do
not place the conclusion that he acted unreasonably in
these circumstances beyond debate.” Id. at 311 (internal
quotation marks omitted).
Not only do the majority cite “no case” in which the
Supreme Court denied qualified immunity to an officer
who used deadly force against a mentally distraught
individual in circumstances like the present case, but to
the contrary, the Court required qualified immunity in
two somewhat similar cases. In Sheehan, officers used
deadly force to subdue a mentally ill woman during
an armed confrontation. The Court restated that the
Fourth Amendment is not violated even if police officers,
with the benefit of hindsight, may have made some

46a
Appendix A
mistakes, because “[t]he Constitution is not blind to ‘the
fact that police officers are often forced to make splitsecond judgments.’” Sheehan, 135 S. Ct. at 1775 (quoting
Plumhoff, 572 U.S. at 775, 134 S. Ct. at 2020).
Even closer to this case is White v. Pauly, where an
officer arriving at the scene of an armed confrontation shot
and killed a suspect without knowing whether his earlierarrived colleagues had identified themselves as police. 137
S. Ct. at 550-51. In White, the Court chastised the lower
court for “misunderst[anding]” the “clearly established”
analysis by relying on the generalized pronouncements in
Graham and Garner. Id. at 552. Whether Officer White
should have second-guessed the preceding conduct of
fellow officers hardly presented an “obvious case” pursuant
to Garner. The Court speculated that perhaps, given the
three-minute delay between when he arrived and when
shots rang out, Officer White “should have realized that
[a warning about police presence] was necessary before
using deadly force.” Id. There is a world of difference
between three minutes and three seconds, which Officer
Hunter had here, and between Officer White’s securing
himself behind a stone wall fifty feet from the suspect and
Officer Hunter’s standing fully exposed only ten to twenty
feet away from Cole. The majority cannot reconcile the
Supreme Court’s insistence upon qualified immunity in
White with their denial of the defense to Officers Hunter
and Cassidy.
Kisela v. Hughes, cited in support of the majority,
in no way articulates clearly established law concerning
the necessity of a warning. First, the Court in Kisela

47a
Appendix A
overturned the Ninth Circuit’s denial of qualified immunity
without addressing the preliminary Fourth Amendment
violation. 138 S. Ct. at 1152. A decision holding only that
there was no “clearly established law” cannot itself have
defined “clearly established law.” The Court also criticized
the Ninth Circuit for failing to implement correctly the rule
that an officer has not “violated a clearly established right
unless the right’s contours were sufficiently definite that
any reasonable official in the defendant’s shoes would have
understood that he was violating it.” Id. at 1153 (internal
quotation marks omitted). The Court catalogued all the
relevant circumstances of the confrontation that provoked
the shooting: a knife-armed, threatening suspect, whose
bizarre behavior had been called in to 911, disobeyed
officers’ commands to disarm for up to one minute before
they felt compelled to shoot. Id. The Court concluded, “[t]
his is far from an obvious case in which any competent
officer would have known that shooting Hughes to protect
[the third party] would violate the Fourth Amendment.”
Id. Also “far from obvious” is the case before us, in which
the officers had five seconds, not a whole minute, in which
to decide whether to shoot at Cole.
Finally, the Supreme Court’s decision in Tolan v.
Cotton adds nothing to the substance of the qualified
immunity discussion. In Tolan, the Court enumerated
four critical, disputed evidentiary contentions relating to
the officer’s perception of danger to himself and thus to
qualified immunity. 572 U.S. 650, 657-59, 134 S. Ct. 1861,
1866-67, 188 L. Ed. 2d 895 (2014). Because this court had
failed to credit the plaintiff’s disputed version of these
facts, the Court vacated summary judgment for the officer

48a
Appendix A
and remanded without deciding any merits issue. Id. at
657, 134 S. Ct. at 1866. In contrast, this dissent credits
only undisputed material facts and plaintiffs’ version of
disputable facts.
Like this court’s panel in Mullenix, the majority
here offer no controlling Supreme Court precedent,
including Garner, to support that “clearly established law”
mandated that the officers hold their fire until they had
both warned Cole and given him a chance to drop his gun
or until he pointed the loaded weapon directly at them.
For good measure, the Mullenix Court also considered
the potential similarity of lower court decisions that dealt
with qualified immunity. 136 S. Ct. at 311. Fifth Circuit
case law, the Court noted, did not “clearly dictate the
conclusion that Mullenix was unjustified in perceiving
grave danger and responding accordingly.” Id. at 311
(citing Lytle v. Bexar County, 560 F.3d 404, 412 (5th Cir.
2009)). But the Court quoted with approval an Eleventh
Circuit case that granted immunity to a sheriff’s deputy
who fatally shot a mentally unstable individual “who was
attempting to flee in the deputy’s car, even though at the
time of the shooting the individual had not yet operated
the cruiser dangerously. The court explained that ‘the law
does not require officers in a tense and dangerous situation
to wait until the moment a suspect uses a deadly weapon
to act to stop the suspect...’” Id. at 311 (quoting Long v.
Slaton, 508 F.3d 576, 581-82 (11th Cir. 2007)). Here, too,
the thrust of Mullenix contradicts the majority’s logic
and holding.

49a
Appendix A
Moreover, to the extent it is relevant13, Fifth Circuit
law does not support denying qualified immunity to
Officers Hunter and Cassidy. The district court and,
inferentially, the majority demand that qualified immunity
be granted only if the suspect either disobeys immediate
commands to disarm or points his weapon at the officers.
The district court described such threatening actions
as a Manis act.14 It is true that in previous deadly force
cases, this court approved qualified immunity for officers
who reasonably believed that a non-compliant suspect was
reaching toward where he could retrieve a weapon. See
Manis, 585 F.3d at 842; see also Reese v. Anderson, 926
F.2d 494, 500-01 (5th Cir. 1991); Young v. City of Killeen,
Tx., 775 F.2d 1349, 1352 (5th Cir. 1985). The hitch in these
particular cases is that there wasn’t actually a weapon,
yet the officer’s objectively reasonable perception was
determinative as a matter of law. In another such officer
shooting case, this court upheld qualified immunity where
the suspect, who was being interrogated for drunk driving
at the side of a freeway, turned to walk away from the
officer, then appeared to turn around toward him while
reaching under his shirttail for what the officer thought
could be a concealed weapon. Salazar-Limon v. City of
Houston, 826 F.3d 272, 278 (5th Cir. 2016). This court
added, “[f]urthermore, ...in the context of this case, it is
immaterial whether Salazar turned left, right, or at all
before being shot. Specifically, we have never required
officers to wait until a defendant turns toward them, with
weapon in hand, before applying deadly force to ensure
their safety.” 826 F.3d at 279 n. 6.
13. See fn. 4, supra.
14. Manis v. Lawson, 585 F.3d 839 (5th Cir. 2009).

50a
Appendix A
While a “Manis act” can sustain qualified immunity
even where no weapon is visible, it is not logical for
an additional “act” to be mandated where the officers
confront a suspect armed, ready to shoot his pistol,
and turning toward them. An officer may be forced
into shooting an unarmed suspect by a Manis act, and
thus obtain qualified immunity. But it is perverse and
inconsistent with Fifth Circuit law to hold that the officer
has no qualified immunity because she is constitutionally
forbidden to shoot an armed suspect in close quarters
without either looking down the barrel of the weapon or
awaiting his response to her command.
In fact, that is exactly what this court has not held. In
Ramirez v. Knoulton, 542 F.3d 124, 127 (5th Cir. 2008),
police shot a suspect they believed to be suicidal as he
stood in profile to them, with a handgun in his right hand,
and brought his hands together in front of his waist.” He
“never raised his weapon nor aimed it at the officers.” Id. at
129. The court held that based on the officers’ reasonable
perception, no Fourth Amendment violation occurred,
because the Constitution “does not require police officers
to wait until a suspect shoots to confirm that a serious
threat of harm exists.” Id. at 130. See also Colston,
130 F.3d at 100; Ontiveros, 564 F.3d at 385 (holding no
constitutional violation where officer thought suspect was
reaching into his boot for a weapon during confrontation in
a mobile home). As the Supreme Court put it in Mullenix,
“the mere fact that courts have approved deadly force in
more extreme circumstances says little, if anything, about
whether such force was reasonable in the circumstances
here.” 136 S. Ct. at 312.

51a
Appendix A
The majority describe only one Fifth Circuit police
shooting case, out of dozens this court has decided, as an
“obvious case.” Baker v. Putnal, 75 F.3d 190 (5th Cir. 1996).
Whether that characterization applies to the claimed
Fourth Amendment violation in Baker, to qualified
immunity analysis, or simply to this court’s decision to
remand for trial is unclear in the majority opinion. Baker,
however, says nothing about the merits of the case or
about clearly established law, holding instead that “[t]here
are simply too many factual issues to permit the Bakers’
§ 1983 claims to be disposed of on summary judgment.”
Baker, 75 F.3d at 198. Hence, like Kisela, Baker cannot
support any rule of clearly established law, much less
explain what law is “obvious.” Significantly, in Baker,
whether the suspect was holding a gun visible to the officer
was an important hotly contested issue, with eyewitnesses
contradicting the officer’s account of the incident. Baker,
75 F.3d at 198. Cole’s case, in contrast, does not involve a
“chaos on the beach” incident. The undisputed facts are
starkly different here. It is undisputed, at a minimum,
that Cole was holding a loaded weapon, his finger in the
trigger, as he emerged from the woods; he was turning
toward the officers; and they had five seconds to react.
Baker does not show that the officers’ conduct in Cole
violated clearly established law.
To sum up, the majority opinion here repeats every
error identified by the Supreme Court when it granted
summary reversal in Mullenix and sent the instant
case back for reconsideration. The majority’s “clearly
established” rule has changed, but not its errors. Tennessee
v. Garner does not formulate “clearly established law” with

52a
Appendix A
the degree of specificity required by the Supreme Court’s
decisions on qualified immunity. The majority’s “no threat”
and “obvious case” statements pose the issues here at an
excessive level of generality. The majority has no Supreme
Court case law demonstrating that Officers Hunter and
Cassidy were either plainly incompetent or had to know
that shooting at Cole was unconstitutional under the
circumstances before them and with the knowledge they
possessed—he was mentally distraught; he was armed
with his finger in the pistol’s trigger; he was very close to
Hunter; he had been walking in the direction of schools
for which extra police protection had been ordered; and
he had ignored other officers’ commands to stop and drop
his weapon. And they had three to five seconds to decide
how dangerous he could be to them. The majority cites
not one case from this court denying qualified immunity
under similar circumstances. Mullenix aptly summed it up
for our purposes: “qualified immunity protects actions in
the hazy border between excessive and acceptable force.”
136 S. Ct. at 312 (internal quotation marks omitted). “[T]
he constitutional rule applied by the Fifth Circuit was not
‘beyond debate.’” Id.
It is not “clearly established” that police officers
confronting armed, mentally disturbed suspects in close
quarters must invariably stand down until they have
issued a warning and awaited the suspects’ reaction or
are facing the barrel of a gun. “This was not a belief in
possible harm, but a belief in certain harm. The fact that
they would later discover this to be a mistaken belief
does not alter the fact that it was objectively reasonable
for them to believe in the certainty of that risk at that

53a
Appendix A
time.” Carnaby v. City of Houston, 636 F.3d 183, 188
n.4 (5th Cir. 2011). That is the law in the Fifth Circuit,
and the majority has pointed to no clearly established
law otherwise. Shooting at Cole may not have been the
wisest choice under these pressing circumstances, but the
officers’ decision, even if assailable, was at most negligent.
Hunter and Cassidy were neither plainly incompetent nor
themselves lawbreakers. While we are confident a jury will
vindicate their actions, they deserved qualified immunity
as a matter of law. We dissent.

54a
Appendix A
JERRY E. SMITH, Circuit Judge, dissenting:
This is a “red flag” case if ever there was one. The en
banc majority commits grave error, as carefully explained
in the dissents by Judge Jones, Judge Willett, Judges Ho
and Oldham (jointly), and Judge Duncan. Yet eleven judges
join the majority.
Abandon hope, all ye who enter Texas, Louisiana, or
Mississippi as peace officers with only a few seconds to
react to dangerous confrontations with threatening and
well-armed potential killers. In light of today’s ruling
and the raw count of judges,1 there is little chance that,
any time soon, the Fifth Circuit will confer the qualifiedimmunity protection that heretofore-settled Supreme
Court and Fifth Circuit caselaw requires.
Red flags abound. Judge Duncan cogently details the
“rich vein of facts” describing this plaintiff’s undisputed
actions in the hours leading up to the shooting. 2
• Red flag: a 9mm semi-automatic handgun
and ammunition.
• Red flag: a double-barrel shotgun with shells.
1. This en banc court consists of the sixteen active judges, plus
two senior judges who were on the original panel. Of those sixteen
active judges, nine join the majority opinion.
2. I especially refer the reader to Part I of Judge Duncan’s
dissent, which sets forth the context and narrative of red-flag facts
that easily justify qualified immunity. All three dissents persuasively
explain the law of qualified immunity that the majority overlooks.

55a
Appendix A
• Red flag: a .44 magnum revolver.
• Red flag: a .38 revolver.
• Red flag: a suspect who had broken into a gun
safe and stolen an unknown quantity of weapons
and ammunition.
• Red flag: a police visit the night before to the
suspect’s house because of a disturbance with
his parents.
• Red flag: a suspect with a dangerous knife at
his parents’ house.
• Red flag: a suspect who had a wild look in his
eye and was smoking K2.
• Red flag: a suspect, distraught over breaking
up with his girlfriend, moving toward the school
where she was a student.
• Red flag: a suspect near an elementary school.
• Red flag: a suspect with personal issues
including drug abuse.
• Red flag: a suspect seen running through the
woods with at least three weapons.
• Red flag: a suspect irate and distraught.
• Red flag: a suspect who said he would shoot
anyone who came near him.
• Red flag: a suspect armed with at least one
handgun and possibly three.
• Red flag: a suspect who had refused police
demands to drop his weapon.
• Red flag: a suspect who deposited a cache of
weapons and ammunition munition at a friend’s
house after arguing with his parents.
• Red flag: a suspect who yelled obscenities at
an officer.

56a
Appendix A
• Red flag: a suspect who had threatened to kill
his girlfriend and himself.
• Red flag: a suspect whom the district court
described as troubled.
• Red flag: a suspect described in his complaint
as suffer ing from obsessive compulsive
disorder, treated w ith medications from
numerous medical professionals, and having
poor judgment and impaired impulse control.
*****
Normally we expect police officers to recognize
such red flags and to respond appropriately. Instead
of protecting these officers from obvious danger to
themselves and the public, however, the en banc majority
orders them to stand down. What is the hapless officer
to do in the face of today’s decision? What indeed is the
“clearly established law” that the majority now announces?
The judges in the majority do not say.
The law of qualified immunity was poignantly
summarized in 2019 by a dissenting judge who is now in
the majority. Today’s en banc ruling turns those words
to dust. 3
3. Winzer v. Kaufman Cty., 916 F.3d 464, 482 (5th Cir. 2019)
(Clement, J., dissenting), petition for rehearing en banc pending:
The implications of the majority’s mistakes cannot
be minimized. The majority decides that qualified
immunity can be endangered by an affidavit filed at
summary judgment that creates a fact issue nowhere
else supported by record evidence.

57a
Appendix A
I respectfully dissent.

Worse still, it seriously undermines officers’ ability
to trust their judgment during those split seconds
when they must decide whether to use lethal force.
Qualified immunity is designed to respect that
judgment, requiring us to second-guess only when it
clearly violates the law. The standard acknowledges
that we judges—mercifully—never face that split
second. Indeed, we never have to decide anything
without deliberation—let alone whether we must end
one person’s life to preserve our own or the lives of
those around us.
The qualified immunity standard stops this privilege
from blinding our judgment, preventing us from
pretending we can place ourselves in the officers’
position based on a cold appellate record. It prevents
us from hubristically declaring what an officer should
have done—as if we can expect calm calculation in the
midst of chaos.
The majority opinion, written from the comfort of
courthouse chambers, ignores that deference. Instead,
it warns officers that they cannot trust what they see;
they cannot trust what their fellow officers observe;
they cannot trust themselves when posed with a
credible threat. It instructs them, in that pivotal split
second, to wait. But when a split second is all you
have, waiting itself is a decision—one that may bring
disastrous consequences.

58a
Appendix A
DON R. WILLETT, Circuit Judge, dissenting:
I repeat what I said last month: The entrenched,
judge-invented qualified immunity regime ought not be
immune from thoughtful reappraisal.1
Qualified immunity strikes an uneasy, cost—benefit
balance between two competing deterrence concerns: “the
need to hold public officials accountable when they exercise
power irresponsibly and the need to shield officials from
harassment, distraction, and liability when they perform
their duties reasonably.” 2 By insulating incaution, the
doctrine formalizes a rights—remedies gap through
which untold constitutional violations slip unchecked. The
real-world functioning of modern immunity practice—
essentially “heads government wins, tails plaintiff
loses”—leaves many victims violated but not vindicated.
More to the point, the “clearly established law” prong,
which is outcome-determinative in most cases, makes
qualified immunity sometimes seem like unqualified
impunity: “letting public officials duck consequences for
bad behavior—no matter how palpably unreasonable—as
long as they were the first to behave badly.” 3
That said, as a middle-management circuit judge, I
take direction from the Supreme Court. And the Court’s
1. Zadeh v. Robinson, 928 F.3d 457, 474 (5th Cir. 2019) (Willett,
J., concurring in part, dissenting in part).
2. Pearson v. Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 172
L. Ed. 2d 565 (2009) (flagging these “two important interests”).
3. Zadeh, 928 F.3d at 479.

59a
Appendix A
direction on qualified immunity is increasingly unsubtle.
We must respect the Court’s exacting instructions—even
as it is proper, in my judgment, to respectfully voice
unease with them.4
I
Qualified immunity protects “all but the plainly
incompetent or those who knowingly violate the law.”5
While this bar is not insurmountable, it is sky-high.
And it is raised higher when courts leapfrog prong one
(deciding whether the challenged behavior violates the
Constitution) to reach simpler prong two: no factually
analogous precedent. Merely proving unconstitutional
misconduct isn’t enough. A plaintiff must cite functionally
identical authority that puts the unlawfulness “beyond
debate” to “every” reasonable officer.6 Last month, for
example, the Eleventh Circuit, noting no “materially
similar case” (thus no “clearly established law”), granted
immunity to a police officer who fired at a family’s dog but
instead shot a 10-year-old child lying face-down 18 inches
4. See, e.g., State Oil Co. v. Khan, 522 U.S. 3, 118 S. Ct. 275, 139
L. Ed. 2d 199 (1997) (overruling prior precedent whose unsoundness
had been “aptly described” by the court of appeals).
5. District of Columbia v. Wesby, 138 S. Ct. 577, 589, 199 L.
Ed. 2d 453 (2018) (quoting Malley v. Briggs, 475 U.S. 335, 341, 106
S. Ct. 1092, 89 L. Ed. 2d 271 (1986)).
6. Ashcroft v. al-Kidd, 563 U.S. 731, 741, 31 S. Ct. 2074, 179 L.
Ed. 2d 1149 (2011); see also, e.g., Kisela v. Hughes, 138 S. Ct. 1148,
1153, 200 L. Ed. 2d 449 (2018) (per curiam); Mullenix v. Luna, 136
S. Ct. 305, 308, 193 L. Ed. 2d 255 (2015) (per curiam).

60a
Appendix A
from the officer.7 Not only that, the court “expressly
[took] no position” as to “whether a constitutional violation
occurred in the first place.” 8 Translation: If the same
officer tomorrow shoots the same child while aiming at the
same dog, he’d receive the same immunity. Ad infinitum.
The Supreme Court demands precedential specificity.
But it’s all a bit recursive. There’s no earlier similar case
declaring a constitutional violation because no earlier
plaintiff could find an earlier similar case declaring a
constitutional violation. “Section 1983 meets Catch-22.
Plaintiffs must produce precedent even as fewer courts are
producing precedent. Important constitutional questions
go unanswered precisely because no one’s answered them
before. Courts then rely on that judicial silence to conclude
there’s no equivalent case on the books. No precedent =
no clearly established law = no liability. An Escherian
Stairwell.” 9
II
In recent years, individual Justices have raised
concerns with the Court’s immunity caselaw.10 Even so,
7. Corbitt v. Vickers, 929 F.3d 1304, 1307-08 (11th Cir. 2019).
8. Id. at 1323.
9. Zadeh, 928 F.3d at 479-80 (Willett, J., concurring in part,
dissenting in part).
10. Four sitting Justices “have authored or joined opinions
expressing sympathy” with assorted critiques of qualified immunity.
Joanna C. Schwartz, The Case Against Qualified Immunity, 93

61a
Appendix A
the doctrine enjoys resounding, even hardening favor at
the Court. Just three months ago, in a case involving the
warrantless strip search of a four-year-old preschooler,
a strange-bedfellows array of scholars and advocacy
groups—perhaps the most ideologically diverse amici ever
assembled—implored the Court to push reset.11 To no
avail. This much is certain: Qualified immunity, whatever
its success at achieving its intended policy goals, thwarts
the righting of many constitutional wrongs.
Perhaps the growing left—right consensus urging
reform will one day win out. There are several “mend it,
don’t end it” options. The Court could revisit Pearson12
and nudge courts to address the threshold constitutional
merits rather than leave the law undeveloped.13 Even if
a particular plaintiff cannot benefit (due to the “clearly
NOTRE DAME L. REV. 1798, 1800 (2018) (including Justices
Thomas, Ginsburg, Breyer, and Sotomayor, plus recently retired
Justice Kennedy); see, e.g., Ziglar v. Abbasi, 137 S. Ct. 1843, 1872, 198
L. Ed. 2d 290 (2017) (Thomas, J., concurring in part and concurring
in the judgment) (“In an appropriate case, we should reconsider our
qualified immunity jurisprudence.”); see also Kisela v. Hughes, 138
S. Ct. 1148, 1162, 200 L. Ed. 2d 449 (2018) (per curiam).

11. Doe v. Woodard, 912 F.3d 1278 (10th Cir. 2019), cert. denied,
139 S. Ct. 2616, 204 L. Ed. 2d 265, 2019 WL 1116409, at *1 (2019).
As for congressional reform, Congress’s refusal to revisit § 1983
suggests Article I acquiescence.
12. 555 U.S. at 236.
13. A s obser vers have cautioned, unfettered Pearson
discretion contributes to “constitutional stagnation” by impeding the
development of precedent. Aaron L. Nielson & Christopher J. Walker,
The New Qualified Immunity, 89 S. Cal. L. Rev. 1, 23-24 (2015).

62a
Appendix A
established law” prong), this would provide movingforward guidance as to what the law prescribes and
proscribes. Short of that, the Court could require
lower courts to explain why they are side-stepping the
constitutional merits question.14 Or the Court could
confront the widespread inter-circuit confusion on what
constitutes “clearly established law.” 15 One concrete
proposal: clarifying the degree of factual similarity
required in cases involving split-second decisions versus
cases involving less-exigent situations. The Court could
also, short of undoing Harlow and reinstating the badfaith prong, permit plaintiffs to overcome immunity by
presenting objective evidence of an official’s bad faith.16
Not subjective evidence of bad faith, which Harlow,
worried about “peculiarly disruptive” and “broad-ranging
discovery,” forbids.17 And not unadorned allegations of
bad faith. But objective evidence that the official actually
realized that he was violating the Constitution.
14. Id. at 7.
15. See, e.g., Richard Fallon, Jr., Et A l., Hart and Wechsler’s
T he Federal Courts and the Federal System 1047-50 (7th ed.
2015) (noting the difficulties of applying the clearly-established-law
test); Karen M. Blum, Section 1983 Litigation: The Maze, the Mud,
and the Madness, 23 Wm. & M ary Bill Rts. J. 913, 925 n.68 (2015)
(“[W]hether a right is found to be ‘clearly established’ is very much
a function of which circuit (and I would add, which judge) is asking
the question, and how that question is framed.”).
16. Harlow v. Fitzgerald prevents plaintiffs from relying on
subjective evidence of bad faith. 457 U.S. 800, 815-16, 102 S. Ct. 2727,
73 L. Ed. 2d 396 (1982).
17. Id. at 817.

63a
Appendix A
Prudent refinements abound. But until then, as Judge
Jones explains in today’s principal dissent, the Supreme
Court’s unflinching, increasingly emphatic application of
“clearly established law” compels dismissal.
III
I remain convinced that contemporary immunity
jurisprudence merits “a refined procedural approach
that more smartly—and fairly—serves its intended
objectives.”18 Yet I also remain convinced that a majority
of the Supreme Court disagrees. My misgivings, I believe,
are well advised. But we would be ill advised to treat the
reform of immunity doctrine as something for this court
rather than that Court.19
For these reasons, I respectfully dissent.
18. Zadeh, 928 F.3d at 481 (Willett, J., concurring in part,
dissenting in part).
19. As for the sidelong critique of me in the dissenting
opinion of Judges Ho and Oldham, it is, respectfully, a pyromaniac
in a field of straw men. I have not raised originalist concerns with
qualified immunity. My concerns, repeated today, are doctrinal,
procedural, and pragmatic in nature. Nor has my unease with
modern immunity practice led me to wage “war with the Supreme
Court’s qualified-immunity jurisprudence.” I am a fellow dissenter
today, notwithstanding my unease, precisely because I believe the
Court’s precedent compels it. In short, I have not urged that qualified
immunity be repealed. I have urged that it be rethought. Justice
Thomas—no “halfway originalist”—has done the same. Ziglar, 137
S. Ct. at 1872 (Thomas, J., concurring in part and concurring in
the judgment) (“In an appropriate case, we should reconsider our
qualified immunity jurisprudence.”).

64a
Appendix A
JAMES C. HO and ANDREW S. OLDHAM, Circuit
Judges, joined by JERRY E. SMITH, Circuit Judge,
dissenting:
Apparently SUMREVs mean nothing.
In Luna v. Mullenix, 773 F.3d 712 (5th Cir. 2014),
we sent a state trooper to a jury “in defiance” of “the
concept and precedents of qualified immunity.” 777 F.3d
221, 222 (5th Cir. 2014) (Jolly, J., dissenting from denial
of rehearing en banc). The Supreme Court summarily
reversed us. Mullenix v. Luna, 136 S. Ct. 305, 193 L. Ed.
2d 255 (2015) (per curiam). Then they GVR’d us in this
case and ordered us to reconsider our obvious error in
light of Mullenix.
The en banc majority instead doubles down. That is
wrong for all the reasons Judge Jones gives in her powerful
dissent, which we join in full. We write to emphasize the en
banc majority’s unmistakable message: Four years after
Mullenix, nothing has changed in our circuit.
I.
The Supreme Court has not hesitated to redress
similar intransigence from our sister circuits—often
through the “extraordinary remedy of a summary
reversal.” Kisela v. Hughes, 138 S. Ct. 1148, 1162, 200 L.
Ed. 2d 449 (2018) (Sotomayor, J., dissenting) (quotation
omitted). See, e.g., City of Escondido v. Emmons, 139 S.
Ct. 500, 202 L. Ed. 2d 455 (2019) (per curiam) (summarily
reversing the Ninth Circuit); Kisela, 138 S. Ct. 1148, 200

65a
Appendix A
L. Ed. 2d 449 (per curiam) (same); District of Columbia v.
Wesby, 138 S. Ct. 577, 199 L. Ed. 2d 453 (2018) (reversing
the D.C. Circuit); White v. Pauly, 137 S. Ct. 548, 196 L. Ed.
2d 463 (2017) (per curiam) (summarily reversing the Tenth
Circuit); City and County of San Francisco v. Sheehan,
135 S. Ct. 1765, 191 L. Ed. 2d 856 (2015) (reversing the
Ninth Circuit); Carroll v. Carman, 574 U.S. 13, 135 S. Ct.
348, 190 L. Ed. 2d 311 (2014) (per curiam) (summarily
reversing the Third Circuit); Wood v. Moss, 572 U.S. 744,
134 S. Ct. 2056, 188 L. Ed. 2d 1039 (2014) (reversing the
Ninth Circuit); Plumhoff v. Rickard, 572 U.S. 765, 134 S.
Ct. 2012, 188 L. Ed. 2d 1056 (2014) (reversing the Sixth
Circuit); Stanton v. Sims, 571 U.S. 3, 134 S. Ct. 3, 187 L.
Ed. 2d 341 (2013) (per curiam) (summarily reversing the
Ninth Circuit); Reichle v. Howards, 566 U.S. 658, 132 S.
Ct. 2088, 182 L. Ed. 2d 985 (2012) (reversing the Tenth
Circuit); Ryburn v. Huff, 565 U.S. 469, 132 S. Ct. 987, 181
L. Ed. 2d 966 (2012) (per curiam) (summarily reversing
the Ninth Circuit); Ashcroft v. al-Kidd, 563 U.S. 731, 131
S. Ct. 2074, 179 L. Ed. 2d 1149 (2011) (same); Brosseau v.
Haugen, 543 U.S. 194, 125 S. Ct. 596, 160 L. Ed. 2d 583
(2004) (per curiam) (same).
In each of these cases, the Supreme Court reminded
lower courts that qualified immunity requires us not
only to identify a clearly established rule of law, but to
do so with great specificity. Everyone agrees, of course,
that Ryan Cole has a constitutional right not to be seized
unreasonably. But “that is not enough” to subject a police
officer to the burdens of our civil litigation system. Saucier
v. Katz, 533 U.S. 194, 202, 121 S. Ct. 2151, 150 L. Ed. 2d
272 (2001). The Supreme Court has “repeatedly told courts

66a
Appendix A
. . . not to define clearly established law at [that] high
level of generality.” al-Kidd, 563 U.S. at 742. Rather, “[t]
he dispositive question is whether the violative nature of
particular conduct is clearly established.” Mullenix, 136
S. Ct. at 308 (citation omitted).
Only by identifying a specific and clearly established
rule of law do we ensure that the officer had “fair notice”—
”in light of the specific context of the case, not as a broad
general proposition”—that his or her particular conduct
was unlawful. Brosseau, 543 U.S. at 198 (citation omitted).
See also, e.g., Sheehan, 135 S. Ct. at 1776 (“Qualified
immunity is no immunity at all if ‘clearly established’
law can simply be defined as the right to be free from
unreasonable searches and seizures.”); Wilson v. Layne,
526 U.S. 603, 615, 119 S. Ct. 1692, 143 L. Ed. 2d 818 (1999)
(same); Anderson v. Creighton, 483 U.S. 635, 640, 107 S.
Ct. 3034, 97 L. Ed. 2d 523 (1987) (same).
So where is our clearly established law at issue here?
Unbelievably, the en banc majority says we don’t need any.
That’s so, they say, because “[t]his is an obvious case.”
Ante, at 16. That’s obviously wrong for three reasons.
First, the Supreme Court to date has never identified
an “obvious” case in the excessive force context. And the
majority thinks this is the first? A case where a mentally
disturbed teenager—who has a loaded gun in his hand
with his finger on the trigger; who has repeatedly refused
to be disarmed; who has threatened to kill anyone who
tries to disarm him; who poses such a deadly threat that
police have been deployed to protect innocent students

67a
Appendix A
and teachers at his nearby high school—turns toward
the officers just ten to twenty feet away, giving them only
seconds to decide what to do in response. Really?
Second, the Supreme Court has granted qualified
immunity in much tougher cases than this one. In
Plumhoff, for example, officers fired 15 shots and killed
two unarmed men who fled a traffic stop. In Brosseau,
an officer shot an unarmed man who refused to open his
truck window. In Kisela, officers shot a woman who was
hacking a tree with a kitchen knife. In Sheehan, officers
shot an old woman holding a kitchen knife in an assistedliving facility. In all of these cases, the Court held the
officers were entitled to qualified immunity.
Third, this is Mullenix all over again. There our
court relied on clearly established law as articulated in
Tennessee v. Garner, 471 U.S. 1, 105 S. Ct. 1694, 85 L.
Ed. 2d 1 (1985). Garner involved an unarmed man who
fled from police after stealing $10. An officer fatally shot
Garner in the back of the head as he attempted to climb
a fence. Our court then extended Garner to Mullenix’s
case—which involved a man who led police on a high-speed
car chase after violating his probation. A state trooper
attempted to end the chase by shooting the speeding car’s
engine block—but he missed the engine, hit the driver
in the face, and killed him. See Luna, 773 F.3d at 71920 (discussing Garner). The Supreme Court summarily
reversed us because—as should be painfully obvious from
the Court’s serial reversals in this area—that’s not how
qualified immunity works. See Mullenix, 136 S. Ct. at 30809 (holding our court erred in our extrapolation of Garner

68a
Appendix A
to new facts). And they GVR’d us in this very case to fix
our mistakes in light of Mullenix. The Supreme Court’s
message could not be clearer.1
Still, somehow, today’s majority does not get it. Here,
as in Mullenix, the majority attempts to rely on Garner
to establish the governing rule of law. From Garner, the
majority somehow divines a rule that an officer cannot
shoot a mentally disturbed teenager holding a gun near
1. The Supreme Court issues GVRs when, as here, legal error
infects the judgment below. See, e.g., Hicks v. United States, 137 S.
Ct. 2000, 2000-01, 198 L. Ed. 2d 718 (2017) (Gorsuch, J., concurring)
(defending GVR because “[a] plain legal error infects this judgment”
and because petitioner “enjoys a reasonable probability of success”
in getting judgment reversed on the merits); id. at 2002 (Roberts,
C.J., dissenting) (“[W]ithout a determination from this Court that
the judgment below was wrong or at least a concession from the
Government to that effect, we should not, in my view, vacate the
Fifth Circuit’s judgment.”). As the cert petition explained, our panel
denied qualified immunity “based on the same rationale” on “which
this Court reversed in Mullenix.” Pet. at i, 2016 WL 4987324. We
think it obvious the Supreme Court GVR’d because it agreed. And
tellingly, the majority does not offer an alternative theory to explain
the GVR. We ignore the Court’s message at our peril. See, e.g., Smith
v. Mitchell, 437 F.3d 884 (9th Cir. 2006) (granting habeas relief to
a state prisoner because the evidence was insufficient to prove she
shook her grandbaby to death); Patrick v. Smith, 550 U.S. 915, 127 S.
Ct. 2126, 167 L. Ed. 2d 861 (2007) (GVR’ing i/l/o Carey v. Musladin,
549 U.S. 70, 127 S. Ct. 649, 166 L. Ed. 2d 482 (2006)); Smith v. Patrick,
519 F.3d 900 (9th Cir. 2008) (again granting habeas relief); Patrick
v. Smith, 558 U.S. 1143, 130 S. Ct. 1134, 175 L. Ed. 2d 967 (2010)
(GVR’ing i/l/o McDaniel v. Brown, 558 U.S. 120, 130 S. Ct. 665, 175
L. Ed. 2d 582 (2010)); Smith v. Mitchell, 624 F.3d 1235 (9th Cir. 2010)
(again granting habeas relief); Cavazos v. Smith, 565 U.S. 1, 132 S.
Ct. 2, 181 L. Ed. 2d 311 (2011) (SUMREV’ing).

69a
Appendix A
his school. This is demonstrably erroneous. In fact, one
thing that unites the Supreme Court’s recent reversals
in cases involving qualified immunity and excessive force
is the attempt by lower courts to extrapolate Garner to
new facts. See Mullenix, 136 S. Ct. at 308-09; Scott v.
Harris, 550 U.S. 372, 381-82, 127 S. Ct. 1769, 167 L. Ed.
2d 686 (2007) (same); Allen v. City of West Memphis, 509
F. App’x 388, 392 (6th Cir. 2012) (extrapolating Garner),
rev’d by Plumhoff, supra.
Moreover, there are additional parallels between
Mullenix and this case. Consider the supposed requirement
that an officer take some sort of non-lethal measure before
using lethal force. In Mullenix, our court used the power
of 20-20 hindsight to say that a reasonable officer should
have used spike strips to stop the chase. See 773 F.3d at
720-21. The Supreme Court emphatically rebuked us.
See 136 S. Ct. at 310. They told us that an officer does not
have to expose himself or other officers to harm when the
suspect has already refused to be disarmed. That meant
Trooper Mullenix did not have to wait to see if the fleeing
felon would shoot or run over the officer manning the spike
strips. See id. at 310-11.
So too here. In this case, the majority complains that
the officers did not provide sufficient warning. But there
was no clearly established law requiring Officers Cassidy
and Hunter to announce themselves—while caught in an
open and defenseless position—and hope not to get shot.
That is particularly true here because officers previously
ordered Cole to put down his gun, he refused, and he
threatened to kill anyone who attempted to disarm him.

70a
Appendix A
And in Mullenix, as here, we accused the police officers
of being cowboys. Earlier on the day of the shooting,
Trooper Mullenix received a negative performance
review for “not being proactive enough as a Trooper”;
so in the aftermath of the shooting, Mullenix said to his
supervisor, “How’s that for proactive?” 773 F.3d at 717;
see also 136 S. Ct. at 316 (Sotomayor, J., dissenting). The
panel opinions and en banc majority opinion in this case
likewise seethe with innuendo that Officers Hunter and
Cassidy were wannabe cowboys looking for a gunfight.
We are in no position to make such accusations. No
member of this court has stared down a fleeing felon on
the interstate or confronted a mentally disturbed teenager
who is brandishing a loaded gun near his school. And
the Mullenix Court held that the qualified-immunity
standard gives us no basis for sneering at cops on the
beat from the safety of our chambers. See 136 S. Ct. at
310-11 (majority op.) (citing Brief for National Association
of Police Organizations et al. as Amici Curiae). Yet here
we are. Again.
II.
The majority cannot dodge responsibility for today’s
decision by pointing to the limits of appellate jurisdiction.
See ante, at 13-14 (majority op.); ante, at 1 (Elrod, J.,
concurring). We obviously lack interlocutory appellate
jurisdiction to review the genuineness of an officer’s fact
dispute. See, e.g., Johnson v. Jones, 515 U.S. 304, 313-14,
115 S. Ct. 2151, 132 L. Ed. 2d 238 (1995); Kinney v. Weaver,
367 F.3d 337, 346-47 (5th Cir. 2004) (en banc) (applying
Johnson v. Jones).

71a
Appendix A
But that does nothing to defeat jurisdiction where,
as here, the factual disputes are immaterial. That is
why the Supreme Court repeatedly has rejected such nojurisdiction pleas from those who wish to deny qualified
immunity. See, e.g., Plumhoff, 572 U.S. at 771-73; id. at
773 (noting existence of genuine fact dispute did not defeat
appellate jurisdiction in Scott v. Harris).
All the fact disputes in the world do nothing to
insulate this legal question: Is this an “obvious case” under
Garner—notwithstanding a mountain of SUMREVs,
GVRs, and pointed admonitions from the Supreme Court?
The majority says yes. Ante, at 16. They obviously must
have jurisdiction to say so. With respect, it makes no sense
to say we lack jurisdiction to disagree with them.
III.
What explains our circuit’s war with the Supreme
Court’s qualified-immunity jurisprudence? Two themes
appear to be at play.
First, the majority suggests we should be less than
enthused about Supreme Court precedent in this area,
because it conflicts with plaintiffs’ jury rights. To quote
the panel: “Qualified immunity is a judicially created
doctrine calculated to protect an officer from trial before
a jury of his or her peers. At bottom lies a perception
that the jury brings a risk and cost that law-enforcement
officers should not face, that judges are preferred for
the task—a judgment made by appellate judges.” Cole v.
Carson, 905 F.3d 334, 336 (5th Cir. 2018). Or in the words of

72a
Appendix A
today’s majority: “The Supreme Court over several years
has developed protection from civil liability for persons
going about their tasks as government workers” (a rather
curious way to describe the men and women who swear
an oath to protect our lives and communities). Ante, at 2.
But “the worker’s defense” must yield, in cases like this,
“in obeisance to [the] constitutional mandate” of a jury
trial. Id.
We appreciate the majority’s candor. But inferior court
judges may not prefer juries to the Justices.
Second, some have criticized the doctrine of qualified
immunity as ahistorical and contrary to the Founders’
Constitution. Ante at 2 (suggesting denial of qualified
immunity is commanded by “the Founders”); compare
William Baude, Is Qualified Immunity Unlawful?, 106
CALIF. L. REV. 45, 49-61 (2018), with Aaron L. Nielson
& Christopher J. Walker, A Qualified Defense of Qualified
Immunity, 93 NOTRE DAME L. REV. 1853, 1856-63
(2018); see also Zadeh v. Robinson, 902 F.3d 483, 498 (5th
Cir. 2018) (Willett, J., concurring dubitante), revised on
petition for reh’g en banc, 928 F.3d 457, 473 (5th Cir. 2019)
(Willett, J., concurring in part and dissenting in part).
As originalists, we welcome the discussion. But
separate and apart from the fact that we are bound
as a lower court to follow Supreme Court precedent, a
principled commitment to originalism provides no basis
for subjecting these officers to trial.

73a
Appendix A
The originalist debate over qualified immunity may
seem fashionable to some today. But it is in fact an old
debate. Over two decades ago, Justices Scalia and Thomas
noted originalist concerns with qualified immunity. But
they also explained how a principled originalist would
re-evaluate established doctrines. See Crawford-El v.
Britton, 523 U.S. 574, 611-12, 118 S. Ct. 1584, 140 L. Ed.
2d 759 (1998) (Scalia, J., joined by Thomas, J., dissenting).
A principled originalist would not cherry pick which
rules to revisit based on popular whim. A principled
originalist would fairly review decisions that favor plaintiffs
as well as police officers. As Justice Scalia explained in a
dissent joined by Justice Thomas, a principled originalist
would evenhandedly examine disputed precedents that
expand, as well as limit, § 1983 liability:
[O]ur treatment of qualified immunity under 42
U.S.C. § 1983 has not purported to be faithful
to the common-law immunities that existed
when § 1983 was enacted . . . . [But] [t]he § 1983
that the Court created in 1961 bears scant
resemblance to what Congress enacted almost a
century earlier. I refer, of course, to the holding
of Monroe v. Pape, 365 U.S. 167, 81 S. Ct. 473,
5 L. Ed. 2d 492 (1961), which converted an
1871 statute covering constitutional violations
committed “under color of any statute,
ordinance, regulation, custom, or usage of
any State,” Rev. Stat. § 1979, 42 U.S.C. § 1983
(emphasis added), into a statute covering
constitutional violations committed without the

74a
Appendix A
authority of any statute, ordinance, regulation,
custom, or usage of any State, and indeed even
constitutional violations committed in stark
violation of state civil or criminal law.
Id. at 611.
Justices Scalia and Thomas ultimately concluded
that it is better to leave things alone than to reconfigure
established law in a one-sided manner. If we’re not willing
to re-evaluate all § 1983 precedents in a balanced and
principled way, then it “is perhaps just as well” that “[w]
e find ourselves engaged . . . in the essentially legislative
activity of crafting a sensible scheme of qualified
immunities for the statute we have invented—rather than
applying the common law embodied in the statute that
Congress wrote.” Id. at 611-12.
Translation: If we’re not going to do it right, then
perhaps we shouldn’t do it at all.
Subjecting these officers to trial on originalist grounds
is precisely the unprincipled practice of originalism that
Justices Scalia and Thomas railed against. And not just
for the procedural reasons they identified in CrawfordEl. What about the original understanding of the Fourth
Amendment, which the plaintiffs here invoke as their
purported substantive theory of liability in this case? Does
the majority seriously believe that it is an “unreasonable
seizure,” as those words were originally understood
at the Founding, for a police officer to stop an armed
and mentally unstable teenager from shooting innocent
officers, students, and teachers?

75a
Appendix A
And make no mistake: Principled originalism is not
just a matter of intellectual precision and purity. There are
profound practical consequences here as well, given the
important and delicate balance that qualified immunity is
supposed to strike. As the Supreme Court has explained,
qualified immunity ensures that liability reaches only
“the plainly incompetent or those who knowingly violate
the law.” Mullenix, 136 S. Ct. at 308 (quotation omitted).
And absent plain incompetence or intentional violations,
qualified immunity must attach, because the “social costs”
of any other rule are too high:
[I]t cannot be disputed seriously that claims
frequently run against the innocent as well as
the guilty—at a cost not only to the defendant
officials, but to society as a whole. These social
costs include the expenses of litigation, the
diversion of official energy from pressing public
issues, and the deterrence of able citizens from
acceptance of public office. Finally, there is the
danger that fear of being sued will dampen the
ardor of all but the most resolute, or the most
irresponsible public officials, in the unflinching
discharge of their duties.
Harlow v. Fitzgerald, 457 U.S. 800, 814, 102 S. Ct. 2727, 73
L. Ed. 2d 396 (1982) (alterations and quotations omitted);
see also, e.g., Sheehan, 135 S. Ct. at 1774 n.3 (noting “the
importance of qualified immunity to society as a whole”).
For those who have expressed concerns about a “onesided approach to qualified immunity,” Kisela, 138 S. Ct. at

76a
Appendix A
1162 (Sotomayor, J., dissenting); see also Zadeh, 902 F.3d
at 499 & n.10 (Willett, J., concurring dubitante) (quoting
Kisela, 138 S. Ct. at 1162 (Sotomayor, J., dissenting));
928 F.3d at 480 & n.61 (Willett, J., concurring in part
and dissenting in part) (same), look no further than
the majority opinion. The majority undoes the careful
balance of interests embodied in our doctrine of qualified
immunity, stripping the officers’ defenses without regard
to the attendant social costs. 2
Now that is a one-sided approach to qualified immunity
as a practical matter. And as Justices Scalia and Thomas
have observed, it’s also a one-sided approach to qualified
immunity as an originalist matter: It abandons the defense
without also reconsidering the source and scope of officers’
liability in the first place. See Crawford-El, 523 U.S. at
611-12 (Scalia, J., joined by Thomas, J., dissenting). To
quote Justice Alito: “We will not engage in this halfway
originalism.” Janus v. Am. Fed’n of State, Cty., & Mun.
Emps., Council 31, 138 S. Ct. 2448, 2470, 201 L. Ed. 2d
924 (2018). See also id. (criticizing litigants for “apply[ing]
the Constitution’s supposed original meaning only when
it suits them”); Gundy v. United States, 139 S. Ct. 2116,
2. Those social costs are particularly stark today given
widespread news of low officer morale and shortages in officer
recruitment. See, e.g., Ashley Southall, When Officers Are Being
Doused, Has Police Restraint Gone Too Far?, N.Y. Times, July 25,
2019, at A22; Martin Kaste & Lori Mack, Shortage of Officers Fuels
Police Recruiting Crisis, NPR (Dec. 11, 2018, 5:05 AM), https://n.
pr/2Qrbrnq ; Jeremy Gorner, Morale, Policing Suffering in Hostile
Climate, Cops Say; ‘It’s Almost Like We’re the Bad Guys,’ Veteran
City Officer Says, Chi. Trib., Nov. 27, 2016, at 1.

77a
Appendix A
2131, 204 L. Ed. 2d 522 (2019) (Alito, J., concurring in
the judgment) (“[I]t would be freakish to single out the
provision at issue here for special treatment.”). 3
***
Our circuit, like too many others, has been summarily
reversed for ignoring the Supreme Court’s repeated
admonitions regarding qualified immunity. There’s no
excuse for ignoring the Supreme Court again today.
And certainly none based on a principled commitment to
originalism.
Originalism for plaintiffs, but not for police officers,
is not principled judging. Originalism for me, but not for
thee, is not originalism at all. We respectfully dissent.

3. In a footnote, Judge Willett notes that his criticism of
the Supreme Court’s qualified immunity precedents is not based on
originalist grounds. Ante, at 4 n.19. To our minds, that makes his
criticism harder, not easier, to defend. If his concerns are based on
practical and not originalist considerations, then he should address
them to the Legislature, rather than attack the Supreme Court as
“one-sided.” Zadeh, 902 F.3d at 499 & n.10 (Willett, J., concurring
dubitante) (quoting Kisela, 138 S. Ct. at 1162 (Sotomayor, J.,
dissenting)). He also invokes Justice Thomas’s opinion in Ziglar
v. Abbasi, 137 S. Ct. 1843, 1872, 198 L. Ed. 2d 290 (2017). But that
opinion cites Justice Scalia’s opinion in Crawford-El, which (as we
explained above) warns qualified immunity skeptics not to engage
in halfway originalism.

78a
Appendix A
STUART KYLE DUNCAN, Circuit Judge, joined by
SMITH, OWEN, HO, and OLDHAM, Circuit Judges,
dissenting:
The majority opinion overlooks or omits undisputed
material facts showing that any reasonable officer would
have viewed Ryan Cole as a severe threat. Before the
shooting, the defendant officers: (1) were tracking a
distraught suspect wandering through the woods armed
with a loaded 9mm semi-automatic handgun; (2) who
had earlier that morning off-loaded a cache of weapons
and ammunition at a friend’s house; (3) who had already
refused to give up his pistol when confronted by the police;
and (4) who had threatened to “shoot anyone who came
near him.” Cole did not dispute those facts and, indeed,
convinced the district court they were irrelevant. Joining
Judge Jones’ dissent in full, I respectfully dissent on the
additional grounds provided by these pre-encounter facts.
No one doubts some of the events on October 25,
2010—when the officers violently encountered Cole in the
woods near Garland, Texas—are disputed. The question
is whether those disputes are material. See, e.g., Bazan
ex rel. Bazan v. Hidalgo Cty., 246 F.3d 481, 483 (5th Cir.
2001) (“threshold issue” on qualified immunity appeal
“is whether the facts the district judge concluded are
genuinely disputed are also material”). Judge Jones’
dissent compellingly shows they are not: Resolving all
disputes in Cole’s favor, the undisputed facts still show
the officers violated no clearly established law. Jones
Dissent at 2-3, 11-22. The majority thus errs by concluding
that “competing factual narratives” bar it from deciding
qualified immunity. Maj. at 3.

79a
Appendix A
I write separately to emphasize what led up to the
shooting, and also to explain why those undisputed events
provide further reasons to reverse. The majority and
Judge Jones focus on the shooting itself, as did the district
court. But the prelude to the shooting gives unavoidable
context for evaluating the officers’ actions.1 Surprisingly,
the district court did not even analyze those stage-setting
facts, which it mistakenly deemed irrelevant. See Cole v.
Hunter, No. 3:13-CV-02719-O, 2014 U.S. Dist. LEXIS
8796, 2014 WL 266501, at *13 n.5 (N.D. Tex. Jan. 24, 2014);
Cole v. Hunter, 68 F. Supp. 3d 628, 642-43 (N.D. Tex.
2014). So, to assess their impact, we must “undertake a
cumbersome review of the record.” Johnson v. Jones, 515
U.S. 304, 319, 115 S. Ct. 2151, 132 L. Ed. 2d 238 (1995).
That extra work is sometimes imperative, as here, “to
ensure that the defendant’s right to an immediate appeal
on the issue of materiality is not defeated solely on account
of the district court’s failure to articulate its reasons for
denying summary judgment.” Colston v. Barnhart, 146
F.3d 282, 285 (5th Cir. 1998), denying reh’g in 130 F.3d
96 (5th Cir. 1997).
This detailed record review (see Part I) compels two
conclusions (see Part II). First, the district court erred
by excluding the undisputed events before the shooting.
That error—based on a misreading of our precedent—
1. See, e.g., Kingsley v. Hendrickson, 135 S. Ct. 2466, 2474,
192 L. Ed. 2d 416 (2015) (courts “must judge the reasonableness of
the force used from the perspective and with the knowledge of the
defendant officer”); Tennessee v. Garner, 471 U.S. 1, 9, 105 S. Ct. 1694,
85 L. Ed. 2d 1 (1985) (whether a “particular” seizure was justified
depends on “the totality of the circumstances”).

80a
Appendix A
truncated the qualified immunity analysis. That alone
requires reversing the summary judgment denial. Second,
in light of those pre-encounter facts, the majority’s
insistence that this is an “obvious case” collapses. Maj.
at 16. Given what confronted the officers, the majority
cannot say what they did was “obviously” unlawful. The
only thing obvious is that no case told the officers, clearly
or otherwise, how to respond when they met Cole that
morning, emerging from the woods with his finger on the
trigger of a loaded gun.
By denying qualified immunity and making the
officers run the gauntlet of trial, the majority sets a
precedent that “seriously undermines officers’ ability
to trust their judgment during those split seconds when
they must decide whether to use lethal force.” Winzer v.
Kaufman Cty., 916 F.3d 464, 482 (5th Cir. 2019) (Clement,
J., dissenting).
I.
The majority begins “around 10:30 a.m.,” less than an
hour before the shooting. Maj. at 4. But events began to
unfold much earlier. 2 Around 2 a.m. that morning, Cole
knocked on the door of his friend, Eric Reed Jr., to show
him “a 44 magnum revolver.” Awakened by the knocking,
Eric Jr.’s father (Eric Sr.) left his room, saw Cole with the
2. All of these facts come from reports and transcriptions of
radio transmissions made within a day or two of the incident. None
come from affidavits submitted by the officers years later. And, as
explained below, none of these pre-encounter facts was disputed by
Cole or analyzed by the district court.

81a
Appendix A
gun, and told him to leave. Eric Jr. convinced Cole to leave
the revolver because “he [did not] need to be carrying a
weapon around.”
Around 8 a.m., Eric Jr. gave his father Cole’s gun. Eric
Sr., a retired Sachse police officer, then notified Officer
Vernon Doggett, who came to the Reeds’. Eric Jr. told
his father and Doggett that “[Cole] told him there were
more guns on the side of the house.” There, they found
“a double barrel shot gun with some shot gun shells and
what appeared to be a plastic bag with 9mm bullets,”
which Doggett secured. Eric Jr. also explained Cole “had
broken up with his girlfriend and was going to kill himself
and his girlfriend.”
Doggett was a resource officer for Sachse High School,
where Cole and his girlfriend attended. He contacted
Sergeant Garry Jordan, told him about the guns, and
asked to meet at the school. Doggett reported that Cole
“may be at school with a 9mm handgun.” Another officer
checked whether Cole was in class, and Jordan searched
the parking areas for Cole.
Not finding him, Jordan went to Coles’ and spoke to
his parents. He learned that, the previous evening, officers
had responded to a disturbance there. Officers had found
Cole’s father “holding Ryan down” because “he did not
want [Cole] to leave the residence with the pocket knife
that he had.” He said “his son had a wild look in his eye
and . . . had been smoking K2.” While the officers found
there had been no assault, all agreed it was “a good idea
for Cole to stay the night with a friend.” The Coles had

82a
Appendix A
not seen Ryan since then but reported he had “apparently
returned home during the night and had opened the gun
safe, removed an unknown amount [sic] of weapons, and
reset the combination.”
Meanwhile, Eric Jr. noticed Cole was back. He asked
Cole if he was armed and Cole showed him a “38 revolver”
and a “9mm semiauto.” He convinced Cole to give him the
revolver, but Cole told him he was not “getting the 9mm.”
Cole also said that the 9mm was loaded and that he did
not “wanna use it on [Eric Jr.]” Cole stated that “he would
shoot anyone who came near him.” Cole left, and Eric Jr.
called his father, who called the police.
Around 10:49 a.m., Officer Stephen Norris radioed
“all available Sachse officers” to respond to the area of
the Reed residence. He reported Cole was “observed
running south of the location with 3 weapons, one a loaded
9mm.” He also reported Cole was “irate and distraught
and stated he would shoot anyone who came near him.”
Around the same time, Sachse Officer Michael Hunter was
dispatched to assist Jordan at the Coles’, but on arrival he
was told by Sachse Officer Carl Carson he was not needed.
As Hunter was leaving, he heard Norris’ call advising
Cole was “in the area . . . with a gun.” Hunter stated he
“did not know the specifics of the call at this point,” but
proceeded to the Reeds’ residence. In response to Norris’
call, Jordan also left the Coles’.
Sachse Officer Martin Cassidy also received Norris’
dispatch and went to the area Norris indicated. He was
given Cole’s description and advised that Cole was “armed

83a
Appendix A
with at least one handgun and possibly three.” Cassidy
spoke with Norris on the phone about “the proximity of
Armstrong Elementary School to the location where [Cole]
was last seen.” Cassidy therefore went to check on the
school and a nearby shopping center for any signs of Cole.
Meanwhile, Hunter arrived at the Reeds’, where he
met Jordan and Carson. Hunter overheard Eric Jr. say
he had gotten “one gun” from Cole but that Cole had
left “armed with a 9mm handgun.” “Hunter put [Cole’s]
description out to other officers,” and then he and Carson
went to search for Cole. After speaking with the officers,
Eric Jr. checked for more guns and found “6 firearms
around [his] house.”
Jordan then observed Officers Elliott and Sneed pass
by in a patrol unit. Those officers found Cole nearby.
Elliott reported that “Sneed . . . advised [Cole] to show
his hands.” Instead, Cole “reached into his waist band
and pulled a pistol and placed it to his head after about
three steps and refused to obey Lt. Sneed[‘s] commands.”
When Jordan arrived, Sneed “drew his duty weapon and
yelled at [Cole] to drop the weapon,” but Cole refused. As
Cole continued eastbound towards Highway 78, Sneed
“warned [Cole] that [he] would shoot him in the back if he
tried to get to the highway or walk toward any innocent
bystanders.” Cole “would occasionally turn his head
and yell obscenities at [Sneed].” Two other officers then
parked “directly in front of [Cole’s] path.” To avoid them,
Cole turned “northbound and began walking the railroad
tracks.” Jordan was constantly updating dispatch about
Cole’s movements. “Suddenly, [Sneed] observed [Cole] cut

84a
Appendix A
eastbound and run up a hill and into the brush towards
Highway 78.” Dispatch reported that Cole was “off tracks
coming through tree lines towards [Highway] 78.”
Hunter, Carson, and Cassidy were monitoring Cole’s
movements from the dispatches. They arrived separately
at the part of Highway 78 where Cole was thought to be.
Hunter noted “[Cole] appeared to be walking towards the
railroad track,” and he advised Carson “[they] needed
to go out to the highway and intercept [him].” Cassidy
advised Carson to get out his taser and follow Cassidy.
Hunter “parked further south on Highway 78 as [he]
figured [Cole] would be on the railroad track paralleling
Highway 78 at about [his] location.” He guessed correctly.
As Hunter “began to look for cover since [he] was out in
the open,” Cole “walked out from the brush approximately
10 to 20 feet from [Hunter].”
What followed was the shooting.
II.
Cole did not dispute these stage-setting events in
opposing summary judgment. To the contrary, he argued
any “prior events” before the shooting were “irrelevant.”
The district court agreed, excluding from its qualified
immunity analysis the “events” from “earlier that
morning,” Cole, 2014 U.S. Dist. LEXIS 8796, 2014 WL
266501, at *13 n.5, and focusing solely on what happened
“immediately before and during the shooting.” Cole, 68 F.
Supp. 3d at 644. That mistake skewed the district court’s
analysis and provides yet another reason why we should
reverse.

85a
Appendix A
First, the district court erred by excluding everything
that happened before the officers’ five-second encounter
with Cole. That approach artificially truncates the qualified
immunity analysis. In assessing qualified immunity, we
“[c]onsider[ ] the specific situation confronting [officers],”
City & Cty. of San Francisco v. Sheehan, 135 S. Ct. 1765,
1778, 191 L. Ed. 2d 856 (2015), which “must be judged from
the perspective of a reasonable officer on the scene[.]”
Graham v. Connor, 490 U.S. 386, 396, 109 S. Ct. 1865, 104
L. Ed. 2d 443 (1989). A “reasonable officer” does not shape
his decisions based only on the seconds when he confronts
an armed suspect; instead, he acts based on all relevant
circumstances, including the events leading up to the
ultimate encounter. See, e.g., Escobar v. Montee, 895 F.3d
387 (5th Cir. 2018) (courts evaluate excessive force claims
“from the perspective of a reasonable officer on the scene,
paying ‘careful attention to the facts and circumstances of
each particular case’”) (quoting Graham, 490 U.S. at 396).
That is precisely how the Supreme Court has instructed
lower courts to assess whether force is excessive: The
seminal case, Tennessee v. Garner, asks whether a seizure
was justified, based not only on the immediate seizure, but
on “the totality of the circumstances” facing the officers.
471 U.S. 1, 9, 105 S. Ct. 1694, 85 L. Ed. 2d 1 (1985). And
qualified immunity cases, both from the Supreme Court
and our court, routinely consider the background facts
that shaped an officer’s confrontation with a suspect in
order to evaluate the officer’s ultimate use of force. 3
3. See, e.g., Mullenix v. Luna, 136 S. Ct. 305, 306, 193 L.
Ed. 2d 255 (2015) (assessing officer’s shooting of suspect during
car chase beginning with events preceding the “18-minute chase”);
Plumhoff v. Rickard, 572 U.S. 765, 768-70, 134 S. Ct. 2012, 188 L. Ed.

86a
Appendix A
The district court’s sole contrary authority was our
statement in Rockwell v. Brown, 664 F.3d 985, 991 (5th
Cir. 2011), that the excessive force inquiry “is confined to
whether the [officer or another person] was in danger at
the moment of the threat.” But the district court overread
Rockwell. We made that statement in Rockwell to reject
the notion that officers’ negligence before a confrontation
determines whether they properly used deadly force
during the confrontation. See id. at 992-93 (rejecting
argument that “circumstances surrounding a forced
entry” bear on “the reasonableness of the officers’ use of
deadly force”). The cases Rockwell cited say that plainly.
See, e.g., Fraire v. City of Arlington, 957 F.2d 1268, 1276
(5th Cir. 1992) (“[R]egardless of what had transpired up
until the shooting itself, [the suspect’s] movements gave
the officer reason to believe, at that moment, that there
was a threat of physical harm.”). 4 And the key case
2d 1056 (2014) (assessing officer’s shooting of suspects in Memphis,
Tennessee after lengthy car chase beginning with traffic stop in
“West Memphis, Arkansas”); Brosseau v. Haugen, 543 U.S. 194, 195,
125 S. Ct. 596, 160 L. Ed. 2d 583 (2004) (evaluating officer’s shooting
of fleeing suspect beginning with events “[o]n the day before the
fracas”); Colston, 130 F.3d at 100 (determining officer’s failure to
warn was not objectively unreasonable “[i]n light of the totality of the
circumstances facing [the officer]”) (citing Garner, 471 U.S. at 10).

4. Our cases continue to apply the Rockwell “moment-of-thethreat” principle in this way. See, e.g., Shepherd v. City of Shreveport,
920 F.3d 278 (5th Cir. 2019) (explaining that, because the excessive
force inquiry is “confined to whether the officer was in danger at the
moment of the threat[,] . . . [t]herefore, any of the officers’ actions
leading up to the shooting are not relevant”) (emphasis added)
(internal quotes and citation omitted); Harris v. Serpas, 745 F.3d
767, 772-73 (5th Cir. 2014) (same) (discussing Rockwell).

87a
Appendix A
Rockwell quoted for the “moment-of-the-threat” point
recognized that pre-confrontation events could “set the
stage for what followed in the field.” Bazan, 246 F.3d at
493.
By misreading our cases, the district court blinded
itself to a rich vein of facts—facts Cole did not dispute
below—that round out the picture of the officers’ violent
encounter with Cole. At a minimum, that error alone
requires reversing the denial of summary judgment and
remanding for reconsideration of the officers’ actions in
light of all relevant undisputed facts. See, e.g., White v.
Balderama, 153 F.3d 237, 242 (5th Cir. 1998) (concluding
“limited remand” was appropriate given “lack of specificity
in . . . district court’s order denying summary judgment
on the basis of qualified immunity”).
Second, the undisputed pre-encounter events
underscore why, contrary to the majority’s view, this is
far from an “obvious case.” Maj. at 16. An “obvious case,”
the Supreme Court has explained, is one where an officer’s
actions are plainly unlawful under a generalized legal
test, even if those actions do not contravene a “body of
relevant case law.” Brosseau, 543 U.S. at 199 (citing Hope
v. Pelzer, 536 U.S. 730, 738, 122 S. Ct. 2508, 153 L. Ed. 2d
666 (2002)); see also, e.g., White v. Pauly, 137 S. Ct. 548,
552, 196 L. Ed. 2d 463 (2017) (an “obvious case” means
that “in the light of pre-existing law the unlawfulness [of
the officer’s actions] must be apparent”) (citing Anderson
v. Creighton, 483 U.S. 635, 640, 107 S. Ct. 3034, 97 L. Ed.
2d 523 (1987)) (cleaned up). As I understand the majority
opinion, it believes this is an obvious case because a jury

88a
Appendix A
could find that (1) Cole “posed no threat” to the officers;
(2) the officers fired “without warning”; and (3) the
officers had “time and opportunity” to warn Cole, but did
not. Maj. at 15. According to the majority, this scenario
would plainly violate Garner’s generalized test that an
officer may not use deadly force to apprehend a suspect
who “poses no immediate threat to the officer,” unless he
warns the suspect “where feasible.” Id. (quoting Garner,
471 U.S. at 11-12).
Judge Jones’ dissent shows that, even resolving
all disputed facts in Cole’s favor, the officers did not
“obviously” violate Garner’s generalized test during the
immediate shooting—that is, when in the space of five
seconds at most, the officers met Cole at a distance of
10-20 feet as he backed out of the woods, still armed, and
began to turn. Jones Dissent at 11-12. But if we include
the undisputed facts leading up to the shooting, the notion
that this is an “obvious case” crumbles. To believe that,
we would have to blind ourselves to the facts that (1) the
officers were searching for an irate, distraught suspect;
(2) who was wandering through the woods armed with a
loaded semi-automatic handgun; (3) who had refused police
demands to turn over his weapon; (4) who had just that
morning deposited a cache of weapons and ammunition at
his friend’s house; and (5) who had threatened to “shoot
anyone who came near him.” Those were the “totality of
the circumstances” facing the officers, Colston, 130 F.3d
at 100, and they were not disputed by Cole or the district
court. Given those circumstances, the officers might have
taken any number of actions when they met Cole in the
woods that morning—they might have warned him, or shot

89a
Appendix A
him, or shot in the air, or retreated, or remained frozen
in place to see what he would do. But to say it is “obvious”
what they should have done is to denude the concept of an
“obvious case” of any meaning.
Once stripped of the conceit that this is an “obvious
case,” the majority has nothing left to justify its holding.
The Supreme Court has bluntly told us that, outside the
“obvious case” scenario, “Garner . . . do[es] not by [itself]
create clearly established law[.]” White v. Pauly, 137 S. Ct.
at 552. And, of course, the majority does not try to claim
that the facts of Garner are anything like this case. In
Garner, a police officer shot a fleeing, unarmed burglar in
the back of the head. The officer admitted he did not even
suspect the burglar was armed. See 471 U.S. at 3 (noting
the officer “saw no sign of a weapon” at the time he shot
and, afterwards, admitted “[he] was ‘reasonably sure’
and ‘figured’ that [the suspect] was unarmed”). Apples
and oranges does not capture the chasm between that
case and this one.
The majority does claim that our 1996 decision in
Baker v. Putnal, “clearly established” that the officers’
conduct here was unlawful. Maj. at 16 (citing 75 F.3d 190,
193 (5th Cir. 1996)). That is mistaken. In Baker, Officer
Putnal was patrolling a crowded beach area when gunfire
erupted. Id. Witnesses directed Putnal “toward a red car
which they said contained the shooters.” Id. He approached
that car, but then saw two people sitting in another vehicle,
a truck. Id. One of the truck’s passengers, Wendell Baker,
“turned in Putnal’s direction . . . [and] Putnal shot and
killed [him].” Id. While a pistol was recovered from the

90a
Appendix A
truck, the plaintiffs denied Baker “was holding a pistol”
when shot. Id. at 196. In other words, a jury could have
found Baker was not holding a gun when Putnal killed him.
It is not hard to grasp the key difference between
Baker and this case. When shot, Baker was possibly not
even holding a gun. When shot, Cole was undisputedly
holding a gun. Imagine this conversation between a police
officer and the police department’s lawyer:
OFFICER:

I heard the Fifth Circuit just decided
this Baker case. What does it tell me
I should or shouldn’t do in the field?

LAWYER:

Well, Baker says you lose qualified
immunity if you shoot someone sitting
in a car doing nothing more threatening
than just turning in your direction. In
other words, someone you don’t even
see holding a weapon.

OFFICER:

Makes sense. But tell me this. What if
the person I approach is holding a gun?

LAWYER:

Well, Baker doesn’t speak clearly to
that situation. I mean, the jury in
Baker could have found the guy didn’t
even have a gun in his hand when the
officer shot him.

In other words, contrary to the majority’s view, Baker
could not have “established clearly that Cassidy’s and

91a
Appendix A
Hunter’s conduct . . . was unlawful” when they shot Cole as
he emerged from the woods with his finger on the trigger
of a loaded gun. Maj. at 16. To guide officers in the field, a
controlling precedent must be “sufficiently clear that every
reasonable [officer] would have understood that what he
is doing violates” the Constitution. Mullenix, 136 S. Ct.
at 308 (cleaned up). Baker does not come close.
The officers deserve qualified immunity on the
excessive force claims. I respectfully dissent.

92a
Appendix b — Appendix
opinionBof the united
states court of appeals for the fifth
circuit, filed september 25, 2018
IN THE United States Court of Appeals
for the Fifth Circuit
No. 14-10228
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees
v.
CARL CARSON,
Defendant-Appellant.
No. 15-10045
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees
v.
MICHAEL HUNTER; MARTIN CASSIDY,
Defendants-Appellants
Appeals from the United States District Court
for the Northern District of Texas.

93a
Appendix B
September 25, 2018, Filed
ON REMAND FROM THE UNITED
STATES SUPREME COURT
Before HIGGINBOTHAM, CLEMENT, and HIGGINSON,
Circuit Judges
PATRICK E. HIGGINBOTHAM, Circuit Judge:
Qualified immunity is a judicially created doctrine
calculated to protect an officer from trial before a jury
of his or her peers. At bottom lies a perception that the
jury brings a risk and cost that law-enforcement officers
should not face, that judges are preferred for the task—a
judgment made by appellate judges.
We return to the October 25, 2010 shooting of Ryan
Cole, at the time a seventeen-year-old high-school student
in Sachse, Texas. Cole’s parents, Karen and Randy,
individually and as next friends of their son (collectively
“the Coles”) brought suit against Officer Carl Carson,
Lieutenant Martin Cassidy, and Officer Michael Hunter
of the Sachse Police Department under 42 U.S.C. § 1983.
The Coles allege that the officers violated Cole’s Fourth
and Fourteenth Amendment rights during the shooting
incident and by a subsequent fabrication of evidence. The
officers filed dispositive pretrial motions in the district
court, asserting the defense of qualified immunity. The
district court denied these motions. In an earlier opinion,
we affirmed the district court’s denial of the officers’
motions, with the exception of its denial of Carson’s motion

94a
Appendix B
to dismiss the Fourth Amendment claim arising from
fabrication of evidence.1 Our previous judgment has now
been vacated by the Supreme Court, 2 and we consider the
case on remand in light of the Court’s decision in Mullenix
v. Luna. 3 We affirm the denial of Cassidy and Hunter’s
motion for summary judgment, otherwise reinstate our
previous opinion in this case, and remand for further
proceedings consistent with this opinion.
I
On October 25, 2010, at around 10:30 a.m., the
Sachse Police Department called available units to the
neighboring town of Garland, Texas. Police there were
searching for Ryan Cole, a seventeen-year-old white male,
last seen around Norfolk Drive armed with up to three
weapons, including a nine-millimeter handgun.
Officer Michael Hunter responded by proceeding
immediately to Norfolk Drive. In a statement given the
day of the incident, Hunter described there encountering
a young man who explained that Cole had given one of
his guns to him, and that he had unsuccessfully tried to
persuade Cole to surrender a handgun. In testimony given
almost four years later in connection with this litigation,
1. Cole v. Carson, 802 F.3d 752 (5th Cir. 2015), vacated sub nom.
Hunter v. Cole, 137 S. Ct. 497, 196 L. Ed. 2d 397 (2016).
2. Hunter v. Cole, 137 S. Ct. 497, 196 L. Ed. 2d 397 (2016).
3. Id. (granting certiorari, vacating, and remanding for
consideration in light of Mullenix v. Luna, 136 S. Ct. 305, 193 L.
Ed. 2d 255 (2015) (per curiam)).

95a
Appendix B
Hunter could recall in further detail that the young man
was Eric Reed Jr., and that Reed described an altercation
with Cole, which culminated in Cole threatening Reed
with harm. Beyond the physical description relayed over
the police radio, Hunter otherwise learned nothing “that
would cause [him] to believe Cole was violent or wanted to
hurt anyone.”4 Hunter searched the area, but heard over
the radio that the suspect had been located in a nearby
alleyway. Hunter went to the location. There he saw two
officers following Cole, who was walking away from the
officers holding his gun to his head, approaching railroad
tracks in a wooded area along Highway 78. Hunter
testified to his understanding that Cole was suicidal, and
four years after the incident he also raised the possibility
for the first time that Cole was using suicide as a pretext
to evade the police. Hunter also testified four years later
that he had heard police-radio transmissions indicating
that officers were protecting nearby schools because of
“Cole’s dangerous conduct which posed a risk of serious
harm to a great many innocent in the vicinity.” Hunter
suggested to Officer Carl Carson, who had joined him
on the scene, that they circle behind the wooded area to
intercept Cole.
Meanwhile, Lieutenant Martin Cassidy had also heard
the original dispatcher’s summons. Cassidy called the
Sachse Police Department for more information. On the
day of the incident, Cassidy testified that he learned from
the conversation that “this subject had shown up at [a]
4. In a 2014 declaration, Hunter stated that Cole refused a police
officer’s order to surrender his weapon. Hunter did not testify that
he knew this fact at the time.

96a
Appendix B
residence with a handgun and had just recently been seen
walking away.” Four years later, Cassidy testified that he
had also learned much more: Cole was distraught from a
recent separation from his girlfriend, also a student at
Sachse High School; Cole had been involved in a domestic
disturbance the previous night, and had brought a number
of firearms to a friend’s house, retaining possession of at
least one and as many as three firearms. Cassidy had also
learned that Cole “had threatened to shoot anyone who
tried to take his gun,” and had refused an order to drop
his weapon. Sachse High School was about two miles from
the search area, and Cassidy became concerned about
the possibility that Cole intended to target the school.
Following the search from his car, Cassidy also decided
to intercept Cole on Highway 78.
The three officers arrived at the side of Highway 78
around the same time. Hunter drew his duty weapon;
Cassidy also drew his firearm, and advised Carson to be
ready to use his taser. The officers started walking along
the tree line. A steep embankment rose from the railroad
tracks to the area along Highway 78. Cole would have to
climb this embankment to approach the tree line. Cassidy
and Hunter used both the edge of the embankment and
the vegetation to conceal themselves as they walked.
Hunter also removed his white motorcycle helmet in order
to be less conspicuous. Cassidy soon heard a message
over the police radio: Cole was ascending to the tree line.
Hunter heard movement in the brush, and signaled to his
colleagues.

97a
Appendix B
The Coles’ narrative of the roughly five seconds that
followed relies on medical reports, ballistics analysis, and
evidence collected on the scene and retrieved from Cole’s
body. 5 Moments after Hunter signaled to his colleagues,
Cole backed out of the brush. He was facing away from
the officers, his right arm raised, holding the barrel of the
handgun to his right temple. For three to five seconds the
officers had an opportunity to yell out to Cole to freeze
or drop his gun. But the officers perceived that Cole was
unaware of their presence, and remained silent so as
not to alert him.6 Cole began to turn counterclockwise.
Around this time either Carson or Cassidy began to issue
a command to Cole.7 Before the officer could warn Cole,
however, Hunter fired, followed by Cassidy. Still holding
the handgun to his temple, Cole pulled the trigger, firing
into his head.

5. These sources are interpreted by two experts retained by the
Coles, a forensic expert and a former police officer; their affidavits
were submitted to the district court as attachments to the Coles’
First Amended Complaint.
6. The Coles’ expert witnesses reviewed the recording from
Hunter’s body microphone and reported no warning before the
shots commenced.
7. The two experts also reviewed a second recording from
another officer’s body microphone (they hypothesized it was
Cassidy’s or Carson’s) and reported the beginning of the word
“drop” was spoken either after the initial volley of shots were taken
or immediately preceding the gunfire—this word was not spoken
by Hunter. The Coles’ expert witness listened to an audio recording
of the incident captured on Hunter’s motorcycle unit and heard no
verbal warning.

98a
Appendix B
The officers offer alternative accounts. They agree
with each other that moments after Hunter signaled to
Carson and Cassidy, Cole backed out from the brush about
10 to 20 feet in front of Hunter. On the day of the incident,
Hunter did not specify the position of Cole’s hands as
he emerged from the brush. Four years later, however,
Hunter recalled that Cole’s hands were lowered, with the
handgun in his right hand held no higher than waist-level.
Cassidy, on the other hand, testified that Cole emerged
with the handgun held to his head. Carson stated only
that he saw Cole emerge from the tree line in front of
Hunter, and that he “could not see what the suspect was
doing before the shots were fired.”
According to Carson, Hunter then gave Cole a
command “about showing his hands or dropping his gun.”
Cassidy also testified that Hunter issued a command. In
his initial statement Cassidy testified that high winds
prevented him from hearing Hunter’s words. Four years
later, however, Cassidy could recollect that Hunter had
shouted “[D]rop it!” Hunter himself equivocated on
whether he shouted to Cole. Initially, Hunter stated that
he had no chance to issue a command. Three days later,
Hunter could no longer recollect whether he had or had
not yelled to Cole. In a deposition four years after the
incident, Hunter did not disagree with his fellow officers’
recollection that he had issued a command.
Hunter and Cassidy testified that Cole turned and
pointed his handgun at Hunter. 8 Hunter fired four rounds
8. Carson testified he could not see Cole’s movement because
Cassidy and Hunter obstructed his line of sight.

99a
Appendix B
at Cole. Cassidy fired three. None of the officers recalled
Cole discharging his own gun.
Eyewitnesses offer additional accounts. One witness,
William Mackey, standing in a parking lot across the
highway, heard one of the officers yell for Cole “to come
out.” Mackey recalled that when Cole emerged from the
trees “roughly five officers” were on the scene, and more
than one yelled for Cole to “drop his gun” before the
shooting commenced. Mackey also remembered—in a
second affidavit, sworn three years later—that Cole had
“raise[d] his hand and point[ed] [an] object towards the
officers.” Another witness, Trent Kornegay, saw Hunter
drop to a knee looking into the trees; as Cole emerged,
someone said “drop the gun,” then shots were fired. A third
witness, Steve Ellis, also across the highway, saw Cole
emerge, then heard officers yell “repeatedly” for Cole “to
drop the weapon and stop” before the shooting commenced.
A fourth eyewitness standing in the same parking lot, Jim
Owens, testified that Cole’s hands remained motionless
by his sides during the whole incident, and that no words
were spoken or shouted before shots were fired.
Of the officers’ shots, two hit Cole. One round fired
by Hunter passed through Cole’s left arm, into his torso,
fracturing a rib, bruising his lung, and lodging in his
back. A second round, also fired by Hunter, grazed his
left arm. None of Cassidy’s shots struck Cole. A third
round entered three inches above Cole’s ear from Cole’s
right, with fragments of the bullet exiting the top of
his skull. The entry wound exhibited stippling, that is,
discoloration of the skin caused by hot gases and residue

100a
Appendix B
released immediately around a discharging firearm.
Ballistics analysis indicated that the trajectory of the
third round was characteristic of a self-inflicted wound.
When copper fragments were recovered from Cole’s head,
ballistics experts determined they had originated from
Cole’s handgun.
The Coles allege that while Cole was unconscious,
bleeding “profusely” and “presumably . . . to death,” the
officers did nothing to help him. When paramedics arrived,
Cole experienced cardiac arrest, but was resuscitated. He
was then immediately taken to Baylor Hospital in Garland,
where he was stabilized. Cole remained hospitalized,
recovering from his injuries for months. He survived the
shooting, but continues to suffer from serious mental and
physical disabilities arising from his injuries.
Following the shooting, the three officers remained
together at the scene, but never offered Cole assistance.
The Coles allege that during this time the officers
conferred, and agreed to fabricate a story that would
insulate Cassidy and Hunter from liability. Eventually,
members of the Garland Police Department arrived and
took control of the scene, but did not follow the standard
procedure of separating witnesses to ensure independent
recollections. Instead, members of the Sachse Police
Department were allowed to escort Cassidy and Hunter
back to their police station. The officers later provided
statements to Garland Police Department investigators
at the Garland police station. Based on the officers’
statements, Cole was charged with the misdemeanor

101a
Appendix B
of unlawful carrying of a firearm9 and the felony of
aggravated assault of a public servant.10 As a result of the
assault charge, Cole, incapacitated in intensive care, was
placed under house arrest. The Coles incurred substantial
legal fees in connection with the charge. Around two years
later, Cole received deferred adjudication on the unlawful
carrying misdemeanor charge and the District Attorney
dismissed the assault charge.
The Coles brought suit against Carson, Cassidy, and
Hunter in the Eastern District of Texas.11 The officers
successfully transferred the case to the Northern District
of Texas. The Coles’ amended complaint brings three
claims relevant here. First, the Coles bring a Section 1983
claim against Cassidy and Hunter, alleging a violation
of Cole’s Fourth Amendment right against the use of
excessive force. Second, they bring a Section 1983 claim
against all three officers alleging a violation of Cole’s
Fourth Amendment right against unreasonable seizures
arising from the fabrication of evidence. Third, they bring
a Section 1983 claim against all three officers alleging a
9. Under Texas Penal Code Chapter 46, it is a Class A
misdemeanor to “intentionally, knowingly, or recklessly carr[y]
on or about [one’s] person a handgun” unless on one’s premises or
inside or en route to one’s motor vehicle or watercraft. TEX. PENAL
CODE § 46.02. It is lawful for a handgun permit holder to carry a
concealed handgun, and, as of January 2016, for a permit holder to
openly carry a handgun that is holstered. Id. at § 46.035.
10. Under Texas Penal Code Chapter 22, it is a first-degree
felony offense to commit an assault on a public servant while the
public servant is discharging an official duty. Id. § 22.02(b)(2)(B).
11. The Coles also named the City of Sachse as a defendant.

102a
Appendix B
violation of Cole’s Fourteenth Amendment due process
rights arising from the same fabrication of evidence.
The officers moved to dismiss these claims, asserting
absolute and qualified immunity defenses. In a January 24,
2014 Memorandum Opinion and Order, the district court
denied the officers’ motion. Carson alone appealed the
denial of the motion in connection with the Coles’ Fourth
and Fourteenth Amendment claims. The district court
stayed the fabrication of evidence claim as to Cassidy
and Hunter pending Carson’s appeal. The district court
allowed limited discovery focused on Cassidy and Hunter’s
qualified immunity defenses to the Fourth Amendment
excessive force claim. Those two officers moved for
summary judgment on the Fourth Amendment excessive
force claim, again asserting qualified immunity. The
district court denied the motion and Cassidy and Hunter
appealed.
We consolidated Cassidy and Hunter’s appeal of the
denial of summary judgment with Carson’s appeal of
the denial of the motion to dismiss. On September 25,
2015, we affirmed the district court’s denial of summary
judgment based on qualified immunity with respect to
the Coles’ Fourth Amendment excessive force claim
against Cassidy and Hunter, and affirmed the district
court’s denial of the motion to dismiss with respect to the
Coles’ Fourteenth Amendment due process claim against
Carson. With respect to the denial of Carson’s motion to
dismiss the Fourth Amendment fabrication of evidence
claim, we reversed.

103a
Appendix B
The officers filed a motion for rehearing and en banc
review in this court, which we denied. They then petitioned
the Supreme Court for a writ of certiorari. On November
28, 2016, the Supreme Court granted certiorari, vacated
this court’s judgment, and remanded the case for further
consideration in light of Mullenix v. Luna,12 decided in the
intervening time. On remand, we called for supplemental
briefing and oral argument. The parties’ supplemental
briefing is complete. We have heard oral argument.
II
The doctr ine of quali f ied immunity protects
government officials “from liability for civil damages
insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.”13 “Qualified immunity balances
two important interests— the need to hold public officials
accountable when they exercise power irresponsibly and
the need to shield officials from harassment, distraction,
and liability when they perform their duties reasonably.”14
Qualified immunity involves not only immunity from
liability, but also immunity from suit.15 The qualified
immunity inquiry includes two parts. In the first we ask
12. 136 S. Ct. 305, 193 L. Ed. 2d 255 (2015).
13. Harlow v. Fitzgerald, 457 U.S. 800, 818, 102 S. Ct. 2727, 73
L. Ed. 2d 396 (1982).
14. Pearson v. Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 172
L. Ed. 2d 565 (2009).
15. Id.

104a
Appendix B
whether the officer’s conduct has violated a federal right;
in the second we ask whether the right in question was
“clearly established” at the time of the violation, such that
the officer was on notice of the unlawfulness of his or her
conduct.16 The officer is entitled to qualified immunity if
there is no violation, or if the conduct did not violate law
clearly established at the time.17
In the first part of our review we turned to the claim of
a constitutional violation for each assertion of the qualified
immunity defense. We first held that a reasonable jury
could find Hunter and Cassidy violated Cole’s Fourth
Amendment right against the use of excessive force, and
held that this conduct violated clearly established law.18
Regarding Carson’s motion to dismiss, we held that the
Coles failed to allege facts sufficient to make out a Fourth
Amendment violation in connection with fabrication of
evidence,19 but that their allegations were sufficient to
sustain the Fourteenth Amendment due process claim. 20
In connection with the latter claim, we also held that the
alleged violation violated clearly established law. 21

16. Tolan v. Cotton, 572 U.S. 650, 134 S. Ct. 1861, 1865-66, 188
L. Ed. 2d 895 (2014).
17. Id.
18. Cole, 802 F.3d at 757-62.
19. Id. at 764-65.
20. Id. at 765-74.
21. Id. at 773-74.

105a
Appendix B
We will not revisit the first part of the qualified
immunity inquiry in connection with any of the Coles’
claims, nor the question of clearly established law as
regards the Coles’ Fourteenth Amendment claim against
Carson. We hear this case on remand from the Court for
further consideration in light of Mullenix. 22 In Mullenix,
the Court reversed a decision of this court in which we had
found that a police officer violated clearly established law
by shooting a fugitive during a car chase. In its decision
the Mullenix Court addressed only the second part of the
qualified-immunity inquiry: whether the officer’s alleged
conduct violated clearly established law. 23 The Court’s
mandate here reaches only this second part of the qualified
immunity inquiry in connection with the Coles’ Fourth
Amendment claim against Cassidy and Hunter, and, as
we need not, we do not reach issues unaddressed by the
mandate on remand. 24 We reinstate our prior decision as
concerns all other parts of the appeal and address only the
existence of clearly established law as it informs the denial
of Cassidy and Hunter’s motion for summary judgment.

22. Mullenix v. Luna, 136 S. Ct. 305, 193 L. Ed. 2d 255 (2015).
23. Id. at 308-12; see also Aldaba v. Pickens, 844 F.3d 870, 872
(10th Cir. 2016).
24. United States v. Matthews, 312 F.3d 652, 657 (5th Cir. 2002)
(finding that, absent exceptional circumstances, the court generally
addresses only issues within the scope of a mandate on remand).
But see Hill v. Black, 920 F.2d 249, 250 (5th Cir. 1990), modified on
other grounds on denial of reh’g, 932 F.2d 369 (5th Cir. 1991) (holding
that the court has jurisdiction to reach issues unaddressed by the
Supreme Court’s mandate on remand).

106a
Appendix B
Turning to that denial, we note that the district
court did not weigh the evidence and resolve the factual
disputes over the shooting of October 25, 2010, properly
so. 25 Rather it asked only whether a jury should “resolve
the parties’ differing versions of the truth at trial.” 26 The
district court determined that genuine disputes of fact
remained, that these disputes were material, 27 and should
be resolved by a jury.
Our inquiry is more circumscribed. “An order denying
a motion for summary judgment is generally not a final
decision within the meaning of § 1291 and is thus generally
not immediately appealable.” 28 However, a denial of
summary judgment on the basis of qualified immunity
is immediately appealable under the collateral order
doctrine. 29 With such an appeal our review is confined to
the materiality of factual disputes identified by the district
court.30 We ask whether, if all factual disputes are resolved
in the plaintiffs’ favor, Cassidy and Hunter are entitled to
qualified immunity as a matter of law. If so, the officers
25. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249, 106 S.
Ct. 2505, 91 L. Ed. 2d 202 (1986).
26. Id. (internal quotation marks omitted).
27. See Fed R. Civ. P. 56(a).
28. Plumhoff v. Rickard, 572 U.S. 765, 134 S. Ct. 2012, 2018,
188 L. Ed. 2d 1056 (2014).
29. Id. at 2019 (“[P]retrial orders denying qualified immunity
generally fall within the collateral order doctrine.”); Mitchell v.
Forsyth, 472 U.S. 511, 530, 105 S. Ct. 2806, 86 L. Ed. 2d 411 (1985).
30. See Good v. Curtis, 601 F.3d 393, 397-98 (5th Cir. 2010).

107a
Appendix B
are due summary judgment; if not, we affirm the district
court. 31 We take facts in a light most favorable to the nonmovants, the Coles, and draw all justifiable inferences in
their favor. 32 We consider the circumstances leading up
to the officers’ conduct, 33 but confine our inquiry to those
facts knowable to the officers at the time. 34 Within the
limited scope of our inquiry, review is de novo. 35
The facts as we take them establish that Cole posed
no threat to the officers or anyone else at the time Cassidy
and Hunter shot him. The officers’ limited knowledge of
Cole created no reasonable expectation of an immediate
violent confrontation: Cole was a high school student
distraught over a recent breakup; he had carried his guns
to a friend’s house; the friend was unable to persuade Cole
to part with the handgun, and Cole warned him not to try
to take it. Both officers knew that Cole had walked away
from two police officers without violent confrontation. At
no point did Cassidy or Hunter hear orders to establish
a perimeter around Cole, to conceal themselves, or to
take cover, nor were there calls for backup from SWAT
teams or tactical units to handle the situation. While
Cole possessed a handgun, he did nothing to threaten the
31. Id.; Wagner v. Bay City, 227 F.3d 316, 320 (5th Cir. 2000).
32. Tolan, 134 S. Ct. at 1866.
33. Mendez v. Poitevent, 823 F.3d 326, 333 (5th Cir. 2016).
34. White v. Pauly, 137 S. Ct. 548, 549-50, 196 L. Ed. 2d 463
(2017) (per curiam) (“[T]he Court considers only the facts that were
knowable to the defendant officers.”).
35. Good, 601 F.3d at 398.

108a
Appendix B
officers. The officers understood that Cole was unaware
of their presence, and Cassidy and Hunter took cover and
remained silent so that Cole would remain unaware. When
Cole backed out from the brush, he was facing away from
the officers. Moreover, they could see that the handgun
was pointed at Cole’s head. The weapon was in this position
as Cole turned counterclockwise, and remained trained
there until he was shot. Hunter and Cassidy opened
fire before Cole had turned to face them, and before he
registered their presence. At no time did Cole pose, or
reasonably appear to pose, an immediate threat to the
officers or anyone other than himself.
The only question we answer is whether, given these
facts, Cassidy and Hunter violated clearly established
law. Here, we have the guidance the Court provided in
Mullenix. In that case, the Court reviewed a denial of
qualified immunity to an officer who had shot and killed
a fugitive in a car chase. This court had decided that the
officer violated the clearly established rule that deadly
force was prohibited “against a fleeing felon who does not
pose a sufficient threat of harm to the officer or others.” 36
The officer in Mullenix reasonably perceived some threat
of harm, but we had held the threat was not “sufficient.”
The Supreme Court reversed our decision. It found that
the rule we articulated lacked a referent to define the
“sufficiency” of threats. 37 Precedents provided a “hazy
36. Mullenix, 136 S. Ct. at 308-09 (emphasis added and internal
quotation marks omitted).
37. Id. at 309 (“The general principle that deadly force requires
a sufficient threat hardly settles th[e] matter.”).

109a
Appendix B
legal backdrop,” at best. 38 Given these deficient sources,
an officer could not reasonably derive an applicable rule
to govern his or her conduct in the situation. 39 Finding
that we had defined the applicable rule with too much
“generality,”40 the Court reversed our holding that the
officer had violated clearly established law.41
It is significant that the Court’s focus in Mullenix was
upon generality. In some conceptual sense, a legal rule
is necessarily general: it applies not only to the case in
which it is articulated, but to all like cases. The Mullenix
Court does not repudiate generality in this sense. Rather
it repudiates a second variety of generality, one that does
not reach all legal rules: generality as indeterminacy.42
A rule that is general in that it is indeterminate
cannot be “clearly established,” because a reasonable
officer attempting to interpret and apply that rule in
38. Id. at 309-10.
39. Id.
40. Id. at 311 (describing “the Fifth Circuit’s error” in “defin[ing]
the qualified immunity inquiry at a high level of generality”).
41. Id. at 312.
42. The duality of the concept of generality is reflected in
the multiple connotations of that term in common usage. See, e.g.,
General, O xford English Dictionary (online ed. 2018) (defining
“general” both as “[i]ncluding . . . the parts of a specified whole, or
the . . . things to which there is an implied reference; completely or
approximately universal within implied limits; opposed to partial
or particular,” and as “[n]ot specifically limited or determined in
application; relating or applicable to a whole class of objects, cases,
or occasions” (emphasis omitted)).

110a
Appendix B
particularized circumstances will face legal uncertainty.
The officer cannot be on notice of the proper course of
action. In this scenario, Mullenix tells us that the qualified
immunity doctrine insulates the officer from liability.43 On
the other hand, a reasonable officer is capable of reasoning
analogically from a determinate and categorical rule to
conclude that given conduct is prohibited.44 Such rules,
once articulated, are clearly established law.
Here, a determinate and categorical rule applied to the
facts facing Cassidy and Hunter: officers are prohibited
from using deadly force against a suspect where the
officers reasonably perceive no immediate threat. This nothreat rule was clearly established as early as 1985, when
the Court articulated it in Tennessee v. Garner. In that
case an officer shot a suspect in the absence of a reasonable
perception of threat.45 Analyzing the case, the Garner
Court began by describing a widely applicable standard
governing the constitutionality of seizures, balancing the
intrusiveness of a seizure against government interests.46
But it did not stop there. The Court also articulated a
bright-line rule to govern the limit condition in which
governmental officers face no threat from a suspect:
43. See Mullenix, 136 S. Ct. at 308 (requiring that the rule
be applicable such that “the statutory or constitutional question
[is] beyond debate” and that the rule clarify “the violative nature
of particular conduct” “(internal quotation marks and emphasis
omitted)).
44. See id.
45. 471 U.S. 1, 2, 105 S. Ct. 1694, 85 L. Ed. 2d 1 (1985).
46. Id. at 8.

111a
Appendix B
“Where the suspect poses no immediate threat to the
officer and no threat to others, the harm resulting from
failing to apprehend him does not justify the use of deadly
force to do so.”47 The rule is categorical and determinate.
It is general in the first sense of the term, but not in the
second sense of indeterminacy.
By October 25, 2010 the no-threat rule had been
clearly established for twenty-five years, and had been
applied many times in this circuit. For example, in an
unpublished 2008 decision, Graves v. Zachary, this court
denied an officer qualified immunity for shooting a suspect
who posed no threat to the officers or others.48 We stated
that where a suspect posed no threat, “the violation of his
constitutional rights would have been obvious even without
a body of relevant case law . . . . Under general precedents
such as Garner, [the officer] should have known that his
use of force was excessive.”49 Similarly, in an unpublished
2010 decision, Reyes v. Bridgewater, this court denied
qualified immunity to an officer who shot a suspect who
was armed with a knife but made no threatening gestures
or motions towards the officer. 50 We invoked the “core,
established rule” from Garner that “deadly force may
not be used where the suspect poses no immediate threat
to the officer and no threat to others . . . . It violates the
47. Id. at 11.
48. 277 F. App’x. 344, 349 (5th Cir. 2008) (unpublished).
49. Id. (internal quotation marks and citation omitted).
50. Reyes v. Bridgwater, 362 F. App’x 403, 407-08 (5th Cir.
2010) (unpublished).

112a
Appendix B
Fourth Amendment to use deadly force absent such a
threat.”51
Cassidy and Hunter paint with too broad a brush
when they argue that the Supreme Court’s holdings
preclude finding clearly established law in Garner. The
officers fail to distinguish between the application of
Garner’s “sufficiency of threat” balancing inquiry and
the bright-line no-threat rule also articulated in that
case. Unquestionably, where facts establish that officers
reasonably perceived some threat, Garner requires
a balancing analysis to gauge the “sufficiency” of the
threat relative to the use of force. Mullenix, and several
other decisions of the Court, conclude that this balancing
exercise standing alone is too indeterminate to present
as clearly established law. 52 Rather, in these situations,
“[p]recedent involving similar facts can help move a case
beyond the otherwise hazy border between excessive and
acceptable force and thereby provide an officer notice that
a specific use of force is unlawful.”53
51. Id. at 407 (internal quotation marks and citation omitted).
52. Brosseau v. Haugen, 543 U.S. 194, 197, 125 S. Ct. 596, 160
L. Ed. 2d 583 (2004) (addressing application of Garner’s objective
reasonableness standard); Plumhoff, 134 S. Ct. at 2023-24 (2014)
(addressing application of Garner’s standard where suspect
“indisputably posed a danger both to officers involved and to any
civilians who happened to be nearby”); Kisela v. Hughes, 138 S.
Ct. 1148, 1153, 200 L. Ed. 2d 449 (2018) (addressing application of
Garner’s reasonableness standard where police reasonably perceived
a threat).
53. Kisela, 138 S. Ct. at 1153 (internal quotation marks
omitted); see also Pauly, 137 S. Ct. at 552; Brosseau, 543 U.S. at 201.

113a
Appendix B
There is, however, a threshold inquiry as to whether
the facts sustain finding any reasonably perceived threat
at all. In situations where they do not, the Court has not
repudiated application of Garner. On the contrary, it
has repeatedly explained that, in what it calls “obvious
case[s],” Garner provides clearly established law. 54 This
court has held similarly. In Mason v. Lafayette CityParish Consolidated Government, a police officer fired
upon a suspect while responding to a purported armed
robbery. 55 The officer fired seven shots, the final two of
which hit the suspect in the back while he lay incapacitated
by previous shots. 56 When the officer invoked qualified
immunity in response to a Section 1983 excessive force
claim, we reversed the district court’s grant of summary
judgment on the basis of the defense.57 Addressing clearly
established law, we held that Garner provided the relevant
“command that deadly force is unconstitutional when ‘a
suspect poses no immediate threat to the officer and no
threat to others.’”58 Similarly, we applied the no-threat
rule in the unpublished Giardina v. Lawrence decision. 59
54. Brosseau, 543 U.S. at 199 (observing that “in an obvious
case” Garner “can ‘clearly establish’ the answer, even without a
body of relevant case law”); Pauly, 137 S. Ct. at 552; Kisela, 138 S.
Ct. at 1153.
55. 806 F.3d 268 (2015). The police understood the situation to
be an armed robbery based on a 911 call. Id. at 272.
56. Id. at 273-74.
57. Id. at 278.
58. Id. (quoting Garner, 471 U.S. at 11).
59. 354 F. App’x 914, 916 (5th Cir. 20 09) (per curiam)
(unpublished) (citing Garner, 471 U.S. at 10-12).

114a
Appendix B
There, the facts taken in a light most favorable to the nonmovant established that a national guardsman had shot a
man who had been speaking with a 911 dispatcher on his
cellphone.60 We held that the defendant had violated the
Garner no-threat rule: “[i]t is clearly established that it
is unconstitutional for an officer to use deadly force where
there is no threat of serious physical harm.”61
We note in passing that, in dictum to an unpublished
opinion last year, Hatcher v. Bement, this court
characterized the Garner no-threat rule as a “general
test,”62 and reasoned that, under Mullenix, we “could
not rely on th[e] general test detached from factual
application.”63 Rather, we wrote, “this general test must
be tethered to precedent containing facts analogous or
near-analogous to the facts in the case under consideration
. . . .”64 Hatcher’s characterization of the no-threat rule as
a “general” test is ambiguous given the term’s multiple
senses, as we explained. To the extent this dictum65 from
60. Id.
61. Id.
62. 676 F. App’x 238, 243 (5th Cir. 2017) (per curiam)
(unpublished).
63. Id. (internal quotation marks omitted).
64. Id. (internal quotation marks omitted).
65. The characterization of Garner’s no-threat rule is dictum
because the Hatcher court found that more recent circuit precedents
provided the clearly established law governing its decision. See
Hatcher, 676 F. App’x at 243-44; see also Int’l Truck & Engine Corp.
v. Bray, 372 F.3d 717, 721 (5th Cir. 2004) (“A statement is dictum if it

115a
Appendix B
Hatcher suggests that we must identify a precedent
mediating the application of Garner’s no-threat rule to a
case’s no-threat facts, we disagree. The Supreme Court
has stated precisely otherwise,66 and no other binding
authority requires such mediation by precedent where an
existing legal rule is determinate and applicable, that is,
where the rule is clearly established.
Cassidy and Hunter argue that, as of October 25, 2010,
the precedential waters were muddied by several decisions
of this court. These decisions were premised on findings
that officers reasonably perceived a threat in situations
similar to Cassidy and Hunter’s encounter with Cole.
Under Mullenix, a rule of clearly established law must
be specifically applicable to the facts before the court,67
and applicable law can arise from precedents. 68 The
Court cautions, however, against reasoning analogically
from cases meaningfully distinct on the facts.69 We heed
that warning. Whether Cassidy and Hunter reasonably
perceived a threat when they fired upon Cole is a factual
question. It is one that the district court found genuinely
disputed. Our inquiry takes the facts in a light most
could have been deleted without seriously impairing the analytical
foundations of the holding and being peripheral, may not have
received the full and careful consideration of the court that uttered
it.” (internal quotation marks omitted)).

66. See supra note 54.
67. Mullenix, 136 S. Ct. at 308 (2015).
68. Id. at 309.
69. Id. at 312.

116a
Appendix B
favorable to the Coles, and in that light a factual premise
of our analysis is that there was no reasonably perceived
threat. The cases to which Cassidy and Hunter direct us
are inapposite, because they are all premised on factual
findings of a threat.70 We cannot and will not revise the
district court’s identification of genuine fact disputes.
Cassidy and Hunter are not entitled to qualified
immunity at this point in the case.
70. Reese v. Anderson, 926 F.2d 494, 500-01 (5th Cir. 1991)
(holding that Garner did not prohibit conduct where facts indicated
that an officer reasonably perceived a threat from a non-compliant
suspect after a car chase); Young v. City of Killeen, 775 F.2d 1349,
1352-53 (5th Cir. 1985) (holding that there was no constitutional
deprivation where “all witnesses agreed” that the officer had
reasonably perceived a threat at the time of the shooting); Ontiveros
v. City of Rosenberg, 564 F.3d 379, 385 (5th Cir. 2009) (affirming
summary judgment on the basis of qualified immunity where facts
indicated that a SWAT team officer reasonably perceived a threat
from a non-compliant suspect barricaded behind a door); Manis v.
Lawson, 585 F.3d 839, 845-46 (5th Cir. 2009) (holding that an officer
was entitled to qualified immunity where facts established that he
reasonably perceived a threat from a non-compliant suspect refusing
to show his hands and appearing to retrieve a gun); Ballard v.
Burton, 444 F.3d 391, 402-03 (5th Cir. 2006) (holding that an officer
was entitled to summary judgment on an excessive force claim where
facts indicated the officer reasonably perceived a threat from a noncompliant suspect); Ramirez v. Knoulton, 542 F.3d 124, 129-31 (5th
Cir. 2008) (holding that an officer was entitled to qualified immunity
where facts indicated that a suspect was “defiant and threatening”).
See also Salazar-Limon v. City of Houston, 826 F.3d 272, 279 (5th
Cir. 2016) (holding that an officer was entitled to qualified immunity
where the officer reasonably perceived a threat from a non-compliant
suspect who physically struggled with the officer before suddenly
reaching towards his waistband).

117a
Appendix B
III
Immunity from trial is an important component of
qualified immunity, but denial at this stage does not
necessarily deprive the officers of the immunity defense
as to liability. We decide only that it will be for a jury to
resolve what happened on October 25, 2010, and whether
Cassidy and Hunter are or are not entitled to the defense.
For our purposes, the district court determined there was
a genuine factual dispute. We hold this dispute is material.
We AFFIRM the denial of Cassidy and Hunter’s motion
for summary judgment, otherwise REINSTATE our
previous opinion in this case, and REMAND for further
proceedings consistent with this opinion.

118a
Appendix
C THE Supreme
APPENDIX C— ORDER
OF
Court of the United States, DATED
November 28, 2016
Supreme Court of the United States
No. 16-351
MICHAEL HUNTER, ET AL.,
Petitioners
v.
RANDY COLE, ET AL.
ON PETITION FOR WRIT OF CERTIORARI to
the United States Court of Appeals for the Fifth Circuit.
THIS CAUSE having been submitted on the petition
for writ of certiorari and the response thereto.
ON CONSIDERATION WHEREOF, it is ordered
and adjudged by this Court that the petition for writ of
certiorari is granted. The judgment of the above court
is vacated with costs, and the case is remanded to the
United States Court of Appeals for the Fifth Circuit for
further consideration in light of Mullenix v. Luna, 577
U.S. _______ (2015) (per curiam).
IT IS FURTHER ORDERED that the petitioners
Michael Hunter, et al. recover from Randy Cole, et
al. Three Hundred Dollars ($300.00) for costs herein
expended.

119a
Appendix C
November 28, 2016
By:

/s/
		
Cynthia Rapp

120a
APPENDIX D — Appendix
OPINIONDOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED SEPTEMBER 25, 2015
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 14-10228, No. 15-10045
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees ,
v.
CARL CARSON,
Defendant-Appellant;
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees,
v.
MICHAEL HUNTER; MARTIN CASSIDY,
Defendants-Appellants.
September 25, 2015, Filed
Appeals from the United States District Court
for the Northern District of Texas

121a
Appendix D
B e fo r e H IG GI N B O T H A M , C L EM EN T, A N D
HIGGINSON, Circuit Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge:
Seventeen-year-old Ryan Cole was severely injured
in an armed encounter with police. Ryan and his parents,
Karen and Randy Cole (“the Coles”), brought suit against
Officers Michael Hunter and Martin Cassidy, alleging
that they violated Ryan’s Fourth Amendment right not
to be subjected to excessive force. They also sued Officer
Carl Carson, alleging Carson violated Ryan’s rights
under the Fourth and Fourteenth Amendments by lying
and concealing evidence in order to protect Hunter and
Cassidy; that he caused Ryan to be wrongfully charged
with aggravated assault of a public servant. The district
court denied Carson’s motion to dismiss and Hunter and
Cassidy’s motion for summary judgment, rejecting the
officers’ immunity defense at the motion stage of the case.
We dismiss defendants’ appeal of the district court’s
order refusing to grant summary judgment on the
excessive force claim, and we affirm the district court’s
refusal to dismiss the due process claim relating to
fabrication of evidence. However, we conclude that the
district court erred in allowing all other claims to proceed.

122a
Appendix D
I
Seventeen-year-old Ryan Cole was a junior at Sachse
High School.1 Ryan suffered from obsessive-compulsive
disorder. The night before the shooting, he quarreled with
his parents, and later took guns and ammunition from
their gun safe. He visited his friend Eric Reed Jr. late
that night carrying weapons. The next morning, October
25, 2010, Ryan visited Eric again carrying two handguns:
a revolver and a Springfield 9mm semi-automatic. At
around 10:45 in the morning Ryan allowed Eric to take the
revolver, and used Eric’s cellphone to ask his grandparents
to pick him up at a nearby CVS.
During the course of the morning, police were
informed that Ryan was carrying at least one gun and
acting aggressively, and they began looking for him. After
Ryan left Eric’s house with his remaining handgun, he was
seen by several officers and ordered to stop. He continued
to walk away from the officers and placed the gun against
his own head. He walked towards a set of train tracks
separated by a narrow wooded area and grassy strip
from Highway 78, a major road. The CVS where he was
to meet his grandparents was located on the other side of
the wooded area, across Highway 78.

1. One of the cases before us comes from a denial of summary
judgment, and one from a denial of a motion to dismiss. They
involve distinct standards of review and universes of relevant
facts. For purposes of this summary, we describe the facts in
broad strokes, turning to their detail as we address specific issues.

123a
Appendix D
Three police officers—Hunter, Cassidy, and Carson—
were attempting to locate Ryan on the other side of the
wooded area, near Highway 78 and the CVS. Ryan crossed
the wooded area and backed out of the woods near Officer
Hunter, who was some distance from Officers Cassidy
and Carson. The officers believed Ryan was unaware of
them when he backed out, and remained quiet so as not
to alert him. Then Ryan made some turning motion to his
left. The officers say that he turned to face Officer Hunter
and pointed his gun at him, while the Coles argue that he
merely began to turn toward the CVS, still with his gun
pointed at his own head. Whether any warning was given
is disputed, but Officers Hunter and Cassidy opened fire,
hitting Ryan twice. In addition, Ryan’s gun discharged,
hitting his own head, and leaving stippling—gunpowder
residue around the wound due to the gun being fired from
less than thirty inches away.
Ryan fell, and the officers ceased firing. He was
picked up by an ambulance and taken for treatment
of his severe injuries. Over time, Ryan has made a
significant recovery, but lives with profound disabilities.
He has incurred extensive medical bills and continues to
require care. After the shooting, the three officers had
an opportunity to confer before making their statements
to police investigators—statements which conveyed that
Ryan was given a warning and that he pointed his gun at
Officer Hunter prior to being shot. The Coles argue that
these statements are lies contradicted by recordings and
physical evidence.
The officers’ statements resulted in Ryan being
charged with aggravated assault on a public servant—a
felony. As a result of the assault charge, Ryan was placed

124a
Appendix D
under house arrest. The assault charge was dismissed by
the District Attorney on May 8, 2012, and Ryan received
deferred adjudication for an unlawful carrying charge.
The Coles incurred substantial legal fees in order to
confront the aggravated assault charge, which they allege
was concocted by the officers to justify the shooting.
II
The Coles brought suit in the Eastern District
of Texas. The appellant officers 2 moved to transfer;
answered, asserting absolute and qualified immunity
defenses; and moved to dismiss or alternatively for the
court to order a reply to their immunity defenses under
Federal Rule of Civil Procedure 7(a). 3 After transfer to
the Northern District of Texas, the district court ordered
the Coles to notify it whether they would file additional
documents in the form of a Rule 7(a) Reply or an amended
Complaint.
The Coles filed their First Amended Complaint which,
as relevant here, includes § 1983 claims against Officers
Cassidy and Hunter for excessive force and against all
three officers for manufacturing and concealing evidence
in order to get Ryan falsely charged with assault. The
defendants moved to dismiss, with the appellant officers
asserting absolute and qualified immunity defenses. The
court then issued a Memorandum Opinion and Order
denying the Motion to Dismiss with respect to the § 1983
2. Along with other defendants.
3. A procedure for employing Rule 7(a) to require a reply
when a qualified immunity defense is pleaded with specificity was
described in Schultea v. Wood, 47 F.3d 1427 (5th Cir. 1995).

125a
Appendix D
claims based on both excessive force and conspiracy to
conceal and manufacture evidence to bring a false charge.
Officer Carson appealed that order with regard to the
latter claim; Officers Cassidy and Hunter did not. The
district court stayed the false charge claim as to Cassidy
and Hunter pending the result of Carson’s appeal. We
heard argument on that appeal.
Meanwhile, the district court allowed limited
discovery focused on Officers Cassidy and Hunter’s
qualified immunity defense to the excessive force charge.
Those two officers then moved for summary judgment
on that charge, which the district court denied. Officers
Cassidy and Hunter appealed, and we consolidated their
appeal with Carson’s.
III
Following the chronology of the underlying events, we
turn first to the excessive force claim. The district court
denied Officers Cassidy and Hunter’s motion for summary
judgment, finding they were not entitled to qualified
immunity because, under the plaintiffs’ evidence, their
use of force violated clearly established law.
a.

Qualified immunity inquiry at summary
judgment

The officers are protected “from liability for civil
damages” by qualified immunity “insofar as their
conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person would

126a
Appendix D
have known.”4 Qualified immunity is an immunity from
suit and thus should be resolved as early as possible. 5 At
summary judgment, it is the plaintiff’s burden to rebut
a claim of qualified immunity once the defendant has
properly raised it in good faith.6
“District court orders denying summary judgment
on the basis of qualified immunity are immediately
appealable . . . when based on a conclusion of law.” 7 We
may not review the district court’s determination that a
genuine fact dispute exists,8 but we are called to determine
whether, resolving all fact disputes in the plaintiffs’
favor, the defendants are nonetheless entitled to qualified
immunity as a matter of law.9 Within the limited scope of
our inquiry, review is de novo.10 We must:
engage in a two-pronged inquiry. The first asks
whether the facts, “[t]aken in the light most
favorable to the party asserting the injury
4. Pearson v. Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 172
L. Ed. 2d 565 (2009) (citation omitted).
5. Id. at 231-32.
6. Salas v. Carpenter, 980 F.2d 299, 306 (5th Cir. 1992).
7. Coleman v. Houston Indep. Sch. Dist., 113 F.3d 528, 531
(5th Cir. 1997).
8. Good v. Curtis, 601 F.3d 393, 397 (5th Cir. 2010).
9. Id. at 397-98; Wagner v. Bay City, 227 F.3d 316, 320 (5th
Cir. 2000).
10. Good, 601 F.3d at 398.

127a
Appendix D
. . . show the officer’s conduct violated a [federal]
right . . . .” The second prong . . . asks whether
the right in question was “clearly established”
at the time of the violation.11
We may address either prong first.12
b.

Fourth Amendment violation

To show a violation of the Fourth Amendment’s
prohibition against excessive force, the Coles must prove
that “the force used was objectively unreasonable.”13 In
assessing the reasonableness of the force, we examine:
the facts and circumstances of the particular
case—the need for force determines how much
force is constitutionally permissible. The court
should consider “the severity of the crime at
issue, whether the suspect poses an immediate
threat to the safety of the officers or others,
11. Tolan v. Cotton, 134 S. Ct. 1861, 1865-66, 188 L. Ed. 2d
895 (2014) (citations omitted); see also Trent v. Wade, 776 F.3d 368,
384 (5th Cir. 2015) (rejecting idea that the second prong should be
further subdivided to ask whether the defendants’ actions were
“objectively reasonable”).
12. Morgan v. Swanson, 659 F.3d 359, 371 (5th Cir. 2011) (en
banc) (citing Pearson, 555 U.S. at 236).
13. Luna v. Mullenix, 773 F.3d 712, 719 (5th Cir. 2014) (citing
Goodson v. City of Corpus Christi, 202 F.3d 730, 740 (5th Cir.
2000)). The officers do not dispute that the Coles have produced
evidence of “(1) an injury; (2) which resulted directly from a use of
force that was clearly excessive to the need.” Luna, 773 F.3d at 719.

128a
Appendix D
and whether he is actively resisting arrest or
attempting to evade arrest by flight.”14
In deadly force cases, “the severity and immediacy of
the threat of harm to officers or others are paramount to
the reasonableness analysis.”15 Additionally, we bear in
mind both that “[t]he intrusiveness of a seizure by means
of deadly force is unmatched,”16 and that the use of force
“must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision of
hindsight.”17
Accepting the Coles’ best version of the evidence,
as they must, Officers Cassidy and Hunter argue that
shooting Ryan was not objectively unreasonable—that
he presented an immediate threat of serious harm when
they fired.18 Accordingly, we recount the version of events
most favorable to the Coles.
14. Hogan v. Cunningham, 722 F.3d 725, 734 (5th Cir. 2013)
(footnotes omitted).
15. Luna, 773 F.3d at 719-20.
16. Tennessee v. Garner, 471 U.S. 1, 9, 105 S. Ct. 1694, 85 L.
Ed. 2d 1 (1985).
17. Graham v. Connor, 490 U.S. 386, 396-97, 109 S. Ct. 1865,
104 L. Ed. 2d 443 (1989) (“The calculus of reasonableness must
embody allowance for the fact that police officers are often forced
to make split-second judgments—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of force that
is necessary in a particular situation.”).
18. Both the officers and the Coles focus on the reasonableness
of the shooting as a whole, without any serious attempt to separate
the analysis as to each officer.

129a
Appendix D
Just before the shooting, Officer Hunter was in an
exposed position between Highway 78 and the narrow
wooded area separating it from the train tracks. He was
looking for Ryan, expecting him to be nearby because of
his own observations and a radio report that Ryan was on
the railroad tracks near his position. Officer Cassidy was
also between Highway 78 and the wooded area with Officer
Carson, but was some distance away. Officer Hunter heard
rustling in the woods near him, and signaled to the other
officers that Ryan was there. Ryan then backed out of
the woods with his gun to his own head, and his back to
Officer Hunter. Both Officers Cassidy and Hunter believed
Ryan was initially unaware of their presence, and stayed
quiet so that he would not become aware of them. Ryan
turned somewhat to his left, possibly in order to approach
the CVS where his grandparents were waiting, and the
officers opened fire without warning. Ryan turned further
around as the officers continued firing, and his own gun,
still pointed at his head and with his finger on the trigger,
discharged involuntarily as a result of his being shot.
At the time they fired, the officers were aware that
Ryan had been walking around the neighborhood holding a
gun to his head, and that he had not surrendered to other
officers who came in contact with him. Ryan looked like
a teenager, and Officer Cassidy was aware that he had
recently broken up with his girlfriend, a student at Sachse
High. Officer Hunter believed Ryan might be suicidal
or might simply be using the threat to himself to evade
officers. Both officers were aware that Ryan had brought
guns to Eric Reed Jr.’s house, and Officer Cassidy knew
that there had been a disturbance at the Cole house the
night before. The officers were aware that Ryan had told

130a
Appendix D
Eric not to try to take his remaining gun, and that he did
not “wanna use it on” him. This was the only threatening
or aggressive action or speech Officer Hunter was aware
of Ryan making. The officers knew that they were firing
in the vicinity of a busy road, across from shops and other
populated buildings. They knew there were schools within
walking distance, and that measures were taken to secure
them and to protect Ryan’s ex-girlfriend.
First, the relevant principles. It is clear that the
“use of deadly force, absent a sufficiently substantial and
immediate threat, violate[s] the Fourth Amendment.”19
The threat must be “immediate”;20 we consider the totality
of the circumstances, 21 including relevant information
known to the officers.
19. Luna, 773 F.3d at 725. Our focus is not upon actual risk,
but upon the question of whether the officer could have “reasonably
believe[d] that the suspect pose[d] a threat of serious harm to the
officer or to others.’” Harris v. Serpas, 745 F.3d 767, 773 (5th Cir.
2014) (quoting Rockwell v. Brown, 664 F.3d 985, 991 (5th Cir. 2011)).
20. Luna, 773 F.3d at 725; Harris, 745 F.3d at 772; Sanchez
v. Fraley, 376 F. App’x 449, 453 & n.1 (5th Cir. 2010) (unpublished)
(“[I]t was clearly established well before [2007] that ‘deadly force
violates the Fourth Amendment unless “the officer has probable
cause to believe that the suspect poses a threat of serious physical
harm”’ . . . [which] must be ‘immediate.’” (citations omitted)
(quoting Bazan ex rel. Bazan v. Hidalgo Cty., 246 F.3d 481, 488
(5th Cir. 2001), and Tennessee v. Garner, 471 U.S. 1, 11, 105 S. Ct.
1694, 85 L. Ed. 2d 1 (1985))); Reyes v. Bridgwater, 362 F. App’x
403, 407-09 (5th Cir. 2010); Reese v. Anderson, 926 F.2d 494, 500
(5th Cir. 1991).
21. See Ramirez v. Knoulton, 542 F.3d 124, 129 (5th Cir.
2008); Reese, 926 F.2d at 500.

131a
Appendix D
The fact that a person has a gun and is behaving in
a dangerous manner does not necessarily constitute an
immediate and serious threat justifying use of deadly force.
In unpublished but persuasive decisions, we have denied
qualified immunity where a person, though undisputedly
holding a gun to his own head, was complying with officers’
orders, 22 and where a person, reportedly armed and a
suspect in a double-homicide, had ceased running and
had his arms at his sides. 23 When we have found officers
justified for shooting suicidal people who were armed
with guns, we have depended on the victim’s additional
threatening “Manis” 24 acts and disobedience of police
commands, which elevated the immediacy and severity
of the danger. 25
22. Graves v. Zachary, 277 F. App’x 344, 349 (5th Cir. 2008)
(finding fact dispute over whether the victim was complying
with officer’s orders at the time he was shot to be material,
notwithstanding the fact that he was holding a gun to his own
head); id. at 348 (“Merely having a gun in one’s hand does not
mean per se that one is dangerous.”).
23. Sanchez, 376 F. App’x at 451-52.
24. See discussion below at notes 34-40.
25. See, e.g., Royal v. Spragins, 575 F. App’x 300, 301, 303-04
(5th Cir. 2014) (emphasizing that suicidal victim ignored warning
to drop his gun and pointed it at the officers); Rice v. ReliaStar
Life Ins. Co., 770 F.3d 1122, 1134-35 (5th Cir. 2014) (emphasizing
that the suicidal victim fired gun, ignored warnings to put it
down, and moved towards officers with it); Ramirez, 542 F.3d
at 127, 131 (emphasizing that suicidal victim with gun ignored
officer’s commands, got out of his car, and “brought his hands
together in front of his waist” “as if to grip the handgun with
both hands in preparation to aim it at the officers”); see also City

132a
Appendix D
Our caselaw persuasively has held that the fact that
a suicidal person who has a gun to his head, hence poses
some deadly risk to officers and others, does not always
justify shooting him. 26 Just as there is no “open season on
suspects fleeing in motor vehicles,” 27 despite the inherent
risks of such flight, 28 there is no open season on suspects
with guns. 29 Instead, “the real inquiry is whether the
fleeing suspect posed such a threat that the use of deadly
force was justifiable.” 30 “[T]he threat must be sufficiently
imminent at the moment of the shooting to justify deadly
force.” 31
We conclude that the facts that Ryan was holding a
gun to his head, that the officers believed he had made
some threat to use it against a peer, and that the officers
of San Francisco v. Sheehan, 135 S. Ct. 1765, 1770, 1775, 191 L.
Ed. 2d 856 (2015) (addressing shooting of woman with knife who
threatened officers and, despite warnings and then pepper spray,
“kept coming at the officers until she was ‘only a few feet from
a cornered Officer Holder.’ At this point, the use of potentially
deadly force was justified.”).
26. See, e.g., Graves, 277 F. App’x at 349.
27. Lytle v. Bexar Cty., 560 F.3d 404, 414-15 (5th Cir. 2009).
28. Id. at 415 (“Nearly any suspect fleeing in a motor vehicle
poses some threat of harm to the public.”).
29. See Graves, 277 F. App’x at 348 (“Merely having a gun in
one’s hand does not mean per se that one is dangerous.”).
30. Id.
31. Luna, 773 F.3d at 723.

133a
Appendix D
knew Ryan was attempting to evade officers, could not in
the circumstances here justify the use of deadly force. 32
Though Ryan was approaching a busier area from which
several witnesses observed the shooting, he was shot in
a relatively open area with only the officers immediately
present. 33 He was on foot and walking, not running, and
he did not know Officers Hunter, Cassidy, and Carson
were there.
Indeed, the officers do not argue that they were
justified in shooting Ryan by the above circumstances
alone. Instead, they focus on the fact that Ryan, whose
back was initially towards Officer Hunter, turned to his
left immediately before they shot. They argue that if they
had waited, Ryan could have continued turning until he
was facing Officer Hunter, and shot him before they could
react. According to the officers, if Ryan had been allowed
to turn around and face Officer Hunter without being fired
on, he would have “posed an immediate deadly threat.”

32. The facts here contrast instructively with those in Ballard
v. Burton, where we found that shooting was justified even if the
suicidal victim did not point his gun directly at law enforcement
officers just before he was shot because “during the course of the
night’s events [he] refused to put down his rifle, discharged the
rifle into the air several times while near officers, and pointed it
in the general direction of law enforcement officers.” 444 F.3d 391,
402-03 (5th Cir. 2006).
33. Indeed, only Officer Hunter was reported by the officers
as being in immediate danger. Of course, officers may use deadly
force to protect their own lives, but the relative openness and
lack of immediate bystanders or chaotic conditions informs our
understanding of the circumstances.

134a
Appendix D
The officers invoke cases in which we have found that
a use of deadly force was justified expressly because the
person, ignoring police warnings, made some threatening
motion towards officers, or moved in a way reasonably
interpretable as drawing an immediately dangerous
weapon. 34 The act justifying deadly force is sometimes
called a Manis act. 35 We have found qualified immunity
was inappropriate due to the absence of a Manis act, even
when the victim had or was believed to have a gun. 36
34. See, e.g., Rice, 770 F.3d at 1134-35 (finding no constitutional
violation where police warned and then shot a suicidal man who
“was undisputedly approaching the officers with a loaded weapon
which he had recently fired and which he refused to surrender”);
Clayton v. Columbia Cas. Co., 547 F. App’x 645, 653 (5th Cir. 2013)
(qualified immunity appropriate where “suspect with dangerous
and violent propensities” “continued toward the Deputy, ignoring
his commands”); Elizondo v. Green, 671 F.3d 506, 510-11 (5th Cir.
2012) (finding it was not clearly unreasonable to shoot a person
who “ignored repeated instructions to put down the knife he was
holding” and “was hostile, armed with a knife, in close proximity
to [the officer], and moving closer”); Manis v. Lawson, 585 F.3d
839, 844 (5th Cir. 2009) (finding no constitutional violation where
victim ignored repeated police commands, “reached under the
seat of his vehicle and then moved as if he had obtained the object
he sought”); id. (collecting cases); Ramirez, 542 F.3d at 131 (“The
totality of Ramirez’s conduct could reasonably be interpreted
as defiant and threatening. He repeatedly refused the officers’
commands and ultimately stood, armed, several yards from the
officers. Ramirez brought his hands together in what we believe
could reasonably be interpreted as a threatening gesture, as if
to grip the handgun with both hands in preparation to aim it at
the officers.”).
35. See Manis, 585 F.3d at 844.
36. See Sanchez, 376 F. App’x at 451-52 (finding qualified

135a
Appendix D
Turning to one’s left is not a threatening Manis act in
these circumstances, particularly when the person does
not even know the officers are there. 37 It is distinctly unlike
raising a gun at officers or moving a gun up to waist-level
and gripping as if preparing to fire. 38 The officers make
much of our statement in Rice that “the material fact”
was that the victim was “armed and moving toward the
officers.” 39 But moving purposefully towards an officer
who is ordering the person to stop, with a drawn and
recently fired gun,40 is much more threatening than having
a gun to one’s own head, and turning without knowledge
of the officer’s presence.
In sum, if the Coles’ version of the evidence is believed,
it was not objectively reasonable to use deadly force
against Ryan Cole when the teenager emerged on foot
from the wooded area with a gun to his own head and
turned to his left.
immunity inappropriate in absence of Manis act where victim,
who was a suspect in a double homicide and was reported to have
a gun and to have “forcibly attempted to enter somebody’s house,”
had ceased running and had his hands at his sides when shot);
Graves, 277 F. App’x at 346 (“It is not disputed that [the victim]
never verbally threatened [the officers], never pointed his gun at
the officers, and did not even move aggressively.”).
37. Recall that the officers themselves believed Ryan was not
aware of their presence.
38. See cases cited in note 34.
39. Rice, 770 F.3d at 1135.
40. Id. at 1134-35.

136a
Appendix D
c.

Clearly established law

Under the second prong of the qualified immunity
analysis, we ask whether it was clearly established in
October 2010 that using deadly force against a person
in circumstances like those here was objectively
unreasonable:41
A right is clearly established only if “the right’s
contours were sufficiently definite that any
reasonable official in the defendant’s shoes
would have understood that he was violating
it.” A case directly on point is not required;
rather, “[t]he central concept is that of ‘fair
warning’: The law can be clearly established
despite notable factual distinctions between the
precedents relied on and the cases then before
the Court, so long as the prior decisions gave
reasonable warning that the conduct then at
issue violated constitutional rights.”42
In 2009, we held that “[i]t has long been clearly
established that, absent any other justification for the
41. See Saucier v. Katz, 533 U.S. 194, 200, 121 S. Ct. 2151,
150 L. Ed. 2d 272 (2001).
42. Trent, 776 F.3d at 383 (citations to Plumhoff v. Rickard,
134 S. Ct. 2012, 2023, 188 L. Ed. 2d 1056 (2014), and Kinney v.
Weaver, 367 F.3d 337, 350 (5th Cir. 2004) (en banc), removed);
see also Sheehan, 135 S. Ct. at 1776 (“Qualified immunity is no
immunity at all if ‘clearly established’ law can simply be defined
as the right to be free from unreasonable searches and seizures.”).

137a
Appendix D
use of force, it is unreasonable for a police officer to use
deadly force against a fleeing felon who does not pose a
sufficient threat of harm to the officer or others.”43 In
Luna v. Mullenix we extended that holding, finding that
by March 2010, it was clearly established that shooting at a
fleeing car whose driver had threatened to shoot pursuing
police officers was objectively unreasonable.44 We also
held that it was clearly established by March 2010 that
the threat in question had to be “sufficiently substantial
and immediate.”45
If anything, the foot pursuit of Ryan Cole presented
a less severe and immediate threat than the chase in
Luna. First, walking away on foot is less inherently
dangerous than fleeing in a car. Second, though in Ryan’s
case officers could see that he was pointing a gun at his
own head, he never threatened officers with it; in Luna,
the victim not only claimed to have a gun in the fleeing
car, but explicitly threatened to shoot police officers.46 In
Luna, we emphasized that the shooting officer decided to
shoot the car before it came into view—that he was not
forced to make a “split-second judgment.”47 In this case,
though the officers may not have decided to shoot ahead
of time, they were expecting to encounter exactly what
they found: Ryan walking with a gun to his head.
43. Lytle, 560 F.3d at 417.
44. 773 F.3d at 725.
45. Id.
gun.

46. Id. at 722 . It turned out that he did not actually have a
47. Id. at 723-24.

138a
Appendix D
By October 2010, we had also repeatedly analyzed
the sufficiency of Manis acts to justify deadly force when
the underlying circumstances might not otherwise justify
it.48 In short, by October 2010, reasonable officers were on
notice that they could not lawfully use deadly force to stop
a fleeing person who did not pose a severe and immediate
risk to the officers or others, and they had many examples
of the sorts of threatening actions which could justify
deadly force.49 Turning left while unaware of an officer’s
presence is not among them.

48. See, e.g., Sanchez, 376 F. App’x at 451-52; Reyes, 362 F.
App’x at 407; Manis, 585 F.3d at 844 (collecting cases); Graves,
277 F. App’x at 346; Ramirez, 542 F.3d at 127, 131; Mace v. City
of Palestine, 333 F.3d 621, 624-25 (5th Cir. 2003).
49. The out-of-circuit cases cited by the officers do not lead
to a different conclusion. They involve situations where the victim
had been warned repeatedly yet moved a gun “very quickly” and
pointed it at officers shortly before being shot, see Thomson v.
Salt Lake Cty., 584 F.3d 1304, 1311 (10th Cir. 2009); where it was
difficult for officers to see, and the victim ignored commands
at the scene of the shooting and instead escalated matters by
raising a gun to his head, see Garczynski v. Bradshaw, 573 F.3d
1158, 1162-63, (11th Cir. 2009); where the victim fired a gun in a
chaotic, crowded environment and then ignored an officer’s orders
to stop, see Montoute v. Carr, 114 F.3d 181, 185 (11th Cir. 1997);
and where the victim ignored the shooting officers’ commands
and moved either his gun hand or his other hand in the vicinity of
his gun just prior to being shot, see Thurman v. Hawkins, CIV.
13-50-GFVT, 2014 U.S. Dist. LEXIS 122313, 2014 WL 4384387,
at *1, 4 (E.D. Ky. Sept. 3, 2014). These cases are distinguishable
from the facts before us, and in any event do not undermine this
circuit’s clearly established law.

139a
Appendix D
Under the Coles’ version of the facts, it was objectively
unreasonable under clearly established law to shoot Ryan.
As a result, the fact disputes identified by the district
court—including the central issue of whether Ryan
pointed his gun at Officer Hunter—are material, and we
dismiss the appeal for lack of jurisdiction.
IV
We now turn to the claim that Officer Carson lied and
concealed evidence in order to protect Officers Hunter
and Cassidy after the shooting. The district court refused
to dismiss the Coles’ claim that Officer Carson agreed
and acted with others “to deprive Ryan Cole of various
constitutional rights including, but not limited to, his
right to remain free from malicious prosecution, wrongful
conviction, and unlawful confinement.” The court located
the source of the rights in the “Fourth and Fourteenth
Amendment[s].” Officer Carson appeals, asserting
qualified and absolute immunity defenses as he did below.
The denial of a motion to dismiss based on qualified
immunity or a substantial claim of absolute immunity
is immediately appealable to the extent it turns on
legal questions. 50 We review de novo, 51 accepting “all
well-pleaded facts as true and draw[ing] all reasonable
50. Mitchell v. Forsyth, 472 U.S. 511, 525, 530, 105 S. Ct. 2806,
86 L. Ed. 2d 411 (1985); Hous. Cmty. Hosp. v. Blue Cross & Blue
Shield of Tex., Inc., 481 F.3d 265, 268-69 & n.11 (5th Cir. 2007).
51. Morgan, 659 F.3d at 370 (qualified immunity); Orellana
v. Kyle, 65 F.3d 29, 33 (5th Cir. 1995) (absolute immunity).

140a
Appendix D
inferences in favor of the nonmoving party.”52 To avoid
dismissal based on qualified immunity, the Coles had to
allege (1) “a violation of a constitutional right” which (2)
was “‘clearly established’ at the time of [Carson’s] alleged
misconduct.” 53 The Coles had the burden of pleading
“specific conduct and actions giving rise to a constitutional
violation” to meet the defense. 54
a.

Allegations that Officer Carson fabricated
evidence

The Coles pled the following relevant facts in their
First Amended Complaint (FAC) and the expert affidavits
they attached to it. 55 First, Ryan was seen by several
officers walking in public openly carrying a handgun, and
at least one witness called police to report that he had a
gun. The FAC alleges that when Ryan emerged from the
wooded area, he was facing away from Officer Hunter,
with the gun held to his own head. Without warning
Ryan or identifying themselves, Officers Hunter and
52. Morgan, 659 F.3d at 370 (footnote omitted).
53. Pearson v. Callahan, 555 U.S. 223, 232, 129 S. Ct. 808,
172 L. Ed. 2d 565 (2009); see also Hernandez v. United States,
785 F.3d 117, 120 (5th Cir. 2015) (en banc).
54. Baker v. Putnal, 75 F.3d 190, 195 (5th Cir. 1996).
55. Neither party argues that the facts alleged in the expert
affidavits, which were attached to the FAC expressly to provide
greater detail to meet the officers’ immunity defenses, are not
properly considered. See Davoodi v. Austin Indep. Sch. Dist., 755
F.3d 307, 310 (5th Cir. 2014); Wilson v. Birnberg, 569 F. App’x 343,
344 n.1 (5th Cir. 2014).

141a
Appendix D
Cassidy opened fire. After the shooting, Officers Carson,
Cassidy, and Hunter were “permitted to leave the scene
for a considerable period of time without any supervision,”
giving them opportunity to confer. The Coles allege that
the officers “formed and carried out an agreement . . . to
hide and cover up . . . the true events” in order to justify
the use of force and avoid consequences for killing Ryan,
who they believed was likely to die. Their alleged aim was
to “prosecute and arrest Ryan Cole for . . . an offense that
each of them knew he did not commit.”
The Coles allege that Officer Carson made false
statements to investigators that Ryan aimed his gun
at Officer Hunter and that Hunter warned him before
shooting. The Coles allege that physical evidence,
recordings, and expert opinions show these statements
cannot be true. They allege that the false statements led
“Garland police officers [to] file[] a case with the District
Attorney’s office in Dallas County charging Ryan Cole
with the felony offense of aggravated assault on a public
servant.” Ryan was subsequently indicted by a grand jury
for that offense, based again on the officers’ statements.
“As a result of the fictitious charges . . . Ryan Cole was
confined indefinitely under house arrest.” We are also
told that “[o]n or about May 8, 2012, the Dallas County
District Attorney’s office dismissed” the assault charge.
“At or near the same time,” Ryan “pleaded no contest”
and “received deferred adjudication for the charge of
unlawfully carrying a weapon.” The Coles incurred
substantial legal fees in order to confront the aggravated
assault charge.

142a
Appendix D
We address the alleged constitutional violations in
turn.
b.

Fourth Amendment violation

Pretrial use of fabricated evidence to secure a person’s
arrest can violate the Fourth Amendment. 56 However, we
have said that in order to make out a Fourth Amendment
claim under either a “false arrest” or “illegal detention”
theory, the relevant actors must not be aware of facts
constituting probable cause to arrest or detain the person
for any crime. 57 The Supreme Court has made it clear
that this is the law as far as warrantless arrests are
concerned. 58

56. Castellano v. Fragozo, 352 F.3d 939, 959 (5th Cir. 2003)
(en banc) (noting that, in contrast to misconduct occurring at
trial, Castellano’s “arrest and pretrial detention” could support
a Fourth Amendment claim).
57. Whittington v. Maxwell, 455 F. App’x 450, 458-59 (5th
Cir. 2011) (stating that “[w]ith regard to pretrial confinement,
‘[t]he sole issue [under the Fourth Amendment] is whether there is
probable cause for detaining the arrested person pending further
proceedings,’” and finding illegal detention claim could stand
where there was a factual dispute over the existence of probable
cause); O’Dwyer v. Nelson, 310 F. App’x 741, 745 (5th Cir. 2009)
(“‘[T]o prevail in a § 1983 claim for false arrest,’ . . . [a]s applied
to the qualified immunity inquiry, the plaintiff must show that the
officers could not have reasonably believed that they had probable
cause to arrest the plaintiff for any crime.” (citations omitted)).
58. Devenpeck v. Alford, 543 U.S. 146, 153-54, 125 S. Ct. 588,
160 L. Ed. 2d 537 (2004).

143a
Appendix D
There is some suggestion that the standard may be
different when a magistrate is deceived in order to obtain
a warrant. 59 In such a case, the focus may not be on what
facts officers were aware of, but on whether, once the
false information is excised, the information presented
to the magistrate could justify the arrest.60 We need not
decide the precise contours of these issues now, however,
because the Coles’ First Amended Complaint fails to
set out “specific conduct and actions” concerning Ryan’s
seizure which can survive qualified immunity.
In Texas, unlawful carrying consists of “intentionally,
knowingly, or recklessly carr[ying] on or about [one’s]
person a handgun” or other weapon when one is not on
his own property or inside of or directly en route to his
59. See Hamilton v. Collett, 83 F. App’x 634, 637 (5th Cir.
2003) (“[T]he question is whether the allegedly false testimony was
necessary to the Magistrate Judge’s determination of probable
case.”); see also Baldwin v. Placer Cty., 418 F.3d 966, 970 (9th Cir.
2005) (in search warrant case, finding that true information outside
affidavit tainted by lies could not be used to sustain warrant).
60. See Hamilton, 83 F. App’x at 637. An arrest may be valid
under the Fourth Amendment though the warrant was not if
there was probable cause for a warrantless arrest. See Behrens
v. Sharp, 15 F.3d 180, 1994 WL 24936, at *3-4 (5th Cir. 1994). We
have said that the Fourth Amendment is not implicated by an
arrest by an officer with probable cause, even when the offense is
a misdemeanor occurring outside the officer’s presence. Fields v.
City of S. Houston, 922 F.2d 1183, 1189 (5th Cir. 1991). However,
this analysis may be affected if Ryan was at home when he was
placed under house arrest. Harris v. Canulette, 997 F.2d 881, 1993
WL 261085, at *2 n.8 (5th Cir. 1993) (limiting Fields to arrests
outside the home).

144a
Appendix D
motor vehicle.61 Based on the Coles’ pleadings, it appears
that, during the entire period Ryan was under house
arrest, there was known probable cause to arrest him for
unlawful carrying of a weapon. Both the unlawful carry
and aggravated assault charges were disposed of “at or
near the same time,” after which Ryan was apparently no
longer subject to house arrest.
To the extent that the Coles seek to argue that the
existence of known probable cause to arrest Ryan for
unlawful carrying is not fatal to their Fourth Amendment
claim, they have failed to allege specific conduct to meet
Officer Carson’s qualified immunity defense. We are told
only that Ryan was placed under house arrest “[a]s a result
of [the] fictitious charges.”
Given that the face of the FAC reveals the known
existence of probable cause to arrest for unlawful
carrying, and given the Coles’ failure to plead facts
supporting a theory of Fourth Amendment violation
despite that probable cause, the Coles have not pled a
violation of clearly established law, and Officer Carson is
entitled to qualified immunity. Put another way, the Coles
have alleged that Ryan was placed under house arrest with
probable cause. That is not a clearly established Fourth
Amendment violation without something more, and the
Coles have not alleged what that something more might be.

61. Tex. Penal Code Ann. § 46.02.

145a
Appendix D
c.

Brady violation

The Coles argue that Officer Carson also violated
Ryan’s Fourteenth Amendment due process rights, due
both to a Brady62 violation, and more generally to his
role in the filing of false charges. The Coles allege that
Officer Carson committed a Brady violation in two ways:
by lying to conceal his own knowledge that Ryan Cole
never assaulted an officer, and by conspiring with other
officers to conceal physical evidence also tending to
exculpate Ryan. But prior to 2010, we had held that Brady
is not implicated when there is no trial.63 Ryan Cole was
not tried for aggravated assault, nor did he plead guilty;
the charge was dismissed. There is no suggestion that
the aggravated assault charge was used as leverage to
secure a plea on the unlawful carrying charge. It follows
that Officer Carson was not on notice that withholding
evidence in these circumstances could violate Brady, and
he is entitled to qualified immunity for the alleged Brady
violations.

62. Brady v. Maryland, 373 U.S. 83, 87, 83 S. Ct. 1194, 10 L.
Ed. 2d 215 (1963) (holding that “suppression by the prosecution of
evidence favorable to an accused upon request violates due process
where the evidence is material either to guilt or to punishment”).
63. United States v. Santa Cruz, 297 F. App’x 300, 301 (5th
Cir. 2008); see also Matthew v. Johnson, 201 F.3d 353, 361-62 (5th
Cir. 2000) (applying rule in Teague v. Lane, 489 U.S. 288, 109 S.
Ct. 1060, 103 L. Ed. 2d 334 (1989), to bar Brady attack on state
court conviction).

146a
Appendix D
d.

Due process violation — fabrication of evidence

We turn now to the Coles’ claim that Officer Carson
violated Ryan’s clearly established due process rights
when he allegedly lied to investigators to secure a false
charge of aggravated assault.
We begin by recognizing that there is no “substantive
right under the Due Process Clause of the Fourteenth
Amendment to be free from criminal prosecution except
upon probable cause.” 64 That much is clear from the
Supreme Court’s fractured decision in Albright v. Oliver.
In Albright, a plaintiff was wrongfully charged with selling
a cocaine look-alike substance, a charge later dismissed.65
The Court rejected his claim that the prosecution violated
due process. We have held that Albright’s reach is limited;
the case “did not speak to the Fourteenth Amendment
beyond eschewing reliance upon substantive due process
to create a requirement of probable cause to initiate a
prosecution. . . .”66 Moreover, “that portion of Albright that
suggests that the Fourth Amendment applies to pretrial
deprivations of liberty did not receive the support of a
majority of the Justices.”67
Albright also differs in two important ways from the
case at hand. First, although the defendant detective in
64. Albright v. Oliver, 510 U.S. 266, 268, 114 S. Ct. 807, 127
L. Ed. 2d 114 (1994) (plurality).
65. Id. at 268-69.
66. Castellano, 352 F.3d at 948.
67. Brothers v. Klevenhagen, 28 F.3d 452, 456 n.3 (5th Cir.
1994).

147a
Appendix D
Albright accepted the story of an unreliable informant
and may have given “misleading” testimony,68 there was
no suggestion that he deliberately fabricated evidence. In
contrast, the Coles allege that Officer Carson deliberately
lied in order to get Ryan charged to cover an unlawful
use of force. Several of our sister circuits have found this
distinction pivotal in determining whether a due process
violation is committed by the fabrication of evidence.69
Second, a majority of the Justices in Albright depended
upon the potential availability of a Fourth Amendment
recourse the plaintiff had rejected,70 observing that
Albright should have brought his claim under the Fourth
Amendment.71 In contrast, the Coles tried to make out
a Fourth Amendment claim, but we have explained that
68. Albright, 510 U.S. at 277 (opinion of Ginsburg, J.); id. at
292-93 (Stevens, J., dissenting).
69. See Moran v. Clarke, 296 F.3d 638, 647 (8th Cir. 2002)
(en banc) (“Although the Fourth Amendment covers seizures . . .
law enforcement’s intentional creation of damaging facts would
not fall within its ambit.”); see also Kennedy v. Peele, 552 F. App’x
787, 792-93 (10th Cir. 2014); Drumgold v. Callahan, 707 F.3d 28,
61-62 & n.27 (1st Cir. 2013).
70. Albright, 510 U.S. at 271 (plurality); Id. at 277 (opinion
of Ginsburg, J.) (noting that “Albright deliberately subordinated
invocation of the Fourth Amendment” as a “strategic decision);
id. at 289 (opinion of Souter, J.).
71. The Justices noted that all of Albright’s injuries could
likely have been remedied via such a challenge. Id. at 274
(plurality); id. at 276-77 (opinion of Ginsburg, J.); id. at 288-91
(opinion of Souter, J.) (noting “rule of reserving due process for
otherwise homeless substantial claims”).

148a
Appendix D
it is unavailing due largely to the existence of probable
cause on another count. Yet setting aside his time seized
under house arrest, Ryan still was framed and charged
with a felony, and subjected to attendant monetary and
reputational injuries flowing from such a serious charge.
Unlike Albright, who chose to invoke substantive due
process rather than the Fourth Amendment, Ryan Cole
has no other option.
1.
We built upon the uncertain foundation of Albright in
our en banc decision in Castellano v. Fragozo.72 Castellano
held that the elements of a state malicious prosecution
claim were neither sufficient nor independently necessary
to state a claim under § 1983 where a state actor allegedly
fabricated evidence to procure an arrest and conviction.73
Rather, the particular constitutional violation alleged had
to be identified with clarity:74
[C]ausing charges to be filed without probable
cause w ill not w ithout more violate the
Constitution. . . . It is equally apparent that
additional government acts that may attend the
initiation of a criminal charge could give rise to
claims of constitutional deprivation.

72. 352 F.3d 939.
73. Id. at 953-54.
74. Id. at 945.

149a
Appendix D
The initiation of criminal charges without
probable cause may set in force events that run
afoul of explicit constitutional protection—the
Fourth Amendment if the accused is seized and
arrested, for example, or other constitutionally
secured rights if a case is further pursued.75
We ultimately found that a Fourth Amendment violation
had been alleged with regard to Castellano’s pretrial
seizure, and a Fourteenth Amendment due process
violation was pled with regard to the knowing use of
fabricated evidence and perjury at trial.76
While the due process violation in Castellano was tied
to the “right to a fair trial,”77 we rejected the idea that “the
specific constitutional rights guiding a criminal trial spend
their force in assuring a fair trial.” 78 Moreover, we later
held in Boyd v. Driver that officials’ perjured testimony
and tampering with video evidence constituted a due
process violation even where the plaintiff was acquitted.79
Thus even when a trial functions properly to vindicate
75. Id. at 953.
76. Id. at 953-55, 960. Thus, as in Albright, Castellano did
not address a situation where the Fourth Amendment provided
no recourse.
77. Id. at 942, 957-58.
78. Id. at 956.
79. 579 F.3d 513, 514-15 (5th Cir. 2009); see also Boyd v.
Driver, 495 F. App’x 518, 523 (5th Cir. 2012) (reiterating that the
first Boyd case decided no conviction was necessary).

150a
Appendix D
a person’s innocence, the “manufacturing of evidence
and knowing use of that evidence along with perjured
testimony to obtain a wrongful conviction deprives a
defendant of his long recognized right to a fair trial
secured by the Due Process Clause .”80
We returned once more to Albright and Castellano
in Cuadra v. Houston Independent School District. 81
There we considered a claim against a school district for
manipulating evidence which led to charges against the
plaintiff, and stated that the “claims are based on alleged
pretrial deprivations of [plaintiff’s] constitutional rights
and, under the holding in Albright, such claims should be
brought under the Fourth Amendment.”82 Citing Cuadra,
we recently held in Bosarge that a person indicted and
held for six months based on a mistaken identification
had not stated a due process claim. 83 But neither Cuadra
nor Bosarge involved deliberate fabrication of evidence
to support false charges. Cuadra focused on a failure

80. Boyd, 579 F.3d at 515 (quoting Castellano, 352 F.3d at
942).
81. 626 F.3d 808 (5th Cir. 2010).
82. Id. at 814.
83. Bosarge v. Miss. Bureau of Narcotics, 796 F.3d 435, 2015
WL 4282372, at *5 (5th Cir. 2015). Bosarge also cited Castellano,
which we have discussed, and Blackwell v. Barton, which involved
a mistaken identification rather than intentional fabrication, and
only a brief detention—no charges were brought. 34 F.3d 298,
300-01 (5th Cir. 1994).

151a
Appendix D
of certain school officials to turn over a key document;84
and in Bosarge, we did not credit conclusory allegations
that the misidentification was intentional. 85 Neither case
answers the question of whether deliberate fabrication
by law enforcement officers to justify a police shooting
violates due process.
In sum, we have held that a victim of intentional
fabrication of evidence by officials is denied due process
when he is either convicted or acquitted. We have never
decided whether false charges must survive to the trial
stage in order to implicate due process rights.
2.
Our sister circuits have taken varying approaches
to fabrication of evidence and “malicious prosecution”
claims in the wake of Albright. 86 That said, they largely
either have held that charges based on fabricated evidence
support a due process claim, or have not yet answered
the question. Two circuits have found that there is no
due process claim in the absence of a conviction—a
requirement we have not insisted upon.
The Ninth Circuit held in Devereaux v. Abbey that
“there is a clearly established constitutional due process
right not to be subjected to criminal charges on the basis
of false evidence that was deliberately fabricated by the
84. Cuadra, 626 F.3d at 811, 813-14.
85. Bosarge, 796 F.3d 435, 2015 WL 4282372, at *6.
86. See, e.g., Castellano, 352 F.3d at 949-53 (surveying the
circuits’ “approaches to malicious prosecution claims”).

152a
Appendix D
government,”87 a formulation we quoted approvingly in
Good v. Curtis. 88 In Devereaux, the plaintiff alleged that
investigators charged him with rape and molestation on
the basis of statements they should have known were
false. 89 Though the charges were dropped in exchange
for a guilty plea to two misdemeanors,90 the Ninth Circuit
reasoned that:
Under Pyle v. Kansas, 317 U.S. 213, 216, 63 S.
Ct. 177, 87 L. Ed. 214 (1942), the knowing use
by the prosecution of perjured testimony in
order to secure a criminal conviction violates
the Constitution. While Pyle does not deal
specifically with the bringing of criminal
charges, as opposed to the securing of a
conviction, we find that the wrongfulness of
charging someone on the basis of deliberately
fabricated evidence is sufficiently obvious, and
Pyle is sufficiently analogous, that the right to
be free from such charges is a constitutional
right.91
In Ricciuti v. N.Y.C. Transit Authority, the police
arrested a plaintiff with probable cause, but then
allegedly fabricated a confession resulting in additional
87. 263 F.3d 1070, 1074-75 (9th Cir. 2001) (en banc).
88. 601 F.3d at 398-99.
89. 263 F.3d at 1073.
90. Id.
91. Id. at 1075 (citation shortened).

153a
Appendix D
charges.92 The Second Circuit denied qualified immunity
for the fabrication despite the fact that the charges
were dismissed without trial. 93 The court held that
“[w]hen a police officer creates false information likely to
influence a jury’s decision and forwards that information
to prosecutors, he violates the accused’s constitutional
right to a fair trial, and the harm occasioned by such
an unconscionable action is redressable in an action for
damages under 42 U.S.C. § 1983.”94 The Second Circuit has
since recognized that the fabrication in Ricciuti deprived
the plaintiffs of liberty in part because it “caused [them]
to be charged with a more serious crime.” 95
In Pierce v. Gilchrist, a plaintiff was arrested and
convicted on the basis of falsified evidence created by
an investigator. 96 Though not always distinguishing
clearly between the plaintiff’s Fourth and Fourteenth
Amendment claims,97 the Tenth Circuit upheld the district
court’s refusal to dismiss on qualified immunity grounds
based on the use of false evidence to “induce prosecutors
92. 124 F.3d 123, 126-27, 129 (2d Cir. 1997).
93. Id. at 129-30 (citing due process cases and principles).
94. Id. at 130.
95. Jovanovic v. City of New York, 486 F. App’x 149, 152 (2d
Cir. 2012). The circuit reiterated its holding in a later case which
ended with a not-guilty verdict after “28 court appearances,” an
apparent reference to the burdensomeness of defending against
false charges. Jocks v. Tavernier, 316 F.3d 128, 133, 138 (2d Cir.
2003).
96. 359 F.3d 1279, 1281-82, 1284 (10th Cir. 2004).
97. See id. at 1296 & n.11.

154a
Appendix D
to initiate an unwarranted prosecution.” 98 The court
explained that it saw no “reason to distinguish between
falsifying evidence to facilitate a wrongful arrest and
engaging in the same conduct several days later to induce
prosecutors to initiate an unwarranted prosecution.” 99
Thus the fact that there was probable cause for the arrest
was immaterial. In another “malicious prosecution”
case ending in dismissal of criminal charges, the court
explicitly rejected substantive and procedural due
process claims100 footed on a failure to hand over certain
exculpatory evidence.101
More recently, the Tenth Circuit has clarified its
stance. In Klen v. City of Loveland, the court reversed
a grant of summary judgment against a claim that
various defendants fabricated evidence “thus facilitating”
prosecution of a plaintiff who eventually pleaded nocontest. 102 There the court noted that “[u]se of an
indictment based on perjured testimony to bring charges,
for example, itself represents a denial of due process”
98. Id. at 1296.
99. Id.
100. Becker v. Kroll, 494 F.3d 904, 919-24 (10th Cir. 2007). The
same month, the court considered, but rejected for other reasons,
another Fourteenth Amendment claim where the charges ended
in dismissal. See generally Novitsky v. City Of Aurora, 491 F.3d
1244 (10th Cir. 2007).
101. Becker, 494 F.3d at 924. The Tenth Circuit has also
emphasized the importance of intentional fabrications. See
Kennedy, 552 F. App’x at 792-93.
102. 661 F.3d 498, 515 (10th Cir. 2011).

155a
Appendix D
despite the lack of a trial;103 the “use of a perjured affidavit
to defeat a defendant’s attempt to dismiss an indictment
on grounds of selective prosecution” could also support a
due process claim.104
The Eighth Circuit likewise found that a due process
claim is stated where a police officer claimed that,
though he was innocent of using excessive force against
a victim, he was “set up,” prosecuted (and acquitted),
and administratively charged “for patently arbitrary
reasons.”105 In Moran v. Clarke, the en banc court held
that the substantive due process claim should not have
been denied in a judgment as a matter of law because the
officer presented evidence that he was intentionally set
up, and there was damage to his professional reputation
and evidence of improper consideration of his race.106 Such
actions could violate fundamental rights and “shock the
conscience.”107 The Eighth Circuit has since found that
a substantive due process violation survived summary
judgment in the absence of a trial where false evidence
was used to cause plaintiffs to plead guilty,108 and in a
case where the charges were dropped without a plea.109
103. Id. at 516.
104. Id.
105. Moran v. Clarke, 296 F.3d 638, 648 (8th Cir. 2002) (en
banc).
106. Id. at 644-45, 647.
107. Id.
108. Winslow v. Smith, 696 F.3d 716, 735 (8th Cir. 2012).
109. Livers v. Schenck, 700 F.3d 340, 343-44, 354-55 (8th
Cir. 2012).

156a
Appendix D
The Second, Eighth, Ninth, and Tenth Circuits have
thus all found denials of due process when charges rest
on fabricated evidence. The Seventh Circuit’s decisions
appear to point the other way. The court has held that “a
police officer does not violate an acquitted defendant’s due
process rights when he fabricates evidence.”110 Acquittal
forecloses the claim.111 In the Seventh Circuit’s view, the
only liberty interest damaged in such cases “stems from
[plaintiff’s] initial arrest”112 and should be addressed
under the Fourth Amendment;113 being forced to defend
oneself at trial is no deprivation of liberty.114 The Seventh
Circuit’s no-due process violation decisions have occurred
in cases that either did not address the availability of a
Fourth Amendment claim115 or found that the claim had
been purposefully abandoned,116 and it has suggested a
willingness to consider deprivations short of conviction
and imprisonment if properly raised.117

110. Saunders-El v. Rohde, 778 F.3d 556, 560-61 (7th Cir.
2015).
111. Id. at 560-61.
112. Id. at 561 (quoting Alexander v. McKinney, 692 F.3d
553, 557 (7th Cir. 2012)).
113. Alexander, 692 F.3d at 557-58.
114. Saunders-El, 778 F.3d at 561.
115. Id. at 559-61.
116. See Alexander, 692 F.3d at 556.
117. Serino v. Hensley, 735 F.3d 588, 594-95 (7th Cir. 2013).

157a
Appendix D
The remaining circuits do not appear to have answered
the question before us. The First Circuit has held that
police officers violate due process when they fabricate
evidence in order to get someone falsely convicted118 or
immediately punished with segregation within a jail.119
The circuit has emphasized the importance of the specific
intent to fabricate or use false evidence,120 and explained
in oft-quoted broad terms that:
[S]ome truths are self-evident. This is one
such: if any concept is fundamental to our
American system of justice, it is that those
charged with upholding the law are prohibited
from deliberately fabricating evidence and
framing individuals for crimes they did not
commit. Actions taken in contravention of this
prohibition necessarily violate due process
(indeed, we are unsure what due process entails
if not protection against deliberate framing
under color of official sanction).121
118. Limone v. Condon, 372 F.3d 39, 44-45 (1st Cir. 2004).
119. Surprenant v. Rivas, 424 F.3d 5, 15 (1st Cir. 2005).
120. See Drumgold, 707 F.3d at 61-62 & n.27.
121. Limone, 372 F.3d at 44-45 (citation to Devereaux, 263
F.3d at 1074-75, omitted); see also Halsey v. Pfeiffer, 750 F.3d 273,
296 (3d Cir. 2014) (quoting Limone); Whitlock v. Brueggemann,
682 F.3d 567, 581-82 (7th Cir. 2012) (same); Brown v. Miller, 519
F.3d 231, 237 (5th Cir. 2008) (same); Washington v. Wilmore, 407
F.3d 274, 285 (4th Cir. 2005) (same); Atkins v. County of Riverside,
151 F. App’x 501, 506 (9th Cir. 2005) (same).

158a
Appendix D
Clear enough, but the circuit does not appear to have
explicitly addressed whether false charges in the absence
of a conviction or immediate punishment state a denial of
due process.
The Third Circuit considered a § 1983 claim that police
fabricated evidence leading to charges and a wrongful
conviction.122 Though the court expressly did not answer
“whether pre-trial detentions can implicate constitutional
rights beyond the Fourth Amendment,”123 it did state that
“[w]hen falsified evidence is used as a basis to initiate
the prosecution of a defendant, or is used to convict him,
the defendant has been injured.”124 The Sixth Circuit
“recognize[s] a . . . claim of malicious prosecution under
the Fourth Amendment, which encompasses wrongful
investigation, prosecution, conviction, and incarceration,”125
but it remains unclear whether a substantive due process
claim might lie in some circumstances. In Gregory v. City
of Louisville, the court held that “the subset of malicious
prosecution claims which allege continued detention
without probable cause must be . . . analyzed under
the Fourth Amendment,”126 but expressly reserved the
question of whether “malicious prosecution” claims based
122. Halsey, 750 F.3d at 288-89.
123. Id. at 293.
124. Id. at 289.
125. Sykes v. Anderson, 625 F.3d 294, 308 (6th Cir. 2010)
(citation omitted).
126. 444 F.3d 725, 750 (6th Cir. 2006).

159a
Appendix D
on liberty deprivations distinct from pretrial detention
might state due process violations.127
The D.C. Circuit does not appear to have addressed
the issue of whether a due process claim could lie when
police fabricate evidence, though it has noted its view that
Albright “held that malicious prosecution does not violate
‘substantive’ due process rights.”128 The Eleventh Circuit
has done likewise,129 though noting the possibility that
a procedural due process claim might lie.130 The circuit
recently recognized a due process claim where a plaintiff
alleged that police officers shot, tasered, and beat him, and
then fabricated a cover-up which resulted in two years of
127. Id. at 748 n.10. In a recent unpublished decision where
plaintiffs alleged constitutional violations stemming from several
search warrants and an indictment, the court held that the Fourth
Amendment rather than substantive due process governed the
claims “[t]o the extent that [they] involve a challenge to the warrant
affidavit and the resulting searches, seizures, and prosecutions.”
Meeks v. Larsen, 14-1381, 611 Fed. Appx. 277, 2015 U.S. App.
LEXIS 7591, 2015 WL 2056346, at *9 (6th Cir. May 5, 2015).
Besides being non-precedential, this was not a case of intentional
fabrication of evidence, as the court did not credit conclusory
allegations that the indictment or warrants were based on “false
and misleading information.” 2015 U.S. App. LEXIS 7591, [WL]
at *4 (indictment); 2015 U.S. App. LEXIS 7591, [WL] at *6-7
(warrants).
128. Pitt v. D.C., 491 F.3d 494, 512, 377 U.S. App. D.C. 103
(D.C. Cir. 2007).
129. Wood v. Kesler, 323 F.3d 872, 881 n.14 (11th Cir. 2003).
130. U.S. Steel LLC, v. Tieco, Inc., 261 F.3d 1275, 1289 (11th
Cir. 2001).

160a
Appendix D
jail and an eventual acquittal on charges of aggravated
assault on a law enforcement officer.131
3.
All the circuits that have squarely considered the
question have either found that a due process violation may
lie where state officers fabricate evidence to support false
charges against a plaintiff, or have found no due process
violation in the absence of a conviction, an approach we
have expressly rejected.132 We agree with those that have
found a due process right not to have police deliberately
fabricate evidence and use it to frame and bring false
charges against a person.
Executive action must shock the conscience in order
to violate substantive due process.133 We have said that:
Conduct sufficient to shock the conscience for
substantive due process purposes has been
described in several different ways. It has been
described as conduct that ‘violates the decencies
of civilized conduct’; conduct that is ‘so brutal
and offensive that it [does] not comport with
131. Weiland v. Palm Beach Cty. Sheriff’s Off., 792 F.3d 1313,
2015 WL 4098270, at *1-2, 9 (11th Cir. 2015).
132. Boyd, 579 F.3d at 514.
133. Doe ex rel. Magee v. Covington Cty. Sch. Dist. ex rel.
Keys, 675 F.3d 849, 867 (5th Cir. 2012); see also Cty. of Sacramento
v. Lewis, 523 U.S. 833, 846-47, 118 S. Ct. 1708, 140 L. Ed. 2d 1043
(1998); id. at 860-62 (Scalia, J., concurring).

161a
Appendix D
traditional ideas of fair play and decency’;
conduct that ‘interferes with rights implicit in
the concept of ordered liberty’; and conduct
that ‘is so egregious, so outrageous, that it
may fairly be said to shock the contemporary
conscience.’134
Deliberate framing of a person by the state offends the
most strongly held values of our nation. We echo again
the apt words of the First Circuit that, “if any concept
is fundamental to our American system of justice, it is
that those charged with upholding the law are prohibited
from deliberately fabricating evidence and framing
individuals.” 135 As the Third Circuit has stated, “no
sensible concept of ordered liberty is consistent with law
enforcement cooking up its own evidence.”136 Here, the
framing was allegedly done in order to conceal and justify
excessive force against one of the people our laws and
systems are supposed to protect. The rule of law, which
we have cherished since our founding, cannot abide such
conduct.
We agree with the Second Circuit that official framing
of a person in these circumstances undermines the right
to a fair trial.137 Being framed and falsely charged brings
134. Doe ex rel Magee, 675 F.3d at 867 (quoting Lewis, 523
U.S. at 846-47 & n.8).
135. Limone, 372 F.3d at 44-45.
136. Halsey, 750 F.3d at 292-93.
137. Ricciuti, 124 F.3d at 130; see also Boyd, 579 F.3d at

162a
Appendix D
inevitable damage to the person’s reputation, especially
where, as here, the crime is a felony involving the threat
of violence.138 Alongside the reputational damage,139 it
requires the person framed to mount a defense,140 and
places him in the power of a court of law, where he may
be required to appear.141 Though these wrongs may be
addressed through a Fourth Amendment challenge in
many cases,142 they do not disappear where there is no
violation of that amendment. Instead, where there is
no more specific constitutional protection available, the
515 (noting that the right to a fair trial is undermined by state
fabrication of evidence even when defendant is acquitted).
138. See Albright, 510 U.S. at 278 (opinion of Ginsburg, J.)
(discussing the consequences of being charged with a serious
offense); id. at 289 (opinion of Souter, J.).
139. See id. at 296 n.9 (Stevens, J., dissenting) (noting that
Paul v. Davis, 424 U.S. 693, 701, 96 S. Ct. 1155, 47 L. Ed. 2d 405
(1976), “recognized that liberty is infringed by governmental
conduct that injures reputation in conjunction with other interests”
and that “commencement of a criminal prosecution is certainly
such conduct”).
140. The Coles allege that they incurred «substantial legal
fees and expenses for an attorney to defend Ryan Cole and to
subsequently obtain the dismissal of the» aggravated assault on
a public servant charge.
141. See Albright, 510 U.S. at 278 (opinion of Ginsburg, J.);
id. at 289 (opinion of Souter, J.).
142. See id. at 274 (plurality); id. at 276-77 (opinion of
Ginsburg, J.); id. at 288-91 (opinion of Souter, J.) (noting the
“rule of reserving due process for otherwise homeless substantial
claims”).

163a
Appendix D
Fourteenth Amendment may offer protection.143 It does
so here, where the conduct is undoubtedly shocking to the
conscience and no conceivable state interest justifies the
deprivations imposed.144
The Fourteenth Amendment forbids what allegedly
happened to Ryan Cole. Where police intentionally
fabricate evidence and successfully get someone falsely
charged with a felony as cover for their colleagues’ actions,
and the Fourth Amendment is unavailing, there may be
a due process violation.145
4.
Having found that the Coles have alleged a due process
violation, we must also decide whether the violation was
143. See id . at 273 (plurality) (“ W here a par ticular
Amendment ‘provides an explicit textual source of constitutional
protection’ against a particular sort of government behavior, ‘that
Amendment, not the more generalized notion of “substantive due
process,” must be the guide for analyzing these claims.’”) (quoting
Graham v. Connor, 490 U.S. 386, 395, 109 S. Ct. 1865, 104 L. Ed.
2d 443 (1989)); see also Soldal v. Cook Cty., 506 U.S. 56, 70, 113 S.
Ct. 538, 121 L. Ed. 2d 450 (1992) (“Certain wrongs affect more
than a single right and, accordingly, can implicate more than one
of the Constitution’s commands.”).
144. See Moran, 296 F.3d at 643, 647-48.
145. We also note that the district court in this case ruled
that the Coles cannot seek a state law malicious prosecution
remedy, and Officer Carson has not challenged that finding. See
Albright, 510 U.S. at 283-84 (opinion of Kennedy, J.) (discussing
the significance of adequate state post-deprivation remedies).

164a
Appendix D
clearly established in October 2010. As the Supreme Court
has explained, “the right to due process of law is quite
clearly established by the Due Process Clause, and thus
there is a sense in which any action that violates that Clause
(no matter how unclear it may be that the particular action
is a violation) violates a clearly established right.”146 That
is not the test, as it would “convert the rule of qualified
immunity that our cases plainly establish into a rule
of virtually unqualified liability.” 147 On the other hand,
officials may be on notice that their conduct is unlawful
even in “novel factual circumstances,”148 though the courts
have not had occasion to rule on “‘materially similar’
conduct.”149 Indeed, “a general constitutional rule already
identified in the decisional law may apply with obvious
clarity to the specific conduct in question.”150

146. Anderson v. Creighton, 483 U.S. 635, 639, 107 S. Ct.
3034, 97 L. Ed. 2d 523 (1987).
147. Id.
148. Hope v. Pelzer, 536 U.S. 730, 741, 122 S. Ct. 2508, 153
L. Ed. 2d 666 (2002).
149. Id. at 753 (Thomas, J., dissenting); see also Safford
Unified Sch. Dist. No. 1 v. Redding, 557 U.S. 364, 377-78, 129 S.
Ct. 2633, 174 L. Ed. 2d 354 (2009).
150. Hope, 536 U.S. at 741 (quoting United States v. Lanier,
520 U.S. 259, 271, 117 S. Ct. 1219, 137 L. Ed. 2d 432 (1997)); see
also Brosseau v. Haugen, 543 U.S. 194, 199, 125 S. Ct. 596, 160 L.
Ed. 2d 583 (2004) (“Of course, in an obvious case, these standards
can ‘clearly establish’ the answer, even without a body of relevant
case law.” (citation omitted)).

165a
Appendix D
By 2010, no “reasonable law enforcement officer would
have thought it permissible to frame somebody for a crime
he or she did not commit.”151 Though the First Circuit
was addressing official framing that led to conviction,
and the state of the law in 1967, the principle applies with
obvious clarity here. “To hold that police officers, having
lawfully arrested a suspect, are then free to fabricate false
[evidence] at will, would make a mockery of the notion
that Americans enjoy the protection of due process of the
law and fundamental justice.”152 “[T]he wrongfulness of
charging someone on the basis of deliberately fabricated
evidence is sufficiently obvious,”153 that in light of our due
process violation holdings in Castellano and Boyd and
the decisions of our sister circuits,154 a reasonable officer
in Officer Carson’s shoes would have known his conduct
violated the Constitution. “[N]o reasonably competent
police officer could believe otherwise.”155

151. Limone, 372 F.3d at 50.
152. Ricciuti, 124 F.3d at 130.
153. Devereaux, 263 F.3d at 1075.
154. To reiterate, the Second, Eighth, Ninth, and Tenth
Circuits have found due process violations in similar circumstances.
The D.C., First, Third, Sixth, and Eleventh Circuits have not
answered the question, though some have spoken in broad terms
about the right not to be framed. The Fourth and Seventh have
found no due process violation in the absence of a conviction, but
based on a theory (the need for conviction) we have rejected.
155. Ricciuti, 124 F.3d at 130.

166a
Appendix D
5.
Finally, the Coles have pled “specific conduct and
actions giving rise to a constitutional violation.”156 We will
not rehearse the pleadings in detail yet again. The Coles
clearly allege that Officer Carson conspired with others
and intentionally lied in order to cover for his colleagues,
among other things telling investigators that Ryan turned
and pointed his gun at the police. The Coles further allege
that Officer Carson and other officers’ lies led directly
to the decision to charge Ryan with aggravated assault.
As we have explained, that is enough for us to determine
that they have pled a clearly established constitutional
violation.
V
Officer Carson claims absolute immunity for all of
his alleged conduct under Rehburg v. Paulk,157 where the
Supreme Court found that all grand jury witnesses have:
absolute immunity from any § 1983 claim based
on the witness’ testimony. In addition . . . this
rule may not be circumvented by claiming that
a grand jury witness conspired to present false
testimony or by using evidence of the witness’
testimony to support any other § 1983 claim
concerning the initiation or maintenance of a
prosecution . . . In the vast majority of cases
156. Baker, 75 F.3d at 195; Schultea, 47 F.3d at 1433.
157. 132 S. Ct. 1497, 182 L. Ed. 2d 593 (2012).

167a
Appendix D
involving a claim against a grand jury witness,
the witness and the prosecutor conducting the
investigation engage in preparatory activity,
such as a preliminary discussion in which the
witness relates the substance of his intended
testimony. We decline to endorse a rule of
absolute immunity that is so easily frustrated.158
The Court recognized that absolute immunity does not
“extend[] to all activity that a witness conducts outside
of the grand jury room. For example, we have accorded
only qualified immunity to law enforcement officials who
falsify affidavits and fabricate evidence concerning an
unsolved crime.”159
Under Rehburg, Officer Carson is immune for grand
jury testimony, preparation for that testimony, and any
conspiracy to falsely testify. He argues that all of his
alleged conduct falls into those categories, but the First
Amended Complaint goes further. The Coles allege that
Officer Carson made false statements in the course
of the initial investigation into the shooting, before a
decision had been made by prosecutors to charge Ryan
with aggravated assault. The FAC indicates that Carson
intended these statements to influence the decision to
bring charges against Ryan in the first place.
An officer who lies to investigating officers in order
to try to get someone charged with a crime—before
158. Id. at 1506-07.
159. Id. at 1507 n.1 (citations omitted).

168a
Appendix D
the decision to charge has been made—is not entitled
to absolute testimonial immunity. The Supreme Court
has held that a prosecutor is not entitled to absolute
immunity when she falsifies an affidavit supporting an
arrest warrant.160 Neither is a police officer who submits
an affidavit for a warrant, leading to an arrest without
probable cause.161 Nor are prosecutors absolutely immune
when they act alongside police officers to “solve” an
unsolved crime by shopping for an unscrupulous expert.162
Rehberg confirmed that these holdings are still good law.163
We have likewise held that “non-testimonial pretrial
actions, such as the fabrication of evidence, are not within
the scope of absolute immunity because they are not part
of the trial.”164
160. Kalina v. Fletcher, 522 U.S. 118, 129, 131, 118 S. Ct. 502,
139 L. Ed. 2d 471 (1997).
161. Malley v. Briggs, 475 U.S. 335, 344-45, 106 S. Ct. 1092,
89 L. Ed. 2d 271 (1986).
162. Buckley v. Fitzsimmons, 509 U.S. 259, 275-76, 113 S.
Ct. 2606, 125 L. Ed. 2d 209 (1993).
163. Rehberg, 132 S.Ct. at 1507 n.1 (listing each of the
preceding three cases to illustrate that “absolute immunity [does
not] extend[] to all activity that a witness conducts outside of the
grand jury room”).
164. Castellano, 352 F.3d at 958 & n.107 (citing Buckley, 509
U.S. at 275-76, and Spurlock v. Satterfield, 167 F.3d 995, 1003-04
(6th Cir. 1999), for the proposition that “[d]efendants cannot shield
any pretrial investigative work with the aegis of absolute immunity
merely because they later offered the fabricated evidence or
testified at trial”).

169a
Appendix D
The conduct here—lying to investigators—comes
closer to possibly preparing for grand jury testimony than
some of the conduct in earlier cases, but the timing and
purpose of the statements matter. The Supreme Court
and this court have emphasized that absolute immunity
for prosecutors, witnesses, and others is based on a need
to protect central judicial proceedings.165 Thus conduct
that occurs during investigation to discover probable
cause and before the decision to charge has been made
is not generally entitled to absolute immunity.166 Some of
165. Briscoe v. LaHue, 460 U.S. 325, 334-35, 103 S. Ct. 1108,
75 L. Ed. 2d 96 (1983) (“The central focus of our analysis has been
the nature of the judicial proceeding itself.”); Kalina, 522 U.S. at
125, 128 (noting that immunity covers “activities . . . intimately
associated with the judicial phase of the criminal process”);
Malley, 475 U.S. at 342-43 (“We have interpreted § 1983 to give
absolute immunity to functions ‘intimately associated with the
judicial phase of the criminal process . . . .”); Keko v. Hingle, 318
F.3d 639, 643 (5th Cir. 2003) (“[A]n informal, ex parte probable
cause hearing is not the type of judicial proceeding for which
a witness’s testimony would require the full shield of absolute
immunity. . . . We decline to extend absolute witness immunity
into an arena where the Supreme Court has not found factual
testimony to justify such heightened protection.”).
166. Buckley, 509 U.S. at 273-74 (“The prosecutors do not
contend that they had probable cause to arrest petitioner or to
initiate judicial proceedings . . . . Their mission at that time was
entirely investigative . . . .”); Hoog-Watson v. Guadalupe Cty., 591
F.3d 431, 438 (5th Cir. 2009) (finding under functional approach,
“prosecutorial immunity protects ‘the advocate’s role in evaluating
evidence and interviewing witnesses as he prepares for trial,’ but
not ‘the detective’s role in searching for the clues and corroboration
that might give him probable cause to recommend that a suspect

170a
Appendix D
the false statements in this case are alleged to have been
this investigation-stage type of conduct.
In these circumstances, lying to investigating officers
is similar to falsifying a police report, which the Second
Circuit recently held is not protected by testimonial
immunity. The Second Circuit addressed how to apply
Rehberg “when a § 1983 plaintiff alleges that the officer
withheld and falsified evidence in addition to committing
perjury before the grand jury.” 167 It concluded that
testimonial immunity does not bar § 1983 claims that can
be made out without reference to the grand jury testimony
or preparation for it.168 As the court explained, “[t]he
fact that [defendant’s] grand jury testimony paralleled
information he gave in other contexts [such as police
reports] does not mean that [the claim] was ‘based on’ [the]
grand jury testimony. Rather it was based on [defendant’s]
conduct that laid the groundwork for [the] indictment.”169
So here; the fact that some of Officer Carson’s statements
may have been presented to the grand jury can be excised
from the complaint and the Coles still make out a case that
be arrested.’”); Beck v. Tex. State Bd. of Dental Exam’rs, 204 F.3d
629, 637 (5th Cir. 2000) (“[A]lthough a prosecutor is absolutely
immune when she acts . . . as an advocate for the state by initiating
and pursuing prosecution, or when her conduct is ‘intimately
associated with the judicial phase of the criminal process,’ she
does not enjoy absolute immunity for her acts of investigation
. . . .”) (citations omitted).
167. Coggins v. Buonora, 776 F.3d 108, 112 (2d Cir. 2015).
168. Id. at 113 & n.7.
169. Id. at 113.

171a
Appendix D
Carson lied in order to ensure charges would be brought
in the first place.
A final wrinkle must be addressed. While we have said
that plaintiffs must plead with specificity when absolute
immunity is asserted, just as with qualified immunity,170 the
Supreme Court has held that “the official seeking absolute
immunity bears the burden of showing that such immunity
is justified for the function in question.”171 Officials bear
the “burden of establishing that they were functioning”
in an absolutely immune role.172 The Court’s statements
170. Truvia v. Julien, 187 F. App’x 346, 348 (5th Cir. 2006);
Elliott v. Perez, 751 F.2d 1472, 1482 (5th Cir. 1985) abrogated
on other grounds by Leatherman v. Tarrant Cty. Narcotics
Intelligence & Coordination Unit, 507 U.S. 163, 113 S. Ct. 1160,
122 L. Ed. 2d 517 (1993).
171. Burns v. Reed, 500 U.S. 478, 486-87, 111 S. Ct. 1934, 114
L. Ed. 2d 547 (1991) (“The presumption is that qualified rather than
absolute immunity is sufficient to protect government officials in
the exercise of their duties. We have been ‘quite sparing’ in our
recognition of absolute immunity, and have refused to extend it any
‘further than its justification would warrant.’”) (citation omitted);
Buckley, 509 U.S. at 269 (quoting Burns); Antoine v. Byers &
Anderson, Inc., 508 U.S. 429, 432, 113 S. Ct. 2167, 124 L. Ed. 2d
391 (1993) (“The proponent of a claim to absolute immunity bears
the burden of establishing the justification for such immunity.”).
172. Buckley, 509 U.S. at 274 (“The question, then, is whether
the prosecutors have carried their burden of establishing that they
were functioning as ‘advocates’ . . . .”). This goes for cases before
the Court on motions to dismiss, summary judgment, and directed
verdict. See id. at 264 (motion to dismiss); Burns, 500 U.S. at 483
(directed verdict); Antoine, 508 U.S. at 431 (summary judgment).

172a
Appendix D
emphasize its reluctance to take absolute immunity too
far, and contemplate the need for defendants to take an
active role in claiming it.173 Following these cases and our
own precedent, we have held at the summary judgment
stage that the burden stays with the defendant to establish
his entitlement to absolute immunity.174
173. Antoine, 508 U.S. at 432 n.4 (“We have consistently
‘emphasized that the official seeking absolute immunity bears
the burden of showing that such immunity is justified for the
function in question. The presumption is that qualified rather than
absolute immunity is sufficient to protect government officials in
the exercise of their duties. We have been quite sparing in our
recognition of absolute immunity . . . .’”); Buckley, 509 U.S. at 274
(“The question, then, is whether the prosecutors have carried their
burden of establishing that they were functioning as ‘advocates’ .
. . .”); Malley, 475 U.S. at 339-341 (noting that “[a]s the qualified
immunity defense has evolved, it provides ample protection to
all but the plainly incompetent or those who knowingly violate
the law.”); see also Lampton v. Diaz, 639 F.3d 223, 228 (5th Cir.
2011) (noting failure of proponent of immunity to point to a case
extending it to his situation).
174. Hoog-Watson, 591 F.3d at 437 n.6 (“For summary
judgment purposes, Buckley[, 509 U.S. 259, 113 S. Ct. 2606, 125
L. Ed. 2d 209], and Hart v. O’Brien, 127 F.3d 424 (5th Cir. 1997)
. . . hold that the defendant who pleads the affirmative defense
of absolute prosecutorial immunity bears the burden of proving
that the conduct at issue served a prosecutorial function . . . .
In contrast, more recent Fifth Circuit decisions hold that after
the defendant pleads the defense of prosecutorial immunity, the
plaintiff bears the burden of introducing evidence sufficient to
convince a reasonable factfinder that the defendant acted outside
the scope of the immunity. Cousin v. Small, 325 F.3d 627, 632-33
(5th Cir. 2003); Beck[, 204 F.3d at 633-34]. But because Hart came
before Cousin and Beck, Hart controls.”).

173a
Appendix D
We need not decide whether a heightened pleading
requirement applies at the motion to dismiss stage. We
have already explained that the Coles pled “specific
conduct and actions giving rise to a constitutional
violation” insofar as they allege that Officer Carson
fabricated evidence to get Ryan falsely charged. The Coles
alleged that Officer Carson lied to investigating officers,
telling them that Ryan turned around and pointed his
gun at Officer Hunter prior to his being shot, and that
Officer Hunter gave a warning before firing. They make
it clear that some of these statements were made prior
to the decision to charge, were intended to influence, and
did influence that decision. Their pleadings are specific
enough to meet any heightened pleading requirement.
---We DISMISS the appeal by Officers Hunter and
Cassidy for lack of jurisdiction. We AFFIRM the denial of
Officer Carson’s motion to dismiss insofar as it relates to
the Coles’ due process claim based on fabricated evidence
and REVERSE the denial as to the Fourth Amendment
and Brady claims. We REMAND for further proceedings.

174a
AppendixAND
E ORDER OF THE
APPENDIX E — OPINION
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS, DALLAS
DIVISION, FILED DECEMBER 22, 2014
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF TEXAS, DALLAS DIVISION
Civil Action No. 3:13-cv-02719-O
RANDY COLE AND KAREN COLE, INDIVIDUALLY
AND AS NEXT FRIENDS OF RYAN COLE,
Plaintiffs,
v.
MICHAEL HUNTER, MARTIN CASSIDY, CARL
CARSON AND THE CITY OF SACHSE, TEXAS,
Defendants.
MEMORANDUM OPINION AND ORDER
Before the Court are Defendants Hunter and Cassidy’s
Motion for Summary Judgment and Brief and Appendix
in Support (ECF No. 112-23), filed September 22, 2014;
Plaintiffs’ Response (ECF No. 145-47), filed October
28, 2014; and Defendants’ Reply (ECF No. 148), filed
November 7, 2014. Also before the Court are Defendants’
Motion to Exclude the Testimony of Plaintiffs’ Expert Tom
Bevel and Appendix in Support (ECF No. 126-28, 132,
135), filed September 25, 2014; Plaintiffs’ Response (ECF
No. 142-44), filed October 28, 2014; Defendants’ Reply

175a
Appendix E
(ECF No. 149), filed November 7, 2014; Defendants’ Motion
to Exclude the Testimony of Plaintiffs’ Expert Timothy
Braaten and Appendix in Support (ECF No. 129-131, 136),
filed September 25, 2014; Plaintiffs’ Response (ECF No.
139-41), filed October 28, 2014; and Defendants’ Reply
(ECF No. 150), filed November 7, 2014.
Having considered the motions, related briefing,
evidence, and applicable law, and for the reasons that
follow, the Court finds that Defendants’ Motion for
Summary Judgment and Defendants’ Motions to Exclude
Expert Testimony should be and are hereby DENIED.
The Court further OVERRULES Plaintiffs’ Objection on
the Basis of Judicial Estoppel, and the Court DEFERS
ruling on Plaintiffs’ Objections to Defendants’ Experts
Albert Rodriguez and Gene Henderson insofar as the
objections exceed the scope of this summary judgment
determination.
I.

BACKGROUND

This is an action by Plaintiffs Randy and Karen Cole,
individually and as next friends of their son Ryan Cole
(“Cole”), alleging claims under 42 U.S.C. § 1983 and state
law against the City of Sachse, Texas (“City of Sachse” or
“City”), and Michael Hunter (“Hunter”), Martin Cassidy
(“Cassidy”), and Carl Carson (“Carson”), police officers
for the City at the time of the incident precipitating
this lawsuit. This case arises from the alleged use of
deadly force by Officers Hunter and Cassidy (sometimes
collectively, “the Officers”) on the morning of October 25,
2010, in the City of Garland, Texas, when they shot Ryan
Cole several times, causing profound mental and physical

176a
Appendix E
disabilities. Plaintiffs allege causes of action based on
unconstitutional use of deadly force, failure to train
or supervise, and a subsequent conspiracy by Officers
Hunter, Cassidy, and Carson to manufacture evidence
and make use of perjured testimony.
In Count One of the First Amended Complaint,
Plaintiffs assert a claim under 42 U.S.C. § 1983 for Officers
Hunter and Cassidy’s use of deadly force in violation of
Ryan Cole’s Fourth Amendment rights. In Counts Two
and Three, Plaintiffs assert a claim under 42 U.S.C.
§ 1983 against the City of Sachse based on its facially
unconstitutional policies on the use of deadly force (Count
Two), and inadequate training, supervision, policies and
practices (Count Three) that resulted in the unlawful
shooting of Ryan Cole. In Count Four, Plaintiffs bring a
claim under § 1983 against the Officers Hunter, Cassidy,
and Carson for causing and participating in the unlawful
prosecution of criminal charges using manufactured
evidence and perjured testimony, without probable
cause, in violation of Cole’s Fourth and Fourteenth
Amendment rights, and for conspiracy to deprive Cole
of his constitutional rights. Count Four also seeks relief
under state law for malicious prosecution. In addition
to these claims, Plaintiffs Randy and Karen Cole also
bring individual federal and state law bystander claims
for mental anguish.
On January 24, 2014, the Court granted Defendants’
motion to dismiss Plaintiffs’ state law malicious prosecution
claims and bystander claims against Officers Hunter,
Cassidy, and Carson, as well as Plaintiffs’ federal law
bystander claims against the three officers and the City.

177a
Appendix E
Mem. Op. & Order, Jan. 24, 2014, ECF No. 85. The Court
denied Defendants’ motion to dismiss Plaintiffs’ remaining
claims. Id. The denial of Defendant Carson’s motion to
dismiss Count Four on the basis of qualified immunity and
failure to state a claim is now pending before the United
States Court of Appeals for the Fifth Circuit. See Def.
Carson’s Notice Appeal, ECF No. 87.
On April 18, 2014, the Court ordered that “all
proceedings concerning Count IV, including discovery,
are hereby stayed pending the resolution of Defendant
Carson’s interlocutory appeal of this claim or further
order of this Court.” Order 11-12, Apr. 18, 2014, ECF No.
100. However, the Court permitted narrowly tailored
discovery regarding Count One, provided that it is
reasonably calculated to assist the Court in determining
whether Defendants Hunter and Cassidy are entitled
to qualified immunity on Count One at the summary
judgment stage. Id.
Defendants Hunter and Cassidy now move for
summary judgment, and both parties seek to exclude
expert testimony. Plaintiff further objects to Defendants’
motion for summary judgment on the basis of judicial
estoppel. The motions and objections have been fully
briefed and are ripe for determination.
II. LEGAL STANDARD
A.

Motion for Summary Judgment

Summary judgment is proper when the pleadings and
evidence on file show “that there is no genuine dispute as

178a
Appendix E
to any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). “[T]he substantive
law will identify which facts are material.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986). A genuine issue of material fact
exists “if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id. The movant
makes a showing that there is no genuine issue of material
fact by informing the court of the basis of its motion and
by identifying the portions of the record which reveal
there are no genuine material fact issues. Celotex Corp.
v. Catrett, 477 U.S. 317, 323, 106 S. Ct. 2548, 91 L. Ed. 2d
265 (1986); Fed. R. Civ. P. 56(c).
When reviewing the evidence on a motion for summary
judgment, the court must decide all reasonable doubts and
inferences in the light most favorable to the non-movant.
See Walker v. Sears, Roebuck & Co., 853 F.2d 355, 358
(5th Cir. 1988). The court cannot make a credibility
determination in light of conflicting evidence or competing
inferences. Anderson, 477 U.S. at 255. As long as there
appears to be some support for the disputed allegations
such that “reasonable minds could differ as to the import
of the evidence,” the motion for summary judgment must
be denied. Id. at 250.
B. Admissibility of Expert Testimony
“The admissibility of expert testimony is governed
by the same rules, whether at trial or on summary
judgment.” First United Fin. Corp. v. U.S. Fid. & Guar.
Co., 96 F.3d 135, 136-37 (5th Cir. 1996). “In rulings on the

179a
Appendix E
admissibility of expert opinion evidence the trial court
has broad discretion and its rulings must be sustained
unless manifestly erroneous.” Viterbo v. Dow Chem. Co.,
826 F.2d 420, 422 (5th Cir. 1987).
Federal Rule of Evidence 702 governs the admissibility
of expert testimony. Huss v. Gayden, 571 F.3d 442, 452
(5th Cir. 2009). This rule provides:
If scientific, technical, or other specialized
knowledge will assist the trier of fact to
understand the evidence or to determine a
fact in issue, a witness qualified as an expert
by knowledge, skill, experience, training, or
education, may testify thereto in the form of
an opinion or otherwise, if (1) the testimony
is based upon sufficient facts or data, (2) the
testimony is the product of reliable principles
and methods, and (3) the witness has applied
the principles and methods reliably to the facts
of the case.
Fed. R. Evid. 702. Effective December 1, 2000, Rule
702 was amended to incorporate the principles first
articulated by the Supreme Court in Daubert v. Merrell
Dow Pharmaceuticals, Inc., 509 U.S. 579, 113 S. Ct.
2786, 125 L. Ed. 2d 469 (1993). See Fed. R. Evid. 702, adv.
comm. notes (2000). Under Daubert, expert testimony is
admissible only if the proponent demonstrates that: (1) the
expert is qualified; (2) the evidence is relevant to the suit;
and (3) the evidence is reliable. See Watkins v. Telsmith,
Inc., 121 F.3d 984, 988-89 (5th Cir. 1997). The trial court

180a
Appendix E
is charged with making this preliminary determination
under Fed. R. Evid. 104(a).1 Andrade Garcia v. Columbia
Medical Center of Sherman, 996 F.Supp. 617, 620 (E.D.
Tex. 1998); see also Fed. R. Evid., adv. comm. notes (2000).
Daubert lists five non-exclusive factors to consider
when assessing the scientific validity or reliability of
expert testimony: (1) whether the theory or technique
has been tested; (2) whether the theory or technique
has been subjected to peer review and publication; (3)
the known or potential rate of error of the method used;
(4) the existence and maintenance of standards and
controls in the methodology; and (5) whether the theory
or method has been generally accepted by the scientific
community. Daubert, 509 U.S. at 593-94. These factors are
not necessarily limited to scientific evidence and may be
applicable to testimony offered by non-scientific experts,
depending upon “the particular circumstances of the
particular case at issue.” Kumho Tire Company, Ltd. v.
Carmichael, 526 U.S. 137, 150, 119 S. Ct. 1167, 143 L. Ed.
2d 238 (1999). In either case, the Daubert analysis focuses
on the reasoning or methodology employed by the expert,
not the ultimate conclusion. Watkins, 121 F.3d at 989.
The purpose of such an inquiry is “to make certain that
1. Fed. R. Evid. 104(a) provides:
 reliminary questions concerning the qualification
P
of a person to be a witness, the existence of a
privilege, or the admissibility of evidence shall be
determined by the court, subject to the provisions
of subdivision (b). In making its determination it
is not bound by the rules of evidence except those
with respect to privileges.

181a
Appendix E
an expert, whether basing testimony upon professional
studies or personal experience, employs in the courtroom
the same level of intellectual rigor that characterizes the
practice of an expert in the relevant field.” Skidmore v.
Precision Printing & Packaging, Inc., 188 F.3d 606, 618
(5th Cir. 1999) (quoting Kumho Tire, 526 U.S. at 152).
Thus, a court “must review only the reasonableness of
the expert’s use of such an approach, together with his
particular method of analyzing the data so obtained, to
draw a conclusion regarding the specific matter to which
the expert testimony is directly relevant.” American
Tourmaline Fields v. Int’l Paper Co., No. 3:96-CV-3363-D,
1999 U.S. Dist. LEXIS 5790, 1999 WL 242690 at *2 (N.D.
Tex. Apr. 19, 1999) (Fitzwater, J.) (citing Kumho Tire, 526
U.S. at 154).
The test of reliability is necessarily a flexible one. As
the Supreme Court has recognized, the Daubert factors
“may or may not be pertinent in assessing reliability,
depending on the nature of the issue, the expert’s
particular expertise, and the subject of his testimony.”
Kumho Tire, 526 U.S. at 150; see also Watkins, 121 F.3d
at 988-89 (“Not every guidepost outlined in Daubert will
necessarily apply to expert testimony[.]”). A trial court
has wide latitude in deciding how to determine reliability,
just as it has considerable discretion with respect to the
ultimate reliability determination. Kumho Tire, 526 U.S.
at 152. Moreover, “the rejection of expert testimony is
the exception rather than the rule.” See Fed. R. Evid.
702, adv. comm. notes (2000). “[T]he trial court’s role as
gatekeeper is not intended to serve as a replacement for
the adversary system.” United States v. 14.38 Acres of

182a
Appendix E
Land, More or Less, Situated in Leflore Cnty., Miss.,
80 F.3d 1074, 1078 (5th Cir. 1996). Even after Daubert,
“[v]igorous cross-examination, presentation of contrary
evidence, and careful instruction on the burden of proof
are the traditional and appropriate means of attacking
shaky but admissible evidence.” Daubert, 509 U.S. at 596;
see also In re Paoli R.R. Yard PCB Litig., 35 F.3d 717,
744 (3d Cir. 1994) (“The grounds for the expert’s opinion
merely have to be good, they do not have to be perfect.”).
III. ANALYSIS
Officers Hunter and Cassidy move for summary
judgment on both counts remaining against them, Count
One (Excessive Force) and Count Four (Conspiracy to
Obtain Wrongful Conviction). Pursuant to this Court’s April
18, 2014 Order, all proceedings related to Count 4 have
been stayed. See Order 11-12, Apr. 18, 2014, ECF No. 100.
In the Order, the Court informed the parties that, at this
stage in the proceedings, it will only address issues helpful
to a determination of whether Defendants are entitled to a
summary judgement finding of qualified immunity. Id. at 11.
Accordingly, the Court will limit its analysis to Defendants’
motion for summary judgment on the excessive force count.
Similarly, the Court will only address the parties’ motions
to exclude expert testimony insofar as the motions relate
to summary judgment evidence necessary to resolve the
issue of qualified immunity. 2
2. For instance, the Court will not evaluate Defendants’
argument in Part II.B.13 of its Brief in Support of its Motion to
Exclude Bevel’s Expert Testimony because events taking place after
the shooting are beyond the scope of the qualified immunity analysis.
See Order 11-12, Apr. 18, 2014, ECF No. 100.

183a
Appendix E
A.

Motions and Objections Regarding Expert
Testimony

Defendants move to exclude the testimony of
Plaintiffs’ experts Tom Bevel and Timothy Braaten.
Plaintiffs object to the testimony of Defendants’ expert
Albert Rodriguez and the report of Gene Henderson.
Plaintiffs further request an evidentiary hearing. The
Court finds that an evidentiary hearing is not necessary
to determine the admissibility of expert testimony for
summary judgment purposes. Accordingly, the Court will
address the challenges to each expert in turn.
1.

Defendants’ Motion to Exclude Testimony
of Tom Bevel

The Court finds that Bevel is a qualified crime scene
reconstructionist. See Pls.’ App. Supp. Resp. Mot. Exclude
Test. Bevel Ex. 2 (Bevel Aff.), App. 36-38, ECF No. 144.
Bevel is the President of Bevel, Gardner & Associates,
Inc., a forensic education and consulting company located
in Oklahoma. Id. at App. 37. Bevel has served for ten years
as an Associate Professor in the Masters of Forensic
Science Program at the University of Central Oklahoma
and for twenty-seven years in the Oklahoma City Police
Department where he earned the rank of Captain. Id.
He is an International Association for Identification
certified crime scene reconstructionist and a graduate
of the FBI National Academy. Id. at App. 37-38. His full
CV is included on pages 50-55 of Plaintiffs’ Appendix. Id.
at App. 50-55.

184a
Appendix E
The Court further finds that Bevel’s testimony is
relevant and satisfies the reliability requirements of
Federal Rule of Evidence 702. See Daubert, 509 U.S. at
593-95. Bevel testified that he used the same methodology
he would have used as a police supervisor investigating an
officer involved in a shooting. Bevel Aff., at App. 36, ECF
No. 144; see also Kumho Tire, 526 U.S. at 152 (holding
that the purpose of the Daubert gatekeeping requirement
is to ensure that an expert “employs in the courtroom
the same level of intellectual rigor that characterizes the
practice of an expert in the relevant field”). He reviewed
the pertinent documents and evidence, listed on page 56
of Plaintiffs’ Appendix. Bevel Aff., at App. 39, ECF No.
144. He testified that he conducted his own independent,
impartial investigation and reconstruction in accordance
with sound principles and generally accepted techniques.
Id. at App. 37. In his affidavit, Bevel described in detail
his trajectory analysis and crime scene reconstruction
processes. See id. at App. 39-45, 81-83. Based upon
his analyses, Bevel concluded that Cole sustained two
gunshot wounds from the Officers which caused Cole
to involuntarily pull the trigger on the gun that he was
aiming at his own head. Id. at App. 46-48. Based upon
the timing and sequence of the gunshot wounds, Bevel
concluded that it was unlikely that Cole was facing Officer
Hunter or pointing his weapon at Officer Hunter when
he was initially shot. Id. at App. 48-49. Overall, Bevel’s
testimony satisfies the requirements of Rule 702.
In Defendants’ motion to exclude Bevel’s testimony,
Defendants contend that several of Bevel’s opinions are not
reliably supported by evidence in the record and thus must

185a
Appendix E
be excluded. Defs.’ Mot. Exclude Bevel Test. 11-23, ECF
No. 126. Much of Defendants’ brief is devoted to explaining
which of Bevel’s opinions conflict with Defendants’ version
of the facts, id. at 11-23, and which of Bevel’s opinions are
supported by Defendants’ version of the facts, id. at 1-10.
However, absent a valid reason to question the underlying
basis of an expert’s testimony, the mere fact that some
expert conclusions conflict with witness testimony does
not establish that the expert testimony is unreliable. See
Watkins, 121 F.3d at 989 (holding that the Daubert analysis
focuses on the reasoning or methodology employed by the
expert, not the ultimate conclusion). Here, Defendants fail
to set forth a valid basis for the distinction they attempt
to draw between admissible and inadmissible evidence.
Further, Defendants admit that Bevel is competent
to testify regarding “fundamental general information
which is widely accepted by law enforcement professionals
that is important in evaluating the reasonableness of the
Officers’ conduct.” Defs.’ Mot. Exclude Bevel Test. 1,
ECF No. 126. Defendants’ brief also appears to concede
Bevel’s competency as a crime scene reconstuctionist. For
instance, Defendants affirm much of Bevel’s testimony
relating to crime scene reconstruction in general, see, e.g.,
id. at 4-5, and several of Bevel’s opinions relating to crime
scene reconstruction in this case specifically, see, e.g., id.
at 6-7. At the same time, Defendants discount Bevel’s
conclusions when they conflict with the Officers’ testimony,
see, e.g., id. at 14-15. Similarly, much of Defendants’ brief
is devoted to arguing the ultimate conclusions that should
be drawn from Bevel’s testimony rather than objecting to
Bevel’s methodology. See, e.g., id. at 10. The Court finds

186a
Appendix E
that these objections, including the arguments Defendants
set forth in Parts II.B.1-3, 5, 7-10, 11 of their brief, go to the
weight that should be given to the evidence rather than to
the admissibility of the evidence. Bevel’s testimony on such
issues is admissible, and Defendants’ arguments relating
to the weight or proper interpretation of the evidence are
more appropriately saved for cross-examination or oral
argument.
The remaining portions of Defendants’ brief bring
specific challenges to the reliability of Bevel’s methodology
and the accuracy of the photographs upon which Bevel
relied. Defs.’ Mot. Exclude Bevel Test. 15-19, 22, ECF
No. 126.
In Parts II.B.3-4 of Defendants’ brief, Defendants
argue that Bevel cannot reliably determine the sequence
of gunshots based on audio recordings of the incident. Id.
at 15-16. Defendants cite Plaintiffs’ expert Steven D. Beck
(“Beck”) who stated that it is “not scientifically possible
to determine the sequence of gunshots in question” to
a reasonable degree of certainty. Id. at 16. However, in
omitted portions of Beck’s testimony, he indicated that
listeners, such as the Garland police investigators and
Captain Bevel, may be able to “interpret the sound of the
recording to show different sounds by the discharge of one
round as opposed to other rounds in the sequence.” Pls.’
App. Supp. Resp. Mot. Exclude Test. Bevel Ex. 6 (Beck
Aff.), App. 135, ECF No. 144. Beck merely concluded
that Bevel’s interpretations of the recordings cannot
be scientifically verified in the manner suggested by
Defendants’ expert Dr. Al Yonovitz. Id. Thus, the Court

187a
Appendix E
finds Defendants’ objections to the reliability of Bevel’s
conclusions based on the recordings to be without merit.
In Part II.B.6 of Defendants’ brief, Defendants
challenge Bevel’s bullet trajectory analysis because his
opinions differ from those of another expert in the field,
Dr. Vincent Dimaio (“Dimaio”). Defs.’ Mot. Exclude Bevel
Test. 17-19, ECF No. 126. Bevel testified that he disagreed
with Dimaio’s opinion that bullets do not usually follow a
straight path as they exit the body. Id. at 19. Here, Bevel
did not rest on general assumptions, rather he confirmed
that the bullet in question continued on a linear path
by inspecting Cole’s medical records and by physically
examining Cole’s person. Pls.’ App. Supp. Resp. Mot.
Exclude Test. Bevel 42, 80-82, 175, 177, ECF No. 144.
Thus, the Court finds Defendants’ objections to Bevel’s
trajectory analysis to be without merit.
Finally, in Part II.B.12 of Defendants’ brief, Defendants
challenge the accuracy of photographs upon which Bevel
relied. Defs.’ Mot. Exclude Bevel Test. 22, ECF No. 126.
Defendants argue that there is no evidence in the record
demonstrating that the photographic reconstruction of
the scene correctly represents the individuals’ placement
during the incident. Id. The Garland police officers who
took the photographs did not receive specific approval
from the officers who were involved in the incident,
and Officers Hunter and Cassidy now allege that the
representation of their positions was inaccurate. Pls.’
App. Supp. Resp. Mot. Exclude Test. Bevel Ex. 5 (Bevel
Dep.) 72:8-73:19, App. 92, ECF No. 144. However, Bevel
concluded that the Officers’ accounts of their positions

188a
Appendix E
were not consistent with the physical evidence, such as the
location of the blood pool and shell casings. Id. 73:12-25,
135:9-137:16, at App. 93, 106-08. Bevel testified that the
range of the ejection of shell casings from the firearm at
issue would be between 50 and 80 inches from the weapon,
and this value is generally accepted and not controversial
among crime scene reconstructionists. Id. 138:3-139:1, at
App. 109-10. Based upon his evaluation of the scene and
his analysis of the physical evidence, Bevel concluded that
the photographs taken by the Garland police department
portrayed the relative positions of the people involved
in the incident with reasonable accuracy. Therefore,
the Court finds that Bevel’s testimony relying upon the
photographic evidence is admissible under Rule 702.
In summary, the Court finds that Bevel’s expert
opinions are suitable summary judgment evidence.
Accordingly, Defendants motion to exclude or limit Bevel’s
testimony is DENIED.
2.

Defendants’ Motion to Exclude Testimony
of Timothy Braaten

The Court finds that Braaten is a qualified expert on
police administration, investigations, and procedure. See
Pls.’ App. Supp. Resp. Mot. Exclude Test. Braaten Ex. 2
(Braaten Aff.), App. 13-15, ECF No. 141. Braaten received
a Bachelor of Arts in Psychology and Sociology from
Concordia College and a Master of Public Administration
degree from Wayne State University. Id. at App. 13. He is
a graduate of the FBI National Academy. Id. at App. 14.
Braaten gained experience as a police officer in Michigan,

189a
Appendix E
before working as Chief of Police in Mequon, Wisconsin,
Oak Ridge, Tennessee, and then Victoria, Texas. Id.
at App. 13-14. Notably, he has investigated complaints
against police officers, including incidents involving
the use of deadly force and other violent crimes. Id.
Additionally, for approximately six years, Braaten served
as Executive Director of the Texas Commission on Law
Enforcement Standards and Education in Austin, Texas.
Id. at App. 14. His full CV is given in Plaintiffs’ Appendix
39-42. Id. at App. 39-42.
The Court further finds that Braaten’s testimony
satisfies the reliability requirements of Rule 702. See
Daubert, 509 U.S. at 593-95. Braaten testified that he
used the same methodology he would have used as a police
chief or police supervisor investigating or evaluating any
officer involved shooting or other major incident. Braaten
Aff., at App. 16, ECF No. 141; see also Kumho Tire,
526 U.S. at 152. He testified that he independently and
impartially approached the case. Braaten Aff., at App. 16,
ECF No. 141. Braaten reviewed the documents produced
by both parties, including the Garland Police Department
investigation file, the Sachse Internal Affairs reports,
Bevel’s crime scene reconstruction, Cole’s medical records,
and the audio and video recordings from the scene. Id. at
App. 43. Based upon his investigation, Braaten concluded
that at the time of the shooting, Cole was not facing or
pointing the gun at Officer Hunter, Officer Hunter did
not give an adequate warning under the circumstances,
and thus the use of deadly force was not justified. Id.
at App. 37. Contrary to Defendants’ arguments that
Braaten’s opinions are based upon mere “supposition,”

190a
Appendix E
the Court finds that Braaten has used reliable methods
in his investigation applied reliably to the facts at hand.
Defs.’ Mot. Exclude Braaten Test. 18, ECF No. 129 (citing
Hathaway v. Bazany, 507 F.3d 312, 318 (5th Cir. 2007)).
Defendants object to Braaten’s qualifications, arguing
that Braaten may not present expert opinions relating to
his interpretation of the shooting events because he is not
a shooting scene reconstructionist. Defs.’ Mot. Exclude
Braaten Test. 3, ECF No. 129. However, Rule 702 merely
requires an expert to be qualified to testify in particular
field, he or she need not be highly specialized. Wellogix,
Inc. v. Accenture, LLP, 716 F.3d 867, 882 (5th Cir. 2013);
see also Berry v. City of Detroit, 25 F.3d 1342, 1351 (6th
Cir. 1994). Here, Plaintiffs have established Braaten’s
extensive experience as a criminal investigator. Braaten
Aff., at App. 13-16, ECF No. 141. The Court finds that
experienced criminal investigators, such as Braaten,
may express opinions as to the significance of facts in an
officer involved shooting. It is also appropriate for Braaten
to testify about police departments’ standard of conduct
for law enforcement officers who encounter an individual
with a handgun pointed at himself.
Besides the challenges to Braaten’s qualifications,
Defendants’ brief consists entirely of arguments that
either extend beyond the scope of the qualified immunity
analysis or address the weight rather than the admissibility
of evidence. When determining the admissibility of
evidence, district courts must afford “proper deference
to the jury’s role as the arbiter of disputes between
conflicting opinions.” 14.38 Acres of Land, 80 F.3d at

191a
Appendix E
1077 (quoting Viterbo, 826 F.2d at 422). “As a general
rule, questions relating to the bases and sources of an
expert’s opinion affect the weight to be assigned that
opinion rather than its admissibility and should be left
for the jury’s consideration.” Id. (quoting Viterbo, 826
F.2d at 422). Defendants’ arguments consist of factual
disputes and challenges to Braaten’s conclusions which
are more appropriately brought during cross examination.
“Vigorous cross-examination, presentation of contrary
evidence, and careful instruction on the burden of proof
are the traditional and appropriate means of attacking
shaky but admissible evidence.” Daubert, 509 U.S. at
596. At this time, the Court does not determine questions
beyond the scope of the qualified immunity analysis. In
accordance with the Court’s gatekeeping function, the
Court determines that Braaten’s testimony is competent
summary judgment evidence. Accordingly, Defendants’
motion to exclude or limit Braaten’s testimony is DENIED.
3.

Plaintiffs’ Objection to the Testimony of
Albert Rodriguez

Plaintiffs argue that Rodriguez’s testimony must
be excluded because it was untimely produced and,
alternatively, they argue that the testimony violates
several Federal Rules of Evidence. Pls.’ Br. Resp. Mot.
Summ. J. 7-8, ECF No. 146.
a.

Timeliness Objections

Under Federal Rule of Civil Procedure 26(a), initial
disclosures of expert reports must be “complete and

192a
Appendix E
detailed.” Sierra Club, Lone Star Chapter v. Cedar Point
Oil Co. Inc., 73 F.3d 546, 571 (5th Cir. 1996). Supplemental
disclosures “are not intended to provide an extension of
the deadline by which a party must deliver the lion’s share
of its expert information.” Id. Supplemental opinions must
not include material changes or corrections to the experts
opinions. Harmon v. Ga. Gulf Lake Charles LLC, 476 F.
App’x 31, 38 (5th Cir. 2012).
On June 27, 2013, Defendants’ Expert Designation
(ECF No. 54) identified Rodriguez as an expert who may
testify. Subsequent email correspondence between the
parties indicates that Plaintiffs were aware of the possible
need to depose Rodriguez; however, Plaintiffs chose to
postpone the deposition. See Pls.’ App. Supp. Resp. Mot.
Summ. J. 3-8, ECF No. 147.
Plaintiffs argue that Defendants failed to disclose
Rodriguez’s Supplemental Report before the August
18, 2014 discovery deadline, and thus the Supplemental
Report must be excluded from the Court’s consideration
of the summary judgment motion. See Order, May 5, 2014,
ECF No. 104. The Supplemental Report was first served
on the Plaintiffs in the appendix in support of Defendants’
motion for summary judgment on September 22, 2014,
and Defendants did not receive the Court’s permission
for late filing of a Supplemental Report. Plaintiffs argue
that the untimely disclosure of the Supplemental Report
prejudiced them because the report would have prompted
them to depose Rodriguez regarding his new opinions.
However, Plaintiffs fail to identify any new opinions
in the Supplemental report. Plaintiffs also have not

193a
Appendix E
demonstrated that any changes to the report are material.
Therefore, the Court finds that the Supplemental Report
may be admitted at this stage in the proceedings.
b.

Evidentiary Objections

The Court finds that Rodriguez is a qualified expert
on police policies and procedures, including procedures
involving the use of deadly force. See Defs.’ App. Supp.
Mot. Summ. J. Ex. Vol. 3 Tab 21 (Rodriguez Decl.),
App. 844, ECF No. 121. Rodriguez has served as a law
enforcement officer for approximately thirty-six years,
including service as Commander of the Department of
Public Safety Training Academy in Austin, Texas. Id.
¶ 1, at App. 844. He holds a Bachelor’s Degree from Texas
A&M and certifications from the Texas Commission on
Law Enforcement Officer Standards and Education. Id.
¶ 3, at App. 844. He is a graduate of the 147th FBI National
Academy in Quantico, Virginia. Id. He is FBI certified as
a Use of Force and Defensive Tactics Instructor. Id. His
full resume is attached in Defendants’ Appendix on pages
881-84. Id. at App. 881-84.
Plaintiffs object to his qualifications to testify to legal
conclusions, crime scene reconstruction, bullet trajectory
analysis, mental health issues and involuntary/reflexive
trigger pull syndrome. Pls.’ Br. Resp. Mot. Summ.
J. 9, ECF No. 146. Plaintiffs also object to several of
Rodriguez’s opinions on hearsay grounds.
T he Cou r t f i nds t hat a n eva luat ion of each
particularized objection exceeds the scope of the summary

194a
Appendix E
judgment inquiry. Any objections relevant to information
relied upon by the Court will be discussed in further detail
below. Objections to expert testimony not covered in this
Order may be raised when they become ripe at a later
date in the proceedings.
4.

Plaintiffs’ Objection to the Testimony of
Gene Henderson

Plaintiffs object to Henderson’s report and challenge
Henderson’s qualification to reconstruct shooting incidents
or crime scenes. Pls.’ Br. Resp. Mot. Summ. J. 15, ECF No.
146. They also object to a lack of basis for the video’s crime
scene reconstruction methodology, arguing that there is
no basis anywhere in the record that Cole’s movements
were similar to the movements of the individual in the
video. Id. at 16.
Because the Court does not rely on the Henderson
report or Rodriguez’s testimony concerning Henderson’s
report in its summary judgment determination, the
Court does not reach the issue of whether to admit the
Henderson report at this stage in the litigation.
B. Plaintiffs’ Objection on the Basis of Judicial
Estoppel
The Court next turns to Plaintiff’s objection to
defendant’s motion for summary judgment on the basis
of judicial estoppel. Pls.’ Br. Resp. Mot. Summ. J. 2-6,
ECF No. 146.

195a
Appendix E
Judicial estoppel “prevents a party from asserting a
position in a legal proceeding that is contrary to a position
previously taken in the same or some earlier proceeding.”
Ergo Sci., Inc. v. Martin, 73 F.3d 595, 598 (5th Cir. 1996).
In the Fifth Circuit, a party may be estopped only if the
party’s new position is “clearly inconsistent” with its prior
position and the party had previously convinced the court
to accept its prior position. Hall v. GE Plastic Pac. PTE
Ltd., 327 F.3d 391, 396 (5th Cir. 2003).
The Court finds that the alleged inconsistencies in
the instant case are not so “clearly inconsistent” as to
permit judicial estoppel. See id. Plaintiffs argue that
amendments to Defendants’ Answer establish inconsistent
positions. Pls.’ Br. Resp. Mot. Summ. J. 2-6, ECF No. 146.
They argue, for instance, Officers Hunter and Cassidy’s
prior testimonies fail to mention that an officer gave the
beginning of a warning to “drop it” or “drop the” before
shots were fired. The answer also omitted testimony
about Cole repositioning the gun to his head before
firing. Defendants also amended their answer to allege
that Defendants “perceived” that Cole pointed the gun
at Officer Hunter.
It is not clear that these amendments are due to
Defendants “playing ‘fast and loose’ with the court by
‘changing positions based upon the exigencies of the
moment.’” Hall, 327 F.3d at 400. Questions regarding
possible inconsistencies within witness testimony are
more appropriately placed before the jury. Overall,
Plaintiffs’ fail to establish that judicial estoppel would be
appropriate. Accordingly, Plaintiffs’ motion for judicial
estoppel is DENIED.

196a
Appendix E
C.

Officers Hunter and Cassidy’s Motion for
Summary Judgment Based Upon Qualified
Immunity

The doctr ine of quali f ied immunity protects
government officials sued pursuant to 42 U.S.C. § 1983
“from liability for civil damages insofar as their
conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person would
have known.” Pearson v. Callahan, 555 U.S. 223, 231, 129
S. Ct. 808, 172 L. Ed. 2d 565 (2009) (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818, 102 S. Ct. 2727, 73 L. Ed. 2d
396 (1982)). It is important to resolve qualified immunity
questions at the earliest possible stage in the litigation. Id.
The burden of proof for overcoming a qualified immunity
defense at the summary judgment stage rests upon
Plaintiffs. Salas v. Carpenter, 980 F.2d 299, 306 (5th Cir.
1992); Bazan ex rel. Bazan v. Hidalgo Cnty., 246 F.3d 481,
490 (5th Cir. 2001). Plaintiffs bear the burden of establishing
that the facts show Defendants violated one of Plaintiffs’
constitutional rights and the right was “clearly established”
at the time of Defendants’ alleged misconduct. Ontiveros v.
City of Rosenberg, Tex., 564 F.3d 379, 382 (5th Cir. 2009);
accord Saucier v. Katz, 533 U.S. 194, 121 S. Ct. 2151, 150 L.
Ed. 2d 272 (2001); Pearson, 555 U.S. at 236. “To negate a
defense of qualified immunity and avoid summary judgment,
the plaintiff need not present ‘absolute proof,’ but must offer
more than ‘mere allegations.’” Ontiveros, 564 F.3d at 382
(quoting Reese v. Anderson, 926 F.2d 494, 499 (5th Cir. 1991)).
Officers Hunter and Cassidy contend that they are
entitled to a summary judgment determination of qualified

197a
Appendix E
immunity because the undisputed facts show they acted
in an objectively reasonable fashion when they shot Ryan
Cole. Defs.’ Br. Supp. Mot. Summ. J. 15-16, 31-32, ECF
No. 113. Defendants argue that a reasonable officer could
have reasonably perceived a threat to his own life when
confronted by someone holding a loaded gun, with his
finger on the trigger, who was turning to face the officer.
Id. at 31-32. Defendants argue that a reasonable officer
could have used deadly force to defend himself in such a
situation. Id. at 31; see also Defs.’ App. Supp. Mot. Summ.
J. Vol. 3 Tab 13 (Braaten Dep.) 94:11-15, App. 743, ECF
No. 120 (testifying that an officer is not required to wait
to be fired upon in order to defend himself).
In opposition, Plaintiffs argue that genuine issues of
material fact preclude the issuance of summary judgment.
See generally Pls.’ Br. Supp. Mot. Summ. J., ECF No.
146. According to Plaintiffs, the evidence suggests that
Cole never pointed a gun at Officer Hunter; instead, Cole
continuously directed the handgun toward his own head. Id.
at 27-28, 43. Thus, Plaintiffs contend, it was unreasonable
for the Officers to have perceived an imminent threat
justifying the use of deadly force. Id. at 21. Plaintiffs further
argue that it was unreasonable for Officers to have fired
on Cole without first giving reasonable warnings. Id. at 18.
Viewing the evidence in the light most favorable to
the non-movant, the Court finds that there are genuine
issues of material fact regarding Cole’s actions and the
reasonableness of the Officer’s conduct during the incident.
Thus, at the summary judgment stage, Officers Hunter
and Cassidy are not entitled to qualified immunity, and
their motion for summary judgment is denied.

198a
Appendix E
1.

Clearly Established Law

As there are several highly contested factual issues,
the Court will first turn to whether the right that the
Officers allegedly violated was clearly established at
the time of the alleged misconduct. See Pearson, 555
U.S. at 236. This inquiry considers the “objective legal
reasonableness of the action, assessed in light of the
legal rules that were clearly established at the time it
was taken.” Id. at 244 (quoting Wilson v. Layne, 526
U.S. 603, 614, 119 S. Ct. 1692, 143 L. Ed. 2d 818 (1999))
(internal quotation marks omitted). A right is “clearly
established” only when its contours are sufficiently clear
that a reasonable public official would have realized or
understood that his conduct violated the right in issue.
See Anderson v. Creighton, 483 U.S. 635, 640, 107 S.
Ct. 3034, 97 L. Ed. 2d 523 (1987). The right must not
only be established in an abstract sense, but also in a
more particularized sense such that it is apparent that
the official’s actions are unlawful in light of pre-existing
law. Id. The underlying constitutional violation Plaintiffs
allege here is excessive force, specifically excessive use of
deadly force. Therefore, the relevant question is whether
a reasonable officer could have believed that the use
of deadly force by Officers Hunter and Cassidy under
the circumstances was reasonable in light of the clearly
established law.
The law proscribing excessive force has been clearly
defined by Tennessee v. Garner, 471 U.S. 1, 11-12, 105 S.
Ct. 1694, 85 L. Ed. 2d 1 (1985), and Graham v. Connor,
490 U.S. 386, 395, 109 S. Ct. 1865, 104 L. Ed. 2d 443 (1989).

199a
Appendix E
In order to establish excessive force, a plaintiff must
show “(1) an injury, (2) which resulted directly and only
from a use of force that was clearly excessive, and (3) the
excessiveness of which was clearly unreasonable.” Poole
v. City of Shreveport, 691 F.3d 624, 628 (5th Cir. 2012)
(citing Ontiveros, 564 F.3d at 382). Excessive force claims
are analyzed under the Fourth Amendment’s “objective
reasonableness” standard. Graham, 490 U.S. at 395.
Specifically in the context of deadly force, the Supreme
Court has determined that:
Where the officer has probable cause to believe
that the suspect poses a threat of serious
physical harm, either to the officer or to others,
it is not constitutionally unreasonable to prevent
escape by using deadly force. Thus, if the
suspect threatens the officer with a weapon
or there is probable cause to believe that he
has committed a crime involving the infliction
or threatened infliction of serious physical
harm, deadly force may be used if necessary
to prevent escape, and if, where feasible, some
warning has been given.
Garner, 471 U.S. at 11-12. “The excessive force inquiry
is confined to whether the [officer or another person] was
in danger at the moment of the threat that resulted in
the [officer’s use of deadly force].” Rockwell v. Brown,
664 F.3d 985, 991 (5th Cir. 2011) (citation omitted)
(emphasis in original). In evaluating whether the use
of force was reasonable, courts look to the “totality of
the circumstances,” and give “‘careful consideration

200a
Appendix E
to the facts and circumstances of each particular case,
including the severity of the crime at issue, whether the
suspect poses an immediate threat to the safety of the
officers or others, and whether he is actively resisting
arrest or attempting to evade arrest by flight.’” Ramirez
v. Martinez, 716 F.3d 369, 376 (5th Cir. 2013) (quoting
Graham, 490 U.S. at 396) (internal citation omitted).
Courts must evaluate the officer’s action “from the
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” Poole, 691 F.3d at
628 (citing Graham, 490 U.S. at 396). “The calculus must
embody allowance for the fact that police officers are often
forced to make split-second judgments in circumstances
that are tense, uncertain, and rapidly evolving about the
amount of force that is necessary in a particular situation.”
Graham, 490 U.S. at 396-97.
In this Court’s prior Memorandum Opinion and
Order, the Court found that the constitutional limits on
the use of deadly force have been clearly established
since 1985. Mem. Op. & Order 26, Jan. 24, 2014, ECF
No. 85 (citing Garner, 471 U.S. at 11). As applicable here,
it is clearly established that an officer using deadly force
when a suspect does not pose a sufficient threat of harm,
or immediate danger to the officer or to others, would
have had reasonable warning that the use of deadly force
violated the suspect’s constitutional rights. Id.; see also
Garner, 471 U.S. at 11 (“Where the suspect poses no
immediate threat to the officer and no threat to others,
the harm resulting from failure to apprehend the suspect
does not justify the use of deadly force to do so.”); Reyes
v. Bridgwater, 362 F. App’x 403, 409 (5th Cir. 2010)

201a
Appendix E
(“The cases on deadly force are clear: an officer cannot
use deadly force without an immediate serious threat to
himself or others.”).
The Court found that the law prohibiting the use of
deadly force in circumstances alleged by Plaintiffs was
clearly established in a particularized sense as well. See
Mem. Op. & Order 26-27, Jan. 24, 2014, ECF No. 85. In
the prior Opinion, the Court examined case law applying
the Garner standard to circumstances where officers have
used deadly force in apprehending mentally unstable and/
or suicidal individuals who are armed. Id. at 26-27 (citing
Ballard v. Burton, 444 F.3d 391, 402-03 (5th Cir. 2006);
Mace v. City of Palestine, 333 F.3d 621, 622 (5th Cir. 2003);
Ontiveros, 564 F.3d at 385). The Court held that these
cases, all decided prior to the shooting incident in this
case, make it clear to a reasonable officer that shooting
a mentally disturbed teenager, who was pointing a gun
the entire time at his own head and facing away from the
officer, in an open outdoor area, and who was unaware
of the officer’s presence because no warning was given
prior to the officer opening fire, was unlawful. Id. at 27.
Otherwise stated, the law was clearly established at the
time of the incident that, absent the “Manis act,” i.e., “the
act that led [the officer] to discharge his weapon,” there
was no immediate threat sufficient to justify the use of
deadly force. Id. at 27 (quoting Manis v. Lawson, 585 F.3d
839, 845 (5th Cir. 2009)). Therefore, on October 25, 2010,
the date of the shooting, the law was clearly established,
such that Officers Hunter and Cassidy would know that
use of deadly force under the circumstances alleged by
Plaintiffs violated Ryan Cole’s Fourth Amendment rights.

202a
Appendix E
Id. at 26 (citing Brosseau v. Haugen, 543 U.S. 194, 200,
125 S. Ct. 596, 160 L. Ed. 2d 583 (2004)).
b.

Factual Showing

Having affirmed that Plaintiffs alleged a violation of
a clearly established right, the Court turns now to the
remaining inquiry in the qualified immunity analysis.
The Court must determine whether the summary
judgment evidence, taken in the light most favorable to
Plaintiffs, shows that the Officers’ use of deadly force
was unreasonable. If the Plaintiffs are unable to present
evidence creating a genuine issue of material fact as to
the reasonableness of the Officers’ actions, then summary
judgment must be entered in favor of Defendants. See
Ballard, 444 F.3d at 403. Plaintiffs must present more
than mere unsupported allegations to create a genuine
fact issue. See Ontiveros, 564 F.3d at 382.
The factual circumstances present immediately
before and during the shooting are highly contested in
this action. Thus, the Court must determine whether
the contested issues of fact are material to the qualified
immunity analysis.
According to Plaintiffs’ expert Bevel, Cole kept the
handgun aimed at his own head as he turned to face the
Officers, never pointing the handgun at Officer Hunter.
Pls.’ App. Supp. Resp. Mot. Summ. J. Ex. 5 (Bevel Aff.),
App. 115-16, ECF No. 147 (concluding physical evidence of
stippling and gunshot wounds not consistent with having
pointed the handgun toward the Officers as Officer Hunter

203a
Appendix E
described). Bevel concludes that Cole was initially facing
away from the Officers at a 90 degree angle, holding a gun
directed toward his own head, when he was first shot by
the Officers. Id. at App. 117-18. This opinion is based in
part on medical records showing that one bullet entered
his left arm above the elbow and continued into his body.
Id. at App. 114; Id. at Ex. 4 (Cole Med. Records), at App.
100-04. As he was turning toward the Officers, one of the
Officers shot him with the second bullet, which grazed his
left arm. Bevel Aff., at App. 114-15, ECF No. 147; Cole Med.
Records, at App. 100-04, ECF No. 147. As an involuntary
reflex to being shot, Cole pulled the trigger on the gun
that he was aiming toward his own head. Bevel Aff., at
App. 115-16, ECF No. 147 (basing opinion on comparing
normal reaction time with the recorded time between the
first and final gunshots). Thus, the harm caused by the
bullet wound to Cole’s head proceeded directly and only as
a consequence of being shot. See id. Although the Officers
had the opportunity to give a warning, Bevel concludes
that the Officers gave no identification or warning that
would have allowed Cole a sufficient time to respond.
Bevel Dep. 142:1-18, at App. 145, ECF No. 144; Id. at Ex.
2 (Hunter Dep.) 189:13-191:10, App. 46-48 (stating that he
does not remember whether he gave a warning); see also
Def.’s App. Supp. Mot. Summ. J. Vol. 4 Tab 28 (Carson
Dash Cam), App. 920, ECF No. 122 (audio recording of
the incident).
Viewing the facts in the light most favorable to
Plaintiffs, a reasonable jury could find that Cole never
pointed a weapon at the Officers and was not given an
opportunity to disarm himself before he was shot. A jury

204a
Appendix E
could find that it would not have been reasonable for the
Officers to believe that they were being threatened, and
therefore they were not justified in using deadly force
without first issuing an adequate warning.
Defendants argue that even accepting all of Plaintiffs’
facts, they are entitled to qualified immunity. Defs.’ Br.
Supp. Mot. Summ. J. 31, ECF No. 113. Defendants contend
that the Officers’ decision to shoot Cole would still be
objectively reasonable on Plaintiffs’ facts because Cole
posed an immediate danger to the Officers. Id. “Cole
was holding a loaded gun, with his finger on the trigger,
while he was turning toward and then facing Officer
Hunter. Cole could have shot Officer Hunter before Hunter
could react and take action to defend himself.” Id. at 32.
Defendants argue that a reasonable officer could have
feared for his life in such a situation and would not have
to wait until fired upon to defend himself. Id. at 31; see
also Braaten Dep. 94:11-15, at App. 743, ECF No. 120.
Thus, Defendants contend that the Officers are entitled
to summary judgment.
The Court disagrees with Defendants’ conclusion.
Viewing the competent summary judgment facts in the
light most favorable to Plaintiffs, as the Court must at this
stage in the litigation, Cole was unaware of the Officers’
presence and no warning was given that granted him a
sufficient time to respond. Bevel Dep. 142:1-18, at App. 145,
ECF No. 144. Plaintiffs argue that it would not have been
possible for Cole to have shot Officer Hunter before the
Officer could react. See id. Viewing the evidence in this
light, the Officers had the time and opportunity to give a

205a
Appendix E
warning and yet chose to shoot first instead. See id. Such
an action, if proven by Plaintiffs, would violate clearly
established law set forth in Garner that an officer identify
himself if feasible under the circumstances. Garner, 471
U.S. at 11-12.
Defendants rely upon Ballard, Ontiveros Mace, and
Elizondo. Defs.’ Br. Supp. Mot. Summ. J. 29, 32, 34, ECF
No. 113 (citing Ballard v. Burton, 444 F.3d 391 (5th Cir.
2006); Ontiveros v. City of Rosenberg, Tex., 564 F.3d 379
(5th Cir. 2009); Mace v. City of Palestine, 333 F.3d 621
(5th Cir. 2003); Elizondo v. Green, 671 F.3d 506 (5th Cir.
2012)). However, in all four cases, the individual suspects
were aware of the officers’ presence and still refused to
comply with the officers’ instructions, thereby causing an
objectively reasonable threat of harm to the officers. In
Ballard, the suspect ignored an officer’s command to put
his rifle down, instead pointing the weapon in the air. 444
F.3d at 402. In Ontiveros, the individual ignored warnings
to show his hands and instead reached into a boot as
if to retrieve something. 564 F.3d at 381. In Mace, the
individual refused to comply with the officer’s command
to put down a sword. 333 F.3d at 622. In Elizondo, the
officer warned that he would shoot the suspect if he moved
closer with his knife. 671 F.3d at 508.
As applied in the instant action, Defendants argue
that Cole was aware of the Officers’ presence, had time
to put down the firearm, but chose to hold on to the gun.
See Def.’s App. Supp. Mot. Summ. J. Vol. 3 Tab 18 (Tooke
Dep.), App. 819, ECF No. 120 (stating that Cole could
have suddenly turned and fired); id. at Vol. 3 Tab 21-22

206a
Appendix E
(Rodriguez Reports), at App. 843-04. Under such facts,
the defendants may be entitled to qualified immunity. See
Mem. Op. & Order 18-22, ECF No. 85. However, the Court
must view the facts in the light most favorable to Plaintiffs,
and, accordingly, the Court relies largely upon the expert
testimonies of Bevel and Braaten. The Court notes that it
would reach the same conclusion were it only relying upon
Bevel’s expert opinions. Viewing the summary judgment
evidence as is required, the evidence supports Plaintiffs’
argument that Cole did not know of the Officers’ presence
and inadequate warnings were given. Unlike Ballard,
Ontiveros, Mace, and Elizondo, Cole was shot before he
had an opportunity to disarm himself and did not pose
an immediate threat to the officers. In the instant action,
the Officers would have had suitable opportunity to give
a warning, and yet did not give Cole time to respond.
Further, the Fifth Circuit requires the suspect display a
threatening “Manis act” before it is objectively reasonable
to use deadly force. Manis, 585 F.3d at 845. Encountering
someone who is merely holding a gun to one’s own head
may not be a sufficiently threatening act. Here, Cole
never made a threatening or provocative gesture toward
Officers. Thus, it was not objectively reasonable for the
Officers to use deadly force.
Courts are required “to be deferential to the choices
made by police officers in high-risk situations.” Reyes, 362
F. App’x at 407 (citing Graham, 490 U.S. at 397). “That
deference, however, cannot extend so far as to ignore an
officer’s violation of the core, established rule that deadly
force may not be used ‘[w]here the suspect poses no
immediate threat to the officer and no threat to others.’”

207a
Appendix E
Id. (quoting Garner, 471 U.S. at 11). Employing deadly
force absent such a threat is a violation of the Fourth
Amendment. Id. Due to the existence of genuine issues
of material fact surrounding the Officers’ use of deadly
force, this case must be presented to a jury.
In summary, Plaintiffs have adequately identified
genuine issues of material fact as to whether the Officers’
use of deadly force was objectively unreasonable under
clearly established law. Accordingly, the Court determines
that Officers Hunter and Cassidy are not entitled to
qualified immunity at this time.
IV. CONCLUSION
Based on the foregoing, the Cou r t DENIES
Defendants’ Motion for Summary Judgment (ECF No.
112); DENIES the Defendants’ Motions to Exclude the
Expert Testimony of Tom Bevel (ECF No. 126) and
Timothy Braaten (ECF No. 129). The Court further
OVERRULES Plaintiffs’ Objection Based on Judicial
Estoppel. The Court declines to rule on other objections
as outside the scope of this Court’s Scheduling Order. See
Order 11-12, Apr. 18, 2014, ECF No. 100. Accordingly, the
parties are instructed to raise any objection not decided
in this order at the appropriate stage in the litigation.
SO ORDERED this 22nd day of December, 2014.
/s/ Reed O’Connor
Reed O’Connor
U NITED STATES DISTRICT
JUDGE

208a
Appendix F
APPENDIX F — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF
TEXAS, DALLAS DIVISION, FILED
JANUARY 24, 2014
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:13-cv-02719-O
RANDY COLE AND KAREN COLE,
INDIVIDUALLY AND AS NEXT
FRIENDS OF RYAN COLE,
Plaintiffs,
v.
MICHAEL HUNTER, MARTIN CASSIDY, CARL
CARSON, AND THE CITY OF SACHSE, TEXAS,
Defendants.
January 24, 2014, Decided
January 24, 2014, Filed
MEMORANDUM OPINION AND ORDER
Before the Court is Defendants’ Second Motion
and Brief to Dismiss for Failure to State a Claim and
Alternative Request for Rule 7(a) Reply to Immunity
(ECF No. 70), filed September 12, 2103. Having considered

209a
Appendix F
the motion, response, reply, pleadings and applicable law,
and for the reasons that follow, the motion is granted in
part and denied in part.
I.

Factual Background and Procedural History

This is an action by Plaintiffs Randy and Karen
Cole, individually and as next friends of their son Ryan
Cole (“Plaintiffs”), alleging claims under 42 U.S.C.
§ 1983 and state law against the City of Sachse, Texas
(“City of Sachse” or “City”), and Michael Hunter, Martin
Cassidy, and Carl Carson, police officers for the City at
the time of the incident made the basis of this lawsuit
(sometimes collectively, “Officer Defendants”). This case
arises from the alleged use of deadly force by Officers
Hunter and Cassidy on the morning of October 25, 2010,
in the City of Garland, Texas, when they shot Ryan Cole
several times, causing profound mental and physical
disabilities. Plaintiffs allege causes of action based on
unconstitutional use of deadly force, failure to train or
supervise, and a subsequent conspiracy by the Officer
Defendants to manufacture evidence and make use of
perjured testimony. Plaintiffs Randy and Karen Cole also
seek to assert their own claims arising from the shooting.
The Court now sets forth the facts as alleged in
Plaintiffs’ First Amended Complaint, which is the live
pleading. See ECF No. 67, First. Am. Compl.1
1. In reviewing a Rule 12(b)(6) motion to dismiss, the Court
must accept all well-pleaded facts in the complaint as true and
view them in the light most favorable to the plaintiff. Sonnier v.
State Farm Mut. Auto. Ins. Co., 509 F.3d 673, 675 (5th Cir. 2007).

210a
Appendix F
A.

Excessive Force Allegations

On the evening of Sunday, October 24, 2010, Ryan
Cole, a troubled seventeen-year-old high school student
living at home with his parents in Garland, Texas, had an
altercation with his father, resulting in the Garland Police
Department sending officers to the home to investigate. Id.
¶¶ 4.1, 4.2. The officers determined no crime was involved
and a satisfactory resolution was reached whereby Ryan
Cole would be permitted to spend the night elsewhere if
he chose. Id. ¶ 4.2. After the officers left, Ryan Cole told
his parents he would spend the night at a friend’s home or
in a tree house in the woods near the Cole home. Id. After
his parents went to sleep, and without their knowledge
or permission, Ryan Cole re-entered the Cole residence,
gained access to his father’s locked gun safe in the garage,
took one or more weapons, and went to visit a friend named
Eric Reed, Jr., who lived nearby and whose father was a
retired City of Sachse police officer. Id. ¶¶ 4.4, 4.5. Ryan
Cole left the Reed residence that night, returning the
following morning, Monday, October 25, 2010, sometime
after 9:30 a.m. with a revolver and a Springfield 9mm
semi-automatic handgun. Id. ¶¶ 4.5, 4.6. Ryan Cole left
the revolver with Reed, Jr., but kept the semi-automatic
handgun. Id. Before leaving the Reed home, Ryan Cole
telephoned his grandparents and made arrangements
for them to pick him up at a CVS drugstore at a major
intersection near the Cole home. Id.
Plaintiffs allege on information and belief that either
Reed, Sr. and/or Reed, Jr. reported to the Sachse Police
Department that Ryan Cole possessed a handgun. Id. ¶ 4.7.

211a
Appendix F
Although Ryan Cole never acted aggressively or violently
toward anyone, Plaintiffs allege on information and belief
that Reed, Sr. and/or Reed, Jr. exaggerated their reports
of their interaction with Ryan Cole to imply or state that
he was in some way aggressive or violent. Id.
After leaving the Reed home to meet his grandparents,
Ryan Cole intended to walk through a wooded area
located immediately north of State Highway 78 and west
of Murphy Road in Garland in order to reach the CVS
drugstore. Id. ¶ 4.8. Unknown to Ryan Cole, the City of
Sachse Police Department sent a number of police units
into the City of Garland to investigate Ryan Cole’s actions.
Id. At approximately 10:45 a.m., as Ryan Cole was walking
down an alley toward the wooded area, Garland Police
Officer Lt. H.W. Sneed approached him and ordered him
to stop. Id. It is unclear from the pleadings to what extent
Ryan Cole heard or understood Lt. Sneed, but Ryan Cole
continued to walk toward the wooded area, removing
the handgun from his waistband with his right hand and
placing it against his right temple. Id. Around this time,
Lt. Sneed was joined by Sachse Police Sergeant Garry
Jordan. Id. Lt. Sneed and Sgt. Jordan followed Ryan Cole
at a distance and then lost sight of him. Id.
Later, Ryan Cole exited the woods within view of his
grandparents who were waiting for him in the parking lot
of the CVS drugstore. Id. ¶ 4.9. When he left the wooded
area, Ryan Cole had his back turned to Murphy Road
and was facing the wooded area from which he had just
emerged. Id. At that time, Ryan Cole was still holding the
handgun in his right hand aiming it at the right side of

212a
Appendix F
his head. Id. Unknown to Ryan Cole, three Sachse police
officers were present in the area: Officer Michael Hunter
(a motorcycle police officer); Lt. Martin Cassidy(a patrol
supervisor); and Officer Carl Carlson (a patrol officer).
Id. Each was armed with two weapons, a Taser and a .40
caliber semi-automatic Glock handgun, both issued by the
City of Sachse Police Department. Id.
When Officer Hunter first observed Ryan Cole exiting
the woods, Ryan Cole was facing away from Officer
Hunter, still holding the handgun in his right hand pointed
toward his head. Id. ¶ 4.10. Ryan Cole posed no immediate
threat of death or serious injury to anyone. Id. Officer
Hunter did not identify himself as a police officer or give
any command or instruction to Ryan Cole. Id. At all times
relevant to the incident, it was both feasible and necessary
for Officer Hunter to identify himself as a police officer
and give a warning to a citizen prior to the use of deadly
force. Id. Instead, Officer Hunter immediately opened fire
on Ryan Cole firing several shots, at least two of which
struck Ryan Cole. Id. One struck Ryan Cole in his left
upper arm and the second struck Ryan Cole in the lower
portion of his left arm. Id. The lower shot went through
Ryan Cole’s left arm and then entered the left side of his
back, completely incapacitating him. Id.
At the time he was shot, Ryan Cole was holding the
handgun in his right hand pointed at the right side of
his head with his finger inside the trigger guard of the
weapon. Id. ¶ 4.11. When he was struck by Officer Hunter’s
gunfire, Ryan Cole involuntarily grasped or clutched
his fingers resulting in an involuntary discharge of one

213a
Appendix F
round from his handgun into his skull and brain. Id.
The involuntary discharge of Ryan Cole’s handgun was
directly caused by Officer Hunter’s act of shooting him.
Id. As Ryan Cole fell to the ground, at a distance of well
over 100 feet, Officer Cassidy also opened fire on Ryan
Cole. Id. ¶ 4.12. At the time Officer Cassidy opened fire,
Ryan Cole posed no threat of immediate or serious injury
to anyone. Id. Officer Carson did not fire his handgun. Id.
As Ryan Cole lay unconscious and bleeding from
potentially fatal wounds, the Officer Defendants did
nothing to assist him. A period of several minutes passed
from the time he was shot until City of Garland Fire
Department paramedics arrived. Id. ¶ 4.14. Ryan Cole was
near death when the paramedics arrived and experienced
cardiac arrest just after their arrival. Id. ¶ 4.17. Due to
the extraordinary skill and effort of the Garland Fire
Department paramedics, Ryan Cole was resuscitated
and immediately taken to Baylor Hospital in Garland
and transferred on an emergency basis by helicopter
to the Baylor University Medical Center in Dallas. Id.
His condition was extremely critical and his family was
informed that, in all probability, he would not survive the
night. Later, a dangerous surgical procedure was required
to save his life. Id.
In the medical records, doctors described what they
referred to as “stippling” or “tattooing” around the
entrance to the wound on the right side of Ryan Cole’s
head, which is an injury caused by the penetration of
gunshot residue discharged from the barrel of a firearm.
Id. ¶ 4.20. Stippling cannot occur unless the firearm that

214a
Appendix F
caused it was discharged in close and immediate proximity
to the skin. Id. This objective physical finding establishes
that Ryan Cole’s handgun was not pointed at Officer
Hunter, but at his own head Id.
As a result of the shooting, Ryan Cole is profoundly
disabled both physically and mentally. Id. ¶ 4.24. A
substantial portion of the right side of his brain was
injured and destroyed resulting in paralysis on the left
side of his body. Id. He has no use of his left arm and only
limited use of his left leg, and now suffers from a severe
seizure disorder. Id. He will require constant trained
medical care and personal assistance, mentally and
physically, for daily living for the remainder of his life. Id.
He has also suffered permanent and significant physical
impairment and disfigurement of the body, including his
face, head, arm and back as the result of the multiple
gunshot wounds he sustained. Id.
At all times, the Officer Defendants were acting
under color of state law within the course and scope of
their employment as licensed peace officers for the City
of Sachse Police Department, and Officers Hunter and
Cassidy each participated directly or indirectly in the
unlawful and unprovoked shooting of Ryan Cole. Id.
¶ 4.13. The Officer Defendants knew that failure to identify
themselves as police officers or to give warning, if feasible,
before using deadly force was a constitutional violation
of a citizen’s rights, and also knew that use of deadly
force against a citizen who did not at that time present
an immediate threat to the officers’ or others’ lives was a
violation of that citizen’s constitutional rights. Id. ¶ 4.17.

215a
Appendix F
B. Expert Reports
Plaintiffs also attach expert reports to the First
Amended Complaint. See Ex. 4 to First Am. Compl.
(Affidavit of Tom Bevel); Ex. 5 to First Am. Compl.
(Affidavit of Timothy A. Braaten). After reviewing the
criminal investigation file on the incident from the City
of Garland Police Department, including the detailed
sworn account of Officers Hunter and Cassidy, the
experts conclude that (1) Ryan Cole was not facing Officer
Hunter at the time he was shot; (2) the physical evidence
is not consistent with Officer Hunter’s statements that
Ryan Cole was pointing the 9mm handgun at him or any
officer at the time he was shot; (3) at the time Ryan Cole’s
handgun discharged, it was being held by Ryan Cole in
his right hand with the barrel of the handgun in close
proximity to the right portion of Ryan Cole’s head; (4)
the discharge of the 9 mm handgun was an involuntary
response to being startled when Ryan Cole was struck by
gunfire from Officer Hunter; (5) there is no evidence from
Officer Hunter’s body microphone that he gave warnings
or commands prior to opening fire; (6) when Ryan Cole
exited the woods he would not have been aware of the
Officers’ presence at the scene; and (7) Officers Hunter
and Cassidy’s use of deadly force under the circumstances
was not justified. See generally Exs. 4 and 5 to First Am.
Compl.
Defendants ask the Court to disregard or strike the
exhibits, arguing that these reports are not “written
instruments” under Fed. R. Civ. P. 10(c). The Court rejects
Defendants’ argument. The expert reports at this juncture

216a
Appendix F
serve merely to buttress Plaintiffs’ contentions concerning
their allegations of excessive force. Furthermore, Officers
Hunter and Cassidy asserted they were entitled to
qualified immunity and sought a Rule 7(a) Reply to this
assertion. Plaintiffs instead opted to provide a First
Amended Complaint pleading with particularity the
facts they contend demonstrate the Officer Defendants
are not entitled to qualified immunity, which is a proper
response. The Court notes, however, that it would reach
the same decision it reaches today without the expert
reports. Further, the Court expresses no opinion as to
whether the reports would ultimately be admissible in
evidence for purposes of trial or summary judgment, or
for any other purpose.
C.

Allegations Pertaining to Randy and Karen
Cole

Plaintiffs Randy and Karen Cole, individually and
on behalf of their son, allege they have incurred, and
will continue to incur, substantial charges for hospital,
medical, nursing, rehabilitative, psychological and allied
health services which were reasonable and necessary for
the treatment of Ryan Cole. First Am. Compl. ¶ 4.25. They
allege they have experienced severe and substantial mental
anguish and interruption of their normal relationship with
their son, who now requires twenty-four hour care for the
remainder of his life. Id. ¶ 4.26. They further allege that
they had a contemporaneous perception of the shooting
of their son by virtue of having heard the shots fired from
their front yard, and have independently experienced
significant emotional and mental anguish as a result of

217a
Appendix F
this perception in the past. Id. ¶ 4.27. They allege that as
a result of the Officer Defendants’ false allegations that
Ryan Cole committed an aggravated assault on a public
servant, they were required, on behalf of their son, to
incur substantial legal fees to defend Ryan Cole and obtain
dismissal of the charges. Id. ¶ 4.28.
D.

Conspiracy and Cover Up Allegations

Plaintiffs also allege that after the shooting the Officer
Defendants formed and carried out a conspiracy to cover
up their unlawful use of deadly force and to falsely charge
and convict Plaintiff Ryan Cole of the felony offense of
aggravated assault on a public servant. Functioning as
complaining witnesses, they each falsely declared under
oath during the Garland Police Department investigation
that at the time of the shooting Ryan Cole was facing
Officer Hunter and had lowered and pointed his weapon
directly at Officer Hunter. Id. ¶¶ 4.15, 4.16, 4.21. These
false statements were intended to support Officer
Hunter›s claim that he justifiably fired in self defense
and that Officer Cassidy justifiably fired in defense of
Officer Hunter and/or himself. Id. ¶ 4.15. Officers Cassidy
and Carson falsely stated to investigating officers, and
swore under oath, that they heard Officer Hunter give
a verbal warning to Ryan Cole before shooting him. Id.
¶ 4.16. These statements were made to cover up the fact
that Officer Hunter gave no warning prior to opening
fire on Ryan Cole. Id. The Officer Defendants knew
their false statements and testimony would be presented
either directly or indirectly by the Dallas County District
Attorney’s Office to the grand jury, and that based on

218a
Appendix F
these false statements, the grand jury would (and did)
indict Ryan Cole for the felony offense of aggravated
assault on a public servant. Id. ¶ 4.21.
As a result of these fictitious charges, Ryan Cole
was placed indefinitely under house arrest. Id. On May
12, 2012, the Dallas County District Attorney’s Office
dismissed all charges that Ryan Cole had committed an
aggravated assault on a public servant. Id. ¶ 4.21. Ryan
Cole received deferred adjudication for the charge of
unlawfully carrying a weapon. Id.
E. Plaintiffs’ Lawsuit
On September 21, 2012, Plaintiffs filed this lawsuit in
the Eastern District of Texas, Marshall Division. On July
15, 2013, after Defendants had filed motions to dismiss and
the Officer Defendants had asserted qualified immunity,
the case was transferred to the Northern District of
Texas, Dallas Division. As stated above, following a status
conference on August 1, 2013, the Court issued an Order
directing Plaintiffs to inform the Court whether they
intended to rely on the allegations in the initial complaint,
or whether they wanted to file either a Rule 7(a) Reply
or amended complaint in light of the Officer Defendants
assertion of qualified immunity. See ECF No. 65, Aug. 8,
2013 Order. Plaintiffs opted to file their First Amended
Complaint on August 15, 2013. See ECF No. 67, First Am.
Compl.
In Count One of the First Amended Complaint,
Plaintiffs assert a claim under 42 U.S.C. § 1983 for Officers

219a
Appendix F
Hunter and Cassidy’s use of deadly force in violation of
Ryan Cole’s Fourth Amendment rights. In Counts Two
and Three, Plaintiffs assert a claim under 42 U.S.C.
§ 1983 against the City of Sachse based on its facially
unconstitutional policies on the use of deadly force (Count
Two), and inadequate training, supervision, policies and
practices (Count Three) that resulted in the unlawful
shooting of Ryan Cole. In Count Four, Plaintiffs bring
a claim under § 1983 against the Officer Defendants for
causing and participating in the unlawful prosecution
of criminal charges using manufactured evidence and
perjured testimony, without probable cause, in violation
of Ryan Cole’s Fourth and Fourteenth Amendment
rights, and for conspiracy to deprive Ryan Cole of his
constitutional rights. Count Four also seeks relief under
state law for malicious prosecution. In addition to these
claims, Plaintiffs Randy and Karen Cole also bring
individual federal and state law bystander claims for
mental anguish.
Officers Hunter and Cassidy move to dismiss the
excessive force claim (Count One), arguing that Plaintiffs
have failed to allege a constitutional violation under
the Fourth Amendment arising from the October 25,
2010 shooting, and, even if they have, their use of force
was objectively reasonable, entitling them to qualified
immunity. The City moves to dismiss Counts Two and
Three solely on the basis that Plaintiffs have failed to
allege an underlying constitutional violation in Count
One. The Officer Defendants move to dismiss Count Four
as too conclusory, and for failure to plead a plausible
constitutional “malicious prosecution” claim. The Officer

220a
Appendix F
Defendants also move to dismiss Count Four asserting
they are entitled to absolute immunity for their statements
or testimony made in connection with the investigation of
the shooting which resulted in the felony assault charges
against Ryan Cole. As to the alternative state law claim
for malicious prosecution, the Officer Defendants argue
that it should be dismissed because they are entitled
to statutory immunity, and because Plaintiffs failed to
adequately allege the requisite elements of a malicious
prosecution claim. Finally, Defendants move to dismiss
Randy and Karen Cole’s federal and state law bystander
claims. Plaintiffs oppose the motion.
II. Legal Standard for Dismissal under Fed. R. Civ. P.
12(b)(6)
To defeat a motion to dismiss pursuant to Rule
12(b)(6) of the Federal Rules of Civil Procedure, a plaintiff
must plead “enough facts to state a claim to relief that
is plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929
(2007). “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (citing Twombly,
550 U.S. at 556). “The plausibility standard is not akin to a
‘probability requirement,’ but it asks for more than a sheer
possibility that a defendant has acted unlawfully.” Id.
(quoting Twombly, 550 U.S. at 556). “Where a complaint
pleads facts that are ‘merely consistent with’ a defendant’s
liability, it ‘stops short of the line between possibility and

221a
Appendix F
plausibility of entitlement to relief.’” Id. (quoting Twombly,
550 U.S. at 557) (internal quotation marks omitted).
In reviewing a Rule 12(b)(6) motion, the Court must
accept all well-pleaded facts in the complaint as true and
view them in the light most favorable to the plaintiff.
Sonnier v. State Farm Mut. Auto. Ins. Co., 509 F.3d 673,
675 (5th Cir. 2007). The Court is not bound to accept legal
conclusions as true, and only a complaint that states a
plausible claim for relief survives a motion to dismiss.
Iqbal, 556 U.S. at 678-79. When there are well-pleaded
factual allegations, the Court assumes their veracity
and then determines whether they plausibly give rise
to an entitlement to relief. Id. However, the Court does
“not accept as true conclusory allegations, unwarranted
factual inferences, or legal conclusions.” Southland Sec.
Corp. v. INSpire Ins. Solutions, Inc., 365 F.3d 353, 361
(5th Cir. 2004).
In ruling on a motion to dismiss under Rule 12(b)(6),
the Court cannot look beyond the pleadings. Spivey v.
Robertson, 197 F.3d 772, 774 (5th Cir. 1999). The pleadings
include the complaint and any documents attached to it.
Collins v. Morgan Stanley Dean Witter, 224 F.3d 496, 49899 (5th Cir. 2000). Likewise, documents that a defendant
attaches to a motion to dismiss are considered part of the
pleadings if they are referred to in the plaintiff’s complaint
and are central to the plaintiff’s claims. Id.

222a
Appendix F
III.

Analysis
A.

Count One - Plaintiffs’ Excessive Force Claim

Officers Hunter and Cassidy contend Plaintiffs’ § 1983
excessive force claims should be dismissed pursuant to
Fed. R. Civ. P. 12(b)(6) for failure to allege a deprivation
of a constitutionally protected right. Officers Hunter and
Cassidy also assert they are entitled to qualified immunity
because they acted in an objectively reasonable fashion
when they shot Ryan Cole. In opposition, Plaintiffs argue
that they have adequately alleged an excessive force claim
and that Officers Hunter and Cassidy are not entitled
to qualified immunity because, based on the pleadings,
their conduct was objectively unreasonable under clearly
established law.
Accepting all well-pleaded allegations as true, and
viewing them in the light most favorable to Plaintiffs, for
the reasons stated below, the Court finds that Officers
Hunter and Cassidy’s use of deadly force on the morning
of October 25, 2010 was not objectively reasonable and
violated a clearly established constitutional right. Thus, at
the motion to dismiss stage, Officers Hunter and Cassidy
are not entitled to qualified immunity, and their motion to
dismiss will be denied.
1.

Qualified Immunity

Section 1983 “provides a federal cause of action for
the deprivation, under color of law, of a citizen’s ‘rights,
privileges, or immunities secured by the Constitution

223a
Appendix F
and laws’ of the United States.” Livadas v. Bradshaw,
512 U.S. 107, 132, 114 S. Ct. 2068, 129 L. Ed. 2d 93 (1994).
It “afford[s] redress for violations of federal statutes, as
well as of constitutional norms.” Id. To state a claim under
§ 1983, a plaintiff must allege facts that show (1) he has
been deprived of a right secured by the Constitution and
the laws of the United States; and (2) the deprivation
occurred under color of state law. See Flagg Bros., Inc.
v. Brooks, 436 U.S. 149, 155, 98 S. Ct. 1729, 56 L. Ed. 2d
185 (1978); Cornish v. Corr. Servs. Corp., 402 F.3d 545,
549 (5th Cir. 2005).
The doctrine of qualified immunity protects government
officials sued pursuant to 42 U.S.C. § 1983 “from liability
for civil damages insofar as their conduct does not violate
clearly established statutory or constitutional rights of
which a reasonable person would have known.” Pearson
v. Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 172 L. Ed.
2d 565 (2009) (citing Harlow v. Fitzgerald, 457 U.S. 800,
818, 102 S. Ct. 2727, 73 L. Ed. 2d 396 (1982)). A defendant
official must affirmatively plead the defense of qualified
immunity. Gomez v. Toledo, 446 U.S. 635, 640, 100 S. Ct.
1920, 64 L. Ed. 2d 572 (1980). “Qualified immunity balances
two important interests - the need to hold public officials
accountable when they exercise power irresponsibly and
the need to shield officials from harassment, distraction,
and liability when they perform their duties reasonably.”
Pearson, 555 U.S. at 231. This doctrine protects “all but
the plainly incompetent or those who knowingly violate
the law.” Malley v. Briggs, 475 U.S. 335, 341, 106 S. Ct.
1092, 89 L. Ed. 2d 271 (1986).

224a
Appendix F
Qualified immunity provides immunity from suit
rather than a mere defense to liability. Pearson, 555 U.S.
at 227. Because immunity is “effectively lost if the case is
erroneously permitted to go to trial,” a denial of qualified
immunity may be immediately appealed. Mitchell v.
Forsyth, 472 U.S. 511, 526-27, 105 S. Ct. 2806, 86 L. Ed.
2d 411 (1985). “One of the most salient benefits of qualified
immunity is protection from pretrial discovery, which is
costly, time-consuming, and intrusive.” Backe v. LeBlanc,
691 F.3d 645, 648 (5th Cir. 2012) (citation omitted).
Courts generally apply the two-pronged analysis
established in Saucier v. Katz, 533 U.S. 194, 121 S. Ct.
2151, 150 L. Ed. 2d 272 (2001), in determining whether a
government official is entitled to qualified immunity for
an alleged constitutional violation. The first prong of the
Saucier analysis asks whether the facts alleged or shown
are sufficient to establish a violation of a constitutional
or federal statutory right. Saucier, 533 U.S. at 201. If
the record establishes no violation, no further inquiry is
necessary. On the other hand, if the plaintiff sufficiently
establishes the violation of a constitutional or federal
statutory right, the Court then asks whether the right
was clearly established at the time of the government
official’s alleged misconduct. Id. A right is “clearly
established” only when its contours are sufficiently clear
that a reasonable public official would have realized or
understood that his conduct violated the right in issue,
not merely that the conduct was otherwise improper. See
Anderson v. Creighton, 483 U.S. 635, 640, 107 S. Ct. 3034,
97 L. Ed. 2d 523 (1987). Thus, the right must not only
be established in an abstract sense, but also in a more

225a
Appendix F
particularized sense so that it is apparent to the official
that his actions are unlawful in light of preexisting law. Id.
The Supreme Court has clarified that it is no longer
mandatory for courts to consider the two prongs set out
in Saucier in order, although the Court noted that it may
be beneficial to do so. Pearson, 555 U.S. at 236. Under
Pearson, courts are now permitted to exercise their
sound discretion in deciding which of the two prongs
of the qualified immunity analysis should be addressed
first in light of the circumstances in the particular case
at hand. Id.
Thus, the Court will now address two questions: (1)
have Plaintiffs alleged that Officers Hunter and Cassidy
violated Ryan Cole’s constitutional rights, and if so (2)
whether these rights were clearly established at the time
of the shooting, such that Officers Hunter and Cassidy
acted in an objectively unreasonable fashion under such
law.
2.

Discussion
a.

The Alleged Constitutional Violation

The Court first considers whether Plaintiffs have
adequately alleged that Officers Hunter and Cassidy
violated Ryan Cole’s constitutional rights. See Saucier,
533 U.S. at 201 (When confronted with a claim of qualified
immunity, a court must first ask the following question:
“Taken in the light most favorable to the party asserting
the injury, do the facts alleged show the officer’s conduct
violated a constitutional right?”).

226a
Appendix F
Plaintiffs allege that Officers Hunter and Cassidy
used excessive force in violation of Ryan Cole’s Fourth
Amendment right to be free from unreasonable seizure.
See generally Poole v. City of Shreveport, 691 F.3d 624, 627
(5th Cir. 2012) (the Fourth Amendment confers a “right to
be free from excessive force during a seizure”); Colston v.
Barnhart, 130 F.3d 96, 102 (5th Cir. 1997) (“The Fourth
Amendment’s protection against unreasonable seizures
of the person has been applied in causes of action under
42 U.S.C. § 1983 to impose liability on police officers who
use excessive force against citizens.”). To state a claim
for excessive force, Plaintiffs must show: “(1) an injury,
(2) which resulted directly and only from a use of force
that was clearly excessive, and (3) the excessiveness of
which was clearly unreasonable.” Poole, 691 F.3d at 628
(citing Ontiveros v. City of Rosenberg, 564 F.3d 379, 382
(5th Cir. 2009)).
The constitutional question in this case is governed
by the principles set forth in Tennessee v. Garner, 471
U.S. 1, 105 S. Ct. 1694, 85 L. Ed. 2d 1 (1985) and Graham
v. Connor, 490 U.S. 386, 109 S. Ct. 1865, 104 L. Ed. 2d
443 (1989). An excessive force claim is analyzed under
the Fourth Amendment’s “objective reasonableness”
standard. Graham, 490 U.S. at 395 (“Today we . . . hold
that all claims that law enforcement officers have used
excessive force—deadly or not—in the course of an
arrest, investigatory stop, or other ‘seizure’ of a free
citizen should be analyzed under the Fourth Amendment
and its ‘reasonableness’ standard, rather than under a
‘substantive due process’ approach.”). Specifically in the
context of deadly force, “[a] police officer may not seize

227a
Appendix F
an unarmed, nondangerous suspect by shooting him
dead.” Garner, 471 U.S. at 11. The Supreme Court has
determined, however, that:
Where the officer has probable cause to believe
that the suspect poses a threat of serious
physical harm, either to the officer or to others,
it is not constitutionally unreasonable to prevent
escape by using deadly force. Thus, if the
suspect threatens the officer with a weapon
or there is probable cause to believe that he
has committed a crime involving the infliction
or threatened infliction of serious physical
harm, deadly force may be used if necessary
to prevent escape, and if, where feasible, some
warning has been given.
Id. at 11-12. “The excessive force inquiry is confined to
whether the [officer or another person] was in danger at
the moment of the threat that resulted in the [officer’s use
of deadly force].” Rockwell v. Brown, 664 F.3d 985, 991
(5th Cir. 2011) (citation omitted). In evaluating whether the
use of force was reasonable, courts look to the “totality of
the circumstances,” and give “’. . . careful consideration
to the facts and circumstances of each particular case,
including the severity of the crime at issue, whether the
suspect poses an immediate threat to the safety of the
officers or others, and whether he is actively resisting
arrest or attempting to evade arrest by flight.’” Ramirez
v. Martinez, 716 F.3d 369, 376 (5th Cir. 2013) (quoting
Graham, 490 U.S. at 396) (internal citation omitted).
Courts must evaluate the officer’s action “from the

228a
Appendix F
perspective of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.” Poole, 691 F.3d at
628 (citing Graham, 490 U.S. at 396). “The calculus must
embody allowance for the fact that police officers are often
forced to make split-second judgments in circumstances
that are tense, uncertain, and rapidly evolving about the
amount of force that is necessary in a particular situation.”
Graham, 490 U.S. at 396-97.
The Court now turns to whether Plaintiffs have
adequately alleged an injury caused by Officers Hunter
and Cassidy’s use of deadly force that was clearly excessive
to the need and objectively unreasonable. 2 See generally
Saucier, 533 U.S. at 201.
Although Officers Hunter and Cassidy do not dispute
that they injured Ryan Cole when they shot him, they
seek dismissal of any claims based on injuries resulting
from the discharge of Ryan Cole’s handgun, asserting
that such injuries cannot have resulted “directly and
only” from their alleged use of excessive force. Whether
Ryan Cole “involuntarily grasped or clutched his fingers
2. Given the significant overlap in analysis, the Court will
consider in tandem whether Plaintiffs have adequately alleged
that the use of force was clearly excessive or clearly unreasonable.
See generally Deville v. Marcantel, 567 F.3d 156, 167 (5th Cir.
2009) (addressing simultaneously the questions of whether force
used was “excessive” and “unreasonable”); Poole, 691 F.3d at
628 (recognizing the “intertwined” nature of the inquiry for
addressing excessive force claims where qualified immunity at
issue, and examining whether officers’ use of force was clearly
excessive or clearly unreasonable in tandem).

229a
Appendix F
resulting in the involuntary discharge of one round from
that weapon into Ryan Cole’s skull and brain” (see First
Am. Comp. ¶ 4.11) as a direct result of being shot by
Officer Hunter and/or Officer Cassidy, or whether Ryan
Cole’s injury resulted from a voluntary discharge of his
weapon (as the Officer Defendants argue) is not a proper
inquiry in resolving a Rule 12(b)(6) motion, as it is based
on evidentiary considerations not before the Court. Based
on the allegations in the First Amended Complaint, the
Court finds that Plaintiffs have sufficiently alleged that
all of Ryan Cole’s injuries resulted directly and only from
the officers’ use of force. See First Am. Comp. ¶¶ 4.10,
4.11, 4.24. Given the extensive injuries alleged in the First
Amended Complaint, see id. ¶ 4.24, the Court will focus
its inquiry on whether Officers Hunter and Cassidy’s
conduct was “clearly excessive” or “clearly unreasonable.”
See generally Ramirez v. Knoulton, 542 F.3d 124, 128
(5th Cir. 2008)(finding where there was no dispute that
plaintiff suffered injury, relevant inquiry is whether force
was “clearly excessive” or “clearly unreasonable.”).
Officers Hunter and Cassidy contend that their
conduct was not excessive to the force needed or objectively
unreasonable. In support, Defendants primarily rely on
cases from other circuit courts where no excessive force
was found. See Def. Mot. at 9-10 (citing Garczynski v.
Bradshaw, 573 F.3d 1158, 1168-1169 (11th Cir. 2009); and
Thomson v. Salt Lake County, 584 F.3d 1304 (10th Cir.
2009)); see also Def. Reply at 4 (arguing Garczynski and
Thomson are similar to the instant case, as they involve
“individuals who held loaded guns, which they pointed at
their own heads during at least a portion of the incident,

230a
Appendix F
and under circumstances in which the individuals who
were shot by officers were perceived to have engaged in
deadly conduct”). In addition to being from other circuits,
and thus not controlling, the crucial facts of these cases
are distinguishable. In Garczynski, the Eleventh Circuit
affirmed the district court’s decision to grant summary
judgment in favor of officers who used deadly force on
an armed and potentially suicidal individual. The circuit
court agreed that the force used was not excessive, and
deadly force was justified, where the individual failed to
comply with repeated commands to show his hands and
drop the gun, and “[i]nstead of obeying these commands,
[he] swung the gun from his head in the direction of the
officers, at which point they fired.” Garczynski, 573 F.3d
at 1168. The court agreed that under such circumstances,
“[t]he officers reasonably reacted to what they perceived
as an immediate threat of serious harm to themselves.”
Id. In this case, by contrast, Plaintiffs allege that at the
time Officer Hunter opened fire, Ryan Cole had his gun
in his right hand pointed at the right side of his head, and
was not facing Officer Hunter. The only averment that
Ryan Cole turned and pointed the gun at Officer Hunter
is from Officer Hunter’s sworn version of the events. See
City of Garland Police Department Affidavit In Any Fact
of Officer Michael Hunter, Appendix to Pl. Resp. to Def.
Mot. to Dismiss at Ex. 3 pp. 56-58 (“Hunter Aff.”) (ECF
81-1). The Court notes that Officer Hunter admits he gave
no warnings prior to shooting. See id. On a motion to
dismiss, the Court accepts as true all well-pleaded facts
alleged in the complaint. Twombly, 550 U.S. at 556. Thus,
for purposes of analyzing the motion to dismiss, the Court
must assume that Ryan Cole was facing away from Officer

231a
Appendix F
Hunter with his gun pointed at his own head when Officer
Hunter opened fire with no warning.
Thomson is also factually dissimilar. In Thomson,
the Tenth Circuit affirmed the district court’s decision
to grant summary judgment in favor of officers who
used deadly force on an armed and potentially suicidal
individual. Thomson, 584 F.3d at 1310-1311. Crucial to the
court’s decision, it was undisputed that the suspect was
pointing a gun at the officers almost immediately prior to
the officer discharging his weapon, and had refused the
officer’s immediate command to drop the weapon. See id.
Again, in this case, the alleged facts are to the contrary
and are in dispute.
Defendants also rely on Ontiveros in their reply
brief. In that case, an officer shot a suspect who refused
to comply with officers’ instructions, was bent over, and
appeared to be reaching into a boot that was out of the
officer’s line of sight. Ontiveros, 564 F.3d at 385. The
Fifth Circuit upheld the district court’s decision to grant
summary judgment in the officer’s favor, citing a line of
cases where the court has upheld the use of deadly force
when the suspect refused instructions and took actions
that could have reasonably been interpreted as reaching
for a weapon, causing the officers to form a reasonable
belief that they may be in immediate danger. Id. (citing
Reese v. Anderson, 926 F.2d 494 (5th Cir. 1991) (upholding
the use of deadly force where the suspect repeatedly
refused to keep hands raised and appeared to be reaching
for an object when officers shot him); and Young v. Killeen,
775 F.2d 1349 (5th Cir. 1985) (upholding the use of deadly

232a
Appendix F
force when the suspect refused instructions to exit the
vehicle and reached down to the floorboard as if to grab
a weapon)).
Here, Plaintiffs allege that Officer Hunter gave no
warning prior to opening fire and that Ryan Cole at all
times during the encounter was facing away from Officer
Hunter with his gun in his right hand held against the
right side of his head. There are no allegations that Ryan
Cole was reaching for an object outside the officers’ line
of sight which could have been a weapon, or making any
unexpected movements which could cause the officers to
form a reasonable belief that they may be in immediate
danger. Accordingly, Ontiveros, and the cases cited
therein, do not support Officers Hunter and Cassidy’s
contention that deadly force, in the circumstances
presented, was justified.
Having concluded that the cases cited by Officers
Hunter and Cassidy are distinguishable from the instant
case, the Court has conducted its own research for cases
where the Fifth Circuit has examined the level of force
justified where officers are presented with emotionally
unstable individuals in possession of a weapon. In Ballard
v. Burton, 444 F.3d 391, 402-03 (5th Cir. 2006), the Fifth
Circuit held that an officer’s use of deadly force was not
excessive or unreasonable when a “mentally disturbed
person,” after irrationally driving his truck armed with
a 30/30 rifle engaged in “stop-get-out-of-the-truck-andshoot-activity,” “refused to put down his rifle, discharged
the rifle into the air several times while near officers, and
pointed it in the general direction of law enforcement

233a
Appendix F
officers.” In Mace v. City of Palestine, 333 F.3d 621, 623,
625 (5th Cir. 2003), the Fifth Circuit held that an officer’s
use of deadly force was not excessive or unreasonable
when a disturbed and intoxicated individual, wielding a
sword in a relatively confined space, refused to comply
with the officer’s command to put down the sword, and
raised the sword toward the officer. And in Elizondo
v. Green, 671 F.3d 506 (5th Cir. 2012), a case involving
a suicidal seventeen-year old in possession of a knife,
the Fifth Circuit affirmed the undersigned’s decision to
grant summary judgment based on qualified immunity
in favor of an officer who used deadly force, where the
individual refused to comply with the officer’s “repeated
instructions to put down the knife he was holding and [the
individual] seemed intent on provoking [the officer].” See
id. Further, “[a]t the time [the officer] fired his weapon,
[the individual] was hostile, armed with a knife, in close
proximity to [the officer], and moving closer.” Id. The
Fifth Circuit concluded: “Considering the totality of the
circumstances in which [the officer] found himself, it was
reasonable for him to conclude that [the individual] posed
a threat of serious harm.” Id.
In both Ballard and Mace, the suspect refused to
comply with instructions from officers and made what
a reasonable officer on the scene could believe was a
threatening gesture toward the officers with a weapon
immediately before the officers opened fire. As the Fifth
Circuit held in Mace, “[i]t is not unreasonable for an officer
in that situation to believe that there was a serious danger
to himself and the other officers present.” Mace, 333
F.3d at 625. In Elizondo, while it was factually disputed

234a
Appendix F
whether the individual raised the knife toward the officer
prior to the officer shooting him, the Fifth Circuit stated
that the individual had refused to comply with the officer’s
warnings and orders, was hostile, in close proximity to the
officers, and coming closer at the time the officer opened
fire. Elizondo, 671 F.3d at 510. By contrast, Plaintiffs’
First Amended Complaint alleges that Officer Hunter
gave no warning prior to opening fire, that Ryan Cole at
all times was facing away from Officer Hunter with his
gun in his right hand held against the right side of his
head, and there are no allegations that Ryan Cole made a
threatening gesture toward Officer Hunter or approached
him. Rather, the allegations are that Ryan Cole was not
aware of the Officer Defendants’ presence at the scene.
Similarly, the allegations are that Officer Cassidy opened
fire from a distance after Ryan Cole had already been shot
by Officer Hunter, also without prior warning. Unlike in
Ballard, Mace, Elizondo, and Ontiveros, see supra, based
on the pleadings, this is not a situation where, considering
the totality of the circumstances in which Officers Hunter
and Cassidy found themselves, it was reasonable for them
to conclude that Ryan Cole posed an immediate threat of
serious harm to them or others, such that resorting to
deadly force would be justified.
In addition to these published cases, the Court looks
to an unpublished Fifth Circuit opinion that reversed and
remanded a district court’s decision to grant qualified
immunity to an officer in a deadly force case where facts
were disputed regarding whether the suicidal suspect
threatened the officer with a weapon at all. See Reyes v.
Bridgwater, 362 Fed. Appx. 403, 2010 WL 271422 (5th

235a
Appendix F
Cir. 2010). 3 In Reyes, officers testified they broke down
the door to decedent Reyes’ apartment. Upon entering the
apartment, they testified Reyes was holding a knife by his
side some distance away from the officers, Reyes stepped
forward, threw his cigarette at one of the officers, and
raised the knife he was holding in a threatening manner at
which time the officer shot and killed him. Other witnesses
disputed the officer’s account. Reyes, 362 Fed. Appx. 403,
2010 WL 271422, at *1-2. The officer argued that deadly
force was justified because Reyes stepped towards him
and raised the knife. Id. The court held that the evidence,
viewed in the light most favorable to the decedent, did
not support the district court’s conclusion that there was
no constitutional violation, since the evidence presented
by plaintiffs showed that the decedent stood in his home,
with a kitchen knife at his side, at a safe distance from the
officer when the officer opened fire. 362 Fed. Appx. 403,
[WL] at *4-5. Writing for the majority, Judge Haynes held:
The Supreme Court has required courts to be
deferential to the choices made by police officers
in high-risk situations. See Graham v. Connor,
490 U.S. 386, 397, 109 S. Ct. 1865, 104 L. Ed.
2d 443 (1989)[.] That deference, however, cannot
extend so far as to ignore an officer’s violation
of the core, established rule that deadly force
may not be used “[w]here the suspect poses no
immediate threat to the officers and no threat
to others.” Garner, 471 U.S. at 10[.] It violates
3. Although unpublished opinions are not precedent, the
Court cites this decision for its persuasive value.

236a
Appendix F
the Fourth Amendment to use deadly force
absent such a threat.
Here, there was no “immediate threat” as
Garner requires. The evidence, viewed as
required in this procedural posture [where the
court must resolve conflicting evidence in favor
of plaintiff] does not support the district court’s
conclusion that there was no constitutional
violation . . . [T]he court must assume that
[decedent] stood, in his own home, with a
kitchen knife at his side, at a safe distance
away from the officers when [the officer] opened
fire. When [the officer] arrived on the scene,
he was responding to a 911 call reporting a
“domestic disturbance with possible violence”;
he was not, that is, anticipating making a felony
arrest, or even necessarily any arrest at all . . .
Such a threat is by definition not “immediate”
because the individual must still do something
— the Manis “act”4 — before the latent threat
4. The term “Manis act” finds its origin in a Fifth Circuit
2009 decision. See Manis v. Lawson, 585 F.3d 839, 845 (5th Cir.
2009). In examining the reasonableness of an officer’s use of deadly
force and finding no excessive force under the circumstances, the
Court in Manis stated: “None of these assertions, however, bear
on whether Manis, in defiance of the officers’ contrary orders,
reached under the seat of his vehicle and appeared to retrieve an
object [the police officer] reasonably believed to be a weapon. This
was the act that led [the officer] to discharge his weapon and it is
undisputed. In light of Manis’s undisputed actions [the officer’s]
use of force was not excessive.”

237a
Appendix F
materializes into any risk of harm. . . . Under the
facts and in this situation, [the officer’s] use of
deadly force absent an immediate threat from
[the decedent] was a constitutional violation.
Id. *4.
The facts that distinguish this case from Ballard and
Mace, and make it more similar to Reyes, is the key issue
that must be resolved to determine whether an officer
using deadly force reasonably perceived an immediate
threat. Based on the pleadings which the Court must
accept as true, in the language of Manis, 585 F.3d at 845,
there was no “act” to justify the shooting. Further, under
Garner, any justification based on a suspect threatening
the officer with a weapon is inapplicable to this case, as
the allegations do not support any inference that Ryan
Cole threatened the officers with the gun. See Garner,
471 U.S. at 11-12 ([I]f the suspect threatens the officer
with a weapon . . . deadly force may be used if necessary
to prevent escape, and if, where feasible, some warning
has been given.”). 5
The Court is well-aware that Officers Hunter and
Cassidy dispute what occurred and what led them to shoot
5. To the extent Defendants suggest in their motion to dismiss
that events earlier that morning involving other officers justify their
use of deadly force, this argument is unavailing. See Rockwell v.
Brown, 664 F.3d 985, 991 (5th Cir. 2011) (“The excessive force inquiry
is confined to whether the officer or another person was in danger at
the moment of the threat that resulted in the officer’s use of deadly
force.”) (internal punctuation and citation omitted).

238a
Appendix F
Ryan Cole. This dispute creates a question of fact that goes
to the heart of the qualified immunity inquiry and bars
the Court from granting a motion to dismiss based on the
pleadings. See generally McClendon v. City of Columbia,
305 F.3d 314, 325 (5th Cir. 2002) (“[T]he legally relevant
factors bearing upon the [qualified immunity] question
will be different on summary judgment than on an earlier
motion to dismiss. At the earlier stage, it is the defendant’s
conduct as alleged in the complaint that is scrutinized for
‘objective legal reasonableness.’ On summary judgment,
however, the plaintiff can no longer rest on the pleadings
. . . and the court looks to the evidence before it (in the
light most favorable to the plaintiff) when conducting the
[qualified immunity] inquiry.”) (internal quotation marks
and citations omitted) (original emphasis).
Based on this body of case law, as well as the Graham
factors, and viewing all allegations in the First Amended
Complaint as true, the Court concludes that Plaintiffs
have sufficiently alleged that Ryan Cole suffered “(1) an
injury, (2) which resulted directly and only from a use of
force that was clearly excessive, and (3) the excessiveness
of which was clearly unreasonable.” Poole, 691 F.3d at
628. Accordingly, the Court denies Officer Hunter’s and
Officer Cassidy’s motion to dismiss for failure to state a
constitutional violation.
b.

Clearly Established Law

The Court’s finding that Plaintiffs have adequately
alleged that Officers Hunter and Cassidy used excessive
force (and thus performed an unlawful seizure under the

239a
Appendix F
Fourth Amendment), does not end the Court’s inquiry.
The Court must also determine whether, nevertheless,
qualified immunity is appropriate because the officers’
actions were objectively reasonable “in light of clearly
established law at the time of the conduct in question.”
See Hampton Co. Nat’l Sur., L.L.C. v. Tunica, 543
F.3d 221, 225 (5th Cir. 2008). Further, the qualified
immunity reasonableness inquiry is separate from the
Fourth Amendment objective reasonableness inquiry in
excessive force cases. Saucier, 533 U.S. at 197. Under
this second prong, the Court must determine whether
the “right would be clear to a reasonable officer that the
conduct was unlawful in the situation confronted.” Id.
at 202. As already stated, “[t]he contours of the right
must be sufficiently clear that a reasonable official would
understand that what he is doing violates that right.”
Anderson, 483 U.S. at 640. This standard operates to
protect officers from the sometimes “hazy border between
excessive and acceptable force.” Saucier, 533 U.S. at 206.
In evaluating this prong, “the court must ask whether, at
the time of the incident, the law clearly established that
such conduct would violate the [Constitution]. This inquiry
focuses . . . on the specific circumstances of the incident
— could an officer have reasonably interpreted the law to
conclude that the perceived threat posed by a suspect was
sufficient to justify deadly force.” Ontiveros, 564 F.3d at
383 n.1 (citing Brosseau v. Haugen, 543 U.S. 194, 199-200,
125 S. Ct. 596, 160 L. Ed. 2d 583 (2004)). “Indeed, unless
the violation is ‘obvious,’ there must be relevant case law
that ‘squarely governs’ the situation with which the officers
were presented and gives ‘fair notice’ that such conduct
would violate the law.” Brosseau, 543 U.S. at 200-201. The

240a
Appendix F
Supreme Court has rejected the notion that “an official
action is protected by qualified immunity unless the very
action in question has previously been held unlawful.”
Anderson, 483 U.S. at 640.
The Constitutional limits on the use of deadly force
have been clearly established since 1985 and provide that
an officer using deadly force when a suspect does not
pose a sufficient threat of harm or immediate danger to
the officer or others would have had reasonable warning
that the conduct at issue violated constitutional rights.
See Garner, 471 U.S. at 11 (“Where the suspect poses no
immediate threat to the officer and no threat to others, the
harm resulting from failure to apprehend the suspect does
not justify the use of deadly force to do so.”). The Court
finds that in this case the violation is “obvious,” where
the more generalized standards of Graham and Garner,
supra, “clearly establish” that Officers Hunter and
Cassidy’s use of deadly force was objectively unreasonable,
“even without a body of relevant case law[.]” See Brosseau,
543 U.S. at 199 (2004); see also Hope v. Pelzer, 536 U.S.
730, 741, 122 S. Ct. 2508, 153 L. Ed. 2d 666 (2002) (noting in
a case where Eighth Amendment violation was “obvious,”
there need not be a materially similar case for the right
to be clearly established).
Even were this not an “obvious” case, the Court finds
that on October 25, 2010, the date of the shooting, the law
was “clearly established” in a more particularized sense,
such that Officers Hunter and Cassidy would know that
use of deadly force under the circumstances presented
violated Ryan Cole’s Fourth Amendment rights. See

241a
Appendix F
Brosseau, 543 U.S. at 200. Although the parties have
provided the Court with very little in the way of relevant
case law, and Defendants have primarily relied on cases
from other circuit courts, independent research shows
case law applying the Garner standard to circumstances
where officers have used deadly force in apprehending
mentally unstable and/or suicidal individuals who are
armed, such as in this case, and examined the facts and
circumstances of these cases. See Ballard, 444 F.3d at
402-03; Mace, 333 F.3d at 625; Ontiveros, 564 F.3d at 385.
These cases, all decided prior to the shooting incident in
this case, would make it clear to a reasonable officer that
shooting a mentally disturbed teenager, who was pointing
a gun the entire time at his own head and facing away
from the officer, in an open outdoor area, and who was
unaware of the officer’s presence because no warning
was given prior to the officer opening fire, was unlawful
in the situation he confronted. Otherwise stated, the law
was clearly established at the time of the incident that,
absent the “Manis act,” i.e., “the act that led [the officer]
to discharge his weapon,” see Manis, 585 F.3d at 845,
there was no immediate threat sufficient to justify the
use of deadly force.
Once again, the Court finds the unpublished decision
in Reyes to be instructive. As Judge Haynes stated in
reversing the district court’s decision to grant qualified
immunity in the context of deadly force:
The cases on deadly force are clear: an officer
cannot use deadly force without an immediate
serious threat to himself or others. Here, the

242a
Appendix F
facts are unclear; was there such an immediate
threat? [The officer’s] version would say “yes,”
while the other witnesses’ version would say
“no.” The case presented here is not one where
the law is not clearly established but rather
where the facts are not clearly established. As
such, summary judgment was improper.
Reyes, 362 Fed. Appx. 403, 2010 WL 271422, at *5. As
in Reyes, this case presents a situation where the case
law on use of deadly force is clearly established, both
generally and in a more particularized sense, but the
facts surrounding the incident in question are not. At the
current procedural posture of the case, Officers Hunter
and Cassidy’s stated justification for use of deadly force
cannot be considered by the Court.
In sum, Plaintiffs have adequately stated a claim
that Officer Hunter’s use of deadly force, when Plaintiff
Ryan Cole was facing away from Officer Hunter, and
pointing a gun at his own head, and where Officer Hunter
failed to give a warning prior to shooting, was objectively
unreasonable under clearly established law. Similarly,
Plaintiffs have adequately alleged that Officer Cassidy’s
use of deadly force without warning, and after Ryan Cole
had already been shot by Officer Hunter, was objectively
unreasonable. Accordingly, the Court determines that
Officers Hunter and Cassidy are not entitled to qualified
immunity at this time.

243a
Appendix F
B. The City of Sachse & Officer Defendants in
Their Official Capacity 6 (Counts Two and
Three)
The City’s motion to dismiss Plaintiffs’ § 1983 claim
is premised solely on the argument that Plaintiffs have
failed to state a constitutional violation.7 See ECF No. 70,
Def. Mot. at 19 (“The City cannot be liable to Plaintiffs
because the record establishes Ryan Cole was not deprived
of a constitutionally protected right[.]”); ECF No. 84,
Def. Reply at 10 (“Because the City can be liable only if
an official policy or custom caused a deprivation of a civil
right, and because Plaintiffs cannot establish a deprivation
of a civil right, the claims against the City fail.”) The Court
6. To the extent that Plaintiffs are suing the Officer
Defendants in their official capacity, an official capacity claim
is merely another way of pleading an action against the entity
of which the individual defendant is an agent. See Kentucky v.
Graham, 473 U.S. 159, 165, 105 S. Ct. 3099, 87 L. Ed. 2d 114 (1985).
Thus, Plaintiffs’ allegations against the Officer Defendants in their
official capacity are claims against the City. See id.
7. Section 1983 does not allow a municipality to be held
vicariously liable for its officers’ actions on a theory of respondeat
superior. 42 U.S.C. § 1983; see Board of the County Comm’rs
v. Brown, 520 U.S. 397, 403, 117 S. Ct. 1382, 137 L. Ed. 2d 626
(1997). Rather, a municipality may be liable under § 1983 if the
execution of one of its customs or policies deprives a plaintiff of his
constitutional rights. Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
690-91, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). The City has not
moved to dismiss on any grounds related to Plaintiffs’ allegations
that it has a facially unconstitutional excessive force policy, or has
failed to adequately train or supervise its officers as to the use
of excessive force.

244a
Appendix F
has already determined that Plaintiffs have stated a claim
for excessive force in violation of the Fourth Amendment,
and therefore the Court denies the City’s motion to dismiss
Counts Two and Three of the First Amended Complaint.
C.

Officer Defendants - Plaintiffs’ Claim for
Fabrication of Inculpatory Evidence and
Conspiracy to Violate Constitutional Rights
(Count Four)

Officers Hunter, Cassidy and Carson move to dismiss
Count Four of Plaintiffs’ First Amended Complaint, where
Plaintiffs allege as follows:
¶ 8.2

As previously set forth in detail, the Defendants
Hunter, Cassidy and Carson formed and
carried out a conspiracy to falsely charge and
convict Plaintiff Ryan Cole of a felony offense
of aggravated assault on a public servant,
using the state criminal process to do so,
based on «evidence» they had manufactured
including their own perjured testimony.

¶ 8.3

At present, the civil laws of the State of
Texas, as interpreted by the Supreme Court
of Texas, do not provide a remedy or an
adequate remedy to protect and compensate
the Plaintiffs for such unlawful conduct.
Alternatively, Defendants Hunter, Cassidy
and Carson have conspired and did commit
the common law tort of malicious prosecution
under Texas law which proximately caused
Plaintiffs damages.

245a
Appendix F
First Am. Compl. ¶¶ 8.2, 8.3. Plaintiffs also allege in
Count Four that in furtherance of their conspiracy, the
Officer Defendants also committed the following unlawful
acts: (1) they made false statements of fact to one or
more Garland police officers in the course of the official
investigation in violation of the Texas Penal Code; (2) they
made false statements under oath to one or more Garland
police department investigators and to the Dallas County
District Attorney›s Office and to the Dallas County Grand
Jury constituting the offense of aggravated perjury in
violation of the Texas Penal Code; and (3) «concealed
from the Grand Jury, the presiding state trial judge, and
the Dallas County District Attorney›s Office, and Ryan
Cole›s counsel evidence that was obviously exculpatory
to Plaintiff Ryan Cole in connection with the fictitious
charges that he had committed an aggravated assault on
a public servant.» First Am. Compl. ¶ 8.13.
The Court will first address the Officer Defendants›
arguments in support of dismissing Plaintiffs› federal
claims in Count Four.
1.

Claim for Fabrication of Inculpatory
Evidence & Conspiracy

In Count Four, Plaintiffs allege that the Officer
Defendants deprived Ryan Cole of his constitutional
rights under the Fourth and Fourteenth Amendments by
deliberately fabricating inculpatory evidence, providing
false statements to City of Garland police after the
shooting, and providing false statements under oath
during the investigation. Plaintiffs further allege that

246a
Appendix F
these unlawful acts ultimately led to a grand jury indicting
Ryan Cole on a felony assault charge, a crime he did not
commit. The Officer Defendants contend these claims
must be dismissed because they are entitled to absolute
immunity for their statements and testimony.
The Court rejects the Officer Defendants’ argument
that they are entitled to absolute immunity under the
Supreme Court’s decisions in Briscoe v. LaHue, 460 U.S.
325, 103 S. Ct. 1108, 75 L. Ed. 2d 96 (1983) and Rehberg v.
Paulk, U.S., 132 S.Ct 1497, 182 L. Ed. 2d 593 (2012). See
Def. Mot. at 15; Def. Reply at 7-9. In Briscoe, the Supreme
Court held that a trial witness sued under § 1983 enjoys
absolute immunity from any claim based on his testimony.
460 U.S. at 326. In Rehberg, the Supreme Court extended
absolute immunity to include police officers testifying
at an ex parte grand jury proceeding. 132 S.Ct. at 1506.
To the extent Plaintiffs are challenging the Officer
Defendants’ pre-trial misconduct, the Officer Defendants
have not established, based on their current briefing, that
they are entitled to absolute immunity. While the Officer
Defendants are not precluded from raising this argument
at a later juncture in the case, they have not shown at
this preliminary stage that absolute immunity precludes
Plaintiffs’ due process claims against them based on
alleged fabrication of evidence and false statements made
outside ex parte grand jury proceedings or trial.
The Court also rejects the Officer Defendants’
argument that Plaintiffs’ § 1983 conspiracy claims should
be dismissed as too conclusory. Plaintiffs allege that the
Officer Defendants acted in concert to deprive Ryan Cole

247a
Appendix F
of various constitutional rights including, but not limited
to, his right to remain free from malicious prosecution,
wrongful conviction, and unlawful confinement which
resulted from their fabricated inculpatory evidence
and false statements. When the allegations in the First
Amended Complaint and all reasonable inferences
therefrom are viewed in Plaintiffs’ favor, they support the
existence of an agreement between and among the Officer
Defendants to violate Ryan Cole’s constitutional rights.
In sum, based on the pleadings, the Court denies the
Officer Defendants’ motion to dismiss the federal claims
asserted in Count Four. The Officer Defendants may
reassert their absolute immunity at a later time. 8

8. The Court rejects the Officer Defendants’ highly conclusory
assertion (citing no case law in support) that they are entitled to
qualified immunity on the federal claims in Count Four. See Def.
Mot. at 19-20. For the reasons already stated above, Plaintiffs
have alleged sufficient facts to state a claim against the Officer
Defendants for a violation of Ryan Cole’s Fourth and Fourteenth
Amendment rights. Further, assuming the truth of Plaintiffs’
allegations in Count Four, the Court concludes that the Officer
Defendants acted in an objectively unreasonable fashion under
clearly established law. See, e.g., Limone v. Condon, 372 F.3d
39, 44-45 (1st Cir. 2004) (“[I]f any concept is fundamental to our
American system of justice, it is that those charged with upholding
the law are prohibited from deliberately fabricating evidence
and framing individuals for crimes they did not commit. Actions
taken in contravention of this prohibition necessarily violate due
process.”).

248a
Appendix F
2.

State Law Malicious Prosecution Claim

The Officer Defendants contend that Plaintiffs’ state
law malicious prosecution claims “are absolutely barred by
the officers’ statutory entitlement to immunity from such
claims.” Def. Mot. at 16 (citing Tex. Civ. Prac. & Rem. Code
§ 101.106(f)). In their response to the Officer Defendants’
motion to dismiss based on the Texas Tort Claims Act
(“TTCA”), Plaintiffs appear to concede that their malicious
prosecution claim against the Officer Defendants may
be foreclosed by the TTCA. See Pl. Resp. at 19 n.1; see
generally Tex. Civ. Prac. & Rem. Code § 101.106. The
parties are correct. Section 101.106(f) provides:
If a suit is filed against an employee of a
governmental unit based on conduct within the
general scope of that employee’s employment
and it could have been brought under this
chapter against the governmental unit, the
suit is considered to be against the employee
in the employee’s official capacity only. On the
employee’s motion, the suit against the employee
shall be dismissed unless the plaintiff files
amended pleadings dismissing the employees
and naming the governmental unit as defendant
on or before the 30th day after the date the
motion is filed.
Tex. Civ. Prac. & Rem. Code § 101.106(f). Plaintiffs have
alleged that the Officer Defendants were acting “within
the course and scope of their employment for the City of
Sachse, Texas.” First Am. Compl. ¶ 4.13. As the claim

249a
Appendix F
is considered to be against the Officer Defendants in
their official capacities only, the Court grants the Officer
Defendants’ motion to dismiss the state law malicious
prosecution allegations against them in their individual
capacity. See generally Franka v. Velasquez, 332 S.W.3d
367, 378 (2011).
Further, in accordance with the TTCA’s election-ofremedies provision, all state law claims against the Officer
Defendants are hereby dismissed because Plaintiffs’ tort
claims arise under the TTCA, and the City of Sachse
perfected its statutory right to dismissal of its employees
upon filing its motion to dismiss. See Tex. Civ. Prac. &
Rem. Code § 101.106(e) (“If a suit under this chapter is filed
against both a governmental unit and any of its employees,
the employees shall immediately be dismissed on the filing
of a motion by the governmental unit.”). Accordingly, the
Court grants the Officer Defendants’ motion to dismiss
Plaintiffs’ state law malicious prosecution claim.
D.

Randy and Karen Cole’s Bystander Claims

Defendants argue that Plaintiffs’ federal bystander
claims must be dismissed for failure to allege a deprivation
of their own constitutional rights. Def. Mot. at 22. As
discussed below, the Court agrees. Defendants further
argue that Plaintiffs’ state law bystander claims must
be dismissed pursuant to the Texas Civil Practice &
Remedies Code, section 101.106(f), and for failure to allege
a personal injury. Id. at 22-23. While the Court agrees
that the state law bystander claims against the Officer
Defendants must be dismissed as barred by the TTCA,

250a
Appendix F
for the reasons stated below, the Court declines to dismiss
these claims against the City.
1.

Section 1983 Bystander Claims

Plaintiffs Randy and Karen Cole allege they have
experienced severe and substantial mental anguish
and interruption of their normal relationship with their
son, who will now require twenty-four hour care for the
remainder of his life. See First Am. Compl. ¶ 4.26. They
further allege they had a contemporaneous perception
of the shooting of their son by virtue of having heard it
occur from their front yard. Id. ¶ 4.27. Among other relief,
Randy and Karen Cole seek recovery for “[m]ental anguish
in the past and in the future” caused by Defendants’
conduct. See id. ¶ 10.1(i).
“Section 1983 imposes liability for violation of rights
protected by the Constitution, not for violation of duties
of care arising out of tort law.” Baker v. McCollan, 443
U.S. 137, 146, 99 S. Ct. 2689, 61 L. Ed. 2d 433 (1979).
A civil rights claim must be based upon a violation of a
plaintiff’s personal rights secured by the Constitution, and
a bystander who is not the object of police action cannot
recover for resulting emotional injuries under § 1983. See
generally Grandstaff v. Borger, 767 F.2d 161, 172 (5th Cir.
1985); Coon v. Ledbetter, 780 F.2d 1158, 1160 (5th Cir.
1986); see also Young v. Green, 2012 U.S. Dist. LEXIS
115027, 2012 WL 3527040, at *4 (S.D. Tex. Aug. 15, 2012)
(“[C]ase law holds that a bystander who witnesses a police
action, but who is not himself or herself the object of that
action, cannot recover for resulting emotional injuries

251a
Appendix F
under § 1983, although there may be such a claim under
state tort law.”)
Accordingly, to the extent Plaintiffs Randy and Karen
Cole seek to assert a § 1983 bystander claim for their
emotional injuries based on police action directed at their
son, the Court grants Defendants’ motion to dismiss.
2.

State Law Bystander Tort Claims

Plaintiffs Ryan and Karen Cole have also brought
state law bystander claims against the City and the Officer
Defendants. Citing the election-of-remedies provision of
the TTCA, and noting that Plaintiffs filed suit against the
governmental unit and its employees, Defendants move
to dismiss Randy and Karen Cole’s state law bystander
claims against the Officer Defendants as barred by the
TTCA. See Tex. Civ. Prac. & Rem. Code § 101.106. As
already stated by the Court in connection with dismissal
of Plaintiffs’ state law malicious prosecution claims, see
supra sec. III.C.2., where, as here, suit is filed against both
a governmental unit and its employees, the governmental
unit may move to dismiss the state law claims against the
employee. See Tex. Civ. Prac. & Rem. Code § 101.106(e).
Under this provision, as the City has exercised this option,
the Court grants Defendants’ motion to dismiss Plaintiffs’
state law bystander claims against the Officer Defendants.
With regard to Plaintiffs’ bystander claims against
the City, Defendants argue that because Randy and
Karen Cole did not suffer a “personal injury” or their own
“bodily injury or death,” they cannot recover against a

252a
Appendix F
governmental entity under Texas law See Def. Mot. at 23
(citing Tex. Civ. Prac. & Rem. Code §§ 101.021, 101.023(c)).
The Court rejects this argument.
In this excessive force case, Plaintiffs allege that
Officers Hunter and Cassidy shot Ryan Cole with .40
caliber semi-automatic Glock handguns issued by the City
of Sachse Police Department causing severe injury. See
First Am. Compl. ¶ 4.9. A claim for the use or misuse of
tangible personal property is a claim under the TTCA. See
Tex. Civ. Prac. & Rem. Code § 101.021. Further, “[a] state
law bystander claim may be brought under the Texas Tort
Claims Act.” Young, 2012 U.S. Dist. LEXIS 115027, 2012
WL 3527040, at *5 (citing Hermann Hosp. v. Martinez,
990 S.W.2d 476, 478-79 (Tex. App.—Houston [14th Dist.]
1999, pet. denied)). To recover as a bystander under Texas
law, a plaintiff is required to establish that:
(1) The plaintiff was located near the scene of the
accident, as contrasted with one who was a
distance away from it;
(2) The plaintiff suffered shock as a result of a
direct emotional impact upon the plaintiff from
a sensory and contemporaneous observance of
the accident, as contrasted with learning of the
accident from others after its occurrence; and
(3) The plaintiff and the victim were closely related,
as contrasted with an absence of any relationship
or the presence of only a distant relationship.

253a
Appendix F
United Servs. Automobile Ass’n v. Keith, 970 S.W.2d 540,
542 (Tex. 1998) (citation omitted).
Plaintiffs Randy and Karen Cole do not allege they
witnessed the shooting of their son, but allege that they
“had a contemporaneous perception of the shooting of
their son by virtue of having heard it occur from their
front yard.” See First Am. Compl. ¶ 4.27. That they did
not witness the shooting of their son, but heard the shots
from their front yard and sometime thereafter saw their
wounded son, does not, on its own, defeat their bystander
claim under Texas law. See, e.g., Landreth v. Reed, 570
S.W.2d 486, 490 (Tex. App.—Texarkana 1978, no writ)
(“[A]ctual observance of the accident is not required if
there is otherwise an experiential perception of it, as
distinguished from a learning of it from others after
its occurrence”); Lehmann v. Wieghat, 917 S.W.2d 379,
383 (Tex. App.—Houston [14th Dist.] 1996, writ denied)
(finding no error in submitting question to jury on
whether a plaintiff had a “sensory and contemporaneous
perception” of his son’s shooting, as facts were disputed
whether father perceived accident when he heard the gun
shot from a distance away and approximately five to ten
minutes later observed his son unconscious); Bedgood v.
Madalin, 589 S.W.2d 797, 802-03 (Tex. Civ. App.—Dallas
1979) affirmed in part, rev’d on other grounds, 600 S.W.2d
773 (Tex. 1980) (allowing bystander claim where father
“did not visually witness the accident [that killed his son]
but rather heard it and then witnessed the results soon
thereafter”).

254a
Appendix F
In short, under Texas law regarding bystander claims
for mental anguish, and based on the pleadings, the Court
denies Defendants’ motion to dismiss Plaintiffs’ state law
bystander claims against the City.
IV. Conclusion
Based on the foregoing, the Court grants in part and
denies in part Defendants’ Second Motion to Dismiss for
Failure to State a Claim. See ECF No. 70. In particular,
the Court grants Defendants’ motion to dismiss: Plaintiffs’
state law malicious prosecution claim against the Officer
Defendants asserted in Count Four; Plaintiffs’ state law
bystander claims against the Officer Defendants; and
Plaintiffs’ federal law bystander claims against the Officer
Defendants and the City, and dismisses these claims with
prejudice.
The Court denies Defendants’ motion to dismiss
in all other part. Accordingly, the remaining claims in
this case are: Plaintiffs’ § 1983 excessive force claims
against Defendant Officer Michael Hunter and Defendant
Officer Martin Cassidy sued in their individual capacities
(Count One); Plaintiffs’ § 1983 claims against the City of
Sachse (Counts Two and Three); Plaintiffs’ federal claims
asserted in Count Four against the Officer Defendants;
and Plaintiffs’ state law bystander claims for mental
anguish against the City. The Court denies as moot
Defendants’ alternative request for Rule 7(a) Reply. An
order requiring a scheduling conference and report for
contents of scheduling order under Fed. R. Civ. P. 16(b)
and 26 will issue separately.

255a
Appendix F
SO ORDERED this 24th day of January, 2014.
/s/
Reed O’Connor
UNITED STATES DISTRICT JUDGE

256a
G the united
Appendix g —Appendix
ORDER of
states court of appeals for the fifth
circuit, filed february 8, 2019
in the United States Court of Appeals
for the Fifth Circuit
No. 14-10228
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees
v.
CARL CARSON,
Defendant-Appellant.
cons. w/No. 15-10045
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees
v.
MICHAEL HUNTER; MARTIN CASSIDY,
Defendants-Appellants.
Appeals from the United States District Court
for the Northern District of Texas.

257a
Appendix G
February 8, 2019, Filed
ON PETITION FOR REHEARING EN BANC
(Opinion September 25, 2015, 5 Cir., 2015, 802 F.3d 752)
(Opinion on Remand from U.S. Sup.Ct. September 25,
2018, 5 Cir., 2018, 905 F.3d 334)
Before STEWART, Chief Judge, JONES, SMITH,
DENNIS, OWEN, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, HO,
DUNCAN, ENGELHARDT, and OLDHAM, Circuit
Judges.
BY THE COURT:
A member of the court having requested a poll on
the petition for rehearing en banc, and a majority of the
circuit judges in regular active service and not disqualified
having voted in favor,
IT IS ORDERED that this cause shall be reheard by
the court en banc with oral argument on a date hereafter
to be fixed. The Clerk will specify a briefing schedule for
the filing of supplemental briefs.

258a
Appendix H —Appendix
ORDER H
OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED JUNE 17, 2016
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 14-10228
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees,
v.
CARL CARSON,
Defendant-Appellant.
cons. w/15-10045
RANDY COLE; KAREN COLE; RYAN COLE,
Plaintiffs-Appellees
v.
MICHAEL HUNTER; MARTIN CASSIDY,
Defendants - Appellants
Appeal from the United States District Court for the
Northern District of Texas, Dallas

259a
Appendix H
ON PETITION FOR REHEARING EN BANC
(Opinion: September 25, 2015 , 5 Cir.,
F.3d
)

,

,

Before HIGGINBOTHAM, CLEMENT, and HIGGINSON,
Circuit Judges.
PER CURIAM:
(X) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. No member of the panel nor
judge in regular active service of the court having
requested that the court be polled on Rehearing En
Banc (Fed R. A pp. P. and 5TH Cir. R. 35), the Petition
for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. The court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active
service and not disqualified not having voted in favor
(Fed R. A pp. P. and 5TH Cir. R. 35), the Petition for
Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/
U N I T ED S TAT E S CI RCU I T
JUDGE
* Judge Costa did not participate in the consideration of the
rehearing en banc.

